<html>
<title> - AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2010</title>
<body><pre>[Senate Hearing 111-252]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-252

   AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2010

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   on

                           H.R. 2997/S. 1406

 AN ACT MAKING APPROPRIATIONS FOR AGRICULTURE, RURAL DEVELOPMENT, FOOD 
 AND DRUG ADMINISTRATION, AND RELATED AGENCIES PROGRAMS FOR THE FISCAL 
         YEAR ENDING SEPTEMBER 30, 2010, AND FOR OTHER PURPOSES

                               __________

                       Department of Agriculture
 Department of Health and Human Services: Food and Drug Administration
                       Nondepartmental witnesses

                               __________

         Printed for the use of the Committee on Appropriations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                  U.S. GOVERNMENT PRINTING OFFICE
48-284 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                      COMMITTEE ON APPROPRIATIONS

                   DANIEL K. INOUYE, Hawaii, Chairman
ROBERT C. BYRD, West Virginia        THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            CHRISTOPHER S. BOND, Missouri
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
BARBARA A. MIKULSKI, Maryland        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 JUDD GREGG, New Hampshire
PATTY MURRAY, Washington             ROBERT F. BENNETT, Utah
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
DIANNE FEINSTEIN, California         SAM BROWNBACK, Kansas
RICHARD J. DURBIN, Illinois          LAMAR ALEXANDER, Tennessee
TIM JOHNSON, South Dakota            SUSAN COLLINS, Maine
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
FRANK R. LAUTENBERG, New Jersey
BEN NELSON, Nebraska
MARK PRYOR, Arkansas
JON TESTER, Montana
ARLEN SPECTER, Pennsylvania

                    Charles J. Houy, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

     Subcommittee on Agriculture, Rural Development, Food and Drug 
                  Administration, and Related Agencies

                     HERB KOHL, Wisconsin, Chairman
TOM HARKIN, Iowa                     SAM BROWNBACK, Kansas
BYRON L. DORGAN, North Dakota        ROBERT F. BENNETT, Utah
DIANNE FEINSTEIN, California         THAD COCHRAN, Mississippi
RICHARD J. DURBIN, Illinois          CHRISTOPHER S. BOND, Missouri
TIM JOHNSON, South Dakota            MITCH McCONNELL, Kentucky
BEN NELSON, Nebraska                 SUSAN COLLINS, Maine
JACK REED, Rhode Island
MARK PRYOR, Arkansas
ARLEN SPECTER, Pennsylvania
DANIEL K. INOUYE, Hawaii
  (ex officio)

                           Professional Staff

                             Galen Fountain
                        Jessica Arden Frederick
                             Dianne Nellor
                      Fitzhugh Elder IV (Minority)
                        Stacy McBride (Minority)

                         Administrative Support

                            Molly Barackman















                            C O N T E N T S

                              ----------                              

                         Thursday, May 21, 2009

                                                                   Page
Department of Health and Human Services: Food and Drug 
  Administration.................................................     1

                         Thursday, June 4, 2009

Department of Agriculture: Office of the Secretary...............    47
Nondepartmental Witnesses........................................   113

 
   AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2010

                              ----------                              


                         THURSDAY, MAY 21, 2009

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:14 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Herb Kohl (chairman) presiding.
    Present: Senators Kohl, Pryor, Brownback, and Bennett.

                DEPARTMENT OF HEALTH AND HUMAN SERVICES

                      Food and Drug Administration

STATEMENT OF DR. JOSHUA M. SHARFSTEIN, ACTING 
            COMMISSIONER
ACCOMPANIED BY:
        PATRICK McGAREY, DIRECTOR, OFFICE OF BUDGET FORMULATION AND 
            PRESENTATION, FOOD AND DRUG ADMINISTRATION
        NORRIS COCHRAN, DEPUTY ASSISTANT SECRETARY, OFFICE OF BUDGET, 
            DEPARTMENT OF HEALTH AND HUMAN SERVICES
        DR. DAVID ACHESON, ASSOCIATE COMMISSIONER FOR FOODS, FOOD AND 
            DRUG ADMINISTRATION


                 opening statement of senator herb kohl


    Senator Kohl. Good afternoon. We welcome you to hearing. 
Thank you all for coming, and we begin by welcoming Dr. 
Sharfstein back, this time to represent the administration's 
fiscal year 2010 budget request for the Food and Drug 
Administration.
    We also are very happy to welcome Mr. Patrick McGarey from 
FDA and Mr. Norris Cochran from DHHS.
    We're also pleased to note that Dr. Hamburg, the new 
Commissioner, was confirmed by the Senate on Monday. I met with 
Dr. Hamburg a few weeks ago and I'm certain that she will do a 
great job.
    Dr. Sharfstein, I know that you don't need to be reminded 
of the importance of the agency that you represent. More than 
20 percent of all consumer spending is on products regulated by 
the FDA. It's imperative that this agency is successful in its 
mission because literally people's lives depend on it.
    Even though you haven't been on the job that long, you 
don't need to be reminded of the increased workload FDA has 
faced over the past decade or that the budget increases 
historically have not kept pace with this workload. The effects 
of this have been widespread.
    For example, you've inherited an agency where staff morale 
is low. There have been widely publicized drug safety and food 
safety problems resulting in low consumer confidence. Deserved 
or not, the FDA has earned a reputation for reacting to 
problems instead of preventing them, and there remains a 
perception the FDA is much too cozy with the industries that it 
regulates.
    However, we have hopefully turned the corner, at least when 
it comes to the FDA's funding. The numbers speak for 
themselves. As chairman I've pushed to help FDA's budget keep 
pace with the challenges.
    Of all the items funded by this subcommittee, FDA's 
increases are among the very highest. We recognize that the 
agency cannot continue to receive additional responsibilities 
without the proper resources to do the job.
    For 2010, I'm pleased to see a more realistic budget 
request from this administration. It shows me that you are as 
serious about fixing the FDA as we on this subcommittee are. I 
will let you go over the details, of course, but here's the big 
picture.
    The budget is $2.4 billion. This is an increase of nearly 
$300 million. These increases include more than $150 million 
for food safety and nearly $100 million for safer drugs and 
medical products.
    I think everyone in this room can agree that these are 
substantial numbers. Whether or not they are the right numbers 
remains to be seen. I have said before and will continue to say 
that the answers to all of FDA's problems do not lie simply in 
more money.
    We do not write blank checks. This money has to be spent 
intelligently and we must continue to question each step taken. 
No one expects a complete overhaul of the FDA to be done 
overnight, but we do expect results and, of course, we expect 
results soon.
    Dr. Sharfstein, you are new. Dr. Hamburg is new. This 
entire administration is new. You've inherited an FDA with lots 
of problems but also ample opportunity and full support for 
your efforts from this subcommittee.
    I'm committed to working with you during your tenure and I 
look forward to hearing, along with everyone else, your 
statement today, but before we get to that, we will be pleased 
to hear from Mr. Brownback.


                   statement of senator sam brownback


    Senator Brownback. Thank you, Mr. Chairman. Welcome, panel. 
Appreciate you being here.
    I think the chairman's outlined some of the concerns that I 
have, as well. That is, you've had a substantial increase in 
the budget portfolio, and I want to know what you've done with 
it.
    I was looking here at the figures. The increase in FDA's 
appropriation is 39 percent since fiscal year 2006, and if the 
budget is enacted into law as requested, this year FDA will 
have grown by over 59 percent in 4 years in your budget. Well, 
we sure want to know what you're doing with that, when we'll 
see the results of that. So that's going to be at the core of 
what I'm interested in seeing that you do.
    Another piece that I think is important that we've done in 
differing degrees in the past is making drug availability and 
new drug development for patients who are terminally ill who 
don't have other options.
    Dianne Feinstein and I co-chair the Cancer Caucus in the 
Senate and, as many people, I have had cancer and I look at 
some of these things and the length of time that we're putting 
in studies on items for patients that don't have other options 
and it doesn't seem like we're getting the accessibility to a 
number of these when you're a terminally ill patient.
    In times past, we've worked with certain groups or 
individuals and certainly physicians to try to make earlier 
stage drugs available for terminally ill patients where they 
and their physician agree to the use of that, and I'm told and 
the research that I've seen--some of the early AIDS testing and 
the successes we had were because FDA worked with the community 
and said, look, we don't know what we're really dealing with 
here. We've got a Tier 1 trial that's going on that looks 
promising. We're going to let more people try this earlier. 
That was one of the ways that some of these treatments were 
discovered.
    I would love to see us try to figure a way that you could 
maintain safety but also get access to people who are 
terminally ill. It just seems almost cruel to me that in some 
cases you have cures that are waiting there but people die 
waiting for that to get approved. So I hope you can address 
some of that, as well.
    It's a very important agency and I look forward to working 
with you on my tenure on this subcommittee.
    Senator Kohl. Thanks a lot, Senator Brownback. We're 
pleased and honored to have with us today the former chairman 
and ranking member of this committee, Senator Bennett.


                 statement of senator robert f. bennett


    Senator Bennett. Thank you very much, Mr. Chairman. I'm 
always delighted to be able to be here and particularly with 
respect to FDA, which is an agency that you and I worked 
together so well on to try to make sure that they got properly 
funded and properly taken care of.
    Dr. Sharfstein, as you and I have talked, you know that I'm 
a strong supporter of the Critical Path Initiative and it was 
started to address the concern about the rising failure rate of 
new medical products during development and the declining 
number of approvals and so on, and I think perhaps Senator 
Brownback was talking in that same area when I came in.
    This subcommittee has provided funding for the Critical 
Path Initiative over the past few years and in fiscal year 2008 
it was $7.5 million, of which $2.5 million was for Critical 
Path Partnership Grants. Fiscal year 2009 it's $16 million for 
Critical Path and $4 million for the Partnership Grants.
    Are you--have you been there enough to be able to give us 
some kind of evaluation of the Critical Path and where it's 
going and how you feel about it and what you might have in mind 
for it with respect to its future?
    Senator Kohl. This is the opening statement.
    Senator Bennett. Oh, I apologize. That's my opening 
statement and I'll ask that question.
    Senator Kohl. We're going to leave that question for you 
and think about it for awhile.
    Senator Bennett. Right.
    Senator Kohl. All right. Thank you so much, Senator 
Bennett, and Dr. Sharfstein, we'll take your statement at this 
time.


                 statement of dr. joshua m. sharfstein


    Dr. Sharfstein. Great. Thank you so much. Thank you, 
Chairman Kohl, Senator Brownback, Senator Bennett.
    I'm very happy to be here. I am Josh Sharfstein. I'm the 
Principal Deputy Commissioner and the Acting Commissioner but 
not for very long at the U.S. Food and Drug Administration.
    I am pleased to present the President's fiscal year 2010 
budget request for FDA.
    For today's hearing, I'm joined by Patrick McGarey, the 
Director of the Office of Budget Formulation at FDA, and Norris 
Cochran, the Deputy Assistant Secretary for Budget at the 
Department of HHS.
    In my testimony, I'm going to outline the budget request 
and some of the key policy initiatives. I will also just bring 
you a little bit up to date on what's going on on the flu 
situation, knowing that we had that discussion before but a 
sort of quick update there.
    Let me start by thanking the subcommittee for exactly what 
you spoke to, the fact that this subcommittee has been 
extraordinary in its support of FDA over the past several 
years.
    When I arrived at FDA, one of the first things I did is I 
asked each center to provide examples of how it's using the 
recent funding increases to promote public health. A key goal 
for FDA, and I've only been at FDA for several weeks really, 
but I think a key management goal is for us to be able to 
connect the investment of Federal dollars and taxpayer dollars 
to actual public health outcomes at the agency, and I got quite 
a lot back from different parts of FDA, and we have a document 
that we can share with the subcommittee that summarizes some of 
the things that we were able to pull together.


                         public health outcomes


    But as some examples, FDA, in the blood area, is developing 
a test to identify rare strains of HIV that aren't picked up on 
standard HIV testing and then deploy that test around the 
country. FDA is working around the world to train regulators to 
be able to do better device inspections so that the safety of 
imported medical devices is improved.
    FDA is developing the first hepatitis A test in food so you 
can actually identify hepatitis A in food which would allow for 
quicker identification of a problem, as well as develop rapid 
tests for food safety problems so we're not waiting for days 
with, you know, messages out to the public about particular 
foods. We can really identify the particular contaminant.
    FDA's developing, with the funding increases, a major 
national network on pet food problems that involves the states 
and localities and veterinarians so that we don't have a 
situation like with melamine where so much time goes by and so 
many animals die if there is a problem.
    And FDA is working with its research component at NCTR to 
improve the safety of pediatric anesthesia by developing new 
ways to measure the use of pediatric anesthesia and the impact 
on children.
    And then, of course, there's the flu which we talked about 
before, that the increase is directly related to our 
preparedness for flu, and, I think, right before I testified 
the last time, FDA had approved a facility that doubled and 
will eventually triple the domestic manufacturing capacity for 
the injectable flu vaccine and will have an immediate impact on 
our ability to prepare for the Fall, and that would not have 
been possible without the investments.


                             budget request


    So let me take a step back and talk about the budget 
request overall for this year. It includes $3.2 billion to 
protect and promote the public health through advancing FDA's 
work. That includes an increase of $510 million for FDA 
programs which is a 19 percent increase over last year. It's a 
historic increase and demonstrates this administration's 
commitment to food safety, medical product safety and the 
health of the American public.
    It includes $295 million in budget authority and $215 
million in industry user fees, and this budget organizes these 
increases into two initiatives, in addition to its statutory 
increases and increases for infrastructure. The two initiatives 
are Safer Food Supply and Safer Medical Products.
    The budget also recommends for new user fees, including a 
user fee to facilitate the review of generic drugs, one to 
enhance FDA's ability to register and inspect feed and food 
manufacturing and processing facilities, one to allow FDA to 
reinspect facilities that fail to meet good manufacturing 
practice and other safety requirements, and one to allow FDA to 
collect fees when it issues export certifications for food and 
feed.
    The budget also recommends new authority for FDA to approve 
follow-on biologics for the regulatory pathway that protects 
patient safety and promotes innovation.
    Finally, the budget includes $5 million for FDA to develop 
policies to allow Americans to buy safe and effective drugs 
that are approved in other countries.


                               safe foods


    Let me just briefly give some of the highlights of the two 
initiatives. For Safe Foods, it's a $259 million increase which 
includes a $164 million in budget authority and $94 million in 
the user fees. This will ultimately increase the number of 
employees by about 600, and the funding will go to various 
efforts.
    One of them is to expand and strengthen the inspection, 
domestically and foreign, of facilities based on risk. More 
than 220 of the people to be hired will be additional 
inspectors.
    Another will be to, and in some ways more important, to 
implement a new strategic framework for an integrated national 
food safety system, so the Federal, State and local systems are 
not operating kind of just in their own world, so that it's 
truly one integrated system, and that's going to require an 
upfront investment but will have many different benefits 
because what we're able to do, if we can accomplish this, is 
leverage the existing investment in food safety at the State 
and local level and increase the quality of that work to the 
point where we can--the Federal Government and the States are 
really working as partners. I'm happy to talk more about that.
    FDA is planning to improve its understanding of food 
vulnerabilities and risks which will be the basis of a risk-
based system of inspection and to develop standards and 
regulations that build food protection into the complete life 
cycle from food production to food consumption.
    In addition, in terms of outbreaks, FDA is investing in 
actions to allow it to more quickly identify food outbreaks and 
trace the contamination to its source, to better communicate 
risks with the public and to expand the capacity of 
laboratories.
    And finally, FDA is making a major investment in 
information technology which will help us provide a much 
stronger base for all of FDA's efforts in food safety, identify 
key suppliers into the United States and be able to identify 
risks of the products that are coming in, so we don't feel like 
we have to do inspections on every single product. We can be 
more strategic about how we're using resources.


                         safer medical products


    As far as safer medical products, this effort both relates 
to the manufacture and the use of the products. It's $166 
million. It includes a $120 million in increased budget 
authority and about $50 million in generic drug user fees and 
reinspection user fees.
    It would have FDA hire about 300 more people and expand 
programs related to medical product safety and included in this 
are, again, increased numbers of inspections, both foreign and 
domestic.
    The Center for Biologics would hire additional safety 
experts for blood, tissue and vaccine safety teams and develop 
additional screening tests for emerging bloodborne diseases.
    The Center for Devices would implement the safety 
requirements that were called for in the Food and Drug 
Administration Amendments Act of 2007 which include analyzing 
adverse event information in children and inspiring more 
pediatric trials for medical devices.
    It also has a focus on eye medical devices which have been 
a cause of a number of outbreaks recently.


                             safe drugs use


    The Center for Drugs would have funding to support how to 
best use risk evaluation mitigation strategies to minimize drug 
risks and promote safe drug use and would also conduct research 
on bioequivalent standards for generic forms of new products, 
such as metered dose inhalers, topical drugs and other 
different kinds of products.


                        animal biotech products


    The Center for Veterinary Medicine would conduct scientific 
and risk evaluation of animal biotech products, regulate 
approvals for new animal biotech products, and coordinate 
United States and foreign regulation on animal health issues; 
and there'd be additional research funded through the National 
Center for Toxicological Research in Arkansas to analyze the 
consequences of human exposure to nano-scale materials, which 
is very important for this field moving forward.
    And again, there's a significant investment in information 
technology, including systems to help facilitate and streamline 
the approval process.


                        legislative initiatives


    I'd just briefly mention that there are legislative 
initiatives that are implied by the budget. They include the 
Generic Drug User Fee Program and the Follow-On Biologic 
Pathway which would have to be approved by Congress.
    Let me just very, very briefly give you an update on the 
one area where I think--and this speaks to, I think, Senator 
Brownback's point, which is that I think you could look at this 
budget and say you've got a safer food supply as a goal and a 
safer medical supply as a goal and it's hard to argue with 
those things, but what about the fact that there are people who 
are dying who need new treatments which does not exactly fit 
under--you know, obviously fit under the safer part, and I 
think that's something that Dr. Hamburg and I take very 
seriously in this job.
    I think there is some connection insofar if we can develop 
the safety systems that give us more assurance that we have 
understanding of the products that gives more confidence for 
earlier approval of products because we can watch what's 
happening to them closer and not feel that everything rests on 
the approval decision.
    So I do think there's a connection, that you can have an 
approval with a plan to monitor it and have confidence in that 
and then that allows you to feel more comfortable about early 
approvals, but I also think that one of the things that's very 
important is for FDA not to think of itself as purely an agency 
that just sits back and waits for things to come through the 
door.
    When there are opportunities or challenges to public 
health, there are opportunities for science, we want to make 
sure that the agency is reaching out to the researchers and the 
companies that have particular breakthrough products that are 
available and facilitating the pathway to approval, talking to 
them early about what would be necessary to demonstrate safety 
and efficacy, and I think one of those--the example of that in 
the short time that I've been at FDA relates to the flu.


                             h1n1 flu virus


    And we've talked a little bit about what the agency has 
done with the flu, but we're still operating in an incident 
command management structure where we have dedicated teams and 
we're really focused on what would it take to best protect the 
public if the flu were to become a major problem, and even 
though, since we last spoke, I think maybe concern for this 
particular wave of the flu may have diminished somewhat, I 
think there's still considerable concern that when the regular 
flu season hits, that it could come back pretty strongly and 
that we have to be thinking a step ahead and all the teams that 
I discussed before are still working and I'll just give you a 
very brief update.


                             antiviral team


    The antiviral team is out knocking on the doors of 
companies that have potential products that could be used to 
treat severely old people with flu, and they're trying to 
identify pathways, some of which are experimental pathways, to 
make those products available in case there are a lot of people 
who are sick.


                             shortage team


    The shortage team is already reaching out to the IV 
suppliers, the makers of antibiotics as well as the makers of 
antivirals, to make sure that there's an adequate supply if 
there were to be a major stress on the medical system this 
fall.


                              vaccine team


    The vaccine team has really been doing a tremendous amount 
of work pulling together the basic protocols with other 
regulatory agencies and the companies to study vaccines. They 
are also continuing to work with the various strains of the 
virus so it can be produced into a vaccine strain.


                               blood team


    The blood team is working to monitor the blood supply. 
There have not been any concerns there.


                            diagnostic team


    The diagnostic team is working aggressively with companies 
and the CDC to identify more diagnostics. That test that FDA 
approved in the first like 72 hours of its work has now been 
distributed to, I think, more than 40 States and over a 100 
countries and has really made a big difference to the world's 
ability to identify this and has really reduced the level of, I 
think, anxiety which is one reason why the World Health 
Organization has not gone all the way up to a Level Six 
pandemic designation.


                        consumer protective team


    And finally, the consumer protection team has been working 
and has issued more than 30 warning letters, and I'll just tell 
you one of the most recent ones cited a company that was 
selling a formula that said will kill the virus within a few 
hours and automatically eliminate all your symptoms, and there 
was another one that said scientifically proven only to kill 
swine flu and bird flu but also MRSA, SARS, malaria, anthrax, 
TB, Bubonic plaque and sexually-transmitted diseases. So those 
products are getting some enforcement action and are coming off 
the Internet.


                           prepared statement


    So I think that, in conclusion, this is a time of 
opportunity, of incredible challenge for the agency, but also a 
time of opportunity. This budget really does support the 
agency's ability to move forward and protect the public, but I 
think we realize that we're going to have to deliver. We're the 
new team at FDA and that we're going to have to come back and 
demonstrate what these increased resources are doing for the 
health of the American people and look forward to working with 
you to accomplish that.
    [The statement follows:]

             Prepared Statement of Dr. Joshua M. Sharfstein

                              introduction
    Chairman Kohl, Ranking Member Brownback and members of the 
Subcommittee, I am Dr. Joshua M. Sharfstein, Principal Deputy 
Commissioner and Acting Commissioner at the U.S. Food and Drug 
Administration. I am pleased to present the President's fiscal year 
2010 budget request for the Food and Drug Administration (FDA). For 
today's hearing, I am joined by Patrick McGarey, FDA's Director of the 
Office of Budget Formulation and Presentation and Norris Cochran, 
Deputy Assistant Secretary for Budget at the Department of Health and 
Human Services.
    In my testimony today, I will outline FDA's fiscal year 2010 budget 
request and the policy initiatives that we are advancing in our budget. 
I will also summarize recent developments related to the 2009-H1N1 Flu 
Virus outbreak and describe how FDA's budget for pandemic preparedness 
allowed us to prepare for and respond to the 2009-H1N1 Flu Virus.
                        recent funding increases
    The funding that this subcommittee appropriated to FDA for fiscal 
year 2008 and fiscal year 2009 demonstrates your strong commitment to 
the public health mission of FDA and the health of the American public. 
Thank you for your support.
    When I arrived at FDA, I asked each FDA center to provide examples 
of how they are using the recent funding increases to promote public 
health and achieve mission priorities. A key goal for FDA is to 
directly connect the investment of Federal dollars to public health 
outcomes.
                        fda 2010 budget request
Overview
    The President's fiscal year 2010 budget request for FDA includes 
$3.2 billion to protect and promote the public health. The budget 
contains an increase of $510.6 million for FDA programs, which is a 19 
percent increase compared to the fiscal year 2009 budget. This is an 
historic increase in the FDA budget and demonstrates the 
administration's commitment to food safety, medical product safety, and 
the health of the American public.
    The fiscal year 2010 increase of $510.6 million includes increases 
of $295.2 million in budget authority and $215.4 million in industry 
user fees. The FDA budget organizes these increases into initiatives 
for fiscal year 2010. Our two major initiatives are Protecting 
America's Food Supply and Safer Medical Products. The budget also 
includes $74.4 million for statutory increases for user fee programs in 
current law and increases for infrastructure to support FDA's mission.
    The FDA fiscal year 2010 budget recommends four new user fees. The 
new user fees will facilitate the review of generic drugs, enhance 
FDA's ability to register and inspect food and feed manufacturing and 
processing facilities, allow FDA to reinspect facilities that fail to 
meet good manufacturing practices and other safety requirements, and 
allow FDA to collect fees when it issues export certifications for food 
and feed.
    The fiscal year 2010 budget also recommends new authority for FDA 
to approve generic biologics through a regulatory pathway that protects 
patient safety and promotes innovation. Finally, the budget also 
includes $5 million for FDA to develop policies to allow Americans to 
buy safe and effective drugs from other countries.
                 details of the fiscal year 2010 budget
Supply Chain Safety and Security
    The globalization of the manufacturing and supply of foods and 
medical products that FDA regulates and Americans consume poses unique 
and demanding challenges for FDA. In the complex and rapidly changing 
environment driven by globalization, FDA cannot rely solely on 
traditional approaches--inspection and sampling at the U.S. border--to 
protect Americans and ensure the safety of foods. Rapid globalization 
requires that FDA implement new approaches and conduct a broader range 
of activities to effectively regulate the supply chain for foods and 
medical products.
    Supply Chain Safety and Security is an overarching principle that 
applies to both food and medical products. Supply Chain Safety and 
Security holds all segments of industry accountable for ensuring that 
their products meet U.S. safety standards.
    Key components of this initiative include: identifying products and 
processes at high risk for earlier and more comprehensive attention; 
establishing reasonable and effective regulations and other standards; 
increasing FDA inspections; increasing effective third-party 
inspections; and collaborating with local, state and international 
partners.
Protecting America's Food Supply
    For fiscal year 2010, FDA proposes an increase of $259.3 million 
for food safety activities. This increase includes $164.8 million in 
budget authority and $94.4 million in three new user fees: Food 
Inspection and Registration User Fees, Reinspection User Fees related 
to food facilities, and Export Certification User Fees for food and 
feed products.
    To outline the key investments with the new fiscal year 2010 
resources:
  --FDA will hire 678 additional full-time equivalent staff to expand 
        programs and activities that protect America's food supply.
  --FDA will fund the cost of living pay adjustment for FDA 
        professionals that conduct food product program activities. 
        (+$12.9 million)
  --FDA will increase domestic and foreign risk-based inspections, 
        conduct more audits of controls designed to prevent 
        contamination, establish three additional high volume 
        laboratories, and conduct more food safety intervention, 
        sampling and surveillance through our Office of Regulatory 
        Affairs. The fiscal year 2010 budget increase will allow FDA to 
        hire more than 220 additional investigators. When fully trained 
        and deployed, the new investigators will enable FDA to conduct 
        the following additional field activities, based on the fiscal 
        year 2010 increases in budget authority and user fees proposed 
        in this initiative:
    --4,000 additional domestic food safety inspections
    --100 additional foreign food and feed inspections
    --20,000 additional import food and feed field exams
    --3,000 additional samples for analysis in FDA laboratories. 
        (+$101.7 million)
  --FDA will begin to implement a new strategic framework for an 
        integrated national food safety system. Under this framework, 
        FDA will build and expand existing programs and relationships 
        with its regulatory partners: our Federal, State, local, tribal 
        and territorial partners. This will allow FDA to increase 
        information sharing and improve the quantity and quality of 
        food safety data that FDA receives from its food safety 
        partners. (+$14.6 million)
  --FDA will work with all stakeholders to better ensure that food 
        protection is built into the complete lifecycle, from food 
        production to food consumption. (+$6.0 million)
  --FDA will improve its understanding of food and feed vulnerabilities 
        and risks. This will include improving FDA's ability to use 
        baseline data to measure the impact of food safety efforts and 
        to track the status of foodborne illnesses in the United 
        States. Achieving a better understanding of vulnerabilities and 
        risks will allow FDA to adjust food and feed safety priorities 
        and ensure that food programs achieve the best health benefit 
        for the American public. (+$4.0 million)
  --FDA will improve its ability to detect signals of contamination and 
        also improve its ability to collect and analyze adverse events 
        for food and feed. (+$9.8 million)
  --FDA will respond more quickly to foodborne outbreaks and will 
        improve its ability to quickly trace contamination to its 
        source. (+$12.2 million)
  --FDA will improve risk communication during a food safety event so 
        that the public can respond promptly to FDA alerts and protect 
        themselves from harm. (+$1.6 million)
  --FDA will increase the capacity of the Food Emergency Response 
        Network by establishing three new laboratories for chemical 
        analysis. (+$3.3 million)
  --FDA will further develop an integrated genomic data base for 
        Salmonella and conduct research to reduce knowledge gaps. 
        (+$0.8 million)
  --FDA will charge fees to cover the cost of reinspecting FDA-
        regulated facilities that fail to meet good manufacturing 
        practices or other FDA requirements. (+$15.3 million)
  --FDA will charge fees to cover the cost of issuing export 
        certificates for food and feed. (+$4.2 million)
  --FDA will upgrade and integrate information technology systems, 
        including systems that we use to screen, sample, detain and 
        take enforcement actions against imported food and feed 
        products that violate FDA safety standards. (+$49.9 million)
Safer Medical Products
    There are three components of FDA's Safer Medical Products 
initiative. Like the food safety initiative, the first component relies 
on the principle of supply chain safety and security. The goal is to 
protect American patients from contamination or other manufacturing 
flaws that could harm patients. The second component will address 
patient-product interactions that generally do not relate to 
manufacturing flaws. FDA will improve the safety of human drugs, 
vaccines, blood and other biological products, medical devices, and 
animal drugs and medicated feed by hiring additional safety experts to 
analyze adverse events associated with these products. FDA will also 
identify safety problems through active surveillance of third party 
healthcare data. The third component focuses on increasing access to 
affordable generic drugs, granting FDA new authority to approve generic 
biologics, and allowing Americans to buy safe and effective drugs from 
other countries.
    For fiscal year 2010, FDA proposes an increase of $166.4 million 
for medical product safety. This increase includes $119.9 million in 
budget authority and $46.6 million for Generic Drug User Fees and 
Reinspection User Fees related to medical product facilities.
    To outline the key investments with the new fiscal year 2010 
resources:
  --FDA will hire 346 additional full time equivalent staff and expand 
        programs and activities related to medical product safety.
  --FDA will fund the cost of living pay adjustment for FDA 
        professionals that conduct medical product program activities. 
        (+$16.7 million)
  --FDA will improve the safety and security of foreign and domestic 
        sources of ingredients, components, and finished products 
        throughout the supply chain--including their eventual use by 
        patients in America--through increased inspections and through 
        activities conducted by the Office of Regulatory Affairs. 
        (+$12.2 million)
  --FDA's Center for Biological Research and Evaluation (CBER) will 
        hire additional safety experts for its blood, tissue and 
        vaccine safety teams. This will strengthen the ability of 
        safety teams to analyze emerging safety threats. CBER will 
        modernize blood, tissue and vaccine standards to improve 
        product safety and quality. CBER will also provide increased 
        training to support product development and improve product 
        safety. (+$5.7 million)
  --CBER will develop new screening tests for emerging blood-borne 
        diseases. CBER will review vaccine and tissue data to identify 
        safety signals. CBER will also develop quality systems for 
        product testing and lot release of biological products and will 
        provide additional support for safe development and 
        manufacturing of cell, gene and tissue therapies. (+$2.3 
        million)
  --CBER will provide increased technical support to FDA field 
        operations as they conduct foreign and domestic inspections of 
        biologic products. (+$1.3 million)
  --FDA's Center for Devices and Radiological Heath (CDRH) will 
        implement safety requirements related to the FDA Amendments Act 
        (FDAAA). To support FDAAA safety activities, CDRH will collect 
        and analyze adverse event information related to medical 
        devices from pediatric hospitals. CDRH will conduct a pediatric 
        medical trials workshop to address unmet pediatric device 
        needs. CDRH will improve device safety by hiring experts to 
        evaluate software used in medical devices. CDRH will hire staff 
        to provide technical support to FDA foreign offices and to 
        support FDA field operations as they conduct foreign and 
        domestic device manufacturing inspections. (+$9.5 million)
  --CDRH will develop new safety tests and strengthen postmarket safety 
        reviews of ophthalmic medical devices. CDRH will also develop 
        and validate new clinical trial methods for imaging devices. 
        (+$1.7 million)
  --FDA's Center for Drug Evaluation and Research (CDER) will evaluate 
        how best to use Risk Evaluation and Mitigation Strategies to 
        minimize drug risks and promote safe drug use. (+$3.4 million)
  --CDER will also conduct research on bioequivalence standards for 
        generic forms of novel products such as metered dose inhalers, 
        topical drugs and complex dosage forms such as liposome 
        products. (+$2.5 million)
  --CDER will identify and improve enforcement against Internet sites 
        that expose consumers to unapproved products and fraud. (+$2.0 
        million)
  --FDA's Center for Veterinary Medicine will conduct scientific and 
        risk evaluation of animal biotechnology products, regulate 
        approvals for new animal biotechnology products, and coordinate 
        United States and foreign regulation on animal health issues 
        within FDA's jurisdiction. (+$0.5 million)
  --FDA's National Center for Toxicological Research (NCTR) will 
        conduct studies to analyze the consequences of human exposure 
        to nanoscale materials. These studies will provide the 
        scientific basis for issuing FDA guidance on the safe and 
        effective use of nanoscale particles in the products that FDA 
        regulates. ($1.0 million)
  --NCTR will develop noninvasive techniques to better understand the 
        risks of anesthetic use in children. (+$0.2 million)
  --FDA will develop policies to allow Americans to buy safe and 
        effective drugs from other countries. (+$5.0 million)
  --FDA will provide greater access to affordable generic drugs and 
        improve the productivity of generic drug review through a new 
        user fee program. (+$36.0 million)
  --FDA will strengthen the safety of the supply chain through a new 
        user fee program to charge fees to cover the cost of 
        reinspecting FDA-regulated facilities that fail to meet good 
        manufacturing practices or other FDA requirements. (+$10.6 
        million)
  --FDA will modernize and enhance information technology, including 
        systems that we rely on to collect, store and analyze the large 
        volume of regulatory, scientific, and risk based information 
        necessary to assure the safety and effectiveness of medical 
        products. (+$40.1 million)
Legislative Initiatives for Safe, Affordable Drugs
    The budget request supports greater access to affordable generic 
drugs, recommends new authority to approve generic biologics, and 
allows Americans to buy safe and effective drugs from other countries.
    In the coming years, patents will expire on more than a dozen 
blockbuster brand-name drugs that account for tens of billions of 
dollars in prescription spending annually. Generic competition for 
these drugs will likely be very strong. It is imperative that FDA have 
the resources to ensure the safety, quality, and therapeutic 
equivalence of generic drugs and allow Americans to benefit from the 
savings from lower cost generic drugs. To meet this priority, FDA's 
fiscal year 2010 budget includes $36 million in new user fees to 
support drug review for new generic products.
    The administration will also accelerate access to affordable 
generic biologics by working with Congress to establish a workable and 
scientifically sound regulatory pathway for approval of generic 
versions of biologic drugs.
Current Law User Fees
    FDA user fee programs facilitate enhanced premarket review 
performance and the timely availability of safe and effective medical 
devices, human and animal drugs, biological products, and other FDA-
regulated products. The fiscal year 2010 budget request includes 
increases of $74.4 million for existing user fee programs, as 
authorized by law. The increases expand the available options for 
treating and curing diseases and other health problems.
Annual Cost of Living Adjustment
    FDA can only achieve its mission and fulfill its responsibilities 
if it has sufficient resources to pay the scientific, professional, and 
technical staff required to conduct food safety and medical product 
safety programs. The ongoing experience with the outbreak of 2009-H1N1 
Flu Virus demonstrates the importance of maintaining pay rates to 
attract and retain top-notch scientists and professionals. The fiscal 
year 2010 budget includes $29.5 million for the annual cost of living 
adjustment for employees in FDA's food and medical product programs.
    Delivering the FDA mission is a personnel-intensive effort. FDA 
performs its public health mission through a highly trained 
professional workforce. Personnel and related costs account for 78 
percent of FDA's annual expenditures. To maintain its strong science 
and regulatory capability, FDA must employ, train, develop, and retain 
highly trained professionals to perform the mission critical work of 
protecting public health.
Infrastructure to Support FDA Operations
    Like the annual cost of living adjustment, the fiscal year 2010 
budget increase to pay higher rental costs and other costs for the 
buildings that FDA occupies will allow FDA to perform its public health 
mission. FDA's fiscal year 2010 budget contains $14.0 million in budget 
authority for increased GSA rent and related costs of the space that we 
occupy.
                    fda 2009-h1n1 flu virus response
    FDA plays a vital role in preparing for, and responding to, public 
health challenges such as the one presented by the 2009-H1N1 Flu Virus. 
FDA is part of the team led by the Department of Health and Human 
Services.
    Since the beginning of the 2009-H1N1 Flu Virus outbreak on 
Thursday, April 23, FDA has worked closely with HHS, our sister HHS 
agencies, other U.S. government agencies, the World Health Organization 
(WHO), and foreign governments.
    As soon as we became aware of the 2009-H1N1 Flu Virus outbreak, I 
asked Dr. Jesse Goodman, FDA's Acting Chief Scientist and Deputy 
Commissioner for Scientific and Medical Programs, to coordinate and 
lead FDA's efforts on the 2009-H1N1 Flu Virus. Dr. Goodman leads an 
incident management approach that includes seven substantive teams. The 
teams are cross-cutting and include staff from across FDA as needed. 
The teams include: Vaccine Team, Antiviral Team, In Vitro Diagnostics 
Team, Personal Protection Team, Blood Team, Shortage Team, and the 
Consumer Protection Team. These teams work with the Office of the 
Assistant Secretary for Preparedness and Response (ASPR), the Centers 
for Disease Control and Prevention (CDC), other HHS agencies, and 
national and international partners.
    FDA's management approach to respond to the outbreak is flexible 
and likely to change over time. It has already changed in response to 
evolving events.
Emergency Use Authorizations
    Under the Project Bioshield Act of 2004 (Public Law 108-276), 
Congress added section 564 to the Federal Food, Drug, and Cosmetic Act. 
Section 564 establishes criteria that permit the FDA Commissioner to 
issue an Emergency Use Authorization, following a determination and 
declaration of a public health emergency. An Emergency Use 
Authorization allows the use of an unapproved product or of an approved 
product for an unapproved use.
    On Sunday, April 26, 2009, the Acting HHS Secretary issued a 
determination that a public health emergency exists involving 2009-H1N1 
Flu Virus. In the days that followed, the Acting Secretary issued 
declarations under section 564 justifying emergency use of certain 
antivirals, in vitro diagnostics, and personal respiratory protection 
devices.
    Based on the Acting Secretary's actions, and using our authority 
under the Project BioShield Act, on April 27, 2009, FDA issued four 
Emergency Use Authorizations in response to requests from the CDC. Two 
of these Emergency Use Authorizations extend the circumstances in which 
two FDA-approved drugs, Relenza and Tamiflu, can be used to treat and 
prevent the 2009-H1N1 Flu Virus. A third Emergency Use Authorization 
makes available a test for diagnosing infection with the virus. The 
fourth authorizes the emergency use of certain personal respiratory 
protection devices, specifically certain disposable respirators 
certified by CDC's National Institute for Occupational Safety and 
Health, known as N95 respirators. The emergency use authorization for 
N95 respirators only relates to requirements under the Federal Food, 
Drug and Cosmetic Act, not other requirements such as the standards for 
safety in the workplace administered by the Department of Labor. On May 
2, FDA issued a fifth Emergency Use Authorization for a first tier test 
for patient specimens with suspected 2009-H1N1 infection. Taken 
together, these authorizations allow CDC and State and local responders 
to take actions that help meet the medical and public health threat.
    All seven of the FDA teams are working to ensure a comprehensive 
response to the 2009- H1N1 Flu Virus. I would like to highlight FDA's 
work in two areas, developing a vaccine and protecting consumers.
Developing an H1N1 Vaccine
    FDA's Vaccine Team is working to facilitate the availability of a 
safe and effective vaccine to protect the public from the 2009-H1N1 Flu 
Virus as soon as possible, in the event that a vaccine is needed to 
protect the American public. Members of the team are working 
collaboratively with CDC and other partners in efforts to grow and 
genetically engineer the 2009-H1N1 Flu Virus in the laboratory for 
possible use in a vaccine. FDA is also beginning to prepare reagents 
that will be essential to help manufacturers produce and test the 
vaccine.
    In a related development, on May 6, FDA announced that it approved 
a new manufacturing facility to produce influenza virus vaccines. The 
facility, located in Swiftwater, Pennsylvania, is owned and operated by 
Sanofi Pasteur and will greatly increase vaccine production capability. 
The facility is approved for seasonal influenza vaccine production, and 
the facility could also be used to produce vaccine against the new 
2009-H1N1 influenza strain.
    As we work to develop a safe and effective vaccine, FDA is also 
participating in the analysis of whether an H1N1 Flu Virus vaccine 
should be deployed later this year to protect the American public. 
Decisions about whether to deploy an H1N1 vaccine will be independent 
of the decision to produce a vaccine.
Protecting Consumers
    FDA's H1N1 Flu Virus consumer protection team works to safeguard 
consumers from fraudulent and potentially dangerous FDA-regulated 
products or other promotions for products that claim to diagnose, 
prevent, mitigate, treat, or cure the 2009-H1N1 Flu Virus. Deceptive 
products are being sold over the Internet take advantage of the 
public's concerns about H1N1 influenza and their desire to protect 
themselves and their families. The fraudulent products come in all 
varieties and could include dietary supplements or other food products, 
or products purporting to be drugs, devices or vaccines.
    FDA has an aggressive strategy to identify, investigate, and take 
action against individuals or businesses that wrongfully promote 
products in an attempt to take advantage of this current public health 
emergency. FDA issued warning notices to more than 30 Internet sites 
that we believe are wrongfully promoting products to consumers. We have 
also invited the public to voluntarily report suspected criminal 
activity, Websites and other promotions for products that claim to 
diagnose, prevent, mitigate, treat or cure the 2009-H1N1 influenza 
virus.
Fiscal Year 2006 Influenza Pandemic Funding
    As I mentioned in my May 7, 2009 testimony, during fiscal year 2006 
this subcommittee had the foresight to appropriate $20 million to FDA 
for pandemic influenza preparedness in an emergency supplemental 
appropriation. FDA invested pandemic influenza supplemental funding in 
three key areas that are critical to America's preparedness for an 
influenza pandemic: strengthening our capacity to expedite the 
development of flu vaccines, conducting essential monitoring and 
inspection of flu vaccine manufacturers, and conducting FDA-wide 
pandemic planning and preparedness activities. This $20 million 
supplemental became part of FDA's base resources and allowed FDA to 
achieve a higher state of preparedness for events like 2009-H1N1 Flu 
Virus outbreak. Because of the work begun in 2006, FDA is better 
prepared for today's response to the 2009-H1N1 Flu Virus.
                               conclusion
    Our fiscal year 2010 budget of $3.2 billion will allow FDA to 
strengthen the safety of the food supply and to anticipate and address 
safety signals that emerge from the use of the drugs, biologics and 
medical devices that FDA regulates. Our fiscal year 2010 increase will 
allow the dedicated professionals at FDA to help ensure that Americans 
benefit from a safe and wholesome food supply and from medical products 
that sustain and improve their lives. Achieving our mission is possible 
because of your support for the work of the Food and Drug 
Administration.
    Thank you very much for the opportunity to testify. I welcome your 
ideas and your questions.

    Senator Kohl. Thank you very much, Dr. Sharfstein. You've 
been the Acting Director now for some 6 or 8 weeks. Very soon 
Dr. Hamburg will come become the Director and you will be 
bumped down to Number 2. Are you looking forward to that, Dr. 
Sharfstein?
    Dr. Sharfstein. I think, with the possible exception of Dr. 
Hamburg herself, I may have been the most happy person to see 
her confirmed by the Senate.
    Senator Kohl. You mean you don't like having to respond to 
us directly?
    Dr. Sharfstein. You know, I was very, very pleased to be 
able to represent the agency at this hearing, I'll tell you 
that, but it is--and it has been a tremendous honor and I think 
I have had the incredible opportunity to get to know Dr. 
Hamburg over the last couple months and I'm just really excited 
to work for her.
    Senator Kohl. Good. If asked for your judgment on the 
adequacy of this budget request, what would you say? Is it 
enough?
    Dr. Sharfstein. I think it's enough for major progress for 
FDA.

                           SUPPLEMENTAL FUNDS

    Senator Kohl. All right. Last year FDA was provided with a 
$150 million in supplemental funds. As of March 31 only $30 
million has been obligated. These funds expire now in just 4 
months.
    Can you expect to responsibly spend this additional money 
in that brief period of time and how?
    Dr. Sharfstein. Sure. I do believe we can expect to 
responsibly spend that, and I'm going to ask Patrick McGarey to 
talk about some of the details, but before I do that, I think 
it's important to note that there are a couple major efforts 
that are going forward to spend that money, one of which has 
been the hiring.

                             HIRING AND IT

    FDA has hired quite a number of new staff and that is 
continuing pretty briskly, but the other major one is 
information technology investments and what is going on now is 
that the agency has been working to best define those 
investments and then it will make those investments and it will 
lock up the money, but the thinking, the thought behind those 
investments is what's the reason that it wasn't spent yet, but 
it will be spent and it will be put into, you know, kind of the 
contracts and other vehicles that will bring those investments 
about, and those are things that seem pretty basic in some 
cases.
    People can file their submissions electronically and then 
people can file for adverse events reports electronically and 
the agency can have a better opportunity to investigate things 
or things that are really essential to kind of have FDA in a 
modern regulatory agency's position, and I think that the 
agency's been doing the right thing to think carefully about 
those investments and I know Dr. Hamburg is going to want to 
take a look at them and then when we're really sure that's when 
we'll pull the trigger on tying up those funds.
    Patrick, is there anything else you want to mention?
    Mr. McGarey. You covered it very well. We expect, with our 
IT investments, which are the heaviest piece, to launch in the 
coming quarter--excuse me--that the IT investments will launch 
in the coming quarter and there will be a large amount that 
will move into priority IT areas. I think that just buttresses 
what Dr. Sharfstein said.

                          STRATEGIC FRAMEWORK

    Senator Kohl. All right. Dr. Sharfstein, does the $14.6 
million ``strategic framework'' for food safety include 
implementation of FDA's Food Protection Plan? Can you provide 
some detail on this? In particular, will the FDA need to change 
its structure or its current activities?
    Dr. Sharfstein. $14.6 million, I think, relates to what 
we'd like to do with States and localities, and this is a 
multiyear investment. It's really to transform FDA's 
relationship with States and localities on food safety so that 
when the State--I recently met with a company that said on 
Monday they get a Federal inspection, sometimes Tuesday they 
get a State inspection, on Wednesday they get a local 
inspection and sometimes they're done by the same person, you 
know, who just pulls out a different clipboard and is, you 
know, checking stuff down.
    We hear all this about there not being enough inspectors 
but what's going on, and it's a fair question, and I think it's 
very clearly understood that there's not the kind of 
coordination. By coordination, I don't mean just the FDA hiring 
the State contractors which is what goes on now, to a certain 
extent, but really it's an integrated system where if the State 
goes out, FDA has confidence that that inspection is good.
    And there was really a report that was funded by the Robert 
Wood Johnson Foundation that really set out a vision for that 
kind of system and this is really a big step, this $14.6 
million, to start to move to that. It's going to require FDA to 
develop a significant training capacity. It's going to require 
States to want to engage. There's some money in there for the 
States to be able to spend money, to hire people, to upgrade 
their level of food inspections, and I think that is going to 
pay off a lot.
    There's something like $700 million of States and 
localities spending on food inspections now, but if FDA doesn't 
have the confidence and if there are gaps in those inspections 
or they're not at the right, you know, level, then that money 
is not being spent as well as it should be.
    If we can invest some in increasing the training and we can 
give some money to States to be able to do it, then we're 
leveraging that $700 million to really strengthen the overall 
food safety system.
    Now to your point on the FDA's organization, I think that's 
something that I know Dr. Hamburg and I are going to look at 
very seriously. I think it's clear that the responsibilities 
for food are stretched over different areas of FDA.
    One thing that I've done since I began is every morning at 
7:45 I bring everyone related to food, that's the Office of 
Regulatory Affairs, the Associate Commissioner for Food, the 
SIFSAN, the Center for Veterinary Medicine, together and we 
have met on different food safety issues and that includes 
active outbreaks as well as policy issues.
    On Thursdays we do a call with USDA and on Friday we do a 
call with CDC, I think since day three on the job. So I think 
that we've started the process of pulling the food together, 
and I think we're going to be looking with Dr. Hamburg's 
confirmation at structural issues that could facilitate that.
    Senator Kohl. Good. Senator Brownback.
    Senator Brownback. Thank you, Mr. Chairman. I appreciate 
that.

                               ACCESS ACT

    On the new drug--this Access Act, I put this bill forward 
with various co-sponsors, bipartisan bill, over a number of 
years.
    Why can't the agency do this? It just seems almost inhumane 
what we're doing to some people that don't have another option, 
and I want you to have safe drugs out there. There's no 
question about it, but if somebody's in a terminal situation 
with cancer or another disease and there is something here that 
they could try that's showing some promise early, they're in 
many cases not able to get into clinical trials because they're 
not healthy enough to get into clinical trials, why can't we do 
this? Why can't you do that?
    Dr. Sharfstein. Thank you. I think that's an absolutely 
reasonable question to ask, and I have, you know, met with 
patients who have faced incredible challenges and sometimes 
it's been experimental therapies that have been the things that 
have saved their lives.

                           EXPERMENTAL DRUGS

    I think that there are three different issues that I want 
to tease out. The first is communication. There are--FDA has 
the responsibility to make the pathways that are available to 
get experimental drugs as widely available as possible. So 
FDA--it's very important that there are different mechanisms 
that doctors and companies can use to access drugs in the pre-
approval stage and it's important and one of the things we'll 
be focusing on is making sure that those mechanisms are as 
widely available as possible. That's just one of three points I 
want to make.
    The second one is data, and I've been impressed and I've 
talked to people on all sides of this issue, had extensive 
conversations with people who are very strong supporters of 
your legislation, and I've also met with people who have 
different views on it, and the one thing that struck me is how 
little data we have on what the barriers are, what the point of 
the barrier is, and what I mean by that is I'd like to know, 
walking into this discussion, of 500 patients with severe, you 
know, life-threatening illness who want experimental drugs who 
can't--you know, what percent get them either by enrolling in a 
trial or, you know getting them through one of the existing 
pathways at FDA?
    What percent is it that the company is not willing to apply 
for an IND or some mechanism or they are applying and FDA is 
not granting it, and so, I mean, to me having some basic data 
to understand this, and what I've found is that people around 
this issue on all sides all agree that there is need for more 
data there, and some of that, I believe, exists within FDA, and 
we should be able to get that.
    We should--I would like to know when people do apply for 
these INDs what the rate of approval is and when we're 
approving them and when not and why. So I think that that's got 
to be part of what informs policy.
    Senator Brownback. And you're going to start shaping that 
database?
    Dr. Sharfstein. Yes, I do want--one of the goals is to get 
data that allow us to identify the point, the rate-determining 
step. I'm not sure exactly what that is.
    And the third thing is flexibility and I think both Dr. 
Hamburg and I are going to go into this with an open mind about 
it. I do understand the issue that it's very important for 
there to be data about the effectiveness of new drugs because 
without that data, you----
    Senator Brownback. It's the Wild West on the Internet 
without that data.
    Dr. Sharfstein. Right.
    Senator Brownback. I mean, it's just people putting all 
sorts of things out there and when you're in that type of 
situation you're willing to listen to about anything.
    Dr. Sharfstein. Well, there's a very, you know, disturbing 
report in the Chicago Tribune about an approach that people are 
using for autism that a lot of people feel like is potentially 
dangerous to kids and, you know, you have to--FDA has a 
responsibility on both sides, a responsibility that people 
aren't exposing themselves to, you know, risk without benefit 
but also where there is benefit and people can make a 
reasonable decision to help them do that, at the same time 
understanding the need for, you know, real evidence about the 
products.
    Senator Brownback. I hope we can work with you and the 
incoming Director of the FDA to maybe get some of these 
specific steps taken care of so we can make it more accessible.
    Dr. Sharfstein. I'll tell you, I talked to David Kessler 
before I took this job and what he said to me was when he looks 
back on his time at FDA, the thing that he's most proud of is 
getting the medications for HIV patients.
    Senator Brownback. Yeah. It was a fabulous move and they 
really sped it up and thankfully because they did people lived 
and now we're slowing it down for a lot of others and people 
die.
    I can get you the studies from the groups and I'm sure 
you've seen these numbers of tens of thousands of people dying 
waiting for a drug to get on the market and in many cases that 
is eventually approved and then they die waiting and that's 
what just--you look at it and you think that's just cruel.
    But I hope you can work with us on this because I thought 
what Kessler did was spot on when he looked at this real crisis 
that was existing and we've got a cancer crisis now. I hope you 
can work with this on that.
    Thanks, Mr. Chairman.
    Senator Kohl. Thank you very much, Senator Brownback.
    Senator Pryor is here from Arkansas. Senator Pryor, you 
have a full 5 minutes.

                                  NCTR

    Senator Pryor. Thank you very much, Mr. Chairman. Thank you 
for your leadership on this.
    Let me ask, if I may, Dr. Sharfstein, about an FDA facility 
that's actually located in my State, the NCTR, National Center 
for Toxicological Research. Are you familiar with that center?
    Dr. Sharfstein. Yes, not only that, I think its director is 
behind me here.
    Senator Pryor. Great. And----
    Dr. Sharfstein. I'm looking forward to visiting.
    Senator Pryor. Good. Well, I know that the administration's 
asked for $1 million to do some nano research there, to 
research the effects of nano technology which I think is 
important research, and I think it needs to be done because 
obviously nano technology offers a lot of promise in the 
future, but we need to be very clear about the health risks 
before we go forward.
    And my question for you is, if you know, is $1 million 
enough to do an adequate job or at least get an adequate start 
on that research?
    Dr. Sharfstein. Let me just check. I think that the money 
actually pays for some pretty important equipment. I think it 
is going to pay for if not an electron microscope then the 
actual materials to support the electron microscope and an 
electron microscopy technician.
    So it allows the--it's sort of an investment in the ability 
of NCTR to do critical research on nano technology, and I think 
your point is extremely important and this is, I think, a point 
that is very important for FDA generally. This is a new field 
and if there's an unforeseen safety problem, it could really 
hurt the field, but by having good data and doing sensible 
regulation, then we provide confidence to that field. It can 
grow. It can become a big, you know, improve--you know, could 
create all sorts of products that are beneficial to public 
health.
    So this is not a situation where regulation and the, you 
know, interests of industry are at odds. In fact, if we can do 
sensible regulation, we establish safety, then you could 
imagine that, you know, 20 years from now people would be 
looking back and seeing it as just the birth of a whole 
movement in nano technology.
    Senator Pryor. Right. And the other part is not just nano 
products generally but I know there's some real potential for 
medical breakthroughs using nano technology.
    Recently, I saw that there was an announcement that you can 
somehow get carbon nano tubes and they think that they can be a 
very accurate treatment for cancer that doesn't harm the rest 
of the body but then again, I think the other health research 
needs to be done on that.
    You have a very promising technology, you know, very 
promising development with nano technology. You just need to 
make sure that it's not harming others.
    Dr. Sharfstein. Well, I agree, and I think this is an area 
where you have something that's so promising. Part of FDA's job 
is not just to sit back and see what happens but to really 
engage in the conversations and try to facilitate.
    Senator Pryor. Right. That's right. You mentioned in your 
testimony a few moments ago that you have a consumer team at 
FDA and you're doing warning letters to companies that are 
selling, I guess, sounds like maybe miracle cures on the H1N1?
    Dr. Sharfstein. Correct.
    Senator Pryor. And I'm just interested in that. I think you 
said you sent out 31 letters, and is it possible for you to 
provide the committee with copies of those letters so that we 
could know who's out there doing that?
    I'm chair of the Consumer Subcommittee over in the Commerce 
Committee. So I'd like to get those. Is there any real update 
on that or is there any status report you want to give us?

                            WARNING LETTERS

    Dr. Sharfstein. Yes, I think the latest information I have 
is that there were 36 warning letters and we'd be happy to 
provide them to you, and I think there's 69 products cited in 
the warning letters, and I mentioned a couple of them, one of 
which says that independent tests show this product is hundreds 
of times more effective at killing the flu virus than the most 
potential antiviral prescription medications known. It's the 
only one that actually kills the virus and automatically 
eliminates all symptoms. That's one.
    [The information follows:]

    http://www.fda.gov/ICECI/EnforcementActions/WarningLetters/2009/
default.htm

    Senator Pryor. Right.
    Dr. Sharfstein. The other says it's good for swine flu, 
bird flu, MRSA, SARS, malaria, anthrax, TB, Bubonic plaque and 
sexually-transmitted diseases.
    So I think that there's a whole list of them and, you know, 
on the one hand, maybe if it's totally harmless, you know, you 
think, well, you know, why waste--why spend resources in that 
direction, but the truth is somebody who's sick and maybe they 
don't even have swine flu, somebody who's sick may be turning 
to products because of the claims that they're making and not 
going to the doctor and potentially getting worse, and, you 
know, it's important that people not be misled by inappropriate 
information.
    Senator Pryor. Right. I would encourage, if you could, you 
to work with the Consumer Product Safety Commission, even 
though you're talking about drugs. They have a lot of expertise 
in tracking that and trying to prevent those types of scams and 
rip-offs.

                            DRUG IMPORTATION

    One last question, if I may, and that is about importing 
drugs. There's been a question here in years past about how 
safe imported drugs are into this country and as I understand 
it, the president is trying to work with stakeholders to 
develop a policy on imported drugs.
    Do you know anything about?
    Dr. Sharfstein. Sure. So there are two issues. I think a 
lot of drugs in the United States--drug supplies are imported 
now in the sense that they're manufactured abroad or they have 
materials that are manufactured abroad and there's a whole 
issue of safety there that's very important to deal with.
    The second issue is the purchase of drugs that are approved 
in other countries, so not drugs that are FDA-approved but 
drugs that are approved, say, by the regulatory authority in 
Canada, for example, and whether it is appropriate, safe, to 
design a system that would permit importation of drugs approved 
in other countries as opposed to the importation of U.S. drugs 
which happens all the time.
    And what the budget has is $5 million for FDA to develop a 
framework and a policy that could permit that to be done 
safely. So I think--so basically, we would spend some time 
thinking through what the challenges to that kind of system 
would be and try to design an approach to solve those 
challenges and I think one of the benefits to this is that some 
of the issues there are going to be relevant to the first 
problem, too.
    So no matter what we find, it's going to be helpful to us. 
If we are trying to understand more about how to trace the 
pedigree of drugs so that we can be sure we're getting true 
drugs from other countries, that's going to help us understand 
how to do that well in the United States, too.
    So I think there's a crossover benefit of that project.
    Senator Pryor. Okay. Thank you, Mr. Chairman.
    Senator Kohl. Thanks a lot, Senator Pryor. Senator Bennett.

                             CRITICAL PATH

    Senator Bennett. Thank you very much, Mr. Chairman, and my 
question will come as a great surprise.
    Tell me about the Critical Path and what you see and what 
your attitude is and what you think the ongoing attitude will 
be.
    Dr. Sharfstein. So I think--thank you. I think the Critical 
Path has been a very important effort by FDA and it's something 
that I believe Dr. Hamburg supports, and I certainly support.
    I think the question is what is the Critical Path going to 
mean and in talking to the people who run it and in talking to 
Dr. Goodman, who's now the Acting Chief Scientist and is here, 
I think that we see the Critical Path as a way to do very 
important partnerships that permit breakthroughs in diagnostics 
and in treatment and so there's a lot of important work.
    It's not just the job of the Critical Path to think about 
basic treatment. That's the job of FDA. I mean that's the job 
of a lot of different people.
    Senator Bennett. Sure.
    Dr. Sharfstein. The role of the Critical Path is to think 
of partnerships and one of the examples of that is this study 
that is one of the things that was funded by the support that 
we have received in increases in the last couple of years, that 
FDA is facilitating working with partners that design and 
conduct a large trial to compare the benefits of extended anti-
platelet therapy versus aspirin alone in patients receiving 
stents, and this is a study that will really answer some pretty 
important questions. It's being overseen by the Critical Path 
team because of the nature of the partnership that's there.
    So I think that what I also liked about the Critical Path 
particularly is that it naturally is connecting its investments 
to the outcome, and I think that's something that, in general, 
FDA needs to do better. We're getting all this money. What are 
we delivering?
    And what I like about the Critical Path and I've got the 
report you may have seen, Projects Receiving Critical Path 
Support in Fiscal Year 2008, and what it does is say, look, you 
gave us this money, here's what we're doing and if it works, 
here is what we're going to get for it, and I think that that 
is--it's important to--the Critical Path serves the role of 
pushing that thinking all the way into FDA.
    So I think that you're going to see support for that at FDA 
and I think I'd like to have a very clear philosophy 
articulated and then lots of clear things that we're delivering 
on that benefits the public health.

                                TOBACCO

    Senator Bennett. Thank you. An unrelated question. There is 
a very strong push going on, which I expect will probably 
succeed in this Congress, to give FDA jurisdiction over 
tobacco.
    I've always resisted that on the grounds that FDA is an 
agency that has as its goal determining whether or not things 
are safe and you can determine whether or not tobacco is safe 
or healthy in an afternoon. But now you're going to 
``regulate'' tobacco and it's a new role for FDA.
    Do you have any idea as to exactly what FDA would do with 
respect to regulating tobacco, and how much of a burden it will 
put on FDA personnel if the bill with respect to tobacco and 
FDA passes?
    I clearly am one who wants to do everything I can to get 
people to stop smoking because it's one of our biggest health 
problems in the United States. My concern has absolutely 
nothing to do with that. It has to do with FDA as the suitable 
agency, but it looks like I'm going to be overruled and I 
probably will end up voting for the bill anyway because I don't 
want to be accused of being in favor of big tobacco simply 
because no other agency presents itself as the one to deal with 
it. So you're going to get stuck with it.
    Now, do you have any insight for us as to how it's going to 
work and what you're going to do?
    Dr. Sharfstein. Thank you, and I think it's--obviously 
given the circumstances and the legislation moving forward, I 
totally understand the question.
    To your point about the--it being a little unusual for FDA 
to be regulating something that is clearly unsafe, I think that 
the bigger picture is that FDA is a public health agency and 
takes a lot of steps in terms of regulating products to improve 
the public health, and I think that's the approach that would 
have to be taken for tobacco, which is the leading cause of 
preventable death and also one of the least regulated products 
in the market.
    I do think that the--we're going to have to read very 
carefully the bill that's passed by Congress, and I think what 
we would do is going to depend on the final shape of the 
legislation and still hasn't gone to the Senate Floor, and I 
know there may be all sorts of amendments and changes and, you 
know, our job is to implement the legislation that Congress has 
passed.
    So I think that there is a budding science, science that I 
think we can expect to grow over time, about what about tobacco 
may be responsible for different adverse problems that result 
from tobacco and as that science grows, FDA will be in a 
position to make different types of tobacco products less 
harmful, and I think that's one area that the bill definitely 
contemplates as it's written now, to allow the agency to 
establish performance standards in different areas, but that's 
going to depend on the scientific findings and the approach the 
FDA would take to this is going to be, you know, weighing the 
risk and the benefit of different approaches for things, as the 
FDA often has to do, in completely different contexts.
    As far as the burden question, I think that's obviously a 
fair question because FDA has a lot to do. Otherwise, I think 
that it is--I think that the administration believes, Dr. 
Hamburg believes, and I believe that the FDA is the right 
agency for this task, given the experience the FDA has in 
regulation and some of the expertise in particular elements.
    Even if it's not, you know, cigarettes, when you have a 
toxicology issue, if you have toxicologists, they can helpful. 
They can help you figure out what the right team to have there 
is.
    I think the bill has got to provide adequate resources and 
the current version does for the agency to do the work and with 
that, I think what Dr. Hamburg has said is that we have to be--
you know, the agency already has to be able to do more than one 
thing well at once, and this is going to be another thing but 
it's a very important thing.
    In the big picture, it's going to improve the health of 
Americans and for that reason, I think it's important.
    Senator Bennett. Thank you very much. I'm encouraged.
    Thank you, Mr. Chairman.

                            SAFE DRUG USAGE

    Senator Kohl. Thanks very much, Senator Bennett.
    Dr. Sharfstein, the FDA recently acknowledged that 
prescription drug information provided to consumers at the 
pharmacy can be very bewildering and not easily understood. 
Your budget proposes $3.4 million to promote safe drug usage.
    Will these funds be used to address that problem I just 
described, and what process and time table will FDA be using to 
make sure that consumers get streamlined easy-to-understand 
language when they buy their prescription drugs?
    Dr. Sharfstein. Thank you. It's a very good question 
because there's information that comes about drugs from 
multiple different sources. You see the ads, the handouts which 
can be like, you know, the actual package inserts which can be 
very small print and difficult to understand, then there's 
things that people get in the pharmacy. Sometimes they're 
approved by FDA and sometimes they're not and they can be 
potentially misleading sometimes. So I think the point you're 
raising is important.
    The Safer Drug Initiative has a goal of working 
collaboratively with a lot of external partners, including 
pharmacies, to get better information and instructions to 
people. It relates not just to information but also things like 
how to keep medicines at home, how not to let kids into 
medicines and a whole bunch of other things that can have a big 
impact on health if they're followed through on.
    As far as the particular projects and timing, I think I 
might want to ask Dr. Woodcock, who is here, the head of the 
Center for Drugs, to answer that, if that's okay, or if you 
prefer, we can provide more of an answer.
    Dr. Woodcock. Hi. I'm Janet Woodcock. Yes, we agree, and as 
you alluded to, at a recent public meeting we talked about the 
survey that had been done, a scientific survey by contractors 
of consumer information that is given to people when they fill 
prescriptions, and it did not meet the criteria for usefulness 
for patients that had been established.

                               MED GUIDES

    So we are going to be going through the next year through a 
process and we're going to look not just at that consumer 
information but, as Dr. Sharfstein alluded to, to med guides 
and to patient package inserts and all these different forms of 
information that people can get and try to craft something that 
is maximally useful to people who fill prescriptions and have 
to take medicine.
    Senator Kohl. That's good. Thank you.
    Senator Brownback.
    Senator Brownback. Thanks, Mr. Chairman.

                        COST OF DRUG DEVELOPMENT

    Dr. Sharfstein, just one final comment area. I'm very 
troubled about the cost of developing a new drug nowadays and 
I'm hearing now pharmacy schools, University of Kansas School 
of Pharmacy is one of the top in a number of different surveys, 
the top pharmacy school in the country, saying that the cost of 
drugs, the cost of developing a drug is so high now that whole 
categories are not even particularly being focused on because 
there's not a big enough patient pool to support the research 
dollars that's necessary, in the hundreds of millions, I 
suppose even billions, of dollars, to bring out some new drugs.
    I very much appreciate the focus on safety and we need to 
have that, but now if we're shutting off to the side a 
potential drug development because it only had 300,000 patients 
or 1 million potential patients and you spread the costs of $1 
billion drug over them and they're saying we can't do it, I 
would hope that you and the new team that comes in at FDA would 
look at this and say this is a major problem for us because now 
we're going to have whole areas where we're not even going to 
be researching what you put--how you try to treat this and if 
you get it, you know, God save you.
    I'm hopeful it becomes better. I really hope you look at 
that and I also want to invite you out to the KU Pharmacy 
School. I just toured there not long ago and I think they're 
doing some really fascinating work on screening throughputs of 
different compounds on a very rapid basis and I'm sure you're 
familiar with the technique.
    I was impressed with it, though, and the way they're 
looking at these items, and I do hope you really get on top of 
that cost issue because it's going to kill people if we don't 
get on top of it.
    Dr. Sharfstein. Thank you. I know that Dr. Hamburg has a 
special interest in orphan drugs and drugs for diseases that 
don't, you know, affect as many people as sort of the major 
drugs.
    I know in the last couple years FDA's approved a couple 
drugs under the Orphan Drug Program, including a drug for 
Huntington's disease and a drug for Hunter's disease, and I 
remember taking care of kids with that. But it's something that 
requires and will get attention from us to understand what 
needs to happen.
    I was just at an event for the National Organization of 
Rare Diseases and, you know, I heard from everybody the concern 
that you're raising and I think both Dr. Hamburg and I are 
going to be very interested.
    I think that when you think about FDA, the role of FDA, 
it's both about benefit and risk. In other words, we want to 
maximize the benefit, we want to help get drugs to people who 
need them and at the same time we want to reduce the safety 
concerns, and both parts of that equation are very important to 
us.
    Senator Brownback. I want to invite you out and we'll give 
you a cholesterol-free steak,----
    Dr. Sharfstein. Okay. Sounds good.
    Senator Brownback [continuing]. Top quality. Thanks, Mr. 
Chairman.

                            ADDITIONAL STAFF

    Senator Kohl. Thanks a lot, Senator Brownback.
    Dr. Sharfstein, will you tell us a little bit about your 
plus-up in staff by quite a few hundred and what you're going 
to let them or direct them to be doing?
    Dr. Sharfstein. Sure. In the fiscal year 2010 budget, you 
mean?
    Senator Kohl. Yes.
    Dr. Sharfstein. Let's see. I think that the total number--
--
    Senator Kohl. It says here you have 678 additional staff to 
work on food safety and some few more hundred to work on 
medical product safety.
    Can you confirm that and tell the American public that you 
really are adding people to work on the issues of food safety 
and food inspection and----
    Dr. Sharfstein. Yes, the--for foods, it'll be about 220 
more inspectors as well as analysts and a total of about 600 or 
so of people to work on foods. For medicines, it's going to be 
about, as I said, 300 more people and that includes a lot of 
scientists who will be working to make sure that drugs, 
vaccines, tissues, devices, are safer and we understand the 
opportunities for new novel products better.
    So I think that these investments, we should see and we 
should be able to explain clearly to you and to anyone who asks 
how we're using these investments not just to hire people and 
not just to get inspections, for example, but to actually 
deliver results that matter to people.
    Senator Kohl. Your Rapid Response Program, how's that 
working?
    Dr. Sharfstein. For food safety?
    Senator Kohl. Yeah. The food outbreaks.
    Dr. Sharfstein. Food outbreaks?
    Senator Kohl. Yes.
    Dr. Sharfstein. I think that I'm familiar with how we 
responded to the food outbreaks that I've been involved in, but 
I might ask David Acheson to come forward and talk about that 
particularly.
    I'm not sure what part of that is referred to as the Rapid 
Response Program.
    What we have done and I've seen is that FDA has been 
working very closely with the States and localities. We are 
involved with CDC and with the industry when there's an issue 
and it's moved very quickly so that we're able to narrow the 
scope of the pistachio recall very quickly and the scope of the 
alfalfa sprout very quickly. It was because of coordinated 
action among those different groups.
    And let me see if--it would be Dr. Acheson.
    Senator Kohl. We have just a minute or so before we have to 
end.

                             RAPID RESPONSE

    Dr. Acheson. Good afternoon. I'm David Acheson, Associate 
Commissioner for Foods.
    I think you're probably referring to the Rapid Response 
Teams that we're putting out in the States.
    Senator Kohl. That's correct.
    Dr. Acheson. And we've now got six of those funded with the 
machinery operating to fund another three. This is all part of 
the integrated FDA-State-local systems that are--this is 
obviously focused on response and that's clearly at the end of 
the spectrum, but that's beginning to work very well and bear 
good fruit, and we're targeting working with the States much 
earlier in these situations and not waiting until it's later.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Kohl. Thank you. Well, Dr. Sharfstein, we want to 
thank you and your staff for being here today.
    I believe the FDA is going to become increasingly 
responsive to all the important needs in our society under your 
direction along with Dr. Hamburg, and we are looking forward to 
working with you.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

                Questions Submitted by Senator Herb Kohl

            fda's new plan for food safety and states' role
    Question. What do you think is the appropriate role of States in 
this effort? It appears that funding for State contract inspections is 
increasing very slightly. Should that number go up?
    Answer. For fiscal year 2010, FDA is requesting funding for a new 
strategic framework for an integrated national food safety system. A 
system that has adequate Nation-wide coverage will require 
implementation across multiple years. For fiscal year 2010, FDA is 
requesting $14.61 million to begin to build the FDA infrastructure for 
the system.
    The States will play a central role in the strategic framework for 
an integrated national food safety system. FDA's fiscal year 2010 
investment in infrastructure is essential to help establish the 
standards, training, accreditation and oversight programs that are 
integral to an effective system, to leverage State regulatory programs, 
and to ensure consistent standards among regulatory partners.
    Question. What percent of FDA food inspections are carried out by 
State inspectors through a contract?
    Answer. During fiscal year 2008, FDA and our State partners 
conducted 16,125 domestic food inspections. Of this amount, State 
inspectors under contract to FDA conducted 8,777 inspections, or 54 
percent of the total. If animal feed inspections are added to the count 
of food inspections, State inspectors under contract to FDA conducted 
14,489 or 60 percent of the 24,037 domestic food and animal feed 
inspections. FDA also has responsibility over FDA-regulated products 
entering the United States. During fiscal year 2008, FDA inspected 152 
foreign food establishments and completed 100,718 import field exams.
    Question. What percent of FDA medical product inspections are 
carried out by State inspectors through a contract?
    Answer. During fiscal year 2008, FDA and our State partners 
conducted 13,588 domestic medical product inspections. Of this amount, 
State inspectors under contract to FDA conducted 7,652 inspections, or 
56 percent of the total. The State contract inspections consist of 13 
medical device inspections and 7,639 medical product mammography 
facility inspections conducted as part of the Mammography Quality 
Standards Act. In the case of non-mammography inspections, State 
inspectors conducted less than 1 percent of non-mammography inspections 
during fiscal year 2008.
    Question. The budget says this new system may require new 
authorities, including multi-year budget authority. I don't see this 
request in the budget. Can you elaborate?
    Answer. FDA is requesting $14.61 million to begin to build the FDA 
infrastructure for an integrated national food safety system. These 
funds will allow FDA to establish the standards, training, 
accreditation and oversight programs that are integral to an effective 
system. FDA cannot establish an integrated national food safety system 
during a single fiscal year. We hope to continue to build this system 
over time.
    Question. Recent reports have highlighted FDA's failure to properly 
audit State inspection programs. Is there funding in the budget to 
increase these audits?
    Answer. Yes, the request to increase funding to enhance our audit 
program for State inspections is part of the funding request for the 
Integrated National Food Safety System. Enhancing our audit program 
will allow FDA to increase the audit staff conducting oversight of 
State food safety inspections.
    Question. Will all of the additional food inspections be carried 
out by FDA inspectors, or will some of them be through State and other 
contracts?
    Answer. Additional food inspections will be carried out by FDA 
investigators. The fiscal year 2010 budget increase will allow FDA to 
hire additional investigators to increase the number of domestic and 
foreign inspections that FDA conducts.
    For the fiscal year 2010 budget increase, FDA estimates that it 
will hire approximately 126 more investigators with Budget Authority 
and approximately 96 more investigators with Food Inspection and 
Facility Registration User Fees to conduct domestic and foreign food 
safety inspections. Due to the time that it will take to train the new 
FDA investigators, FDA will not achieve the increase in domestic 
inspections until the end of 2012. FDA will achieve an increase in 
foreign inspections associated with the additional investigators by the 
end of fiscal year 2012. The fiscal year 2010 budget increase will 
allow FDA to use Budget Authority to conduct 2,000 domestic and 50 
foreign inspections. In addition, FDA will also use Food Inspection and 
Facility Registration User Fees to conduct an additional 2,000 domestic 
and 50 foreign inspections. This will achieve a total of 4,000 
additional domestic food safety inspections in fiscal year 2012 and 100 
additional foreign food safety inspections in fiscal year 2012.
                          rapid response teams
    Question. The budget includes $12 million to accelerate responses 
to food borne outbreaks. What specifically will this money be for?
    Answer. The $12.1 million increase that you identify will allow FDA 
to increase its laboratory capacity to support food safety activities. 
These funds will not be used to increase the number of rapid response 
teams. The $12.1 million will allow FDA to fund three additional 
chemistry labs for the Food Emergency Response Network--FERN--and 
provide additional support to State microbiology laboratories in the 
FERN system.
    Question. How many rapid response teams have been created 
throughout the country, and where?
    Answer. At this time, there are six rapid response teams. The teams 
are in California, Florida, Massachusetts, Michigan, Minnesota, and 
North Carolina. FDA is in the process of awarding cooperative 
agreements to establish three additional rapid response teams before 
the end of 2009.
    Question. Please provide a summary of the activities of the rapid 
response teams to date.
    Answer. All teams completed initial developmental activities, which 
included training and an assessment of their response capacities. By 
July of 2009, all teams will have participated in 2-day FDA sponsored 
training sessions. By September, all teams are due to complete their 
Manufactured Foods Regulatory Program Standards Assessments.
    The participating States are at varying stages of their plans to 
acquire additional team members, to provide training to support team 
objectives and to initiate practice exercises to prepare the team. 
Additional training opportunities consist of other courses provided by 
FDA and relevant courses supplied through other qualified sources. All 
States are meeting the milestones set out under the cooperative 
agreements.
    The six participating States entered into the Rapid Response Teams 
pilot cooperative agreements with FDA with varying degrees of 
established team experience and structure. Several States had already 
invested in developing team structures while others are using the 
resources available through the FDA agreements to initiate teams this 
year. These different experience levels across the six State teams have 
yielded some States with the capability to activate teams in this first 
year of the agreement. States with developed and practiced teams have 
deployed them in response to State level incidents and incidents under 
FDA jurisdiction, such as the coordinated response to Salmonella in 
peanut butter earlier this year. The remaining States continue to 
obtain training, develop procedures, and prepare for practice 
exercises.
                             generic drugs
    Question. Even though Congress has provided increases over the last 
few years for generic drug review, the backlog of applications 
continues to grow. The user fee being proposed has been proposed in 
previous budgets, but never authorized. Do you think this year will be 
different? If the user fees aren't enacted, is the budget for generic 
drugs adequate?
    Answer. Although generic drug user fees have been proposed in 
previous budgets, FDA plans to reengage the generic drug industry in 
user fee discussions this year to make progress on this important 
proposal. Our aim will be to develop a user fee program that provides 
the FDA generic drug program with the resources needed to modernize and 
enhance the capacity of the generic drug review process and to ensure 
timely patient access to safe and effective new generic drugs. FDA 
believes that the resources in the fiscal year 2010 proposed generic 
drug user fee program are necessary to reduce the review backlog and 
ensure patient access to safe and affordable generic drugs.
                new authorities requested in the budget
    Question. There are no details in the budget regarding the new 
authority for generic biologics. What is the status of this, and is 
there an associated cost?
    Answer. The fiscal year 2010 Budget supports the creation of a new 
regulatory pathway under the Public Health Service Act for FDA approval 
of ``generic biologics,'' a term that refers to follow-on biological 
products that are highly similar to--or biosimilar--and may be 
substitutable or interchangeable for a previously approved biological 
product. As I mentioned in my testimony, establishing a generic 
biologics pathway will require new legislation.
    FDA has approved follow-on versions of certain protein products 
under the existing abbreviated approval pathways in the Federal Food, 
Drug, and Cosmetic Act. However, the majority of protein products now 
on the market have been licensed as biological products under the 
Public Health Service Act, which does not contain analogous abbreviated 
approval pathways.
    Safe and effective generic biologics may prove to be a critical 
element to lowering costs for American consumers and the healthcare 
system more broadly. FDA would require additional resources to augment 
our existing capabilities for regulatory activities associated with a 
generic biologics program, and anticipates the need for significant 
additional analytical testing capabilities. Depending on the scope and 
requirements of any legislation establishing a generic biologics 
pathway, we expect that there will be a large workload in the early 
phase of a generic biologics program in our pre-application 
activities--including meeting with industry and providing advice--as 
well as developing policy and procedures, publishing guidance, and 
promulgating regulations. We also anticipate receiving some 
applications for review shortly after enactment of legislation, with an 
increasing number of applications for review in subsequent years.
    Question. What is the administration's plan to get the 4 new user 
fees you mention in your statement authorized? What are the results if 
that doesn't happen?
    Answer. FDA plans to work with the administration, with Congress 
and with stakeholders to authorize the four new user fee programs 
proposed in the fiscal year 2010 budget. In the event that our efforts 
are not successful, FDA will rely on existing funding in the form of 
budget authority to conduct the four program activities without the 
benefit of additional user fees.
           additional staff requested in the budget/pay costs
    Question. How many additional staff has FDA hired with the 
increases provided in the supplemental and the fiscal year 2009 
increases?
    Answer. FDA has hired 859 additional staff from the funds provided 
in the fiscal year 2008 supplemental and the fiscal year 2009 budget 
authority and user fee increases. As of May 18, 2009, there were 720 
hires on board with 139 staff scheduled to start soon thereafter.
    Question. Although the budget includes nearly $30 million for pay 
costs, it also includes a chart that says FDA will have to absorb an 
additional $33 million to fully fund pay costs. How were these numbers 
developed? If you are only provided the $30 million requested, where 
will the rest of the money come from?
    Answer. The Administration developed the estimate of the total pay 
cost for FDA based on the estimate of the annual pay adjustment for 
civilian and military employees and the estimate of the numbers of FDA 
employees who would receive a pay increase. FDA will cover any 
shortfall in the fiscal year 2010 of the annual pay adjustment through 
a combination of strategies, including reducing operating costs and 
adjusting when it conducts hiring.
                       fda regulation of tobacco
    Question. As you know, Congress is currently considering a bill 
that would require FDA to regulate tobacco. The bill is proposed to be 
funded through user fees. However, will there be start-up costs 
required before the user fees are collected? I don't see any in the 
budget request.
    Answer. In order to begin implementation of this important program 
FDA will borrow $5 million from its fiscal year 2009 budget authority. 
This modest sum is necessary to establish a process to calculate the 
amount of user fees due, issue bills, and collect fees from covered 
manufacturers and importers of tobacco products. We estimate that we 
will need approximately four staff to establish the user fee program 
and there will be associated expenses to adapt our existing IT systems 
to include billing and collection of these fees. In addition to 
establishing the user fee program, we would also use these borrowed 
funds to hire a small number of staff, perhaps 10 or 12 individuals, to 
begin the work entrusted to the new Center for Tobacco Products. FDA 
will repay the borrowed funds within 6 months or as soon as sufficient 
user fees are collected.
                         antibiotic resistance
    Question. I understand that FDA has tested penicillin to see 
whether or not its use in animals results in antibiotic-resistance 
bacteria that can be transferred to people. Are the results of these 
tests available? Does FDA intend to test other previously approved 
antibiotics currently being used for non-therapeutic reasons in 
livestock?
    Answer. Although FDA has not conducted tests on penicillin, FDA has 
conducted a review of all available information relevant to assessing 
the safety of using the penicillin class of antimicrobial drugs in the 
feed of food-producing animals. FDA is also reviewing information about 
other classes of antimicrobial drugs as it is broadly concerned about 
the use of all medically-important antimicrobial drugs for production 
or nontherapeutic purposes in food-producing animals.
                     adulterated pomegranate juice
    Question. What activities has FDA undertaken, or does FDA have 
planned, in order to prevent adulterated pomegranate juice from 
entering U.S. commerce?
    Answer. FDA is planning to conduct testing of imported pomegranate 
juice to determine if it is pure pomegranate or contains other 
materials. We anticipate issuing the assignment to test pomegranate 
juice in the next 3 to 6 months.
                national antimicrobial monitoring system
    Question. What amount is provided in the fiscal year 2010 budget 
for NARMS?
    Answer. The estimated fiscal year 2010 budget for NARMS will remain 
at the same level it was funded in fiscal year 2009. The fiscal year 
2009 amount is $6.7 million.
    Question. Please describe the activities undertaken with NARMS 
funding.
    Answer. A key component of the FDA strategy is to assess 
relationships between antimicrobial use in agriculture and subsequent 
human health consequences is the National Antimicrobial Resistance 
Monitoring System--NARMS. NARMS is a collaborative effort between FDA's 
Center for Veterinary Medicine--CVM, the U.S. Department of 
Agriculture--USDA, the Centers for Disease Control and Prevention--CDC, 
and public health laboratories in all 50 States. NARMS monitors 
antimicrobial susceptibility/resistance within two categories of 
enteric bacteria: zoonotic bacterial pathogens--Salmonella and 
Campylobacter--and commensal--not usually pathogenic--bacteria--
Escherichia coli and Enterococcus.
    NARMS uses comparable testing methods at CDC--human isolates, FDA--
retail meat isolates, and USDA--food animal slaughter isolates. Samples 
are tested to determine changes in the susceptibility or resistance of 
certain enteric bacteria to selected antimicrobial drugs of human and 
veterinary importance in order to guide intervention efforts to 
mitigate resistance dissemination. The antimicrobial drugs tested are 
selected based on their importance in human and animal medicine. Annual 
Executive Reports summarizing data from all three NARMS components are 
posted on the FDA NARMS homepage.
    NARMS Salmonella and Campylobacter isolates are subjected to 
further molecular fingerprinting. This information is submitted to the 
CDC PulseNet database for use in epidemiological foodborne outbreak 
investigations. The information provides public health officials a 
better understanding of the dynamics of foodborne illness attribution 
in the United States.
    FDA continues to maximize cooperation and communication between 
FDA, USDA, and CDC to increase efficient use of limited resources in 
database development, testing methods and sampling strategies.
    In 2007, the FDA Science Board subcommittee evaluated NARMS. The 
program has evolved into a mission-critical tool for FDA. New pilot 
projects have proven worthwhile and merit further development, and the 
on-farm data can help to better link the human and animal health 
interface. NARMS scientists continue to address and implement many FDA 
Science Board recommendations.
           methicillin-resistance staphylococcus aereua--mrsa
    Question. Please provide a summary of activities FDA is undertaking 
regarding MRSA.
    Answer. An important role for FDA is providing information on 
clinical trial designs to study drugs for the treatment of infections 
due to methicillin-resistant staphyloccus aureus, or MRSA. As part of 
these efforts, on November 18, 2008, the FDA Anti-Infective Drugs 
Advisory Committee convened to provide advice concerning clinical trial 
designs for testing new drugs for complicated skin infections, 
including those caused by MRSA. The Advisory Committee recommendations 
focused on feasible non-inferiority trial designs that would provide 
informative data regarding safety and efficacy. FDA also meets with 
pharmaceutical industry sponsors to provide guidance concerning drug 
development programs, including those for new drugs targeting MRSA.
    FDA reviews investigational new drug applications, or INDs, and 
reviews and approves new drug applications, or NDAs, and biological 
license application or BLAs, for products for the treatment of MRSA. 
FDA conducts research focused in identifying potential vaccine 
components that can protect against various forms of MRSA disease and 
on developing animal models that can be used to evaluate the protective 
capabilities of these vaccines.
    In addition, FDA has cleared more than ten diagnostic tests for 
detection or screening for MRSA. We continue to actively work with 
industry as they develop their devices to assure that safe and 
effective devices to detect MRSA are cleared through FDA in an 
expedient manner. We are also actively involved with clinicians, 
laboratory experts, and governmental agencies to determine changes in 
antibiotic resistance and determine what testing is necessary to detect 
changes in resistance.
    Question. Is funding provided in the budget for FDA to test for the 
presence of MRSA in the swine herd? Is this an appropriate activity for 
FDA to undertake?
    Answer. Although the fiscal year 2010 budget does not include 
specific funding to test for the presence of MRSA in the swine herd, 
FDA agrees that MRSA needs to be studied. FDA is working closely with 
USDA and CDC to address issues relating to the prevalence of MRSA.
    FDA is in the midst of a pilot study that is testing retail meat 
samples for MRSA and will use the results of this study to determine 
the correlation, if any, to clinical cases of infection.
                     office of cosmetics and colors
    Question. Please provide a history of the budget authority funding 
amounts for the Office of Cosmetics and Colors for the past 5 years.
    Answer. The 5-year budget authority funding history for the Office 
of Cosmetics and Colors (OCAC) cosmetics program and the companion 
program in FDA's field component, the Office of Regulatory Affairs 
(ORA), appears in the following chart. OCAC current cosmetics 
activities include developing regulations, guidance, and policy, 
providing direction to the field program, conducting safety 
assessments, administering the Voluntary Cosmetic Registration Program 
(VCRP), and participating in international harmonization activities. 
During fiscal year 2007, CFSAN centralized all cosmetics compliance and 
research components into offices outside OCAC, with one office focused 
entirely on compliance and a second office focused entirely on 
research. Compliance and research staff from OCAC were realigned to 
these offices and are reflected under the column titled ``Other CFSAN 
Cosmetics FTEs'' in the following table. OCAC also has a color 
certification program, which is exclusively supported by user fees and 
not supported by appropriated funds. We estimate that the color 
certification program will collect $7.7 million in fiscal year 2009.
    The ORA activities in the field cosmetics program include 
inspections and field exams, sample analyses for contaminants and non-
permitted ingredients, and evaluations for labeling compliance.

                                                       COSMETICS PROGRAM FIVE YEAR FUNDING HISTORY
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                               CFSAN                             ORA                      Total
                                                              ------------------------------------------------------------------------------------------
                         Fiscal Year                                            OCAC     Other CFSAN
                                                                Dollars in   Cosmetics    Cosmetics    Dollars in      FTE       Dollars in      FTE
                                                                 millions       FTEs         FTEs       millions                  millions
--------------------------------------------------------------------------------------------------------------------------------------------------------
2005.........................................................         $3.4           28      ( \1\ )         $1.8           14         $5.1           42
2006.........................................................          3.4           27      ( \1\ )          1.7           12          5.1           39
2007.........................................................          2.3           10            7          1.9           13          4.2           30
2008.........................................................          3.8           13            8          2.3           14          6.1           35
2009.........................................................          5.0           15            8          2.9           15          7.9           37
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Not available.<bullet>

    Question. Is the funding level in the President's budget adequate?
    Answer. The fiscal year 2010 President's Budget provides $8,204,000 
for the FDA cosmetics program. As in other product areas that FDA 
regulates, changes in technology and the increasingly global nature of 
the industry present challenges to FDA regulation of the cosmetics 
industry. FDA will continue to assess the risks to public health of 
cosmetic products and [the administration will] seek additional 
resources where necessary.
    demonstration grants for improving pediatric device availability
    Question. How much of the funding provided in fiscal year 2009 has 
been obligated?
    Answer. Fiscal year 2009 is the first year of the Pediatric Device 
Grants Program. As of May 2009, none of the $2 million appropriated for 
pediatric device consortia grants has been obligated. The due date for 
grant applications is June 15. FDA plans to make grant awards by 
September 30, 2009.
    Question. How many applications were received for this program, and 
what was the total?
    Answer. We will know how many applications we received after the 
June 15 closing date for program applications. Based on inquiries from 
potential applicants, we expect to receive at least six applications.
    Question. Of the total applications received, how many were funded?
    Answer. Pediatric Device grants will be awarded on a competitive 
basis. FDA will review the grant applications scored by a panel of 
experts in mid-July. Shortly thereafter, we will know how many are 
funded.
    Question. What types of activities are these grants funding?
    Answer. Once FDA makes grant awards in September, we will be happy 
to provide you with more specific information on the activities funded. 
The goal of this grants program is to promote pediatric device 
development by providing grants to nonprofit consortia. The consortia 
will facilitate the development, production, and distribution of 
pediatric medical devices by encouraging innovation, mentoring and 
managing pediatric device projects, and providing assistance and advice 
to innovators and physicians on business development.
                          cost of inspections
    Question. What is the average cost of a foreign and domestic food 
inspection and medical product inspection?
    Answer. FDA estimates the average total cost for a domestic food 
inspection would be $9,700 and $24,400 for a foreign food inspection in 
fiscal year 2010. We also estimate the average total cost for a 
domestic medical product inspection would be $20,300 and $41,900 for a 
foreign medical product inspection in fiscal year 2010. The inspection 
cost figures include inspectional time, compliance review, supervisory 
oversight, and general administrative costs for all applicable FDA 
offices.
    The numbers of hours FDA investigators spend on a food or medical 
product inspection can vary from just a few hours to well over 100 
hours due to the different types of products, manufacturing processes 
and numbers of quality systems to cover during any one inspection. Food 
inspections include, but are not limited to, food safety, low acid 
canned foods, acidified foods, seafood HACCP, and interstate travel 
sanitation. Medical product inspections include, but are not limited 
to, pre-approval and pre-market inspections of medical devices and 
human/animal drugs, bioresearch monitoring inspections for biologics, 
medical devices, and human/animal drugs, blood banks, donor centers, 
source plasma, human tissue processors, post-market GMP surveillance 
for biologics, drugs and devices, medical gas, radiological health, and 
adverse drug events.
    The figures above do not include the costs to the agency to collect 
and test a sample of a product or to conduct any actions that may 
result from problems the agency identifies during an inspection, such 
as a recall or a follow up inspection to see that appropriate actions 
were taken to correct a violation.
                             critical path
    Question. Please provide a list of all projects funded through the 
Critical Path Initiative, and their amounts, in fiscal year 2009.
    Answer. I am providing a complete list of all Critical Path (CP) 
projects that received FDA support during fiscal year 2009. So far, 98 
specific projects received approximately $34,675,000 of support, 
including $16 million specifically designated to support CP projects. 
The list reflects the breadth and depth of the Critical Path Initiative 
and also underscores our need to continue funding this important 
Initiative. In addition, almost $12 million of the 2009 total of 
$34,675,000 supported the Sentinel Initiative, a long-term effort to 
increase medical product safety. Sentinel will fulfill some of the 
requirements of section 905 of FDAAA and enable FDA to build a system 
to actively monitor the safety and efficacy of FDA-regulated products.
                               fern labs
    Question. Please provide a list and description of all of the FERN 
labs.
    Answer. I would be happy to provide that for the record.

------------------------------------------------------------------------
                                                              States
------------------------------------------------------------------------
Chemistry Cooperative Agreement Labs:
    Arizona Department of Health Services..............              AZ
    Arkansas Department of Health......................              AR
    California Animal Health & Food Safety--CAHFS......                CA
    California Department of Public Health, Food and                   CA
     Drug Laboratory Branch............................
    Colorado Department of Public Health...............                CO
    Commonwealth of Virginia Division of Consolidated                VA
     Laboratory Services...............................
    Connecticut Agricultural Experiment Station........                CT
    Consumer Analytical Laboratory Ohio Department of                OH
     Agriculture.......................................
    Florida Department of Agriculture and Consumer                   FL
     Services..........................................
    Minnesota Department of Agriculture................              MN
    Nebraska Department of Agriculture.................              NE
    New Hampshire Public Health Laboratories...........              NH
    University Hygienic Laboratory--Iowa...............              IA
    Wisconsin Department of Agriculture................              WI
Radiological Cooperative Agreement Labs:
    Maryland Department of Health and Mental Hygiene...              MD
    Health Research/NY Department of Health............              NY
    Texas Department of State Health Services                        TX
     Laboratory........................................
    Washington State Public Health Laboratory..........              WA
    Wisconsin State Laboratory of Hygiene..............              WI
------------------------------------------------------------------------

    Question. Are these labs utilized when there is a food safety 
outbreak? How?
    Answer. Yes, FDA has used FERN labs to support several recent food 
safety outbreak investigations. FDA-funded FERN Chemistry labs analyzed 
more than 200 samples of protein products for the presence of melamine 
in 2007. These samples were supplied to the FERN labs by an FDA Protein 
Surveillance assignment written specifically for the FERN chemistry 
labs. In 2008, FERN chemistry laboratories tested for melamine 
contamination of milk products. FERN labs tested nearly 300 samples to 
clear the FDA lab backlog of samples.
    FDA also collaborates with other FERN labs that are not receiving 
FDA funding to respond to food safety outbreaks. In 2006, FERN 
laboratories provided support to State labs for the E. coli O157:H7 
Spinach outbreak. A rapid FERN method was provided to State labs, as 
well as reagents to support the method. Labs were used to test suspect 
foods. Last summer, FERN laboratories tested 290 samples for Salmonella 
during the jalapeno peppers outbreak. These samples were provided to 
the FERN labs through an FDA assignment. This year, FERN laboratories 
provided test results to FDA to assist product tracking in the 
Salmonella in peanut butter outbreak. This rapid reporting of State 
sample results had a significant impact on the investigation of this 
outbreak.
    Question. FDA's belief that FERN labs are underutilized? What 
additional roles could or should they play?
    Answer. FDA is continuing to develop the role of FERN labs to 
respond to food safety outbreaks. Throughout the year, FERN 
laboratories participate in a variety of activities, including but not 
limited to training to build capability, proficiency testing to assess 
individual lab capability, and collaboration on current methods and 
equipment use. In addition, FDA used FERN laboratories to analyze 
samples during large-scale surveillance assignments or during public 
health emergencies. Specifically in 2008, FERN chemistry cooperative 
agreement laboratories played an important role in the FDA response to 
melamine contamination by analyzing more than 300 milk-related food 
samples for the presence of melamine.
                                 ______
                                 

            Questions Submitted by Senator Dianne Feinstein

                            cosmetic safety
    Question. I am particularly interested in your agency's ability to 
ensure that personal care products and food and drink packaging do not 
contain dangerous chemicals. Most Americans think the FDA regulates 
cosmetics the same way it regulates food and drugs. However, the 
reality is that the $50 billion cosmetics industry is one of the least 
regulated industries in the country.
    Under current law, cosmetics companies may use unlimited amounts of 
virtually any ingredient, including chemicals linked to cancer, 
reproductive and developmental harm, hormone disruption and other 
adverse health impacts, with no pre-market safety assessment. The FDA 
does not have the authority to require product recalls and must go to 
court to remove misbranded and adulterated products from the market. 
The FDA also lacks the authority to require manufacturers to register 
their cosmetic establishments, file data on ingredients, or report 
cosmetic-related injuries. As a result, cosmetics sold in the United 
States contain ingredients and impurities with known health hazards 
including lead, mercury, hydroquinone, coal tar, formaldehyde, 1,4-
dioxane, acrylamide, toluene and phthalates.
    Given this situation, would you support efforts to give FDA the 
authority, resources and staff it needs to ensure that cosmetics and 
their ingredients are substantiated for safety before they are marketed 
to consumers?
    Answer. The Administration has not taken a position on giving FDA 
additional authority and resources for the regulation of cosmetics. 
However, we would be happy to work with you and other Members of 
Congress on legislative proposals that offer additional public health 
protection for consumers.
    Question. Can you tell me the staff size and current fiscal year 
budget of the Office of Cosmetics and Colors?
    Answer. The Office of Cosmetics and Colors (OCAC) has two major 
components, each responsible for a different program. The OCAC Color 
Certification Program is staffed with 32 FTEs and is supported 
exclusively by user fees, not by appropriated funds. We estimate that 
the Color Certification Program will collect $7.7 million in fiscal 
year 2009. The total fiscal year 2009 budget for the OCAC Cosmetics 
Program is approximately $5.0 million. This amount supports 15 FTEs and 
includes $1.6 million in operating funds. Finally, in fiscal year 2009, 
FDA's ORA has been allocated a budget of $2,866,500 and approximately 
15 FTEs for its activities in support of the cosmetics program.
    Question. In October of 2007, the Campaign for Safe Cosmetics, a 
coalition of public health advocates, released a report showing that 61 
percent of the lipsticks tested contained lead. In November of 2007, I 
joined my colleagues Senators John Kerry and Barbara Boxer in 
requesting that the FDA test a variety of lipsticks for lead, release 
the testing results publically, and if lead is found, take immediate 
steps to reduce the level of lead in these cosmetics. Despite numerous 
requests, we have not been informed of the results of any testing. Has 
that testing been completed, and if so, will you release the results in 
a timely and publically accessible format?
    Answer. FDA scientists developed and validated a highly sensitive 
method to analyze total lead content in lipstick. FDA applied the new 
method to the same selection of lipsticks evaluated by the Campaign for 
Safe Cosmetics. The results of FDA's work to develop this method and 
conduct initial testing have been accepted for publication in the peer-
reviewed Journal of Cosmetic Science and will be published in the July/
August 2009 issue. We will also be posting information on our website.
    Although FDA found lead in all of the lipsticks tested, the levels 
detected were within the range that would be expected from lipsticks 
formulated with permitted color additives and other ingredients 
prepared under good manufacturing practice conditions. FDA does not 
believe the lead levels we have found in our testing represent a safety 
concern. Nevertheless, FDA will continue to monitor the situation. We 
are also planning a broad-based survey that will examine a wider range 
of lipsticks than has been tested so far. When that testing is 
complete, FDA will make the results publicly available. If, at any 
time, FDA determines that a safety concern for lead in lipstick exists, 
FDA will advise the industry and the public and will take appropriate 
action under the authority of the Federal Food, Drug, and Cosmetic--
FD&C--Act to protect the health and welfare of consumers.
    Question. Under current law, registering cosmetics manufacturing 
facilities with the FDA is voluntary, even though this process would 
allow the FDA to better understand the breadth of the industry it is 
charged with regulating. A GAO study submitted to Congress in 1990 
estimated that about 40 percent of facilities had in fact registered. 
What is the current estimate of the number of manufacturing facilities 
creating products for sale in the United States? What percentage of 
those facilities has registered with the FDA? How many inspections of 
cosmetics manufacturing facilities were conducted by the FDA in the 
last fiscal year?
    Answer. Information provided by the two primary U.S. cosmetic trade 
associations indicates that there are approximately 3,500 cosmetic 
manufacturing facilities in the U.S. associated with their 
organizations. FDA does not have independent data to confirm that 
estimate. In addition to manufacturing facilities that are members of 
the two primary cosmetic trade associations, there also are facilities 
that are not members of either of the associations. Consequently, it is 
very difficult to say with any degree of certainty how many cosmetic 
manufacturing facilities there are in operation in the United States at 
any given time. There are 761 cosmetic manufacturing facilities 
registered in FDA's Voluntary Cosmetic Registration Program (VCRP). If 
the estimate of 3,500 cosmetic manufacturing facilities covered all 
U.S. manufacturing facilities, the VCRP data would indicate a 
registration rate of 22 percent. The actual registration rate is likely 
lower. In fiscal year 2008, FDA conducted 88 inspections of domestic 
cosmetic manufacturing facilities.
    Question. The safety of chemicals used in cosmetics is not 
determined by the FDA, but rather a voluntary process conducted by an 
industry funded panel--the Cosmetics Ingredients Review--CIR--Program. 
In over 3 decades since its creation, CIR has evaluated only 11 percent 
of the 12,500 ingredients used in cosmetics; the vast majority of 
ingredients have not been assessed for safety by FDA, CIR or any other 
publicly accountable body. At the CIR, ``insufficient data'' to assure 
safety is not considered a rationale for recommending restricted use of 
a chemical. Does any other FDA program allow lack of evidence to be 
construed as proof of safety? Does the FDA have a plan for generating 
safety studies on unstudied chemicals used in cosmetics?
    Answer. While there are approximately 15,500 cosmetic ingredients 
listed in the International Cosmetic Ingredient Dictionary and 
Handbook, many of these are not commonly used in cosmetics in the 
United States today. FDA estimates that approximately one third of the 
products on the U.S. market are filed in FDA's Voluntary Cosmetic 
Registration Program (VCRP) database. The VCRP data indicate 
approximately 3,200 ingredients that are each listed in at least 10 
products. These 3,200 ingredients represent a high percentage of the 
ingredients used in marketed cosmetics. The Cosmetics Ingredients 
Review (CIR) Program has reviewed the safety of more than 1,400 
ingredients. Because ingredients are selected for review based in part 
on their frequency of use, many of the commonly used ingredients have 
been evaluated by the CIR. Many of the less common ingredients have 
also been evaluated by the CIR.
    Under the law, cosmetic products and ingredients--except color 
additives--are not subject to FDA pre-market approval. For FDA to 
prohibit use of a particular cosmetic ingredient or limit the 
conditions in which it can be used because the ingredient is 
adulterated requires scientific evidence establishing that the 
substance is harmful under its conditions of use or evidence that it is 
adulterated for other reasons. FDA cannot prohibit the use of an 
ingredient based solely on a CIR conclusion that there are insufficient 
data to establish its safety. The burden of proof rests with FDA to 
demonstrate that an ingredient is adulterated because it is unsafe or 
for other reasons before it can be prohibited.
    FDA uses resources available to the cosmetics program to evaluate 
the safety of cosmetic products and ingredients when a possible human 
health risk is indicated. FDA evaluates data and information from a 
variety of sources. The sources that FDA relies on include: adverse 
event reports, FDA's laboratory research, other published scientific 
literature, information considered and conclusions reached by the CIR 
Expert Panel, and data and other information provided to FDA by a 
variety of stakeholders. FDA's evaluations include consideration of 
routes of exposure and possible vulnerable populations.
    Question. In 1989, the FDA prioritized 130 chemicals for review out 
of 884 chemicals that were both listed in the Registry of Toxic Effects 
of Chemical Substances and could be used in cosmetics. Of those 130 
highest-priority chemicals, how many has the FDA substantiated for 
safety? How many has the CIR assessed? Has the FDA requested and 
reviewed the safety data from CIR's safety assessments? Of those 130 
chemicals, how many have been restricted or banned from use?
    Answer. We were not able to locate any FDA documents that match the 
description you provided of a list of 130 chemicals prioritized for 
review. In the absence of such a document or a list of specific 
chemicals to which your questions pertain, we cannot provide numerical 
answers to the questions posed. We can only provide some general 
information.
    FDA does not substantiate the safety of cosmetic ingredients. It is 
the responsibility of the cosmetic manufacturer or distributor that 
introduces a cosmetic product into the marketplace to substantiate the 
safety of the finished product and its ingredients before it markets 
the cosmetic product. FDA does, however, investigate and evaluate 
ingredient safety when we receive reports of adverse events, become 
aware of results from scientific studies that indicate a potential for 
harm to consumers, or receive other information that raises questions 
about safety. FDA's safety assessments incorporate data and information 
from a variety of sources and include consideration of routes of 
exposure and possible vulnerable populations.
    FDA participates in the CIR review process as a liaison member with 
non-voting status. As a participant, we receive and review the same 
information as the voting members of the Expert Panel. We also have the 
opportunity to comment on the studies at the open CIR meetings.
    Question. I am also very concerned about the continued use of 
Bisphenol A in food and beverage packing. As you know, this chemical 
has been linked to a variety of health problems, including breast 
cancer, prostate cancer, and altered brain development. What is your 
time table for re-reviewing the safety assessment of BPA that FDA staff 
presented to the Science Advisory Board in October 2008?
    Answer. In the fall of 2008, FDA scientists presented to the 
Science Board a draft safety assessment of the use of Bisphenol A--
BPA--in the manufacture of food contact materials. The Science Board 
raised questions about whether the FDA's review had adequately 
considered the most recent available scientific literature. We have 
been carefully considering the Science Board comments, as well as 
reviewing newly available publications. During the summer of 2009, FDA 
scientists will review the science of BPA. We intend to report on the 
findings of this review in late summer or early fall of this year.
    Question. On May 16, 2009, the Milwaukee Journal Sentinel described 
repeated contacts between Bisphenol A industry officials and FDA staff. 
As the FDA reviews the science on the risks of BPA, how will you ensure 
that FDA staff working on the safety assessment does not further 
coordinate their research with the chemical industry? Do you plan to 
take steps to provide independent scientists with equal access to FDA 
officials?
    Answer. Independent scientists have already met several times with 
FDA officials in the last several months on BPA. The current review of 
BPA will benefit from input from a variety of sources and the best 
available scientific evidence.
    Question. What is your assessment of the current process FDA uses 
to determine the safety of food additives in packaging? How could this 
process be improved prospectively? Considering the current list of 
approved additives includes chemicals such as phthalates, mercury, and 
formaldehyde, does the FDA have any plans to reevaluate the list?
    Answer. By law, food additives in packaging must be approved for 
their use prior to marketing. This requirement, which has been in 
existence since 1958, has provided a very high standard of consumer 
protection, and is one of the most rigorous statutory and regulatory 
schemes for authorizing food packaging materials in the world.
    It is true that scientific information and knowledge are constantly 
evolving. We do monitor the scientific literature and undertake re-
reviews of additives based on emerging data and information. We are 
committed to improving and modernizing our ability to adequately 
monitor the world-wide literature on the many thousands of compounds 
that are used in food contact applications, so that we can make 
appropriate decisions in as timely a way as possible.
    Question. A New York Times article that appeared on May 15 entitled 
``For Frozen Entrees, ``eat and Eat'' ``Isn't Enough,'' explains that 
frozen food, such as Pot Pies, require additional cooking and testing 
on the part of the consumer before they are considered safe to eat. I 
am very concerned about placing the burden of assuring food safety on 
consumers, many of whom purchase these products for convenience and 
with the belief that they are safe to eat. Does the Food and Drug 
Administration allow frozen entrees such as Pot Pies to contain harmful 
pathogens at the time of purchase by the consumer?
    Answer. Ordinarily, FDA considers a frozen entree to be a ``ready-
to-eat'' food that may not contain pathogens at the time of purchase by 
the consumer, irrespective of whether the product label includes 
cooking instructions, because some consumers eat such foods without 
thorough cooking. According to section 402(a)(1) of the Federal Food, 
Drug, and Cosmetic Act 21 U.S.C.  342(a)(1), a food is deemed to be 
adulterated if it contains any poisonous or deleterious substance--such 
as a pathogen--that may render it injurious to health. The law 
prohibits introduction of adulterated food into interstate commerce, 
and FDA consider regulatory action on a case by case basis.
    Question. What steps does the FDA take to make sure that producers 
reduce or eliminate the presence of pathogens in frozen entrees?
    Answer. FDA has established current Good Manufacturing Practice--
cGMP--in Manufacturing, Packing, or Holding Human Food regulations--21 
CFR part 110, which require that food is processed under safe and 
sanitary conditions. The regulation, 21 CFR 110.80(a)(2), specifically 
requires that ``Raw materials and other ingredients shall either not 
contain levels of microorganisms that may produce food poisoning or 
other disease in humans, or they shall be pasteurized or otherwise 
treated during manufacturing operations so that they no longer contain 
levels that would cause the product to be adulterated within the 
meaning of the act. Compliance with this requirement may be verified by 
any effective means, including purchasing raw materials and other 
ingredients under a supplier's guarantee or certification.'' In 
addition, 21 CFR 110.80 States ``All reasonable precautions shall be 
taken to ensure that production procedures do not contribute 
contamination from any source. Chemical, microbial, or extraneous-
material testing procedures shall be used where necessary to identify 
sanitation failures or possible food contamination.'' These two 
provisions are designed to prevent, reduce, or eliminate the presence 
of pathogens in food.
    Question. Does the FDA currently conduct inspections of food labels 
for frozen entrees that contain raw or uncooked ingredients, to ensure 
that the labels clearly indicate that the foods may contain pathogens 
without proper preparation?
    Answer. There is currently no requirement for this type of 
statement for FDA-regulated foods. FDA inspection instructions do not 
address the presence of this type of statement.
    Question. As you know, the Food and Drug Administration announced 
in March 2009 that some patients with ALS to would be allowed to access 
the drug Iplex under an Investigational Drug Application--IND. Because 
this disease can progress rapidly, timely access to treatments may 
potentially make a difference in a patient's outcome. Since the FDA's 
announcement in March, what progress has been made on beginning a 
clinical trial of the drug, or establishing a lottery system to give 
patients access to a clinical trial?
    Answer. FDA continues to work proactively with the sponsor, Insmed, 
on the development and initiation of a well-designed clinical trial of 
Iplex in ALS patients.
    Question. When do you anticipate that FDA will grant final approval 
for a clinical trial to begin?
    Answer. When an investigational new drug application, or IND, is 
submitted, FDA has a maximum of 30 days to determine if the protocol 
may proceed. However, after this period of review, it is entirely up to 
the sponsor when to initiate the clinical trial.
    Question. How many patients will ultimately be able to enroll in 
the clinical trial?
    Answer. It is not known at this time how large the clinical trial 
would be, because the number of patients that can be enrolled in it is 
directly related to the length of the trial proposed and the existing 
supply of the drug at the time the trial begins. Insmed, the sponsor, 
has indicated that the supply of this drug is very limited.
                                 ______
                                 

            Question Submitted by Senator Richard J. Durbin

                                  gao
    Question. In January 2009, GAO released a report recommending that 
FDA take further actions to improve oversight and consumer 
understanding of dietary supplements. Two of GAO's recommendations 
called for FDA to issue guidance: first to clarify when an ingredient 
is considered a new dietary ingredient, the evidence needed to document 
the safety of new dietary ingredients, and appropriate methods for 
establishing ingredient identity; and second, to clarify when products 
should be marketed as either dietary supplements or food. Does FDA plan 
to issue guidance to address these recommendations?
    Answer. FDA agrees that guidance would be helpful to clarify when 
an ingredient is considered a new dietary ingredient (NDI) the evidence 
needed to document the safety of NDIs, and appropriate methods for 
establishing the identity of an NDI. The Agency held a public meeting 
in November 2004 to seek public comment on several issues related to 
the NDI requirements of Section 413(a)(2) of the Federal, Food, Drug, 
and Cosmetic Act (21 U.S.C. 350b(a)(2)). FDA specifically asked for 
information that would enable the Agency to identify ways to assist 
submitters of NDI notifications to ensure that they contain the 
information the Agency needs to evaluate the notification. FDA has 
reviewed the information submitted by interested parties on this 
subject and has developed draft guidance addressing NDI issues and a 
draft proposed rule to amend the NDI notification requirements of the 
Federal Food, Drug, and Cosmetic Act. The guidance and proposed rule 
are currently undergoing internal FDA review.
    As we noted in our comment to the GAO July 2000 report, FDA's 
Dietary Supplement Strategic Plan recognized the need to clarify the 
boundaries between dietary supplements and conventional foods, 
including conventional foods with added dietary ingredients. As we 
noted when the Plan was released in January 2000, FDA acknowledged its 
inability to set timeframes for all the activities listed in the Plan 
because of resource limits. FDA will consider this recommendation and 
the priority and timing to implement this recommendation in light of 
all of the priorities that compete for available resources.
                                 ______
                                 

              Questions Submitted by Senator Sam Brownback

   tuberculosis: drug resistant tb and diagnostic tests for children
    Question. The subcommittee has provided more than $23 million in 
the past 2 years to support the Critical Path Initiative, an FDA 
initiative that has many facets including helping speed the development 
of safe drugs and the development of diagnostic tests to help with the 
delivery of drugs or diagnose certain conditions.
    As you may know, I am concerned about global health problems, 
especially the growing threat of Tuberculosis and drug resistant 
Tuberculosis. The first recommendation in an Institute of Medicine 
November 2008 White Paper on drug resistant TB is for in-country 
diagnostic tests, including rapid genetic tests able to diagnose drug 
resistant organisms.
    The need for improved diagnostic tests and effective therapies is 
even more critical for children with TB. The standard tests for 
diagnosis of TB, sputum smears and culture, are not practical for 
children who cannot reliably produce sputum. As a result they remain 
undiagnosed, untreated and a source of infection for others. The 
Critical Path Initiative seems like a logical fit for FDA to help with 
this situation.
    Does FDA currently have any critical path projects that address the 
threat of Tuberculosis and drug resistant TB?
    Answer. Yes, the Critical Path Initiative--CPI--is working to 
advance the use of multi-drug resistant TB as a platform for 
demonstrating effectiveness of new TB drugs. This is a novel approach 
for tackling the scientific challenge of proving drug effectiveness 
when you have a complex treatment regimen, requiring new TB drugs to be 
tested in combination with older drugs.
    CPI has begun exploring possible collaborations with several goals 
in mind. For example, FDA is hoping to collaborate on identifying novel 
scientific pathways for obtaining safety data on new TB drugs without 
co-administration with other drugs. One option might be to obtain 
safety data on a new TB drug during use in prevention trials.
    FDA is also exploring possible collaborations with the Bill Gates 
Foundation that will facilitate TB drug and diagnostic development by 
creating innovative trial designs and trial logistics. The goal is to 
develop shorter treatment regimens and new diagnostic tools that can be 
used in all patients, including children. FDA has developed the CPI 
biomarker qualification process as a mechanism for incorporating new 
diagnostics in clinical trials. And to facilitate international 
marketing application and approval, FDA is collaborating with the 
European Medicines Agency to reach similar regulatory recommendations 
on drug development in multi-drug resistant TB.
    Question. Would additional funding for critical path programs make 
it possible to work with the industry to accelerate the development of 
new and more effective drugs or diagnostic tests for TB?
    Answer. If FDA received increased resources for critical path 
activities related to tuberculosis, we would consider beginning large-
scale training program that would give local public health staff in 
developing countries the capabilities they need to develop and submit 
sufficient, high-quality scientific data to FDA to support application 
evaluation and approval. Other options include bringing together 
collaborative initiatives among drug, vaccine, and diagnostic 
developers and other experts in the field to speed development of new 
therapies in all populations and subpopulations. This effort is 
especially critical because development of new diagnostic tests is 
growing at a tremendous pace now. Preliminary test results using new 
genomic methods to identify drug resistant TB are very promising, and 
these need to be tested in large populations so they can be 
incorporated into clinical trials and clinical practice. Rapid, 
reliable tests that can easily be used to diagnose tuberculosis in 
adults and children are also required. The development of these 
products depends on access to communities where TB is common and where 
high-quality studies can be performed.
    The Bill Gates Foundation and World Health Organization are heavily 
involved in this area, and FDA is actively encouraging manufacturers to 
participate. Additional Critical Path funding could be used to foster 
collaborations with all stakeholders with the goal of moving TB 
diagnostic tests to market faster.
        policy proposals: drug importation and generic biologics
    Question. The President plans to propose two new policy changes for 
FDA. One will allow the importation of prescription drugs from foreign 
countries. The second will allow FDA to approve generic biologics. The 
budget requests $5 million for the development of policies associated 
with prescription drug importation. Very few details have been provided 
about these policy proposals or to support the funding request related 
to the drug importation policy. Can you provide any additional details 
on these proposals?
    Answer. Regarding details related to drug importation, the fiscal 
year 2010 budget includes $5 million for FDA efforts to allow Americans 
to buy safe and effective drugs approved in other countries. FDA 
intends to spend these funds in fiscal year 2010 to assess the 
feasibility, practicability, and implementation needs of a drug 
importation program.
    The fiscal year 2010 Budget supports the creation of a new 
regulatory pathway under the Public Health Service Act for FDA approval 
of ``generic biologics,'' a term that refers to follow-on biological 
products that are highly similar to--or biosimilar--and may be 
substitutable or interchangeable for a previously approved biological 
product. As I mentioned in my testimony, establishing a generic 
biologics pathway will require new legislation.
    FDA has approved follow-on versions of certain protein products 
under the existing abbreviated approval pathways in the Federal Food, 
Drug, and Cosmetic Act. However, the majority of protein products now 
on the market have been licensed as biological products under the 
Public Health Service Act, which does not contain analogous abbreviated 
approval pathways.
    Safe and effective generic biologics may prove to be a critical 
element to lowering costs for American consumers and the healthcare 
system more broadly. FDA would require additional resources to augment 
our existing capabilities for regulatory activities associated with a 
generic biologics program, and anticipates the need for significant 
additional analytical testing capabilities. Depending on the scope and 
requirements of any legislation establishing a generic biologics 
pathway, we expect that there will be a large workload in the early 
phase of a generic biologics program in our pre-application 
activities--including meeting with industry and providing advice--as 
well as developing policy and procedures, publishing guidance, and 
promulgating regulations. We also anticipate receiving some 
applications for review shortly after enactment of legislation, with an 
increasing number of applications for review in subsequent years.
    Question. Given that these proposals are being associated with 
reduced health care costs for Americans, do you believe that these will 
be included in the President's health care reform proposal? Are the 
policies developed enough at this time to be considered as a part of 
the health care debate?
    Answer. Regarding drug importation, the fiscal year 2010 budget 
request is intended to conduct assessments to determine the 
feasibility, practicability, and implementation needs of a drug 
importation program.
    Regarding generic biologics, the fiscal year 2010 Budget supports 
the creation of a new regulatory pathway under the Public Health 
Service Act for approval of generic biologics. Safe and effective 
generic biologics may prove to be a critical element to lowering costs 
for American consumers and the healthcare system more broadly.
    Question. Let's say both proposals are passed this year, does the 
fiscal year 2010 request provide appropriate resources to enact the new 
policies?
    Answer. Regarding drug importation, the fiscal year 2010 request is 
not intended to provide resources to enact any new policy. Rather, the 
budget request is intended to determine whether and what programs might 
be feasible, practical, and what would be needed for implementation.
    Regarding generic biologics, the fiscal year 2010 request is not 
intended to provide resources to enact a new policy on generic 
biologics, given that creation of a generic biologics pathway would 
require new legislation. Although the administration budget proposal 
describes user fees as a financing structure to cover certain costs of 
a new generic biologics pathway, the current proposal indicates that 
precise collection levels would be negotiated for each year, including 
fiscal year 2010.
                          performance results
    Question. We have made significant investments in FDA. Since 2006, 
FDA's appropriation has increased by 39 percent. If the fiscal year 
2010 budget is enacted as requested, FDA's appropriation will have 
increased by 59 percent in 4 years. This is a significant amount of 
money and we expect FDA to be accountable for these resources and show 
results. What is your plan for showing tangible outcomes for the 
resources we have made available?
    Answer. FDA's plan for showing tangible outcomes for the resources 
Congress has made available is to track our progress toward specific 
milestones and report our accomplishments to Congress on a regular 
basis. FDA is reporting accomplishments on a monthly basis for its 
expenditures of fiscal year 2008 Supplemental funding. For expenditures 
of the funding increases FDA received in the fiscal year 2009 Omnibus 
bill, we report accomplishments on a quarterly basis.
    Question. I expect that FDA's goals will be something to strive for 
and not something that can be easily attained, do you share this 
expectation?
    Answer. Where our goals are specific, FDA should meet them or have 
a good explanation for failing to do so. Where our goals are 
aspirational, FDA should be able to demonstrate concrete progress 
towards improving the health of the American people.
                           tobacco regulation
    Question. Congress is likely to pass a bill this year that will 
give FDA authority to regulate tobacco. The administration supports 
this effort. We've mentioned that FDA currently regulates 20 percent of 
all consumer expenditures. Adding more to this already daunting job is 
not an easy task.
    The authorizing committee has tried to make sure that industry user 
fees, and not appropriated dollars, are used to support tobacco 
regulation. However, until the fee is collected, which could be months 
after enactment of the tobacco bill, FDA will be permitted to use 
appropriated funding to start the process of regulating tobacco. The 
Appropriations Committee has provided funding for very specific food 
safety and medical product safety activities. We do not want to see 
these efforts unnecessarily delayed because FDA shifts its focus to 
tobacco.
    What assurance can you give me that any appropriated funding 
directed to tobacco will not delay critical activities we have funded? 
What is the minimum amount of appropriated dollars necessary to get the 
tobacco user fee program started?
    Answer. In order to begin implementation of this important program 
FDA will borrow $5 million from its fiscal year 2009 budget authority. 
This modest sum is necessary to establish a process to calculate the 
amount of user fees due, issue bills, and collect fees from covered 
manufacturers and importers of tobacco products. We estimate that we 
will need approximately 4 staff to establish the user fee program and 
there will be associated expenses to adapt our existing IT systems to 
include billing and collection of these fees. In addition to 
establishing the user fee program, we would also use these borrowed 
funds to hire a small number of staff, perhaps 10 or 12 individuals, to 
begin the work entrusted to the new Center for Tobacco Products. The 
agency would repay the borrowed funds within 6 months or as soon as 
sufficient user fees are collected. We have identified sources for 
these funds where borrowing and repaying the funding will not affect 
other FDA activities.
    After this initial start up period, 100 percent of FDA activities 
related to tobacco will be funded through the collection of user fees 
from the tobacco industry.
    Question. FDA has a limited leadership team that's currently 
struggling to keep up with the agency's current mission. How do you 
intend to make sure that tobacco regulation does not hinder this 
leadership team's ability to work on food safety and medical product 
safety issues?
    Answer. The creation of this center will not distract the agency 
from its other activities and or hinder its ability to work to improve 
the safety of food and medical products. The agency is working to 
recruit a strong director for the Center for Tobacco Products who will 
have our full support in implementing the Family Smoking Prevention and 
Tobacco Control Act. After the initial start up period, 100 percent of 
FDA activities related to tobacco will be funded through the collection 
of user fees from the tobacco industry.
                 food safety, white house working group
    Question. As a member of the White House Food Safety Working Group, 
what priorities have you outlined regarding food borne pathogens?
    Answer. From E. coli O157:H7 in spinach to Salmonella in peanut 
butter, food-borne pathogens are the most significant cause of food 
borne illness outbreaks. In the White House Food Safety Working Group, 
or WHFSWG, FDA has advocated for requirements for wide scale adoption 
of preventive controls by the food industry, in addition to supporting 
specific actions to reduce food borne pathogens such as Salmonella 
Enteritidis in shell eggs and E. coli O157:H7 in leafy greens. 
Effective preventive controls can reduce or eliminate foodborne 
pathogens. FDA has also suggested an enhanced public health 
surveillance infrastructure to help determine a baseline for pathogens 
of public health significance in foods, determine the source and 
respond more quickly when pathogens appear to be linked to foodborne 
illness, and prioritize the development and use of rapid detection 
methods for foodborne pathogens. In addition, FDA has recognized the 
agency's need to provide better information to consumers on the steps 
they can take to minimize these hazards, including thorough cleaning 
and cooking of foods and appropriate handling practices to reduce the 
likelihood of cross contamination.
    Question. There has been discussion that there should be on-farm 
testing of livestock for food borne pathogens; is this something you 
support and if so could you elaborate?
    Answer. Foodborne pathogens in livestock create at least two 
potential issues: contamination of the meat or other products from 
livestock and contamination of crops when the pathogens are spread 
through the waste of the livestock. USDA has preventive control 
programs in slaughterhouses to address the first issue. The second 
issue requires study of the microbial ecology of the farm environment, 
and standards for the safe production of produce. It is premature to 
say whether testing would be the most effective approach at this point.
                     use of antibiotics in animals
    Question. Antibiotics have been used to treat and prevent disease 
or promote growth in animals for more than 50 years. Like physicians 
and their patients, veterinarians and their clients share 
responsibility for the proper use of antibiotics. Antibiotics are tools 
used by veterinarians and producers to quickly address clinical and 
sub-clinical disease and keep animals healthy and productive. 
Antibiotics used by producers are approved by the FDA after they 
undergo rigorous review for safety to animals, humans and the 
environment. Producers have a vested interest in using antibiotics 
responsibly and view the use of antibiotics very seriously, yet there 
are attempts by some to eliminate antibiotic use on the farm. Animals 
get sick. Our producers and veterinarians need the tools to keep them 
healthy. What do you plan to do with the animal antibiotic approval 
process?
    Answer. In 2003, FDA implemented new policies for evaluating 
antimicrobial drug safety as part of the new animal drug approval 
process. At that time, FDA issued Guidance for Industry--GFI--#152, 
Evaluating the Safety of Antimicrobial New Animal Drugs with Regard to 
their Microbiological Effects on Bacteria of Human Health Concern. This 
guidance describes a risk-based assessment process for evaluating 
antimicrobial resistance concerns associated with the use of 
antimicrobial new animal drugs in food-producing animals. The guidance 
also describes recommended measures for mitigating such risk. FDA 
believes the assessment process described in this guidance has been a 
very effective approach for addressing antimicrobial resistance 
concerns for food animal products being evaluated for FDA approval. The 
agency has no plans to make any significant changes to this preapproval 
assessment process as this time.
    FDA recognizes the importance of maintaining the availability of 
effective antimicrobial drugs for treating, controlling, and preventing 
disease in animals. However, the agency believes it is critically 
important that antimicrobial drugs be used as judiciously as possible 
in an effort to minimize resistance development. The agency is 
currently considering strategies for addressing this issue.
          national antimicrobial resistance monitoring system
    Question. The National Antimicrobial Resistance Monitoring System--
NARMS--is a critical tool for the entire food chain. How do you ensure 
the money is used appropriately and goes towards NARMS surveillance and 
not other activities? Please provide, for the record, a distribution of 
NARMS funding by activity.
    Answer. As you indicate in your question, the National 
Antimicrobial Resistance Monitoring System--NARMS--is a critical tool 
for the entire food chain. We take this responsibility and the use of 
funds designated to this public health tool, very seriously. FDA has 
established financial safeguards--for example, auditing and reporting--
in our funding allocation and expenditure financial system to ensure 
that funds intended for NARMS and other critical programs are expended 
on those activities only.
    The following is a distribution of NARMS funding by activity for 
fiscal year 2008, the last year that actual amounts for a fiscal year 
are available.

                        [In millions of dollars]
------------------------------------------------------------------------------------------------------------------------------------------------
USDA.................................................               1.4
CDC..................................................               1.8
FDA..................................................               3.5
                                                      ------------------
      Total..........................................               6.75
------------------------------------------------------------------------

                         personalized medicine
    Question. In your testimony, you State that FDA ``will address 
patient-product interactions that generally do not relate to 
manufacturing flaws.'' In the past we've called this effort 
``personalized medicine''--trying to make sure certain populations that 
are genetically predisposed to a bad reaction to a treatment are 
screened in advance and not given the treatment.
    This initiative has an alternate goal too. In some cases, certain 
populations are genetically predisposed to have an overwhelmingly 
positive reaction to a treatment. We also want to be able to find these 
patients and make sure they get the treatment that is best for them.
    What is your vision for this proposal? Will FDA engage industry 
during the drug development or clinical trials process to help isolate 
these unique populations? Or, will FDA work with industry to conduct 
studies after approval?
    Answer. Our vision and evolving practice with regard to 
personalized medicine is to study genetic, molecular, and patient-
specific factors that can affect an individual's response to drugs or 
medical devices. Our efforts will continue to span the continuum of a 
medical product's lifecycle, which includes discovery, development, and 
use by the public with a focus on both safety and efficacy.
    In the pre-approval setting, we will continue to work with industry 
to use pharmacogenetic principles to identify optimal doses for 
patients, specific patient characteristics that would confer a better 
chance of taking a medical product that works and populations with 
unmet medical needs. These efforts help the industry bring products to 
market and help large segments of the public.
    For drugs to be targeted to the right patients, it is usually 
necessary to have a diagnostic test that can accurately identify just 
who the right patients are. We have discovered through ongoing 
interactions in this area with industry that upfront guidance and 
advice is needed, and close cooperation between FDA and industry, as 
well as between FDA's product centers is essential. For these reasons, 
we have established groups within the Center for Drug Evaluation and 
Research and the Center for Devices and Radiological Health that have 
specific expertise to focus on personalized medicine issues and work to 
make sure that the personalized medicine vision moves as quickly and as 
smoothly as possible within the confines of our regulations. We expect 
that as new drugs are developed and are beginning clinical trials, we 
will be able to provide timely advice to the drug and device 
manufacturers to assure that the test and the drug are ready for 
patient use at the same time, and that the combination is really 
working as we expect it to.
    We also have begun working with sponsors of drugs that are already 
on the market to implement tests that can make the drug work better, by 
determining postmarket whether there are certain identifiable 
populations that can gain benefit more than others, or populations that 
would be harmed by exposure to the drug. After a drug is approved, we 
continue to protect the public health by including important 
pharmacogenetic information in drug package inserts. Some notable 
examples include drugs used by millions of people worldwide such as the 
blood thinner warfarin, marketed as Coumadin, the anti-platelet drug 
clopidogrel, marketed as Plavix, the HIV medication abacavir, marketed 
as Ziagen, and the seizure medication carbamazepine, marketed as 
Tegretol. These efforts give clinicians a better understanding of why 
patients respond to medications so differently, and in some cases 
prevent life-threatening events such as serious bleeding, ineffective 
treatment, and fatal allergic reactions.
    In addition to drug development initiatives and labeling updates, 
we will continue to build our research infrastructure. We have 
established relationships with universities, pharmacy benefits 
managers, healthcare systems, personalized medicine coalitions, and 
sister HHS agencies, AHRQ and NIH, to answer questions related to drug 
response variability, and to create dialogue among many constituents to 
advance the public health mission of FDA. In summary, our vision is one 
where information on a drug's benefits and risks can be applied to 
individual patients using new knowledge and interventions developed 
through our involvement both before and after a drug are approved.
                     human resources/hiring issues
    Question. In 2004, The Department of Health and Human Services--
HHS--consolidated all human resource functions into 5 servicing 
centers. FDA, along with several other agencies, is serviced by the 
Rockville Human Resources Center.
    It has recently come to my attention that an internal audit 
conducted by HHS found that the Rockville HR Center, which services 
FDA, was failing in many areas. As a result, this center lost its 
authority to hire individuals from outside the government. HHS has 
implemented a process to work around this situation. However, this 
process has added time to FDA's service agreement, and FDA has had to 
independently contract with the Office of Personnel Management--OPM--
for some personnel actions. It may be more than a year before the 
Rockville HR Center gets all of its authority back.
    Given that the subcommittee has invested significantly in FDA by 
increasing the agency's budget by more than 39 percent since 2006 and 
that FDA is in a hiring surge right now, I take this situation very 
seriously. Currently, FDA is paying HHS for a service that is not being 
provided as contractually agreed, and is also outsourcing additional 
human resource activities to OPM in order to fill the gap left by the 
Rockville HR Center.
    Can you update us on this situation? How does this affect FDA's 
ability to bring qualified employees onboard?
    Answer. The significant budget increases resulting in a surge of 
hiring at FDA coupled with the Rockville HR Center's loss of outside 
hiring authority have strained the capacity of the FDA to effectively 
bring on the best qualified individuals. FDA can lose highly qualified 
candidates because of a new quality review process that has increased 
the time it takes before vacancies are advertised, certificates are 
issued and job offers are made.
    FDA is working closely with HHS to address this situation.
    Question. Since FDA is independently contracting with OPM for 
certain services, essentially paying two organizations for one job, 
would allowing FDA to send all personnel actions through OPM or 
allowing FDA to conduct human resource actions ``in house'' be a more 
preferable arrangement for the agency?
    Answer. Allowing the FDA to send all personnel actions through OPM 
is not an idea that has been fully researched. FDA would need to 
consult with OPM on its ability to provide such extensive staffing 
services for the Agency as we are not aware that OPM has the capacity 
to serve a large agency.
    Ideally, in order for FDA to be successful and effectively manage 
its human capital, FDA is in need of a HR solution that provides more a 
strategic concentration and alignment with its human capital goals with 
business needs, that is customer focused, that ensures effective policy 
and practices are in place, that is appropriately structured, resourced 
and supported and that has staff with an extensive understanding of the 
client and its mission. FDA is working closely with HHS to develop such 
a solution.
                            foreign offices
    Question. In fiscal year 2008, the subcommittee provided funding 
for FDA to begin the process of opening offices in foreign countries. 
For the first time, FDA employees are permanently stationed in 
countries like China and India that export a lot of FDA-regulated 
products. Can you update us on the status of the foreign offices? Where 
are they located and are they fully staffed?
    Answer. I am happy to provide the status of FDA foreign offices. 
The location of FDA's foreign offices and their status are listed 
below. The persons who have been hired but have not yet reported to 
their duty posts are training for their assignments as well as 
undergoing the various Department of State clearances required of them 
and their families. They are also performing various assignments 
pertaining to their future deployment from their current duty stations 
in the United States and through temporary duty assignments in-country.
    China.--A total of 8 FDA staff will be posted in three locations, 
Beijing--4, Shanghai--2 and Guangzhou--2. The locations were opened in 
November 2008. At this time, only the Country Director is posted in-
country. By June 1, 2009, four additional FDA staff will be posted in-
country and the remaining three by the end of July.
    India.--A total of 12 FDA staff will be posted in two locations, 
New Delhi and Mumbai. The New Delhi office opened in January 2009. At 
this time, only the Acting Country Director is posted in-country. By 
July 1, 2009, five additional FDA staff will be posted in-country, one 
by July 30, 2009, and another by November 1, 2009. Four additional 
hires will be made and deployed in-country early in CY 2010.
    Latin America.--A total of 7 staff will be posted in three 
locations, Costa Rica, Chile and Mexico. The San Jose, Costa Rica 
office opened in January 2009. At this time, only the Regional Director 
is posted in-country, in Costa Rica. By August 15, 2009, 4 additional 
FDA staff will be posted in-country. Two additional hires will be made 
and deployed in country early in CY 2010.
    Europe.--A total of 3 staff will be posted in three locations: 
Brussels, Belgium; London, England--the European Medicines Agency; and 
Parma, Italy--the European Food Safety Agency. The Brussels location 
opened in December 2008. At this time, only the Regional Director in 
Brussels is posted in-country. The staffer for the London location will 
be posted in-country on June 22, 2009. The staffer for Parma will be 
hired and posted in-country in early CY 2010.
    Question. Do you have any specific examples of how staff located in 
foreign countries has made FDA-regulated products exported to the 
United States safer?
    Answer. The primary purpose of posting FDA scientists and 
inspectors overseas is to engage more proactively and consistently with 
various communities--regulatory, industry, and third parties--in 
strategic regions abroad to help FDA better accomplish its domestic 
mission to promote and protect the public health of the USA. FDA staff 
in foreign countries do this by helping FDA acquire more robust 
information based on which the Centers and ORA can make the necessary 
decisions to help assure the safety, efficacy--as appropriate--quality, 
and availability of FDA-regulated products. To this end, FDA officials 
abroad are involved in the activities described below.
    FDA is working with counterpart agencies in countries where we have 
foreign offices, gathering better knowledge about the production of 
FDA-regulated products and their transport to U.S. ports. FDA is also 
working with trusted counterpart agencies to leverage scientific, 
inspectional, and other resources. When requested, FDA is engaging with 
developing counterpart agencies to help build their regulatory 
capacity. In addition, FDA is working with private and public sector 
trusted third parties, and we are providing helpful information about 
industry compliance with FDA regulatory standards. FDA is also working 
with regulated industry to provide greater information about the 
applicable standards for their products to be admitted to the USA. FDA 
is engaging with U.S. agencies that are already present in foreign 
countries]that have complementary missions to FDA.
    An example of how FDA staff located in foreign countries has helped 
make FDA-regulated products safer is the situation with contamination 
of various dairy and dairy-containing products from China that were 
found to contain melamine or its analogs. FDA issued an Import Alert 
just prior to the FDA office's opening in Beijing. The FDA Country 
Director facilitated collaboration with the Chinese Government to 
address the problem in an expedited manner.
                 fiscal year 2009 supplemental funding
    Question. In fiscal year 2009, FDA received $150 million in 
supplemental funding to jump start activities that would be funded with 
the regular fiscal year 2009 appropriations bill. Nine months after 
this funding was provided, FDA has spent about $30 million. The agency 
only has only 4 months, until September 30, 2009, to spend the 
remaining $120 million. Does FDA have a plan to spend the remainder of 
this money or will it go back to the Treasury at the end of the fiscal 
year?
    Answer. FDA has a plan in place to spend the $150 million provided 
in the fiscal year 2008 Supplemental. FDA has designated $30 million of 
the Supplemental for Information Technology--IT--and FDA is at various 
stages of the procurement process to spend the unobligated balance of 
the $30 million so that the contract awards will be made by the end of 
this fiscal year. Further, FDA planned to add 324 staff with funds 
provided by the fiscal year 2008 Supplemental, and FDA has achieved 
approximately 83 percent of that staffing goal. The balance of the year 
will see a steep acceleration of spending of the fiscal year 2008 
Supplemental funds for payroll and related operational costs, and the 
obligation of contracts for IT projects and purchase of equipment.
          critical path initiative/modernize drug development
    Question. In March of 2004, former Commissioner McClellan 
referenced a need to modernize development paths and processes back in 
FDA's ``Innovation or Stagnation'' document which led to the Critical 
Path initiative. It's been more than 5 years now. Over the past 2 years 
the subcommittee has provided more than $23 million for the critical 
path initiative. Do you think that initiative has been a success and 
why/why not?
    Answer. The Critical Path Initiative--CPI--is an unequivocal 
success. CPI is leading the Sentinel Initiative, working to develop and 
implement America's first active system to enable FDA to query large 
health information databases and monitor, in real time, medical product 
safety and efficacy. CPI is modernizing the electronic portal 
MedWatchPlus, enabling better and more complete adverse events reports.
    In an FDA collaboration with the Serious Adverse Events Consortium, 
a genetic link has been identified associated with acute liver injury 
in some people who take the antibiotic Flucloxacillin. SAEC is making 
publicly available to researchers pooled data on genetics associated 
with drug-induced skin rashes like Stevens-Johnson syndrome. In 2007, 
FDA approved a new genetic test to help physicians assess whether a 
patient is especially sensitive to the blood-thinner warfarin and 
updated the label. In 2006 and 2007, FDA's CPI launched more than 40 
research projects. In 2008, CPI researchers collaborated with 84 
government agencies, universities, industry leaders and patient groups 
from 28 States and 5 countries on 60 research projects that are 
speeding the development of innovative therapies and safety monitoring 
systems to treat killers like tuberculosis, cancer, and Alzheimer's.
    CPI is modernizing the clinical trials enterprise to increase the 
quality and efficiency of clinical trials and ensure trial participant 
safety. As part of a personalized medicine initiative, CPI research has 
identified genetic biomarkers that are being explored for their value 
in making medicines safer and more effective. CPI is supporting and 
leading innovations needed to transform FDA into a robust, 21st-century 
regulatory agency. CPI is implementing cutting-edge information systems 
vital to supporting medical innovation and public health safety, like 
e-management of clinical study information and an e-platform to move 
FDA's largely paper-based infrastructure to a fully automated system.
                        office of generic drugs
    Question. Dr. Sharfstein, last year the Committee expressed 
interest in adequate funding for the Office of Generic Drugs--OGD--an 
interest which still remains. As FDA has noted, almost 70 percent of 
prescriptions are now filled with generics; it is obvious that in an 
environment emphasizing greater need for cost control, one key area 
that has been successful in achieving savings has been greater reliance 
on quality generic drugs.
    Last year, FDA advised the Committee that OGD's target was 1,900 
actions for fiscal year 2009, including approvals, tentative approvals, 
not approvable and approval actions on applications. FDA stated that 
the agency was on track to achieve that goal and to exceed the fiscal 
year 2008 number of 1,780 actions. Could you update us on the actual 
progress made in each of these categories? Please outline the reasons 
why you believe FDA has either been exceeding or failing to meet those 
goals.
    Answer. The Office of Generic Drugs--OGD--had 1,779 total actions 
in fiscal year 2007 and in fiscal year 2008, a total of 1,933 actions. 
The Office is expecting to meet the fiscal year 2009 goal of 2,033 
actions. As of the end of May 2009, OGD had taken 399 approval or 
tentative approval actions and 941 not approval actions for a total 
1,340 actions. The average for the 8 months is 167. To meet the goal, 
the average for the remaining months must be 173 actions per month. OGD 
believes it will achieve that average because there has been an upward 
trend of actions per month related to newer reviewers becoming more 
productive.
    Question. Last year, FDA stated that the fiscal year 2003-2005 
cohort approval time was 16.6 months and that the yearly median time to 
approval increased due to the escalating workload. Please update those 
numbers for us. We are interested in seeing recent numbers relating to 
how long oldest ANDAs which are still under review have been pending 
before the FDA. In July, 2008, the agency advised the Committee that 
there was one ANDA pending for 11 years, 9 pending over 9 years, and 
about 100 pending for more than 4 years. Could you provide us with an 
updated status report on those numbers? What emphasis is being placed 
on clearing this backlog? What are the reasons for these delays?
    Answer. The median time to approval currently stands at 21.6 
months. This includes both the time with the Office of Generic Drugs--
OGD--and the time with the applicants as they prepare responses to 
deficiencies that FDA identifies.
    Approval time has been increasing due to the number of pending 
applications. There are currently 137 applications that have been 
pending longer than 4 years. There are a variety of reasons for certain 
applications remaining as pending for a long time. Some are pending 
because of the need to achieve a satisfactory inspection result. Others 
are pending because the sponsor firms are subject to the application 
integrity policy that precludes FDA approval. Others may be held up 
because of patents, 180-day exclusivity, or other legal matters. Others 
have complicated scientific matters that require additional review time 
and subsequent additional review cycles. While OGD tries to be as 
efficient as possible in the review process, OGD officials want to be 
certain that all deficiencies and scientific issues are addressed 
before approval.
    The number of pending applications remains at around 1,600 
applications. OGD is concerned about the number of pending applications 
and the office would like to clear the backlog. However, the OGD 
continues to receive more applications than it can act on each month. 
Within the group of pending applications, there are applications that 
cannot be approved because of patents or exclusivity on the reference 
drug, and there are applications that have had at least one review 
cycle. In addition to the workload of original abbreviated new drug 
applications--ANDAs--OGD receives around 350 supplements per month for 
post-approval manufacturing changes that also require review and 
action.
    Question. FDA also advised the Committee in 2008 that many of the 
old, pending ANDAs ``have challenging scientific issues with respect to 
determination of bioequivalence resulting in extended review periods.'' 
This acknowledgement of potential scientific inadequacies at OGD is of 
concern. In February, OGD Director Gary Buehler stated his goal of 
fully staffing two bioequivalence divisions and adding a third 
division. He also indicated his priority in securing additional 
microbiologists and recruiting a pharmacologist/toxicologist to enhance 
the Office. What actions does OGD take to address these challenging 
scientific issues? What progress has been made toward reaching Mr. 
Buehler's goals? To what extent is OGD using, or could it be placing 
more emphasis on using, the scientific capabilities of other offices 
within CDER for the more complicated scientific reviews? We are 
interested in learning whether, then, the backlogs at OGD are strictly 
a matter of resources, a question of where the resources are being 
placed, or a lack of collaboration within FDA agency-wide?
    Answer. The Office of Generic Drugs--OGD--continues to work under a 
structure of two Divisions of Bioequivalence and three functioning 
Divisions of Chemistry. The addition of another division in both the 
chemistry and bioequivalence review areas would enhance review 
efficiency. During 2008, OGD hired 10 microbiologists, and the office 
now has 17 on staff. That business unit is steadily increasing review 
output as new microbiology reviewers become more productive. OGD has 
developed the position description for a pharmacologist/toxicologist, 
and the office will advertise that position soon.
    In addition, OGD has increased its science staff over the past 
year. OGD scientists assist the review divisions by addressing 
challenging scientific and review issues. The Science Staff in OGD 
oversees contracts for studies with outside groups.
    OGD uses the scientific capabilities of other offices and 
collaborates with scientists Agency-wide by routinely consulting 
experts in other components of the Center for Drug Evaluation and 
Research, seeking opinions on clinical matters from physicians in 
specialty areas, seeking concurrence on bioequivalence assessments from 
the Office of Clinical Pharmacology, using statisticians from the 
Office of Translational Sciences, assessing potential safety matters 
through consults to the Office of Surveillance and Epidemiology, 
requesting input on questions of immunogenicity from the Office of 
Biotechnology Products, requesting certain laboratory research from the 
Office of Testing and Research, and using the services of the Advisory 
Committee for Pharmaceutical Science.
    Managing and reducing the backlog of applications requires ensuring 
OGD has the right number of staff are on board, has the right skill 
sets to address the various scientific issues, and continues 
coordination and collaboration with the right staff within FDA. OGD 
continues to manage and reduce the backlog using this three-pronged 
strategy.
    Question. The President's budget relies on substantial resources 
for OGD and its field activities through a new Generic Drug User Fee. 
As you know, this fee has been proposed in the past and was not 
implemented. How optimistic are you that such a user fee can be enacted 
this year, and what activities have you undertaken to develop a 
specific proposal and when might the Committee learn more about this?
    Answer. Although generic drug user fees have been proposed in 
previous budgets, FDA plans to reengage the generic drug industry in 
user fee discussions this year to make progress on this important 
proposal. Our aim will be to develop a user fee program that provides 
the FDA generic drug program with the resources needed to modernize and 
enhance the capacity of the generic drug review process and to ensure 
timely patient access to safe and effective new generic drugs. FDA 
believes that the resources in the fiscal year 2010 proposed generic 
drug user fee program are necessary to reduce the review backlog and 
ensure patient access. Although there are uncertainties associated with 
any new user fee discussions, FDA believes that successfully concluding 
discussions with stakeholders will promote the important goals of 
timely patient access to safe and effective generic drugs.
    Question. The Food and Drug Administration Amendments Act of 2007--
Public Law 110-85--contained a new provision intended to speed the 
agency's review of Citizen Petitions. Could you provide the Committee 
with estimates of how many petitions you have reviewed under this new 
authority and the timeframe for that review? How many petitions were 
pending before enactment of Public Law 110-85 and what is their status?
    Answer. Section 914 of the Food and Drug Administration Amendments 
Act of 2007--FDAAA--added section 505(q) to the Federal Food, Drug, and 
Cosmetic Act--the Act. This amendment requires that FDA respond to 
certain petitions regarding the approvability of certain applications 
within 180 days. Specifically, new section 505(q) applied the 180 day 
timeframe to citizen petitions and petitions for stay of agency action 
that pertain to the approvability of a pending application submitted 
under section 505(b)(2) or (j) of the act--generic drug applications. 
This complex provision of FDAAA took effect upon enactment--September 
27, 2007. Therefore, FDA has had to interpret the new provision and 
develop implementing procedures while simultaneously addressing citizen 
petitions and petitions for stay that are subject to the new 
requirements.
    FDA has received 40 citizen petitions as of May 20, 2009 that is 
subject to section 505(q) and has responded to 29 of those petitions as 
of May 20, 2009. Of the 29 responses, 28 were answered in 180 days or 
less. The remaining 505(q) petitions have been pending with the agency 
fewer than 180 days.
    Prior to enactment of FDAAA, there were approximately 216 citizen 
petitions pending, of which approximately 73 raised issues about the 
approval standards for generic applications, patents or exclusivity, or 
other issue that could delay approval of generic applications. Not all 
of the 73 pending petitions would have been subject to section 505(q) 
even if they had been submitted after it passed. We have completed 
approximately 21 of these 73 petitions, and 29 of the other backlogged 
petitions, since the passage of FDAAA.

                          SUBCOMMITTEE RECESS

    Senator Kohl. At this time, we will bring this hearing to a 
close, and the subcommittee will stand in recess until June 4 
when we'll be talking about the USDA budget request.
    Thank you very much.
    Dr. Sharfstein. Thank you.
    [Whereupon, at 3:02 p.m., Tuesday, May 19, the subcommittee 
was recessed, to reconvene subject to the call of the Chair.]


   AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2010

                              ----------                              


                         THURSDAY, JUNE 4, 2009

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 1:05 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Herb Kohl (chairman) presiding.
    Present: Senators Kohl, Harkin, Johnson, Nelson, Reed, 
Pryor, Specter, Brownback, Bennett, Cochran, Bond, and Collins.

                       DEPARTMENT OF AGRICULTURE

                        Office of the Secretary

STATEMENT OF THOMAS VILSACK, SECRETARY
ACCOMPANIED BY:
        DR. KATHLEEN MERRIGAN, DEPUTY SECRETARY
        DR. JOSEPH GLAUBER, CHIEF ECONOMIST, U.S. DEPARTMENT OF 
            AGRICULTURE
        DR. SCOTT STEELE, BUDGET OFFICER, U.S. DEPARTMENT OF 
            AGRICULTURE

                 OPENING STATEMENT OF SENATOR HERB KOHL

    Senator Kohl. Good afternoon to everybody. We would like to 
welcome Secretary Vilsack back to this subcommittee at this 
time to present the administration's fiscal year 2010 budget 
request for USDA. The Secretary is accompanied by Dr. Kathleen 
Merrigan, Deputy Secretary; Dr. Scott Steele, the USDA Budget 
Officer; and Dr. Joseph Glauber, the USDA's Economist. We thank 
you all for being here with us today.
    The fiscal year 2010 budget for discretionary programs at 
USDA is $21.25 billion. This is an increase of $1.9 billion 
from last year, or nearly 10 percent. At first glance, this 
appears to be a very robust budget and in many important ways, 
it indeed is.
    The WIC program, which many of us consider essential, has 
been underfunded in recent executive budgets. By contrast, this 
budget includes an increase of $917 million so that we can deal 
with increased food costs and maintain participation.
    The rental assistance program would see an increase of $189 
million to prevent a large number of poor rural residents, many 
of them elderly, from losing their homes.
    And funding for humanitarian food aid has increased by $564 
million.
    These three changes alone make up nearly 90 percent of 
USDA's total budget increase. Just to repeat that, these three 
items alone make up nearly 90 percent of the total increase in 
the budget.
    The rest of the money goes quickly. Information technology 
at the Department would see an increase of $117 million. These 
funds are necessary to improve USDA data security and make sure 
computer systems do not fail. Without them, we run a 
significant risk of delayed farm payments and deferred farm 
bill implementation.
    USDA energy programs, which we hope will help lead our 
Nation toward a renewable energy future, receive an $80 million 
increase.
    The Food Safety and Inspection Service budget includes an 
increase of $47 million to provide more inspections and improve 
information systems.
    There are obviously more increases, but I will leave those 
for the Secretary to discuss. I would like to point out, 
however, that a portion of these increases are made possible 
only by reducing mandatory farm bill spending to the tune of 
$678 million. This is nearly $200 million more in cuts than we 
took last year. While I appreciate the Department's mandate to 
find offsets to fund the President's initiatives, I am certain 
you understand the precarious situation these farm bill cuts 
create in Congress.
    Mr. Secretary, our Nation has significant challenges ahead, 
and this budget lays out a plan to begin addressing them, but I 
have feared for some time that many do not fully appreciate the 
breadth of USDA's mission or why these investments are 
important.
    All of us enjoy greater food safety because of USDA. Nearly 
one in five Americans participate in USDA nutrition programs. 
USDA research is developing better crops and energy systems 
whose benefits are widely spread across our society.
    Rural development programs bring safe drinking water, 
affordable housing, and essential community facilities to 
regions that would otherwise almost certainly be overlooked. 
These are all important tasks that demand thoughtful, 
deliberative treatment in the appropriations process.
    So, Secretary Vilsack, I--and I am sure everybody else--am 
very pleased that you're here. We all believe that you will do 
an outstanding job, and we look forward to working with you in 
the coming years.
    After other opening statements from Senators, Mr. 
Secretary, the floor will be yours.
    Senator Brownback.

                   STATEMENT OF SENATOR SAM BROWNBACK

    Senator Brownback. Thank you very much, Mr. Chairman.
    Welcome, Mr. Secretary. Good to have you here and good to 
have a good fellow Midwesterner in that position of Secretary 
of Agriculture.
    I also think it is very, very, very helpful to the Midwest 
that Iowa is the first caucus. It drives a lot of Senators to 
travel through Iowa and get to know our issues throughout the 
Midwest. So I think that is a very good thing. They formed a 
caucus in the U.S. Senate of Members of the U.S. Senate who 
would never, ever, ever run for President, and there is like 
two people in it. So it means 98 have got some passing interest 
of going through your State. And I am delighted you are hearing 
about them.
    I am glad you are at USDA. USDA touches each American's 
life multiple times a day, food, housing programs, research and 
assistance. My State of Kansas is a great beneficiary of USDA 
programs. It got the first land grant university in the country 
at Kansas State University. We have got valuable USDA research. 
We provide valuable USDA research. My State produces a lot of 
food and agricultural products, and we are dependent upon that 
research. We want to see it continue.
    I want to highlight two quick areas. I really want to hear 
from you today about your targets that you want to hit as 
Secretary of Agriculture. You have a great position and a 
period of time in which you get to drive the ship, and I want 
to hear where you want to take it.
    A couple that I am very concerned about, food insecurity 
around the world. I think this is a big problem for us. It is a 
big opportunity for us in both providing food for people, and 
then I think getting back on agricultural development programs 
globally.
    I have been doing a fair amount of research and meeting 
with experts on this. In the mid-80s, we pulled out of 
agricultural development work in a lot of places around the 
world, and I think it has been quite harmful to us. I think 
there was a trend at that point in time, it is not really 
working, we do not need to do this, so let us pull out of it 
and let us just go to emergency food assistance programs. And I 
think we have suffered consequences because of it. I am going 
to go through that some more in questioning.
    But particularly what Senator Bond has pushed in 
Afghanistan on some of the ag development work to help us 
stabilize Afghanistan I think is good in a fighting region, but 
there is also chronic places like Malawi and others where 
agricultural developments continue to decline. I think we need 
to figure out ways we can use our food assistance, again, to 
get us back in the agricultural development game, and I think 
it is important to do it.
    Another one is in bioenergy. I do not think there is an 
area that the rural States are more excited about than 
bioenergy. Certainly grain-based ethanol is having some 
difficulty now and there is some consolidation taking place in 
that business. But it is providing a key portion of our energy 
equation. Our efforts in cellulosic ethanol are very intriguing 
and I hope will be quite successful. Biomass. I just came from 
an Energy meeting markup and we are looking more and more at 
biomass for meeting renewable energy standards and needs. Wind 
energy, although not in your purview, is one that generated a 
lot of interest and support across many areas of the Midwest. I 
cannot think of probably a better area for rural development 
than in the bioenergy field, and I want to hear what you want 
to try to do more in that particular area.
    The final point is on rural development programs. I have 
been around this for a long time. There are 90 different grant, 
loan, or standalone programs in the rural development area, and 
you have got to really question whether we need all 90 of those 
or if you would be better off with three big, well-funded ones 
or five maybe. But it just has made it so complicated that 
people cannot access it or they get a little piece here and 
they find another piece there. You have got to hire somebody to 
find the program. I would think it would really be one you 
could break into.
    So I am delighted to have you at that position. Welcome 
here.
    I want to welcome Susan Collins, new to the subcommittee, 
as well. Mr. Chairman, she is going to do a great job and 
educate us about Maine agriculture and potatoes and all sorts 
of other things I am sure. Lobster, a great Maine dish. So 
thank you very much for the hearing. Welcome, Susan.
    Senator Collins. Thank you.
    Senator Kohl. Thank you very much, Senator Brownback.
    Other statements from Senators? Senator Pryor, Senator 
Cochran, Senator Bond, Senator Johnson, and Senator Collins.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, I ask unanimous consent that 
my statement be printed in the record.
    [The statement follows:]

               Prepared Statement of Senator Thad Cochran

    Mr. Chairman, thank you for holding this hearing to review the 
Administration's fiscal year 2010 budget request. I welcome Secretary 
Vilsack and other officials from the U.S. Department of Agriculture on 
the witness panel.
    Mr. Secretary, I commend you for working aggressively to implement 
the 2008 farm bill. The enactment of this new law followed many hours 
of debate, and it should be implemented so as to reflect the intent of 
Congress. I also want to highlight the fact that production agriculture 
views the farm bill as a multi-year commitment from the government. In 
other words, I ask you to resist the urge to re-open farm bill 
provisions that impact the farm safety net.
    In addition, I want to mention the importance of the Natural 
Resources Conservation Service and its role in administering 
conservation programs. Programs such as the Environmental Quality 
Incentive Program, Wetlands Reserve Program and Wildlife Habitat 
Incentive Program are important to farmers and land owners across the 
United States. These conservation programs are limited by either 
funding caps or acreage caps, so it is important to wisely administer 
these funds to as many producers and landowners as possible.
    An important aspect of the Agriculture Appropriations bill is the 
annual funding provided for agricultural research. This research helps 
enable U.S. producers to remain the leaders in food and fiber 
production. We need to work toward providing adequate funding to 
continue important research initiatives.
    Mr. Secretary, I am concerned about your recent comments suggesting 
that agriculture may benefit from cap-and-trade offsets. It is more 
likely that crop producers will face increased input costs if Congress 
enacts cap-and-trade legislation. As you review the impact of climate 
change legislation on agriculture, I ask you to remember that those 
producing the food we eat are important to our way of life. We should 
fully consider the consequences of further increasing input costs.
    Thank you again for appearing before the subcommittee. I look 
forward to your testimony.

    Senator Kohl. Thank you so much.

                    STATEMENT OF SENATOR TIM JOHNSON

    Senator Johnson. Mr. Chairman, I ask unanimous consent that 
my full statement be entered into the record.
    I have a couple other things to comment about. I am pleased 
that with the targeting of farm program payments with the 
$250,000 payment limitations cap. I am pleased that Secretary 
Vilsack has worked so hard at implementing country-of-origin 
labeling.
    I am also concerned for some parts of the budget, including 
a $500,000 annual sales limit for direct payments which does 
not reflect actual farm income.

                           PREPARED STATEMENT

    And I look forward to working with you on issues important 
to our ag communities and to fund priorities important to South 
Dakota. Thank you.
    [The statement follows:]

               Prepared Statement of Senator Tim Johnson

    Chairman Kohl and Ranking Member Brownback, thank you for holding 
today's hearing to discuss the President's fiscal year 2010 proposed 
agriculture budget. Thank you, Secretary Vilsack, for coming to the 
Hill today. I'd also like to especially thank you for the work you've 
done to implement mandatory Country of Origin Labeling properly, which 
has been a priority of mine for nearly 17 years, since I introduced my 
first meat labeling bill in 1992.
    Agriculture has a $21.3 billion per year impact in South Dakota, 
and the Federal government's agriculture spending priorities impact the 
success of our rural communities and our national food security. I am 
pleased to see an emphasis on many important ag priorities in the 
President's proposed budget, including a targeting of farm program 
payments with a $250,000 commodities payment limit cap, Commodity 
Supplemental Food Program funding, and money for the implementation of 
COOL.
    I am also, however, concerned for some parts of the budget, 
including the $500,000 annual sales revenue limit for direct payments, 
which does not reflect actual farm income, and a plan to cut funding 
for the Resource, Conservation and Development Councils, which generate 
over five local dollars for every dollar of Federal investment.
    I look forward to working with you on issues important to our 
agricultural communities and to fund priorities important to South 
Dakota. Thank you.

    Senator Kohl. Thank you, Senator Johnson.
    Senator Bond.

                STATEMENT OF SENATOR CHRISTOPHER S. BOND

    Senator Bond. Thank you, Mr. Chairman. I will pass up the 
opportunity to be as brief as some of my colleagues.
    I do want to mention one area that I think is of overall 
concern. The Food, Conservation and Energy Act of 2008 
established the new National Institute of Food and Agriculture, 
or NIFA, to provide enhanced support for research, extension, 
higher education programs, dealing with all of the challenges 
not only that we face but the world faces. Research under this 
would encourage better land use management, provide efficient 
nutrition and nutrient and pesticide application, increase 
domestic energy production, increase nutrition awareness, many, 
many things.
    I am disheartened that the administration in this initial 
budget proposal places little emphasis on ag research and, 
instead of increasing our capabilities, would cut $237 million 
from the research, education, and economics portion of the USDA 
budget. I think that is a cause for concern. I will ask a 
question on it, but I hope, Mr. Chairman and Senator Brownback, 
that we will be able to have a discussion on that.
    Senator Kohl. Good.
    Senator Collins.

                   STATEMENT OF SENATOR SUSAN COLLINS

    Senator Collins. Thank you very much, Mr. Chairman. Let me 
just say that I am delighted to be a new member of this 
subcommittee.
    I just want to express some concern also about the 
President's budget in the area of the zeroing out of the rural 
empowerment zones and Enterprise Communities Grants Program. 
There is no funding for resource conservation and development 
programs. As my colleague has mentioned, the agricultural 
research has taken a hit. Particularly, the USDA ARS Buildings 
and Facilities account is zeroed out as well as the Healthy 
Forest program. There are a lot of concerns that I have about 
the priorities set in this budget.
    I am very pleased to be a new member of this subcommittee 
and to work with you, Mr. Chairman, and the ranking member, 
Senator Brownback. Thank you.
    Senator Kohl. Thank you, Senator Collins. It is great to 
have you with us.
    Senator Collins. Thank you.
    Senator Kohl. Mr. Secretary, we would love to hear from 
you.

                 STATEMENT OF SECRETARY THOMAS VILSACK

    Secretary Vilsack. Thank you, Senator, and Mr. Chairman, 
thank you very much for the opportunity. I appreciate the 
comments.
    I am going to depart from what traditionally would take 
place, which is to read a statement that is a part of what we 
would submit for the record, and just simply talk very briefly 
about the priorities of USDA.
    Let me, first and foremost, say that the budget that we are 
going to discuss today was fashioned in a fairly rapid time 
period, at a time when USDA was obviously not fully staffed and 
manned because we were in the process of transitioning to the 
new administration. So it is important, I think, for the 
committee to know precisely what our priorities are and how 
they might be reflected in this budget.
    Let me, first and foremost, say that we believe the USDA is 
an every-day, every-way Department. As Senator Brownback 
indicated, this is a Department that intersects American lives 
every single day in multiple ways.
    In order for us to reflect that role and that 
responsibility, we have a set of agenda items and priorities 
that really cover the wide range of USDA's portfolio.
    We are very concerned about rural development and economic 
development in rural communities, and we believe that the time 
has come for a wealth creation approach to rural development 
that focuses on regional and coordinated investment, not only 
coordinating investments within USDA, but also coordinating 
those investments with other Federal investments as well as 
what State and local government is investing in economic 
development. We think there are synergies and opportunities for 
coordination.
    We think there are opportunities to create wealth and 
repopulate rural America. We believe that will require us to 
target our resources, to focus on building the infrastructure 
for high-paying jobs, starting with an expansion of broadband 
to unserved areas. This committee, this Congress, through the 
American Recovery and Reinvestment Act, saw fit to provide 
additional resources, and I will assure the committee during 
the course of questions that we are intending on putting those 
resources to work very quickly to expand that very important 
technology to unserved areas in rural America.
    We want to aggressively implement the energy title 
provisions of the 2008 farm bill. We want to focus on expanding 
local and regional food systems for local wealth creation. We, 
obviously, want to continue a focus on value-added local 
commodity agriculture, and we want to make community facility 
investments that result in rural areas being great places to 
live, work, and raise families.
    We also want to make sure that we continue to promote 
nutrition and food safety. It is the goal of the President. It 
is the goal of USDA, and I suspect it is the goal of this 
committee to significantly reduce childhood obesity and hunger 
in this country. At the same time, we will work with our 
partners at Health and Human Services to develop a modern and 
coordinated food safety system.
    Our forests are extraordinarily important not only in and 
of themselves, but also for the significant role they play in 
preserving the quantity and quality of water, particularly in 
the Western United States. We want to develop an ecologically 
sustainable forest and private working land system with a focus 
on conserving water resources and improving water quality, 
while at the same time restoring our natural forests and 
linking that work with our conservation work on private working 
lands.
    We want USDA to be a modern workplace and a modern 
workforce. That will require working with this committee to 
modernize, stabilize, and securitize our technology so that we 
may be able to provide services more quickly and more 
conveniently to people in rural communities.
    We will focus on expanded trade promotion, particularly 
through a coordinated strategy for exporting biotechnology 
crops.
    We will work very hard to advance the notion of food 
security worldwide based on the principles of expanding the 
availability of food, the accessibility of food, and the 
utilization of food. Our focus initially will go on Afghanistan 
and Pakistan and sub-Saharan Africa.
    We also want to maintain an appropriate farm safety net. We 
will, obviously, have conversations about the proposal relative 
to direct payments, but our commitment is to work with this 
Congress to maintain a strong and adequate and appropriate farm 
safety net. We think there are opportunities for reform in crop 
insurance, and we do believe it is appropriate to focus on a 
$250,000 hard cap, but we will be glad to work with this 
committee on other ideas and other thoughts.
    Finally, we want to be a Department that makes a true 
commitment to civil rights, a commitment that reflects the 
culture and diversity of this country that is also reflected in 
rural communities. We are committed to a fair resolution of 
outstanding and longstanding civil rights cases against the 
Department, as well as a reduction and resolution of equal 
employment opportunity complaints that are currently within the 
Department.

                           PREPARED STATEMENT

    Mr. Chairman, this is an aggressive agenda. We believe that 
this budget, as presented to you, is a start. By no means will 
it finish the job. We look forward to working with this 
committee and responding to questions that you might have. 
Thank you.
    [The statement follows:]

                  Prepared Statement of Thomas Vilsack

    Chairman Kohl and distinguished members of this subcommittee, it is 
a pleasure to come before this subcommittee today to discuss the 
details of the President's 2010 budget request for the Department of 
Agriculture. I would also like to take this opportunity to provide you 
an update on our efforts to eliminate wasteful and inefficient spending 
and to implement the American Recovery and Reinvestment Act (ARRA) of 
2009.
    I am joined today by Deputy Secretary Kathleen Merrigan; Scott 
Steele, our Budget Officer; and Joseph Glauber, our Chief Economist.
    When I accepted this position, the President outlined three key 
goals for the Department of Agriculture. First, he is very concerned 
about the health and welfare of America's children and wants to make 
sure our children have access to nutritious food. Second, he wants to 
make sure we do everything we can to expand the capacity of our farms, 
ranches, and rural communities to produce alternative forms of energy. 
Third, he wants to make sure we aggressively pursue the research 
necessary to allow agriculture to transition away from its significant 
dependence on fossil fuels. Fulfilling these goals will be a great 
challenge, particularly in the context of meeting challenges in the 
Department's other responsibilities including food safety, 
conservation, trade, and administering the farm safety net. The current 
economic situation and difficulties of drought and other severe weather 
faced by large areas of farm country add another level of complexity to 
the work we have before us.
    But, with these challenges come historic opportunities for 
agriculture and rural America. I look forward to working together with 
this subcommittee to fulfill the President's goals and our key 
responsibilities for the long term benefit of producers and all 
Americans. We intend to capitalize on these opportunities quickly 
through a much more effective effort to coordinate programs within the 
various parts of the Department and with other Federal, State, and 
local entities.
    Over the first 100 days of this administration, USDA has set out on 
a new course to promote a sustainable, safe, sufficient and nutritious 
food supply, to ensure that America leads the global fight against 
climate change, and to revitalize rural communities by expanding 
economic opportunities. We have moved quickly to respond to these 
difficult economic times by creating jobs, increasing food aid to those 
in need, and revitalizing rural communities. We have also made civil 
rights a top priority with definitive action to improve the 
Department's record and move USDA to be a model employer and premier 
service provider.
    I look forward to working with you, Mr. Chairman, and the members 
of this subcommittee as we continue our hard work to ensure that USDA 
is at the forefront of change.
                     improving financial integrity
    In order to improve financial integrity of the Department, I 
directed Subcabinet officials to review their agency's financial 
activities for wasteful and inefficient spending, and report on 
``savings'' each week. This has been a productive effort, which has 
resulted in the implementation of more efficient procedures and cost 
avoidance measures. The Terminations, Reductions and Savings volume of 
the fiscal year 2010 budget identifies annual savings of $19.5 million 
from a sample of the actions USDA agencies have taken. In addition, we 
will achieve a cost avoidance of $62 million in lease costs over 15 
years as a result of consolidating seven leased facilities located 
throughout the DC metropolitan area into one location.
    As we move forward in implementing the President's agenda, we will 
continue to root out inefficient management practices and improve our 
use of funds.
                              recovery act
    Before I delve into the specifics of the 2010 budget, I would like 
to provide an update on our efforts to implement the American Recovery 
and Reinvestment Act (ARRA) of 2009.
    USDA received $28 billion of ARRA funding. Of this amount, almost 
$20 billion, or approximately 70 percent, is for increasing the monthly 
amount of Supplemental Nutrition Assistance Program (SNAP) benefits 
currently assisting over 32 million low-income people and increasing 
the block grants to Puerto Rico and American Samoa.
    The remaining funds are for: supporting nutrition assistance 
programs that primarily target low-income women, infants, and children; 
expanding opportunities for broadband service in rural areas; improving 
community facilities, such as firehouses, libraries, schools, and rural 
medical clinics; improving drinking water and wastewater treatment; 
increasing farm assistance; promoting rural economic development; and 
supporting conservation projects to protect our Nation's forests and 
farm land.
Since Enactment of the Recovery Act, we Have
  --Worked with State partners to increase maximum SNAP benefits by 
        13.6 percent, which translates to an additional $80 each month 
        for a family of four. We also allocated $100 million in 
        emergency food assistance through TEFAP, and $25 million in 
        administrative funds for the Nation's emergency food assistance 
        network;
  --Distributed all of the $173 million in Recovery Act funding for 
        direct farm operating loans that has provided assistance to 
        2,636 farmers, of which approximately half were to beginning 
        farmers and 22.8 percent were to socially disadvantaged 
        farmers;
  --Announced a national signup for up to $145 million in floodplain 
        easements and extended the deadline to ensure landowners 
        impacted by flooding in States like North Dakota and Minnesota 
        are given an opportunity to apply. This will restore and 
        protect an estimated 60,000 acres of flood-prone lands;
  --Provided $45 million for the rehabilitation of watersheds, many of 
        these projects are nearing the end of their 50-year design 
        life. Recovery funds will be used to upgrade structures to 
        current safety standards, thereby protecting life, property and 
        infrastructure downstream for more than 90 years. USDA has also 
        provided $85 million for 53 new flood prevention project 
        efforts in 21 States and territories;
  --Made available about $760 million in funding to provide safe 
        drinking water and improved wastewater treatment systems for 
        rural towns in 38 States. USDA also received $2.5 billion for 
        expanding rural broadband into communities that otherwise might 
        not have access. USDA has begun implementation in concert with 
        the U.S. Department of Commerce and is determining the best 
        targeted utilization of the funding. These efforts will create 
        jobs and revitalize rural communities;
  --Provided approximately $60 million in essential community 
        facilities and emergency responder projects to help communities 
        in 39 States; and
  --Made approximately $4.4 billion in guaranteed and direct single 
        family housing loans for over 37,000 loans.
    I want to assure this subcommittee that the Subcabinet, agencies 
and the Department will be held accountable for not just swift 
implementation, but also for ensuring the funds are used efficiently 
and effectively. You should be confident that we are working hard to 
achieve the President's goals to revitalize the economy.
2010 Budget
    The President's 2010 budget, released on May 7, 2009, proposes 
$21.3 billion for discretionary programs under the jurisdiction of this 
subcommittee, an increase of nearly $2 billion over the 2009 levels 
provided in the Omnibus Appropriations Act. This increase is primarily 
associated with the Special Supplemental Nutrition Program for Women, 
Infants, and Children (WIC), international food assistance, rural 
development and other priority programs.
    The 2010 budget reflects the President's commitment to be 
transparent to the American people. Our budget accounts fully for the 
costs to operate the government. In addition, as I had mentioned, we 
have reviewed all of our operations for wasteful and inefficient 
spending. Therefore, the 2010 budget reflects a reduction of over $450 
million for the elimination of earmarks and funding for programs that 
are not as high a priority as others, or programs that provide services 
that can be supported by other means.
    I would now like to focus on some specific program highlights.
Nutrition
    Consistent with the President's commitment to present an honest, 
transparent budget, we are including sufficient resources to support 
estimated participation in the nutrition assistance programs.
    For WIC, the budget proposes $7.8 billion in budget authority to 
support an average monthly participation of 9.8 million in 2010. This 
is a total increase of over $900 million in USDA's largest 
discretionary program. The budget provides $225 million in WIC 
contingency funds, for a total contingency fund of $350 million with 
carryover from fiscal year 2009, should costs increase beyond current 
estimates. Additionally, the budget includes $30 million to assist 
States in modernizing and upgrading their management information 
systems.
    On the mandatory side, the budget includes over $1.8 billion in 
increases for Child Nutrition Programs, to support the increased level 
of school lunch participation and food cost inflation. School lunch 
participation is estimated to grow to about 32.1 million children each 
school day, with free meal participation increasing from about half of 
the total meals in fiscal year 2008 to almost 53 percent in fiscal year 
2010. The budget includes $5 million for Hunger-Free Community Grants 
authorized by Section 4405 of the 2008 farm bill and $0.7 million to 
expand the HealthierUS School Challenge program. In addition, the 
administration is proposing an increase of $10 billion over 10 years 
for reauthorization of the Child Nutrition Programs. These increases 
will support the President's efforts to reduce childhood hunger and 
obesity by improving access to nutritious meals, to encourage children 
to make healthy food choices, and to enhance services for participants 
by improving program performance and integrity.
    For the Supplemental Nutrition Assistance Program (SNAP), the 
budget includes $67 billion, including $5.9 billion in Recovery Act 
funds, to fully fund estimated monthly participation and provides $3 
billion in contingency funds, for a total contingency fund of $6.0 
billion with carryover from fiscal year 2009, should actual costs 
exceed the estimated level. Participation in SNAP is estimated to be 
about 32.6 million per month in 2009, and is projected to increase to 
35.0 million in 2010. The Recovery Act benefit increase will remain in 
place until the normal cost of living adjustment catches up to the 
higher benefit levels.
    The budget proposes discretionary funding for the Commodity 
Supplemental Food Program (CSFP) at a level needed to maintain the 
current participation and continues funding for The Emergency Food 
Assistance Program (TEFAP).
    In order to improve the administration of nutrition programs, the 
budget includes increases in the Nutrition Programs Administration 
account to improve payment accuracy, advance the use of technology in 
benefit delivery, and enhance nutrition education.
    In 2010, we look forward to issuing the revised Dietary Guidelines 
for Americans, which are the cornerstone of Federal nutrition policy 
and the foundation on which all Federal nutrition education, diet and 
physical activity guidance, and nutrition assistance programs are 
built. The process of establishing the Dietary Guidelines requires an 
investment in assessing the most current and credible scientific 
evidence on which to base them, a function that USDA created and 
employs through its Nutrition Evidence Analysis Library. USDA will be 
working to update the nutrition assistance programs to reflect the 
latest science found in the 2010 Dietary Guidelines. Further, the 
Department will build upon its enormous success in promoting healthy 
eating habits and active lifestyles with MyPyramid, including 
enhancements of the interactive and personalized tools, such as the 
recent MyPyramid for Pregnant and Breastfeeding Women, and MyPyramid 
for Preschoolers. MyPyramid is an important investment in the fight on 
obesity and much more needs to be done in this area, and to increase 
the level of physical activity that Americans engage in on a daily 
basis.
Food Safety
    A key responsibility I have is to make sure Americans have safe and 
sufficient and nutritious food. Although we have a strong food safety 
system, we need to continue to work to do a better job. We must focus 
on eliminating hazards before they have an opportunity to make anyone 
sick, developing technologies that will help us discover risks and 
allocate resources to reduce this risk, and during outbreaks rapidly 
identify and respond to incidents of foodborne illness. I am committed 
to modernizing the food system, focusing on preventing rather than 
mitigating the consequences of food-borne illness.
    For 2010, the budget requests over $1 billion for the Food Safety 
and Inspection Service. Not only will this funding will ensure that the 
demand for inspection is met as it provides for increased investments 
that will improve prevention, early detection, and mitigation that will 
reduce the adverse health impacts related to foodborne illness.
    The budget includes an increase of $23 million to improve the food 
safety Public Health Infrastructure. These improvements will strengthen 
and secure FSIS' ability to target food safety inspections and 
investigate food safety outbreaks. In addition, the budget includes an 
increase of $4 million for additional food safety assessments. These 
assessments are conducted by a team of investigators with a broad array 
of skills necessary to conduct a comprehensive evaluation of an 
establishment's food safety control system and potential public health 
risks associated with meat, poultry, and egg products.
    The budget estimates that $153 million in existing user fees for 
voluntary inspection will be collected. For 2010, we will submit 
legislation to Congress that would authorize the collection of fees to 
cover the cost of additional inspection activities necessary for 
establishments with performance failures such as retesting, recalls, or 
inspection activities linked to an outbreak.
    As a member of the President's Food Safety Working Group, I look 
forward to working with Secretary Sebelius and others to develop a 
strategy that will achieve the President's goals to upgrade our food 
safety laws for the 21st century and ensure that we are not just 
designing laws that will keep the American people safe, but enforcing 
them. The working group will improve coordination between USDA and the 
Department of Health and Human Services and other Federal food safety 
agencies. These activities will strengthen our capacity to reduce 
foodborne illnesses and deaths resulting from foodborne illness.
Trade
    USDA has an important role in expanding exports for our 
agricultural products. It is significant that, while the country as a 
whole has a trade deficit, agriculture has a trade surplus. USDA 
estimates that the trade surplus for agricultural products will be $13 
billion in fiscal year 2009. To encourage further export expansion for 
our products, we need to work hard both in Washington and in our 
offices overseas to ensure continued access to overseas markets. I 
appreciate the subcommittee's support in providing additional resources 
in 2009. Our 2010 budget builds on this foundation with $16.4 million 
in additional funds to meet critical needs in the Foreign Agricultural 
Service. The budget places particular emphasis on maintaining FAS's 
overseas presence so that its representation and advocacy activities on 
behalf of U.S. agriculture can continue and on upgrading FAS' 
information technology infrastructure. These funds are critical to 
continue our efforts to break down trade barriers that limit our 
capacity to export, such as the imposition of sanitary and 
phytosanitary barriers that are not in accord with international 
standards or science-based. As world market conditions deteriorate 
under the current financial crisis, we must be especially vigilant to 
ensure that we keep markets open as we move forward.
    Expanding our access to world markets and developing long-term 
trade relationships continue to be vital components of our strategy to 
improve the vitality of the farm sector and quality of life in rural 
areas. Due to the global credit crisis, we have seen a significant 
increase in demand for export credit guarantees provided through the 
GSM-102 program. To help meet this demand, the budget provides a 
program level of $5.5 billion for CCC export credit guarantees for 2009 
and 2010. This is a noteworthy increase in programming from as recently 
as 2007, when the program registered sales of $1.4 billion.
International Food Assistance
    An important focus of the Department's international work is 
providing foreign food assistance and promoting agricultural 
development overseas. The administration has established the goal of 
renewing the U.S. leadership role in global development and diplomacy, 
and fostering world food security. The international food aid programs, 
such as the McGovern-Dole International Food for Education and Child 
Nutrition and Public Law 480 Title II programs, contribute to that goal 
by addressing food insecurity throughout the world and supporting 
development, health, and nutrition.
    In support of those objectives, the 2010 budget increases 
appropriated funding for the McGovern-Dole program to nearly $200 
million, a doubling of the 2009 enacted level. We estimate the program 
will assist over 4.5 million women and children during 2010 at that 
funding level. This is a valuable program that promotes education, 
child development, and food security for some of the world's poorest 
children.
    For the Public Law 480 Title II program, the budget provides a 
program level of nearly $1.7 billion, an increase of $464 million above 
the 2009 enacted level. The increase will reduce our reliance on the 
need for future emergency supplemental funding. Supplemental 
appropriations for the Title II program have been requested repeatedly 
in recent years in response to a substantial growth in emergency food 
assistance needs. In that regard, we appreciate the Committee's 
favorable action on the supplemental request submitted by the President 
on April 9.
Environmental Services Markets
    The President has made clear his priorities in addressing climate 
change and expanding our capacity to produce renewable energy. These 
priorities create significant new opportunities for farmers and 
ranchers to succeed. The agriculture and forestry sectors hold the 
potential to deliver substantial emissions reductions, including carbon 
sequestration, under a national climate change policy and the 
establishment of environmental services markets. The budget reflects 
the new course the administration has set to ensure that America leads 
the global fight against climate change, and to revitalize rural 
communities by expanding economic opportunities, while maintaining a 
sustainable, safe, sufficient and nutritious food supply. To create 
additional economic opportunities for America's farmers and ranchers, 
the administration is pursuing new initiatives that reward producers 
for sequestering carbon and limiting greenhouse gas emissions by 
providing mechanisms for producers to generate income through 
environmental services markets. By seizing the opportunities presented 
by environmental services markets, producers will be able to transition 
away from a dependence on traditional farm programs.
    To this end, the budget includes an increase of $15.8 million to 
develop markets that reward producers for sequestering carbon and 
limiting greenhouse gas emissions. This includes $1.8 million to 
develop the metrics and certifications associated with the 
environmental services related to conservation and certain land 
management activities. We are also requesting an increase of $9 million 
to enhance the research and analytical capabilities of the Department 
related to global climate change and $5 million to conduct Government-
wide coordination activities that will serve as the foundation for the 
establishment of markets for these ecosystem services.
    We need to ensure that farmers and ranchers capitalize on emerging 
markets for clean renewable fuels and help America reduce its 
dependency on foreign oil by helping establish the demand necessary to 
support increased production of biofuels.
Renewable Energy
    The 2008 farm bill provided significant mandatory funding to 
support the commercialization of renewable energy. The 2010 budget 
builds on this investment in renewable energy and biobased activities 
by requesting discretionary funding to support almost $780 million in 
investments, approximately a net increase of about $275 million from 
2009. This includes increases of $218 million for loan guarantees and 
$32 million in grants to support renewable energy and energy efficiency 
projects under the Rural Energy for America Program (REAP). This 
request would more than double the amount of funding made available for 
REAP under the farm bill for 2010. In addition, the budget supports an 
increase of $49 million in loan guarantees for the Biorefinery 
Assistance Program.
    The emphasis on renewable energy research will be on production of 
energy crops. The 2010 budget proposes an increase of $11 million for 
the development of new varieties and hybrids of feedstocks with traits 
for optimal production and conversion to biofuels. The funding will 
also be used to develop a new data series on the supply and location of 
commodity production for renewable fuels.
Rural Development
    USDA's Rural Development (RD) programs provide essential support to 
rural America by providing financial assistance for broadband access, 
housing, water and waste disposal and other essential community 
facilities, electric and telecommunication facilities, and business and 
industry.
    The 2010 budget includes funding to support over $21 billion for 
loans, loan guarantees, and grants for the Rural Development on-going 
discretionary programs, an increase of $825 million over 2009. This 
makes Rural Development one of the largest lenders in the country.
    The budget will support over $7.3 billion in direct and guaranteed 
single family housing loans that will provide more than 59,000 rural 
homeownership opportunities. In addition, the budget includes $1.1 
billion, an increase of $188 million over 2009, to provide for rental 
assistance payments for 248,000 low-income households that reside in 
USDA financed multi-family housing and receive such assistance. This is 
sufficient for the renewal of all expiring rental assistance payment 
contracts. Rental assistance payments protect the rents of low-income 
rural residents who live in USDA financed multi-family housing 
projects. By maintaining these payments, we not only provide support to 
recipients, but also provide financial stability for multi-family 
projects that provide affordable housing to 460,000 families who live 
in these projects.
    The 2010 budget maintains significant support for infrastructure 
programs, such as the Water and Waste Disposal program and the Electric 
program. The budget funds approximately $1.6 billion in on-going direct 
loans and grants, an increase of $80 million over 2009, for essential 
water and waste disposal services. This program received an additional 
$3.7 billion under the Recovery Act and $300 million under the 2008 
farm bill to reduce the backlog of applications. These investments will 
help bring increased economic benefits to rural America by providing 
needed water and waste disposal systems and by creating jobs. For the 
Electric program, the budget provides $6.6 billion in funding for loans 
for the construction of electric distribution and transmission systems 
and to maintain existing generation facilities. This level of funding 
is sufficient to meet the expected demand for these loans.
    Increasing access to broadband service is a critical factor in 
improving the quality of life in rural America and in providing the 
foundation needed for creating jobs. The 2010 budget includes funding 
to support $1.3 billion for telecommunications loans and grants, 
including broadband. This funding level, coupled with the additional 
funding provided for USDA's broadband programs in the Recovery Act, 
will significantly accelerate the deployment of broadband access in 
rural America. These investments will increase access to quality 
broadband service, which is essential to keeping pace in a world that 
relies on rapid telecommunications.
    The 2010 budget also supports $546 million in direct loans, loan 
guarantees and grants for essential community facilities, such as 
health care and public safety facilities; as well as $993 million in 
business and industry loan guarantees and $34 million in zero-interest 
direct loans for intermediary relending.
    To spur the development of small business and value-added 
agriculture in rural America, the 2010 budget provides a $63 million 
increase for rural small business development in the Rural 
Microentrepreneur Assistance Program (RMAP), which is in addition to 
the $4 million in mandatory funding provided by the 2008 farm bill. An 
increase of $18 million is requested for Value-Added Producer Grants 
and nearly an $8 million increase for Rural Cooperative Development 
Grants.
    In keeping with the President's direction to eliminate spending 
that is no longer needed, the 2010 budget does not provide any funding 
for the EZ/EC grants for which the statutory authority expires, high 
energy cost grants which serve a narrow interest that can qualify for 
USDA assistance under several Rural Development programs, and grants 
for public broadcasting digital conversion, which is due to be 
completed in June 2009.
Diversity of Agricultural Production
    Consistent with President Obama's desire to invest in the full 
diversity of agricultural production, the budget focuses greater 
attention on assisting the organic sector, providing greater assistance 
to producers of specialty crops, and supporting independent livestock 
producers.
    The budget includes an additional $2.9 million, a 74-percent 
increase, in funding for the National Organic Program, which will 
support enhanced outreach and education and ensure program compliance 
to maintain labeling credibility.
    The budget also includes additional funding for USDA to work with 
the fruit and vegetable industry to develop, establish, and operate 
Federal marketing agreements or orders that will involve quality 
factors affecting food safety for U.S. leafy greens or other fruits and 
vegetables.
    In an era of market consolidation, the administration will support 
policies to ensure that family and independent farmers have access to 
markets, control over their production decisions, and transparency in 
prices. This includes implementation of farm bill-related regulations 
to enhance enforcement of the Packers and Stockyards Act, which 
prohibits unfair, deceptive, and fraudulent practices. For 2010, 
additional funding is included to strengthen enforcement of the Packers 
and Stockyards Act. Proper enforcement will ensure a level playing 
field that fosters fair competition, provides payment protection, and 
guards against deceptive and fraudulent trade practices in the 
livestock and meat sectors.
Research
    USDA's science agencies have been successful in developing 
innovative research technologies and solutions to deal with the highest 
priority issues facing American agriculture. Today we are confronted 
with national and global challenges that will require both an educated 
workforce and pioneering scientific research to effectively address. 
The 2010 budget includes proposals to revitalize rural education and 
confront the challenges of global climate change, bioenergy production 
and childhood obesity.
    Consistent with the President's pledge to make math and science 
education a national priority at all grade levels and revitalize rural 
economies, the 2010 budget for the National Institute of Food and 
Agriculture includes an increase of $70 million for research, education 
and extension activities. These funds will be used to provide 
incentives for educators in rural areas to enhance their teaching 
skills by establishing Rural America Teaching Fellowships, which will 
encourage qualified teachers to pursue professional development 
activities. The additional funding will allow secondary, 2-year 
postsecondary, and higher education institutions serving rural areas to 
update and revise their curricula and coordinate research and extension 
activities in the food and agricultural sciences. This initiative will 
also help strengthen the teaching, research, and extension programs in 
the food and agricultural sciences at 1890 and 1994 Land Grant Colleges 
and Hispanic-Serving Institutions. Finally, a new competitive grant 
program, utilizing the existing infrastructure of 1862 and 1890 land-
grant institutions, will be implemented to support rural 
entrepreneurship and sustain jobs in rural communities through training 
and the creation of web-based tools.
    The budget for the Agricultural Research Service (ARS) includes $37 
million in increases for high priority research in areas such as 
childhood obesity, bioenergy, world hunger, and global climate change. 
This includes an increase of $13 million for a major ARS initiative to 
develop effective sustainable practices to help reduce childhood 
obesity through preventative measures. As past attempts at treating 
obesity have proven unsuccessful, research will seek to determine the 
barriers to individuals in following the healthful eating and physical 
activity recommendations set forth in the Dietary Guidelines as well as 
study family centered interventions to determine their ability in 
preventing obesity in children. In conjunction with this effort, ARS 
will work to develop new healthier foods which increase satiety, 
decrease caloric density, and increase dietary fiber.
    The 2010 budget for ARS also includes an increase of $11 million to 
conduct research on the development of new hybrids and varieties of 
bioenergy feedstocks that have the traits necessary for the optimal 
production and conversion to biofuels. ARS is uniquely suited to lead 
this research, because it maintains the National Plant Germplasm 
Collection, the world's largest seed collection, and administers 
important genetic improvement and breeding programs. Research will also 
focus on developing strategies and technologies that will result in the 
sustainable, efficient and economic production practices of energy from 
forestry and agricultural products in ways that maintain the quality of 
the natural resource base.
    As I mentioned earlier, the budget supports research for global 
climate change aimed at developing mitigation and adaptation strategies 
through science. The budget proposes increases of $9 million within ARS 
to assess and manage the risks of global climate change to agricultural 
production and $1.8 million within the Economic Research Service budget 
to support research on the economics and policies for reducing 
greenhouse gas emissions.
    For the National Agricultural Statistics Service (NASS), the budget 
includes an increase of $1.8 million to establish a data series on key 
elements of bioenergy production and utilization which will be 
instrumental in developing a renewable energy infrastructure. The 
budget also includes an increase of $5.75 million to restore the 
chemical use data series which will allow the collection of data on 
major row crops on an alternating year basis. This data series will 
enable USDA, EPA and others to respond adequately to questions about 
agricultural chemical use and its possible effects on the environment.
    These program increases are offset by reductions in research and 
extension earmarks and lower priority projects that total about $260 
million.
Farm Safety Net
    The President's Budget includes proposals to improve fiscal 
responsibility, while supporting a robust safety net for producers that 
provide protection from market disruptions, weather disasters, and 
pests and diseases that threaten the viability of American agriculture. 
I want to reassure you that the President's Budget maintains the three-
legged stool of farm payments, crop insurance, and disaster assistance. 
However, in keeping with the President's pledge to target farm payments 
to those who need them the most, the budget proposes a hard cap on all 
program payments of $250,000 and to reduce crop insurance subsidies to 
producers and companies in the delivery of crop insurance. Crop 
insurance costs have ballooned in recent years from $2.4 billion in 
2001 to a projected $7 billion in 2009. The President's 2010 budget 
would rein in these costs by saving over $5.1 billion over the next 10 
years. While the budget includes a proposal to phase out direct 
payments to the largest producers, the Department is prepared to work 
with Congress and stakeholders as these proposals are considered.
Farm Programs
    To better respond to the Nation's economic troubles, USDA took 
swift action to implement the farm bill, and we will continue to move 
rapidly to implement the remaining portions of the farm bill. To that 
end, the 2010 budget requests an increase of $67.3 million to continue 
the Farm Service Agency's IT modernization effort and activities 
necessary to stabilize its legacy computing environment. This funding 
will supplement the $50 million provided in the Recovery Act for FSA's 
IT needs. The combined funds from the Recovery Act and the 2010 budget 
will allow us to continue to make progress in improving the delivery of 
farm program benefits, the security of producer information, and the 
integrity of taxpayer dollars by reducing the potential for erroneous 
payments. However, additional funding will be required in subsequent 
years to complete the stabilization and modernization efforts.
Farm Credit
    USDA's farm credit programs provide an important safety net for 
farmers by providing a source of credit when they are temporarily 
unable to obtain credit from commercial sources. ARRA provided 
substantial assistance to address the tightening of credit in rural 
areas as a ripple effect of the Nation's overall credit crisis. Because 
the demand for credit is still high, the 2010 budget requests funding 
to support $4.1 billion in direct and guaranteed farm loans, an 
increase of $0.7 billion over the 2009 on-going level.
Crop Insurance
    For the Risk Management Agency (RMA), the budget requests $80 
million, an increase of $3 million over 2009. RMA manages the Federal 
crop insurance program in partnership with private sector insurance 
companies. This partnership has been very successful in increasing 
participation; however, potential instances of fraud and abuse within 
the crop insurance program continue to be identified. The President's 
budget includes an increase of $1.8 million to provide RMA the 
resources necessary to address critical compliance needs identified by 
the Government Accountability Office, the Office of Inspector General, 
and others. This funding will help to improve the transparency of the 
crop insurance program and identify those producers, agents, and other 
program participants who would knowingly defraud the Government.
Conservation
    The administration fully supports partnering with landowners to 
conserve land, protect wetlands, improve wildlife habitat, expand 
hunting and fishing opportunities, and promote other conservation 
initiatives. In this vein, the proposed budget includes several vital 
conservation programs, including the Conservation Reserve Program 
(CRP), Conservation Stewardship Program (CSP), the Environmental 
Quality Incentives Program (EQIP), and the Wetlands Reserve Program 
(WRP) that were authorized in the 2008 farm bill.
    These programs provide a special opportunity to address not only 
the Nation's most serious natural resource needs but also to facilitate 
the administration's goals of increasing energy conservation, improving 
renewable energy production, and reducing carbon emissions. These 
programs have also been instrumental in establishing and maintaining 
USDA's unique partnership with land owners and operators that will be 
vital to our success in solving or mitigating these serious 
environmental and energy concerns through voluntary actions.
    The 2010 budget reflects a continued commitment to conservation by 
including nearly $4.7 billion in mandatory funding for those 
conservation programs authorized in the 2008 farm bill. This will 
support cumulative enrollment of more than 281 million acres in these 
programs, a 10 percent increase over 2009. CRP, which accounts for more 
than 41 percent of total funding for conservation programs, is funded 
at just under $2 billion in 2010. This level of funding will support a 
cumulative enrollment level of 30.4 million acres. The budget proposes 
spending $1.2 billion for EQIP, which will support enrollment of an 
additional 16.8 million acres through cost-share contracts.
    Further, the Conservation Stewardship Program (CSP) and the 
Wetlands Reserve Program (WRP) are funded in the 2010 budget. This 
includes $447 million for CSP that will be used to enroll 12.8 million 
additional acres, and $391 million for WRP to enroll a projected 
152,600 acres. While the projected WRP enrollment in 2010 is slightly 
below the 2009 level, it is considerably higher than enrollment levels 
in recent years including more than double the level enrolled in 2008.
    The 2010 budget also includes $907 million in discretionary funding 
for on-going conservation work that provides high quality technical 
assistance to farmers and ranchers and addresses the most serious 
natural resource concerns. This includes discretionary savings of $75 
million from the elimination of duplicative programs and programs that 
are not as high a priority of other programs, including the Resource 
Conservation and Development Program and the Watershed and Flood 
Prevention Operations Program.
Civil Rights
    Ensuring equitable treatment of all of our employees and clients is 
a top priority for me. The 2010 budget includes increased resources to 
improve our efforts to ensure that all USDA employees and constituents 
are treated fairly. For too long, the Department has been known for 
prejudice and discrimination in its employment practices and program 
delivery. Such practices will not be tolerated while I am Secretary of 
Agriculture. By holding each USDA employee accountable for their 
actions and through the implementation of my recently announced civil 
rights plan, we will strive to make the Department a model agency for 
respecting civil rights. In support of these efforts, the 2010 budget 
includes funding to address program and employment complaints of 
discrimination and to increase the participation of small, beginning, 
and socially disadvantaged producers in USDA programs.
Outreach to Underserved Constituents
    Another key initiative is expansion of outreach to underserved 
constituents. The 2010 budget includes funding to support establishment 
of the Office of Advocacy and Outreach authorized in the 2008 farm 
bill. This office will increase the accessibility of programs to 
socially disadvantaged producers, small-scale producers, and beginning 
farmers and ranchers and will provide them an avenue for input into the 
programmatic and policy decisions to improve their viability and 
profitability.
    The budget also provides the funding necessary to support enhanced 
government-to-government relations and improve Tribal consultation and 
outreach activities related to USDA programs. This will enhance USDA's 
understanding of the diverse needs of Indian Tribes and the impacts of 
programs on Tribal organizations and communities.
Department Management
    In addition, the budget also supports efforts to improve the 
management and oversight of Departmental programs. Increased funding is 
being sought for management priorities, including:
  --Instituting a Department-wide cyber security initiative to 
        eliminate critical vulnerabilities that threaten the integrity 
        of the USDA network and the security and privacy of 
        Departmental systems and information. The budget includes an 
        increase of $45.8 million to ensure that USDA can reliably 
        deliver its broad portfolio of programs in a secure IT 
        environment.
  --Providing oversight of program delivery by conducting audits and 
        investigations and limiting fraud, waste, and abuse throughout 
        USDA.
  --To make USDA more open and its processes more transparent, the 
        budget includes funding for enhanced communications 
        capabilities; tools for improved public access to the appeals 
        process; and additional oversight to improve USDA reporting to 
        the public on programmatic spending.
Conclusion
    We have begun the process of making tough decisions about where our 
priorities lie and have made some tough choices about where we spend 
our resources. These choices reflect the new direction the President 
wants to take the country at this historic time--a track that takes the 
Nation on the path to recovery and provides the foundation and diverse 
opportunities for farmers and ranchers to succeed.
    That concludes my statement. I will be glad to answer questions you 
may have on our budget proposals.

    Senator Kohl. Thank you, Mr. Secretary.
    We will start our round of questioning with 5-minute 
events.

              AMERICAN RECOVERY AND REINVESTMENT ACT FUNDS

    Mr. Secretary, the Economic Recovery Act included 
substantial resources for USDA, including $11 billion for 
housing loans, $3 billion for business loans and grants, $3.75 
billion for water and wastewater loans and grants, as well as 
other funds. We know this placed a huge burden on the 
Department to quickly identify and fund the good projects.
    Do you foresee impediments to effectively utilizing all of 
the Recovery Act funds in a timely manner, and does this effort 
complicate the effective use of your annual appropriations?
    Secretary Vilsack. Mr. Chairman, we appreciate the 
opportunity that the American Recovery and Reinvestment Act has 
given us to invest in appropriate investments across the wide 
spectrum that you have identified with your question.
    Let me simply report to you and to the committee that we 
have been very aggressive in our efforts to implement the 
Recovery and Reinvestment Act. To date, USDA has provided 
37,057 home loans, single family housing loans, which has 
allowed us to reduce a significant backlog. To date, with the 
recovery and reinvestment resources, we have provided 2,636 
direct operating loans to farmers and ranchers in need.
    At the same time, we have begun the implementation of the 
expanded Supplemental Nutrition Assistance Program benefits 
which has on average provided an additional $80 a month for a 
family of four. For the benefit of the committee, these 
resources are expended by those families, 97 percent of them, 
within 30 days, and the reality is that for every $5 we invest 
in that specific program, we get $9.20 of economic activity. It 
is, indeed, a direct stimulus.
    We have provided over $615 million for safe drinking water 
and improved wastewater treatment facilities in rural 
communities in 34 States.
    We have announced $357 million in funding for Forest 
Service projects.
    We have fully obligated the $100 million that you all 
provided for the National School Lunch Program.
    We have also obligated $100 million for The Emergency Food 
Assistance Program. I was recently in Kentucky at a food bank. 
I cannot tell you how appreciative the food banks of this 
country are for the commitment that you have made. In that one 
facility alone, an additional 172,000 meals will be served as a 
result of the commitments and resources they received, and I am 
pleased to say that many of those meals will be high-protein 
meals with pork and poultry being two particular commodities 
that they were able to purchase.
    We have awarded $85 million--I think we have committed $145 
million for available watershed operations projects. We have 
awarded $45 million for watershed rehabilitation programs to 
rehabilitate dams and critical public health and water quality 
issues.
    And we have provided over $60 million in funding for 
community facilities in 39 States, including a number of fire, 
police, and medical vehicles.
    So we have rapidly implemented, as best we can, a 
substantial portion of the recovery and reinvestment proceeds.
    To your question in terms of its impact, this has, 
obviously, placed some stress on our staff, but I would suggest 
it has probably placed a greater stress on the staff of OMB, 
which sometimes makes it difficult for us working with those 
hard-working folks at OMB to get all of the rules and 
regulations out for the many programs that the USDA has 
responsibility for. I am sure we will touch on a few of those 
by the time the questions are finished today.
    Senator Kohl. Very good.
    Senator Brownback.
    Senator Brownback. Thank you, Chairman.

                 NATIONAL BIO AND AGRO-DEFENSE FACILITY

    A couple questions in some broad areas. One, I want to 
start off with, though, narrowly is the NBAF facility was 
recently announced in Manhattan, Kansas, the National Bio and 
Agro-Defense Facility. The physical plant is owned by Homeland 
Security. It is operated by USDA.
    Do you know USDA's plans to transition it from Plum Island, 
as far as when the actual personnel will be moved to expand 
this expanded mission at NBAF?
    Secretary Vilsack. Senator, I am not sure that we have a 
specific time table for transition. We are aware of the fact 
that this is an important step for us to take in terms of our 
homeland security and biosecurity.
    This new facility will provide us expanded space. It will 
also provide us BSL-4 capabilities which we currently do not 
have.
    We are working with the Department of Homeland Security, 
and we have identified with the Department of Homeland Security 
a variety of research opportunities at that facility once it 
gets in place. We are concerned, obviously, as I am sure you 
are, about foot and mouth disease, classical swine fever, 
African swine fever, Rift Valley fever, and a variety of other 
diseases. We will be working very closely with Homeland 
Security to get this transition done as quickly as we can 
because it is an important facility.
    Senator Brownback. Good.

                     HUMANITARIAN FOOD AID DOLLARS

    I want to show a quick chart we had done up on food aid. 
The big area that I have got concern with in food aid--I have 
worked in this region for some period of time, worked with a 
number of experts on it, a very important program that we have. 
I think it is a critical diplomatic program. I think it is a 
critical humanitarian program. I think it is critical for us in 
making our new efforts on HIV/AIDS in Africa and malaria work 
because if we are going to treat people and they have got a 
poor diet, they do not do very well. They need a good diet to 
go along with it.
    The troubling aspect of this chart is that we have 
increased funding substantially over the past 8 years and our 
tonnage has gone down dramatically in that same period of time. 
We are at a point now where roughly 65 percent of our food aid 
dollars go for two areas, administration and transportation. I 
am hopeful we start looking at ways that we can get people well 
fed and try to get that piece of it in a more controlled 
fashion, if possible.
    I do not know if you are aware of this. These are GAO 
studies. This chart is from the GAO. They are very engaged on 
this. I know the chairman cares deeply about food aid. It has 
got to be done right, but a 65 percent number just seems way 
high to me on those two areas.
    Do you have any comments?
    Secretary Vilsack. Several. First and foremost, we 
recognize the important role that food aid plays in terms of 
America's role internationally, which is one of the reasons why 
we have suggested and proposed, as you know, an increase in the 
McGovern-Dole program. That has been a very successful program.
    Senator Brownback. It has broad bipartisan support. People 
like that one. It is good.
    Secretary Vilsack. Broad bipartisan support and for good 
reason. We can assist over 4 million children in 19 countries. 
In fact, it has been so successful that some countries have 
actually taken that model and adopted it for themselves and 
have actually moved away from a reliance on our program.
    As you well know, there are certain restrictions and 
limitations in terms of how resources that we do provide in 
food aid are transported to countries. I would say that we are 
focused on a----
    Senator Brownback. Can I get right at that? My time has run 
out. I am not going at that. That is an old fight around these 
places, and I do not think we ought to engage that fight. I 
just think we have got to somehow get our pencils sharper on 
the amount that we are going at the administration and 
transportation number. But to go at that fight, I have been 
around this one too long, and it will not get us anywhere.
    Secretary Vilsack. Well, I am not disagreeing with you. I 
am just pointing out that that is one of the explanations for 
the chart that you have placed up there.
    Let me suggest a different way, Senator, if I might.
    Senator Brownback. Please.
    Secretary Vilsack. Let me suggest that one way that we 
could perhaps move this process forward is to focus on how we 
might be able to use not just the food resources of this 
country but the knowledge and the technical assistance that 
this country can provide. I think that there is enormous 
opportunity, as I mentioned earlier in my opening statement, in 
Afghanistan and Pakistan to model an effort on the part of 
America to empower people to be more self-sufficient.
    One of the problems is that most of the world farms on 
relatively small farms, and most of what we do in this country 
and most of the research that we do is focused on larger farms. 
I believe that we can provide technical assistance. I believe 
that we can focus our efforts on 1 to 2 hectare-sized farms and 
create an even more effective international effort to 
supplement what we are currently providing in the way of 
emergency food.
    In order for there to be food security, not only do folks 
have to be able to grow the food, not only do they have to be 
able to trade and have an economy that will allow them to 
trade, but there is, obviously, a role for emergency food 
assistance.
    So it is all three of those aspects. If you focus simply on 
one or two of the three, then you are not going to make the 
food available. Even if it is available, you also have to focus 
on creating the infrastructure, the roads, the transportation 
systems that allow it to get to people. And even if it is 
accessible to people, you also have to make sure that there is 
adequate information about how to properly utilize food.
    So all three of these components have to be part of what 
USDA does and what the United States does relative to food 
security. It is, in my view, not just one. I think you have to 
do all three, and I think you have to focus on all aspects of 
this.
    Senator Brownback. Thank you.
    Senator Kohl. Thank you very much, Senator Brownback.
    Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.

                  DIRECT FARM PAYMENTS LIMITATION CAP

    Let me start, if I may, with another issue. As Senator 
Brownback alluded to on his issue, you know, we fight this 
fight sometimes around here. But I do want to get your thoughts 
on it, and that is the administration's proposal to phase out 
direct payments to farms that, I guess, have sales revenues 
above $500,000. Could you talk a little bit about that please?
    Secretary Vilsack. Senator, I think, first of all, I want 
to make it very clear that the administration, the President, 
myself, USDA understands and appreciates the important role 
that the safety net provides in rural America. That is the 
reason why we moved rapidly with the preceding administration 
and our administration to implement the farm bill rules as it 
relates to direct payments and counter-cyclical payments, why 
we have proposed the rules relating to ACRE and extended the 
sign-up for the ACRE program, and why we are currently working 
very hard and hopefully in the next 30 days to be able to put 
some of the livestock disaster payment rules out and to be in a 
position to have SURE, the disaster program, available in the 
fall.
    It is also one of the reasons why we do support reform but 
understand the important role that crop insurance plays in 
creating that safety net. So there is a commitment to the 
safety net.
    The proposal relates to a relatively small percent, 3 
percent, of the farmers who essentially receive 30 percent of 
the benefits. There may be and there probably are better ways 
to do this, Senator, and we are happy to work with you.
    We were challenged to focus on the priorities of increasing 
funding for child nutrition so we could end childhood hunger in 
this country and address the obesity issue at the same time. We 
were compelled, and I think appropriately so, to also take a 
look at the bottom line. We tried to respond to the priorities, 
made a proposal, but are certainly willing to work with you. If 
there is a better way to do this, we are certainly open to it.
    Senator Pryor. Well, I look forward to that. I think one of 
the things we should look at is the cost involved in producing 
the product and getting it out to the market because that 
varies widely depending on the product you are growing and also 
what region of the country you happen to be farming in. So I 
look forward to working with you on that. If we can do that 
fairly soon, that would be great.

                       POULTRY IMPORTS FROM CHINA

    My second question deals with trade, specifically trade 
with China and even more specifically with poultry. There is an 
amendment that was attached to the fiscal year omnibus 
appropriation bill section 727. Are you familiar with that?
    Secretary Vilsack. Yes, sir.
    Senator Pryor. What is your opinion on section 727? And I 
guess more specifically, it seems to me that--well, anyway, I 
would like to hear your opinion on that.
    Secretary Vilsack. Well, I think it is fair to say that the 
opinion of USDA is that we are, obviously, very interested in a 
science-based and rule-based trading system. That is one of the 
reasons why we have expressed concern recently on the H1N1 
circumstance and some of the decisions that countries have made 
to ban pork products.
    Having said that, we understand and appreciate the 
importance of concerns that are expressed in Congress and 
throughout the country about food safety relative to imported 
food. So what we are doing now is we are working with Members 
of Congress and a number of other folks to try to figure out 
precisely what the concerns are and see ways in which USDA can 
specifically respond to those concerns as quickly as possible 
so that whatever barriers exist can be removed and we can open 
up as much trade in all products as quickly as we possibly can.
    The commitment to you and to this Congress and to this 
committee is to work as quickly as we can to figure out 
precisely what we can do better than we are currently doing, 
and I think, hopefully, we will, within the next several 
months, have a better, clearer understanding of precisely what 
we can do better. Once we know that, we are committed to making 
that happen.
    Senator Pryor. Great. That is music to my ears. I would 
love to be part of those discussions with you and try to figure 
out how we can proceed from here. My impression of section 727 
is it ends up hurting American agriculture, specifically the 
poultry part of that. But we can talk about that more offline 
and have more discussions.

              RESEARCH FUNDING AT LAND GRANT UNIVERSITIES

    The last question I have for you is about the traditional 
land grant colleges and the research that is being done there. 
I believe it was Senator Brownback--I am sorry--Senator Bond--
one of those two referred to that. Could you tell us about the 
funding there? There is a core element of that research. Then 
there are a lot of other things that get done. Could you tell 
us about your vision for how we should prioritize those 
research dollars?
    Secretary Vilsack. Thank you for that question. And I 
certainly appreciated Senator Bond's comments, and I understand 
his concerns.
    Let me simply say, alluding to the fact that we had a 
relatively short period of time to put this budget together, 
that I did not feel comfortable knowing fully and completely 
all aspects of the Department's activities. So what I decided 
to do was in hiring the Under Secretary for Research, 
Education, and Economics to challenge and to charge Dr. Shah, 
recently confirmed by the Senate, to take a look at all of our 
research activities to make sure that we properly prioritize, 
we properly fund, we properly understand the intersection of 
those research opportunities at USDA and at the land grant 
universities and the private sector so that we can make sure 
that we are spending and investing our resources as wisely as 
possible. Only then would I feel comfortable in terms of 
committing to a budget of additional resources or different 
resources directed in a different way.
    I understand the importance of research. I clearly 
understand the importance of land grant universities. I worked 
at one before I came here. I worked on the Seed Center at Iowa 
State University, and I understand precisely the work that it 
does and that land grant universities throughout the country 
do.
    I will tell you that in discussions with the Afghan and 
Pakistani minister, the one topic that came up repeatedly was 
the Extension Service, the important role that extension plays. 
They would like to be able to replicate that in their 
countries.
    So I do understand it. I would just like to have the 
opportunity to better understand the details and the specifics 
and to be able to prioritize appropriately so that I could then 
be able to justify precisely what we are doing and why we are 
doing it.
    Senator Pryor. Thank you.
    Thank you, Mr. Chairman.
    Senator Kohl. Thank you very much, Senator Pryor.
    Senator Cochran.

                       2008 FARM BILL PROVISIONS

    Senator Cochran. Mr. Chairman, thank you. I find myself in 
agreement with the distinguished Senator from Arkansas about 
the possible implications with changes in the farm bill or 
administration actions with respect to implementing the farm 
bill that might make it more and more difficult for southern 
agriculture producers along the Mississippi River where 
traditionally the crops have been cotton and rice and, to some 
extent, soybeans and others, that they will likely suffer more 
than any other segment of agriculture if this administration's 
proposals are actually codified by the Congress.
    So I just mention that. You know it already, but it is a 
serious concern. It could likely lead to support for cap and 
trade legislation. I never have understood exactly why we have 
that language to describe that legislation, but it is going to 
reduce prices paid to farmers. It is likely to increase input 
costs as well. I do not know who benefits from that except 
those who want major changes made in the farm bill.
    We spent a year in hearings and working to try to develop a 
consensus for writing a new farm bill, and now to have this 
administration come in and immediately start attacking major 
provisions that were the objects of a lot of debate and a lot 
of difficulties in getting included in the bill set aside, I am 
concerned about that.
    I hope that we will support the administration's efforts in 
developing more aggressive trade policies. We think that is a 
very important step in the right direction, and we encourage 
you to use the tools that Congress has placed in the farm bills 
in the past that have worked, and we hope you can be successful 
in increasing our share of world markets with the use of those 
provisions.

                  DIRECT FARM PAYMENTS LIMITATION CAP

    Let me ask you if you could give us an update on the 
Department's farm bill implementation activities with respect 
to payment limitations.
    Secretary Vilsack. Senator, the direct payment and counter-
cyclical rules are out. The ACRE rules are out. The time period 
for sign-up is extended to August 14 to give folks the capacity 
to determine what is in their best interest. So those rules are 
out, and we are waiting for farmers across the country to make 
decisions which are important to their operations. Once those 
decisions are made, we will certainly honor them.
    We are also in the process, this month, of working 
diligently with OMB to try to complete work on a number of the 
disaster provisions, particularly as it relates to livestock. 
We know the circumstances particularly in the upper Midwest and 
other parts of the country with reference to livestock and 
storms and the impact of floods. So we are working very hard to 
get those rules out so people understand how they can sign up.

                SUPPLEMENTAL REVENUE ASSISTANCE PROGRAM

    We also appreciate the SURE program, which was part of the 
2008 farm bill, a new disaster program. It is a complex program 
to develop, made more so by the changes that were made to it as 
a result of the American Recovery and Reinvestment Act. It is 
also highly tied to the technology challenges that we have 
within the USDA. Operating with very antiquated technology and 
software, it sometimes becomes very cumbersome and time-
consuming to write the software to implement these programs. 
But we believe we are on track to have SURE rules out, at least 
in some form, in the fall. Then we will have to collect data 
concerning losses and hopefully we will be in a position to 
respond with payments in the following year.
    Senator Cochran. Thank you very much.
    Senator Kohl. Thank you, Senator Cochran.
    Senator Johnson.

                 NATIONAL ANIMAL IDENTIFICATION SYSTEM

    Senator Johnson. Thank you, Secretary Vilsack, for 
conducting an animal ID listening session in South Dakota. Are 
there any parts of the current plan you are absolutely 
committed to moving forward?
    Secretary Vilsack. Senator, this is, among many issues, a 
very contentious and difficult one. It not only creates 
different attitudes in different parts of the country, it 
creates different attitudes within the livestock family 
generally, poultry and pork having different views about it 
than cattle, and within the cattle industry, different views 
depending upon whether you graze on public lands or private 
lands or a combination.
    We have not completed the listening sessions, and so the 
candid answer to your question is I have not made any specific 
decisions relative to the program and improvements to the 
program because I want to give everyone an opportunity to have 
input.
    I will say that the reason why we are doing these listening 
sessions is because there has been concern expressed by some 
Members of Congress about whether or not the investment that is 
being made today by the Federal Government, now in excess of 
$130 million, is money well spent. That concerns me from a 
market standpoint. A recent study suggested that one incident 
could cause the livestock industry as much as $13 billion in 
losses. We know one head of cattle coming across the border 
from Canada caused us significant problems in our cattle which 
we still yet have to recover from in terms of our trading 
partners, and we also know that our trading partners are 
looking very closely at the safety and security systems that we 
have.
    There have been a number of concerns that have been raised, 
which I am sensitive to. One is the cost. Two is the 
technology, whether or not the Government is going to address a 
specific technology or a range of technologies that could be 
used. Three, obviously, whether it is voluntary or mandatory. 
Four, who bears the cost? There is a significant difference 
between cattle, pork, and poultry in terms of the overall cost 
to the industry. And there are deep concerns about who gets the 
information, who uses it, how is it accessed, and whether the 
public through the media would have the capacity through the 
Freedom of Information Act to access information. All of those 
issues and I suspect a whole lot more have been identified, as 
we look for improvements, we are going to have to think 
creatively and innovatively about.
    Senator Johnson. Could you provide me with a timeline on 
all this to take place and when your decisions will be made?
    Secretary Vilsack. Well, we expect and anticipate that it 
will take another month to two to complete the listening 
sessions, and then, hopefully, not very long after that, we 
would be in a position to make some recommendations and 
suggestions to see what reaction we get.
    The one thing I do not want to have happen is I do not want 
this Congress to lose confidence in the system, not provide 
funding, and then send I think what would be a very poor 
message to our trading partners and would, I think, negatively 
potentially affect our trading opportunities.

                       COUNTRY OF ORIGIN LABELING

    Senator Johnson. Given your excellent dedication to the 
COOL program, how have you been working with the USTR to ensure 
COOL is implemented properly?
    Secretary Vilsack. We have had very good conversations with 
Ambassador Kirk and his staff. We have had two face-to-face 
meetings between USDA staff and the Trade Representative's 
staff. I appreciate the working relationship that we have 
developed. Ambassador Kirk and I were friends before we had 
this opportunity in the administration, and we have built on 
that friendship.
    We continue to provide information and resources concerning 
COOL to the Trade Representative so that there is a clear 
understanding and appreciation that we are committed to COOL. 
We are committed to following the intent of Congress, as you 
all have outlined it, that we do not think that what we have 
proposed or suggested or that what you all have passed is 
necessarily trade-distorting. We think it is within the 
guidelines provided by the WTO. We know that our trading 
partners may have disagreements about that.
    Just one observation. A recent report suggested that 
livestock activities in Canada have been a bit more robust than 
they have been in this country, which would suggest that 
perhaps COOL is not having the impact or effect that some might 
believe.
    We will continue to work with USTR, continue to work with 
our Canadian and Mexican friends to make sure that they fully 
understand what this is and more importantly what it is not.

                  DIRECT FARM PAYMENTS LIMITATION CAP

    Senator Johnson. I have been an enthusiastic supporter of a 
cap on $250,000 for a payment limitations cap. But I am 
concerned about the $500,000 gross sales limit approach for 
direct payments also included in the budget. I want to point 
out that I am in favor of the $250,000 cap, unlike some of my 
colleagues, but I am opposed to the sales revenue cap because 
it is a gross number and not net.
    Secretary Vilsack. Well, Senator, in one respect I guess 
the USDA can be congratulated for developing such a strong 
bipartisan reaction to this idea. When I was Governor of Iowa, 
I often said that I would propose but the legislature would 
perfect, and I suspect that that strategy is in play here.
    Senator Johnson. Where do you propose to have an offset for 
the change if we make it?
    Secretary Vilsack. Well, Senator, we are pledged to working 
with you, with this committee, and with your counterparts in 
the House to make sure that this budget squares itself. We are 
committed to working with you. We were sure of one thing when 
we proposed this budget that you all would not just say, well, 
this is great, all in favor, say aye. You would have a lot to 
say about this budget. We are committed to working with you.
    I think it is important for me to reemphasize the 
priorities that the President has and that I share. We think it 
is important for a multitude of reasons that we address 
aggressively child nutrition. We think it is important for a 
variety of reasons, not to mention national security and 
economic security, that we continue to invest in bioenergy and 
rural development. And we do believe that there are ways in 
which we can have a strong, adequate safety net, as perhaps you 
have suggested with the cap, that do not necessarily make it 
more difficult for people to survive. And we are committed to 
that set of priorities.
    Senator Johnson. Thank you, Mr. Secretary.
    Senator Kohl. Thank you very much, Senator Johnson.
    Senator Bond.
    Senator Bond. Thank you, Mr. Chairman.
    Mr. Secretary, being a fellow former Governor, we have had 
a lot of experience on the legislative branch disposing of what 
we have proposed.
    I appreciate your answers to my colleague from Arkansas on 
research. We want to work with you on that.
    When you were speaking about Afghanistan, agriculture 
there, we have talked about the National Guard ag development 
teams, and we want to work it to the point where USDA is 
participating as security advances on that area because there 
is a tremendous opportunity.

                           CHILDHOOD OBESITY

    I want to move into another area. In one of the answers to 
one of the questions, you mentioned the priority of dealing 
with obesity, and you also testified initially about serving 
very nutritious food. As you know, the SNAP program is getting 
a $7.3 billion increase to over $61 billion, and we are all 
aware that this extra investment in taxpayer money can legally 
be used to buy sugar-sweetened drinks and empty-calorie food.
    Now, I am concerned. Are we doing well by taxpayers but, 
most importantly, by the recipients of assistance and their 
families when we subsidize poor and unhealthy diets? It seems 
to me that there is an opportunity with the electronic benefits 
card and point-of-sale displays or information to make sure 
that more of the assistance that is received is used in the 
healthy pyramid food type purchases. What are your views on 
that?
    Secretary Vilsack. Well, Senator, first of all, I want to 
acknowledge that you feel very strongly about this, and I 
appreciate the passion that you have about this. We have talked 
about it in your office and I know that you are committed to 
it.
    Let me, first and foremost, say that food is an 
extraordinarily complicated set of issues. Until I got this 
job, I did not realize that there were over 300,000 food 
products sold in grocery stores around this country, and that 
over 12,000 new products were introduced in the last 10 or 15 
years.
    We have made a concerted effort to, one, work diligently to 
try to improve the food pyramid so that it reflects modern 
science; two, that we do a much better job of promoting through 
educational tools the need for more nutritious food. We have 
begun a process of working particularly focusing on young 
children and young families to assure that moms and dads are 
aware of the important responsibility they have in making 
choices for their children. We are committed to working with 
our schools to make sure that not only are the school lunches 
and school breakfasts more nutritious, but what is in our 
vending machines at schools reflects that same attitude. So we 
think we are aggressively pursuing an education effort, and we 
think that over time it will make a difference.
    Senator Bond. But you are not willing to go down the road 
with me and cause a little bit of firestorm. I understand that.

                         AGROFORESTRY RESEARCH

    In the time I have remaining, we have had an opportunity to 
discuss agroforestry which is done--I am sorry my colleague 
from Arkansas has left. The University of Missouri School of 
Agroforestry works with the Booneville Agroforestry. It is a 
regional approach to assisting agriculture and particularly 
small farmers in using plants and trees for environmental 
benefits, providing better income. We are developing new crops 
like, I might just mention, chestnuts for example, as a second 
source of income. I had a minimum amount of happiness when I 
understand that the money for Booneville had been proposed for 
rescission. I hope that you all will consider that.
    But most importantly, I hope that we will have an 
opportunity to work with you and your staff with people who are 
interested here in Washington about the opportunities we have 
to do so many of the things you are talking about through 
agroforestry research.
    Secretary Vilsack. Senator, we are excited about the 
opportunities that forests present. As I explained earlier in 
my opening statement, we see a new opportunity for us to link 
our forests with our private working lands with our urban 
centers so that there is a full appreciation across the country 
of what trees and forests mean.
    I know that there are concerns about specific proposals 
relative to things that you all designate and specify. Again, I 
think it is a reflection of the budget process. We will 
certainly work with folks, but please do not take from whatever 
we propose the belief that we do not understand and appreciate 
the importance of forests because we do. We are very excited 
about what we see as a new day for the U.S. Forest Service and 
NRCS and linking those two important components of USDA to all 
of America.
    Senator Bond. Well, I thank you for that. We will look 
forward to working with you. I also appreciate your work and 
the discussions we have had on biotechnology, a complicated 
area. We will discuss that later.
    Thank you, Mr. Chairman, and Mr. Secretary, thank you. We 
have got a lot of exciting and interesting things to work on.
    Senator Kohl. Thank you very much, Senator Bond.
    Senator Nelson.
    Senator Nelson. Thank you very much, Mr. Chairman. Thank 
you for holding this hearing.

                     RECOVERY ACT BROADBAND PROGRAM

    Mr. Secretary, welcome. Let me first say as both former 
Governors from rural States, neighboring States, we learned 
about the importance of communication extending out to the 
rural areas into farmsteads and to small schools, as well as to 
the major metropolitan areas.
    As we set forth in the stimulus package for broadband 
deployment, it is my understanding that there may have been 
some slowdown, not necessarily intentionally, but as a result 
of trying to establish rules to move forward with the 
distribution of money to expand that broadband deployment. 
Knowing that the construction season is a little bit earlier 
for our States than it may be for some of the other States that 
do not enjoy the cold weather, is there anything that can be 
done to move the development of some of those rules along maybe 
a little bit more quickly?
    Secretary Vilsack. Senator, we have been working very 
closely with Secretary Locke and his team at Commerce. We are 
confident that by the end of this month we will have an outline 
of rules and regulations relative to how folks might be able to 
qualify for the grants and loans under the broadband program 
that you all have put into the Recovery and Reinvestment Act, 
and we anticipate that the first set of resources will go out 
in probably one of three different deliveries in the fall of 
this year. So we are aggressively working to get that done. We 
appreciate the importance of distance learning, of 
telemedicine.
    But I would also suggest to you that it is an extremely 
important strategy for rural development in terms of economic 
development. Small businesses currently that have a unique 
service or product are able to perhaps sell locally, but with 
broadband, they may be able to expand their market globally. 
This is part of the wealth creation strategy that we are trying 
to implement at USDA. So we are very cognizant. We are moving 
forward.
    And I would say we are also moving in a streamlined way. We 
will not have separate applications. We will have a single 
application, single process. We will make it as easy as 
possible for folks to apply for these resources.
    Senator Nelson. That is very encouraging because I was 
concerned where you have a couple of agencies trying to work 
together, that there might be some bifurcation as opposed to 
unification of the process. So that is extremely encouraging.

                  DIRECT FARM PAYMENTS LIMITATION CAP

    The discussion earlier from my colleague from Arkansas, 
Senator Pryor, regarding the payment limitations issue--I am 
concerned that what has been proposed by the administration on 
two occasions, the $500,000 direct payment limitation is not 
appropriate. I look forward to being able to work with you to 
design something more in line with what Senator Johnson and 
Senator Grassley and others have done in the past to try to 
limit the direct payments to large farm and ranching operations 
that just simply do not require the same kind of assistance 
from time to time or the same kind of a safety net that you 
would expect for smaller farms to be able to protect and keep 
agriculture from becoming all mega-farms. So I hope that we can 
look forward to working together on that.
    Secretary Vilsack. You have my commitment to do that, 
Senator.

                   NATIONAL DROUGHT MITIGATION CENTER

    Senator Nelson. The final question I have deals with water. 
The University of Nebraska in Lincoln has been established as 
the base for watching water management but also in predicting 
drought. The National Drought Mitigation Center provides a lot 
of background and data on drought, including what is now 
referred to as and cited as the drought monitor. One of the 
reasons that we focused on that and perhaps one of the reasons 
why it is housed in Nebraska is that now, according to the Ag 
Census of 2007 by your agency, Nebraska is the number one 
irrigating State based on acreage.
    What we have determined is that you cannot, obviously, 
prevent drought. You cannot necessarily always predict drought. 
But the more data that you have on drought, the better you are 
able to predict and prevent against some of the most adverse 
consequences of drought, in other words, changing the mix of 
crops that are used or changing the approach to agriculture 
during a period of dryness.
    I hope that the USDA sees this as a valuable tool for 
agriculture in those areas that are most directly affected by 
continuing dry periods. The old saying I think is true. When 
you are in the middle of a drought and it rains, the question 
is whether that is the end of the drought or the beginning of 
the next drought. So I am hopeful that there will be a lot of 
support for the efforts in the National Drought Mitigation 
Center.
    Secretary Vilsack. Well, Senator, thank you for those 
comments. We are acutely aware of the growing concern about 
water generally and see that there are a number of different 
strategies that we need to focus on in addition to those that 
you have identified.
    Just yesterday I had the opportunity to visit with the CEO 
of a seed company. They are, obviously, working very diligently 
on seed technology that might result in drought-resistant 
crops. That would certainly be helpful.
    Interestingly enough, I would expect that we will learn, 
even more than we already know, about these issues in terms of 
our work overseas. In meeting with the Afghan and Pakistani ag 
ministers, one of the big concerns they have is water and 
proper irrigation techniques. So I think there are a wide 
variety of ways in which we need to address this holistically 
and comprehensively.
    Senator Nelson. Thank you.
    Thank you, Mr. Chairman.
    Senator Kohl. Thank you so much, Senator Nelson.
    Senator Bennett.
    Senator Bennett. Thank you, Mr. Chairman.
    Mr. Secretary, welcome and thank you for your service, your 
willingness to put up with all of this, having been in charge 
for a while. Now you are discovering that nobody is in charge.
    Secretary Vilsack. I thought you were, Senator.
    Senator Bennett. Sometimes we think we are.

                     RECOVERY ACT BROADBAND PROGRAM

    Senator Nelson has covered most of the items that I wanted 
to cover with respect to broadband, and I am delighted that you 
are as committed as you are to pushing this forward. Let us 
just drill a little deeper into your methodology of trying to 
get the money out to the rural areas.
    I understand that you are hiring 40 new people with respect 
to the expanded RUS program. Is this to replace a contractor? 
Is this in addition to the contractor? Will this help get money 
out faster? Just share with us the particulars of how that is 
all going to work.
    Secretary Vilsack. Senator, as you know, USDA has been 
criticized in the past for the way in which it has handled some 
of these resources in rural communities. We are sensitive to 
those criticisms and want to respond to those criticisms and 
want to make sure when you all invest in us one more 
opportunity to promote broadband access in unserved rural areas 
that we actually deliver. So this is a decision on our part to 
try to make sure that we have sufficient outreach and 
sufficient information and sufficient evaluation to actually 
get the job done properly.
    I would also say that you have given us parameters, 
suggesting that at least 75 percent of what we have available 
from the Recovery and Reinvestment Act needs to be focused on 
these unserved rural areas.
    Senator Bennett. Right.
    Secretary Vilsack. And that is the intent. I come from a 
State, when I was Governor, where we made a really concerted 
effort to advance this technology without identifying which 
specific technology we would use. There are many options and it 
depends on what part of the country you are in. It depends on 
what has already been done. It depends on whether or not you 
are talking about funding the last mile, the middle mile, 
precisely what you are going to do. I think what you will see 
from us is a comprehensive approach. In some parts of the 
country, a middle mile is more important for us to finance than 
the last mile. In some parts of the country, it may be that the 
last mile is most important. It may be that we work with 
private contractors. It may be that we work with cities and 
communities. It may be that we are working with an individual 
locality or a group of localities.
    So there is no one-size-fits-all, and so you really have to 
have a lot of people working diligently to make sure that you 
are making the right set of decisions. We are going to work 
very hard to make that happen. We do not want to be subject to 
the same criticisms, appropriately so, that we have been in the 
past.
    Senator Bennett. Thank you.

                       COUNTRY OF ORIGIN LABELING

    Let me switch to another issue that was raised by Senator 
Johnson, and that is COOL. I do not know of any one issue that 
has been more contentious in this subcommittee over the years 
than COOL. All right, you are moving forward. You are 
complying, et cetera. Do you have any ideas--or any data is a 
better way of putting it--as to whether or not the consumer is 
paying any attention? Is it really making any difference in the 
supermarket?
    Secretary Vilsack. Senator, I do not know that we have 
specific data that I would be comfortable suggesting a specific 
response to your question. I do know that we are monitoring. We 
will probably likely monitor during the fiscal year 
approximately 5,000 locations to make a determination of 
compliance.
    From a general proposition--this is not data-driven, but 
from a general proposition I think there is a growing 
appreciation in this country for wanting to know your farmer, 
wanting to know where your food is coming from, wanting to know 
more about your food. I think we are going to continue to see 
more of that. Especially as we focus on nutrition, especially 
as there is a health care debate in this country and prevention 
and wellness become critical components of that, I think you 
are going to see a rising awareness.
    Senator Bennett. I agree, but I do not think personally 
that location is going to make any difference to a customer as 
to what he or she will buy in the supermarket.
    Secretary Vilsack. My only caveat to what would normally, I 
think, be an accurate observation on your part, I think price 
is obviously pretty significant.
    Senator Bennett. Yes.
    Secretary Vilsack. We had a program called Taste of Iowa 
when I was Governor, and people kind of liked the idea of 
purchasing food that was produced in Iowa. I will tell you I 
found it interesting that Lay's potato chips has decided to 
specifically identify the State in which the potato is coming 
from so that you can actually buy Georgia Lay's potato chips if 
you are of a mind to buy Georgia Lay's potato chips or Idaho. 
So they are giving consumer choice. They must be doing it 
because their marketing advice----
    Senator Bennett. That I agree with. I have always been in 
favor of voluntary COOL. It is the required Federal label that 
I have always doubted. If I can just share this with you, the 
one experience we have had before in this country has been the 
drive by the United Auto Workers to make sure that North 
American content would be listed on every car, and there was a 
great fight about that in the Congress for a long time. 
Finally, the union won, and then a few years later, people went 
back and started asking customers if they paid any attention to 
it. The vast majority of customers said, no, we didn't notice. 
But there was a small group who said, yes, we read the label 
very carefully, and if there is a high Japanese or German 
content, we are more likely to buy the car. So that did not 
necessarily work in the way that the sponsors of the 
legislation had in mind.
    Thank you, Mr. Chairman.
    Senator Kohl. Thank you, Senator Bennett.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.

            RECOVERY ACT WATERSHED PROJECTS IN RHODE ISLAND

    Mr. Secretary, thank you not only for being here, but this 
week you approved a commitment under the Recovery Act for four 
flood plain projects in Rhode Island, and we really appreciate 
it. It will not only get people to work, but it is critical to 
the homes along the Pawcatuck River, part of this watershed. At 
this moment, the Natural Resources Conservation Service is 
completing their overall watershed plan, and it should be 
before you very quickly. I would ask for your expeditious and, 
in the same spirit that you used this week, approval of the 
plan. Thank you very much.
    Secretary Vilsack. Yes, Senator.
    Senator Reed. It is more of a thank you than anything else.
    Secretary Vilsack. I made a note of that.
    Senator Reed. If it's the first one today, then----
    Secretary Vilsack. I am sure it is not. It better not be.
    Senator Reed. It better not be.

                  WILDLIFE HABITAT INCENTIVES PROGRAM

    There is one program that has been very useful to my State. 
It is the Wildlife Habitat Incentives Program, the WHIP 
program, and it has been significantly reduced in the budget. 
It is about a 50 percent cut. I recognize you have to make very 
difficult decisions.
    But the other aspect of this is that through changes in the 
last agricultural bill and through limited funding, it has 
posed real practical problems to use in Rhode Island. We have 
been very successful in removing old dams that are part of our 
industrial history. The whole Industrial Revolution began up in 
Rhode Island with the Slater Mill. But taking those dams out 
allows the fish to begin to propagate again. We have done it 
generally through partnerships with the State and not-for-
profits. Also, it has been made possible because the NRCS has 
been able to put up-front cost in place.
    The changes in the legislation, the cap on annual contract 
payments, that limit their ability to put money up front and 
also restricting sort of who can participate with them is a 
problem. I understand this is an issue that is both an 
authorization and appropriations issue. But I wondered if you 
could give some thought to ways in which other programs might 
be available, other methods might be used to continue to help 
us in Rhode Island to restore these riverways and restore fish 
to the riverways.
    Secretary Vilsack. Senator, that is a challenge that we 
will take up. If I might, I think it is necessary for me to 
respond to where we are headed in terms of conservation.
    The overall budget relative to conservation, at least from 
our perspective, will result in a total of $4.7 billion being 
committed in a variety of programs, both in technical and 
financial assistance. This is a $374 million increase over the 
2009 level and a $744 million increase over 2008.
    What we attempted to do--and we have asked, I guess, some 
understanding on the part of this committee and the Congress--
was to try to match up as best we could the resources in 
individual programs with what we see as the historical need and 
desire for those programs, together with the fact that with the 
new program, the Conservation Stewardship Program, we have some 
things to learn about how best to implement, how complicated or 
easy it will become. So we made our best-guess estimate on a 
relatively short time frame about how best to do this.
    But there is no question there is a commitment to private 
working lands. There is no question there is a commitment to 
trying to figure out how to help landowners, property owners 
protect their land. There is no question that we understand the 
significant role that these programs can play in providing that 
protection, and we are committed to it. As I said earlier, what 
we hope to be able to do is to integrate it with what we are 
doing with the Forest Service in other parts of the country to 
preserve water, both quality and quantity of water. So we are 
committed.
    Let me also say that I have not had an opportunity yet to 
institute this, but we have just begun starting a process of 
taking a look at how we make decisions and whether or not there 
are ways in which we can streamline, reduce the steps necessary 
in making decisions without reducing the appropriateness or the 
correctness of the decision we make. I cannot tell you that 
that is going to be done tomorrow, but I can tell you that it 
will be done, and hopefully some of these programs will be 
easier to administer and easier to understand than they have 
been.
    Senator Reed. Well, thank you, Mr. Secretary. Just a quick 
point. You have a national mandate, and some of these programs 
are particularly useful in some parts of the country and we 
found this with the WHIP program because we are trying to 
really reverse hundreds of years of industrial use along our 
rivers, and that is not the same challenge in many parts of the 
country. So any help you could give along these lines, we would 
appreciate. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    Senator Kohl. Thank you, Senator Reed.
    Senator Harkin.
    Senator Harkin. Mr. Chairman, thank you very much and, 
Ranking Member Brownback, thank you for your great stewardship 
of this committee and also for having this hearing today.
    I am sorry I am late, Mr. Secretary, but I was chairing a 
hearing on the authorizing committee on derivatives. And we had 
Mr. Gensler, the new head of the Commodity Futures Trading 
Commission, and it went on for a long time. So I apologize for 
being a little bit late.

                    STATEMENT OF SENATOR TOM HARKIN

    Mr. Chairman I hope, that you and other members of the 
committee are now getting to know the Tom Vilsack that those of 
us in Iowa have known for a long time, a very dynamic, smart, 
and progressive leader who is not afraid of change. As 
government and a State Senator he has shown that he has the 
requisite managerial expertise to guide and direct change for 
very positive ends and I am certain he will continue that as 
secretary of agriculture.
    Three areas in which I note that you have been such a great 
leader on just since you have taken over down there, Mr. 
Secretary, are your great leadership, on renewable energy, 
which trails what you did as Governor of Iowa; your leadership, 
of course, on nutrition and looking ahead on that. We have to 
reauthorize our child nutrition bill this year, and we look for 
your and Deputy Secretary Merrigan's help and input on getting 
that through.
    I do want to commend you and the President for putting that 
extra billion dollars a year in the President's budget request 
for child nutrition programs. This funding is vitally 
important. It is my belief that we need to get better food for 
our kids in schools, such as fresh fruits and vegetables, and 
meats. Well, those may cost a little more money, but if we 
really want our kids to eat well, we are going to have to 
provide the needed funding. So I am really glad that you have 
put in your budget an extra billion dollars a year for child 
nutrition programs.
    Secretary Vilsack, I would also like to mention your 
leadership in conservation and I civil rights since being 
confirmed you have taken the bull by the horns on civil rights, 
and I congratulate you for that and ask that you do not let up 
in addressing civil rights concerns at the department.

                           PREPARED STATEMENT

    I want to thank you and Deputy Secretary Merrigan both for 
your great leadership at the Department.
    Mr. Chairman, I ask that my full statement be made a part 
of the record.
    Senator Kohl. We will do that.
    [The statement follows:]

                Prepared Statement of Senator Tom Harkin

    Thank you, Chairman Kohl and Ranking Member Brownback, for holding 
this timely hearing on the President's fiscal year 2010 budget proposal 
for the U.S Department of Agriculture.
    I welcome Secretary Vilsack back to the subcommittee. I have always 
known that he is deeply committed to farm families, rural economic 
development, and strong Federal nutrition programs. But, in his first 
months in office, he has really been a breath of fresh air here in 
Washington. Secretary Vilsack has charted an ambitious, reform agenda 
for the Department. And I look forward to continuing to support him in 
every way I can.
    As we all know, our economy continues to face extraordinary 
challenges. The downturn has taken its toll on farm country, and it is 
also placing an enormous strain on our Federal nutrition programs. But 
farmers and ranchers are a great strength of this economy. And I am 
confident that they will help lead the way to recovery.
    The President's fiscal year 2010 budget proposal for USDA builds on 
investments made by the 2008 farm bill, the fiscal year 2009 Omnibus 
Appropriations bill, and American Recovery and Reinvestment Act of 
2009. Together, these bills are putting people to work, supporting our 
agricultural producers, and spurring rural economic development. I 
appreciate that the President's budget proposal is the product of tough 
choices during difficult times.
    Mr. Secretary, you and I share President Obama's vision of 
transforming America's energy future by vastly expanding our reliance 
on domestically produced, renewable energy. I was pleased to see that 
the President's budget builds strongly on investments made USDA energy 
programs in the 2008 farm bill. The President's budget request, along 
with mandatory funding provided in the farm bill, will accelerate the 
development and commercialization of advanced biofuels and other forms 
of alternative energy.
    In addition, I enthusiastically welcome the President's request for 
$1 billion annually in new funding for Federal child nutrition 
programs, including the School Lunch and Breakfast Programs, the Summer 
Food Service Program, and the Child and Adult Care Food Program. These 
are enormously effective programs, but they are under great strain, 
right now, because of the recession.
    We need more aggressive efforts to ensure that that all eligible 
children are receiving the benefits to which they are entitled under 
the law. This is especially important as we seek to make good on 
President Obama's commitment to end childhood hunger in America by 
2015.
    I commend the administration for giving strong priority to child 
nutrition programs in the proposed budget. As a member of this 
subcommittee and as Chairman of the Senate Committee on Agriculture, 
Nutrition, and Forestry, I look forward to working with the Secretary 
to pass a strong, reform-minded reauthorization of our child nutrition 
programs.
    On a less positive note, I am very disappointed with the amount 
allocated in the President's budget for conservation programs. The 2008 
farm bill--which passsed by overwhelming bipartisan margins in Congress 
less than a year ago--authorized significant new investments to promote 
conservation and sustainable use of our natural resources.
    I worked hard to include a robust conservation title. In my view, 
these programs are now more important than ever, especially as we work 
to address significant environmental concerns like climate change, 
nutrient runoff, loss of wildlife habitat and biodiversity, and loss of 
critical wetlands.
    I hope that the Chairman and Ranking Member, along with other 
members of this subcommittee, will work with me to maintain the 
investments provided in the farm bill for conservation programs.
    Again, I thank the Chairman and Ranking Member for holding this 
hearing. And I look forward to the Secretary's testimony. Thank you.

    Senator Harkin. I have a few questions I will submit in 
writing, but do have a question I would like to ask you.

                       WRP 2008 FARM BILL PROGRAM

    During the last farm bill we fought very hard for 
conservation funding. This was a long, drawn-out negotiation 
both in the Senate and then in conference. We reached 
compromises. As I have often said, the farm bill was not 
exactly the bill that I would have written, and I think 
everybody on the Senate and House Agriculture Committee's would 
say the same thing. Everybody had to make compromises.
    But, in the end we were able to keep a very strong 
conservation title in the 2008 farm bill. I am a little 
concerned, I must note for the record, about the proposed 
cutbacks in the WRP program and the EQIP program in the budget 
proposal. As far as I have been able to discern, there has been 
no reduction in the requests for assistance under programs like 
WRP or EQIP. Again, with increasing demand for food, feed and 
now moving more toward renewable energy and using land for that 
purpose, it may well entail more intensive cropping and demands 
on resources and we are going to need more conservation 
practices on the land.
    I am glad to see that you have kept the mandatory funding 
levels for other programs like the CRP and CSP. But, I am 
concerned about the WRP. Can you just give me some idea of why 
that funding was cut back?
    Secretary Vilsack. Senator, first of all, I am keenly aware 
of your personal commitment to conservation and the work that 
you did not just on the 2008 farm bill, but also the 2002 farm 
bill to really introduce this topic of conservation in a 
meaningful way and creating private working lands conservation 
concepts in the farm bill. We are certainly supportive.
    This may not be an acceptable response to your question, 
but it is the response that I must give, and that is, we have 
overall increased the spending levels over what we spent last 
year and the year before in conservation generally.
    Senator Harkin. That is true.
    Secretary Vilsack. And we have tried in many of the 
programs to match the amount of money that we are asking for 
with the amount of work that we, in fact, have been able to do. 
In other words, even though you may have authorized a 
substantially greater amount, the capacity of USDA in some of 
these programs is limited by the number of people we have that 
are processing these applications, making sure that they are 
processed accurately.
    In response to Senator Reed's question, I have not had an 
opportunity yet to really focus in on the process that we are 
using to determine whether or not it can be streamlined and 
maybe as a result, we can actually process more with the same 
number of people and maybe do a better job in the future of 
meeting those authorized limits as opposed to what we are 
currently proposing.
    But the reason we are proposing what we are proposing is we 
think it is a realistic in many cases--in some cases it is 
actually an increase over what we spent last year. We think it 
is a realistic target in terms of our capacity to actually 
process the work.
    Senator Harkin. Thank you.
    Secretary Vilsack. I do know this. I know that folks are 
working hard over there at NRCS and all the other agencies of 
USDA, but my guess is that there are probably some things we 
could do from a streamlined process. Senator Brownback 
suggested in rural development the need to integrate programs, 
and I think he may have a good point. There may be process 
integration that could take place as well. I just have not had 
a chance to get to that yet.
    Senator Harkin. I appreciate that. I support streamlining 
that could be done over there.
    Mr. Chairman is my time expired?
    Senator Kohl. Go ahead.
    Senator Harkin. Thanks, Mr. Chairman.

                RECOVERY ACT BUSINESS AND INDUSTRY LOANS

    The Recovery Act money for the business and industry loans 
program. Would you tell me the status of obligating this 
funding? It has to be obligated by September of next year.
    Secretary Vilsack. Senator, I think we have done a 
reasonably good job of getting a significant amount of the 
Recovery and Reinvestment Act money out. We were fortunate 
because in most cases you were funding existing programs and we 
could work through the existing structure.
    There is a funnel that is created, as you well know, 
between the vast number of people at USDA that are working on 
proposals that ultimately have to be approved by OMB, and that 
funnels into a relatively small hardworking outfit over at OMB.
    We have put a priority on some of these programs because we 
think it would create the biggest bang for the buck and the 
quickest bang for the buck. The B&I piece of this we are 
working on. We have proposals at OMB I believe, that will allow 
us to proceed forward with those programs in the very near 
future, but the vast majority of the rest of the money has 
actually been obligated or is out the door or is in the process 
of very quickly being obligated.
    I am pleased with what we have done in terms of 37,000 home 
loans. I am pleased with what we have done in terms of all of 
the direct operating loans that have been obligated. I am 
pleased that most of the watershed rehabilitation money has 
been allocated and the watershed easements have been allocated. 
I am pleased that we were able to get the SNAP money out and 
the administrative money to the States and the emergency 
funding and the school lunch monies out to the States. So we 
have been working pretty hard. B&I comes next, and I am 
anticipating that will be very, very soon.
    Senator Harkin. Very good.
    Thank you very much, Mr. Chairman.
    Senator Kohl. Thanks a lot, Senator Harkin.
    Senator Specter.
    Senator Specter. Thank you, Mr. Chairman.
    Mr. Secretary, I join my colleagues in welcoming you here, 
and thank you for taking on this tough job.

                   PHILADELPHIA SCHOOL LUNCH PROGRAM

    A couple of subjects that I would like to discuss with you 
in the short time allotted here. Milk prices.
    I begin with the Philadelphia school lunch program, which I 
see you nodding in the affirmative on familiarity because there 
has been a very strong push by many Members on both the House 
and Senate side on this very important program which feeds 
children at 204 schools. In a big city like Philadelphia, that 
is a very difficult situation, a lot of single-parent families, 
a lot of working mothers, in the economic crunch we are in at 
the present time, very little income to buy the necessities of 
life. Where we have seen so many situations where children go 
to school hungry, no breakfast and no lunch, the educational 
opportunities are very limited.
    That kind of a district has been the recipient of a lot of 
attention over the years, attention on a program called Gear 
Up, especially attuned to at-risk young people, extensive job 
training programs, a very, very difficult situation, mentoring, 
where you find a tremendous movement from truancy to juvenile 
delinquency to crime, extraordinarily difficult. And this lunch 
program is really an indispensable building block on what I 
have seen as a city official and as a Senator.
    There is concern about at least waiting until the nutrition 
authorization bill comes up, consideration on adding an 
amendment to the Agriculture appropriations bill. But is there 
not some way to extend this program to relieve a lot of angst 
that is gripping now parents and children in this very large, 
very difficult city population?
    Secretary Vilsack. Well, Senator, first of all, I certainly 
appreciate your advocacy for this program. It has been 
steadfast and it has been passionate. I know that it is a very 
important program to the city of Philadelphia.
    As you know, the Bush administration made the decision 
before I came into office, before President Obama came into 
office----
    Senator Specter. We corrected all that. We thought we did. 
Or somebody did if not I personally. In fact, now that I think 
about it, I think I had something to do with it.
    Secretary Vilsack. This program has been extended a couple 
of times. But in December 2008, the school district was 
notified of the intention to discontinue the program. We 
recognized that an abrupt discontinuation of the program was 
not an appropriate way for us to respond to the moral challenge 
that you have outlined to these families. And we have been 
searching for a way in which we can not only continue to do 
what needs to be done in Philadelphia, but make sure that every 
inner city, every major city, the children of every working 
family or poor family that has the same kinds of circumstances 
get an opportunity to be well fed. I want to assure you that 
that is an absolute commitment of this USDA, of this President. 
He wants to end childhood hunger by 2015. He is committed to 
it. We are committed to it. I know you are.
    We are anxious to work with you to figure out ways in which 
that program can be a model, a pathway to a national effort 
that enables all of the children similarly situated to have the 
benefit of decent meals. So whether it is in the 
Reauthorization Act or after the Reauthorization Act, we are 
happy to work with you on that. We make that commitment today 
to work with you.
    Senator Specter. Are you saying, in effect, that there is 
some real optimism about our ability to have this program 
continued?
    Secretary Vilsack. I think what I would like to be able to 
say, Senator, is that I would like to see it rolled into a 
program that essentially extends those kinds of opportunities 
all over the country, including Philadelphia, not necessarily 
only Philadelphia, but including Philadelphia. We think that we 
have learned a lot from this program, and the question is can 
we figure out how to take what we have learned in Philadelphia 
and make sure that it is available to cities all across the 
country.
    Senator Specter. Well, if you are talking about rolling the 
Philadelphia program into a broader program, that is terrific. 
I think there ought to be a broader program, and my focus, 
obviously, necessarily is on Philadelphia. But if you think it 
can be rolled into a broader program, that would satisfactory.
    Secretary Vilsack. That is what we hope. I mean, I am from 
Pittsburgh, Senator, so we want to make sure the rest----
    Senator Specter. I am equally concerned about Pittsburgh.
    And also, Secretary/Governor, about Iowa, and about 
children all across the country.
    Secretary Vilsack. As I am as well, Senator.

                            LOW MILK PRICES

    Senator Specter. My time has expired and I will not ask 
another question to take more time of the subcommittee, but we 
will submit in writing the concerns I have about the reduction 
in milk prices, some 36 percent lower from January to April of 
this year compared to last year. We will ask you about what 
might be done under the MILC program or under the Dairy Export 
Incentive Program because the farmers of my State and I think 
the farmers across the country are in very bad shape.
    Secretary Vilsack. If the chairman would allow me 30 
seconds to respond to----
    Senator Specter. You are not restricted on time. It is only 
Senators who are restricted on time. The red light does not go 
on for you.
    Secretary Vilsack. I just simply want to reassure you that 
we are very concerned about the dairy situation, which is why 
we have got the MILC payments out. We anticipate that by the 
time it is all said and done--I want to make sure I get this 
number right--almost $900 million will be paid, we suspect, 
through the MILC program.
    We have also given instructions to our farm service 
agencies to work with our dairy producers to enable them to 
restructure, refinance, reexamine their lending so that they 
are not put in a difficult situation because of these low milk 
prices. We know that they are looking very carefully and 
closely at how they can help.
    We also recently utilized the DEIP program making sure that 
it was WTO-compliant but that we exercised support for exports 
as well.
    So we have taken a number of steps in the last couple of 
months, Senator, to respond because of your advocacy and 
Senator Casey's advocacy and, Senator Kohl, your advocacy in 
particular and those from California. We have been listening 
and we have been trying to respond as best we can.
    Senator Specter. That is very encouraging. Thank you very 
much, Mr. Secretary.
    Thank you, Mr. Chairman.
    Senator Kohl. Thank you very much, Senator Specter.

                          GLOBAL FOOD SECURITY

    Mr. Secretary, as you know, global food security is one of 
the most important issues in this subcommittee, and we 
discussed a number of ways to improve agricultural systems in 
developing countries in order to improve stability and to also 
fight world hunger. How is USDA involved in this effort, and 
what more can you do to improve food security around the world?
    Secretary Vilsack. Senator, I would say a couple of things.
    First of all, we think this is an opportunity for us to 
expand the McGovern-Dole program. As I said earlier, this is a 
program that has been enormously successful. We have suggested 
an increase to $200 million. That will allow us to expand the 
program to four African nations, helping about 400,000 
additional children. We are pleased with the fact, again as I 
said, a number of countries have been so impressed with the 
appropriateness of helping feed children and the connection 
that that has had with youngsters' ability to be educated, that 
they themselves have taken up that responsibility.
    We also believe that we need to integrate our efforts with 
the State Department, with USAID, and to develop an overarching 
philosophy that is focused on the three principles of food 
security, which is availability, providing technical assistance 
and help so that countries can raise what they can raise and do 
it in the most productive way possible, assisting those 
countries in utilizing trade to supplement what they cannot 
raise and providing appropriate emergency food assistance when 
that becomes necessary. That is one component.
    The second component is accessibility, the ability to get 
food from where it is being grown to where it is needed. That 
involves infrastructure, and we are specifically, as it relates 
to Afghanistan and Pakistan, hopeful that we can work with 
those two countries to substantially increase the 
infrastructure, to substantially increase productivity, to deal 
with water issues, to create assistance with regulatory 
structures and frameworks so that they can enhance their trade 
opportunities as a model, and then finally utilization, the 
capacity to properly refrigerate, properly handle, properly 
utilize the food that is available and is accessible. All of 
those components have to be part of our overall program.
    USDA is prepared from technical assistance from the 
research component, from APHIS, from the regulatory assistance 
that we can provide and from the fellowships that are funded 
through USDA, the Borlaug Fellowships, the Cochran Fellowships, 
and the land grant university exchanges that take place. All of 
that is part of an overarching program that we are instituting 
with Afghanistan and Pakistan and we hope to be able to extend 
it to sub-Saharan Africa. We think if we can do this and we 
have the resources to do it, we can, I think, profoundly impact 
this food insecurity issue that challenges the world.
    And then finally, we discussed earlier today water. That is 
a very critical issue, and I think we can help provide 
resources in terms of technical assistance of how to utilize 
water.
    The research that is being done today for the most part is 
focused in this country on large farms, but the reality is that 
the vast majority of farms worldwide are very small farms. So 
it may not take a lot of technical assistance. It may be fairly 
rudimentary to provide drip irrigation systems that might be 
very inexpensive.
    We just need to figure out strategies to help these farmers 
be more productive, to help them to be able to access trade 
opportunities, and help them to be able to be self-sufficient, 
and when and if it becomes necessary, we need to be prepared to 
provide emergency assistance and maybe in a more efficient, 
more effective way as was outlined earlier today.
    Senator Kohl. Very good.

                         RURAL COMMUNITY FORUMS

    You have held several rural community forums across the 
country. I understand you may be holding more. What kinds of 
things have you been discovering? What kind of information have 
you been gathering?
    Secretary Vilsack. Well, it somewhat depends on the area of 
the country, but I think that there is a real strong desire on 
the part of rural America to participate in helping reduce our 
dependence and our addiction to foreign oil. I think there is a 
belief that whether it is biomass or whether it is corn-based 
ethanol or whether it is new alternative feedstocks, there is a 
real desire for America to be producing its own energy.
    And there is concern, as you well know--and Senator 
Brownback, I am sure you know as well--about the existing 
infrastructure for the ethanol industry and the biofuel 
industry. So we are working with our credit friends, Farm 
Credit and others, to try to figure out strategies and ways in 
which we can make resources available or restructure the 
resources we have so that we maintain that infrastructure.
    Then the President has provided a directive to us to 
accelerate the implementation of the energy provisions of the 
farm bill. We intend to meet the deadline he has set for us. So 
very, very shortly you will see proposals relative to second-
and third-generation feedstocks, resources for new 
biorefineries, resources to convert existing biorefineries, to 
use these new feedstocks, and assistance for producers to 
produce these new feedstocks. That is one thing that we are 
hearing.
    Then the dairy issue we have discussed is a serious issue, 
and we have tried to outline the fact that we have taken steps. 
Pork producers are feeling stress. Part of our challenge is 
that we have tools to respond to situations like this, but to a 
certain extent, because of decisions that are made to direct 
section 32 resources, sometimes our capacity to respond in as 
large a way as necessary is a bit compromised. So we are trying 
to figure out ways in which we can encourage, for example, 
institutional buyers to focus on purchasing pork to take some 
of the pressure off that industry, and we are obviously working 
hard on trying to reduce trade barriers.
    I think there is a genuine concern in rural communities. 
They are anxious to know that the Recovery and Reinvestment Act 
relates to them. When they hear a water treatment facility 
being funded in their town or they hear a health care facility 
being expanded or equipped because of resources or they hear 
that the river that has flooded every year is not going to 
flood or that they are going to receive some relief from that 
because of what USDA has done, they are appreciative.
    And then we have made an effort to make sure that they not 
only know the resources that are provided from USDA, but they 
have a sense of all the other resources that are being provided 
from other departments of Government. I think that is a 
reassuring message.
    Senator Kohl. Very good.
    Senator Brownback.
    Senator Brownback. Thank you very much.

                         THE NEW HOMESTEAD ACT

    Mr. Secretary, a couple things. You started off talking 
about wealth creation on a regional approach which perked my 
ears up that we need to do that in rural areas, and we 
certainly do. We are losing a lot of population in rural areas.
    May I suggest you or your staff take a look at a bill 
several of us put together and have for a series of years 
called the New Homestead Act? Senator Dorgan, previously 
Senator--well, several from the Midwest, myself have put this 
forward as a way to try to get more investment and growth 
taking place in rural areas. We worked at it a long time. We 
modeled it after what was done in this country in the 1970s to 
get the urban areas to go again. And we put in a series of tax 
incentives in particular that just applied to rural areas in 
counties that had lost population over the last 20 years. So 
you are trying to target just those areas that have lost 
population. I think Iowa had half of its State, as half of 
mine, qualify in that. Then you have got a whole swath. We took 
things that had worked previously in the urban areas to get 
regeneration taking place that we think would work in the rural 
ones. I would hope you would take a look at that. We put a fair 
amount of time in it.
    I want to show you a bag, if I could. We did not fill it, 
but I am sure, if you have not seen one of these, you are going 
to see a bunch of these.
    Secretary Vilsack. I have one in my office.
    Senator Brownback. Good. So you are well aware of this. I 
love these. I see them around the world. I love the American 
flag on it. I love the partnership on it. So that piece of it I 
like.

                             CORN-SOY BLEND

    The point I wanted to make is it is a corn-soy blend. 
Great. All for corn-soy. But this formulation has not been 
changed in 30 years. That was when we developed the corn-soy 
blend for food aid, 30 years ago, and we have not changed what 
we are shipping in 30 years.
    Now, the reason I make that point is that they polled a 
series of Nobel laureates and said, if you were going to put 
money anywhere in the world to improve the status of humanity, 
what would you do? And the top one and third thing were both 
micronutrients that they said. Cheap, effective. If you took 
that corn-soy blend and you added proper levels of iodine, 
zinc, vitamin A, and iron into it for children at the right 
age, you would have dramatic impact. It is not heavy to do 
that, but it does require some reformulation of it to do.
    Tufts University is doing a study right now--maybe you know 
about this--on its reformulation. And I am looking at this and 
going, this is cheap for us to be able to do. We dramatically 
improve lives and we use that adjacent to what we are doing on 
AIDS and malaria in Africa particularly, and our outcomes get 
dramatically better. It is simple and it is cheap. So I would 
hope you could look at this Tufts study in this area just of 
micronutrients.
    Now, you have got to fund it all. That is the trick for 
everybody. One of the things we are looking at is to say, okay, 
if we are spending 65 percent right now on administration and 
transportation for our food aid, what if we could put a hard 
level that we cannot spend anymore than 45 percent for 
administration and transportation? That is pretty generous 
right there. You are going to spend nearly half your budget 
just to administer and get it there. And then use your delta 
difference to get the micronutrients in this and to target it 
so you do not have new funds having to go into it, but you 
dramatically improve your outcomes with it.
    We are researching that. I would love to work with you on 
it. You have far more resources to do this than we would. I 
think the resources are there if we sharpen our pencil on those 
two areas and then look at what we can do in this field.
    I wish you godspeed there at Ag, Secretary. That is a great 
spot, and I am sure you will do a great job at it.
    Senator Kohl. Thank you, Senator Brownback.

                              WIC FUNDING

    Mr. Secretary, would you talk about WIC? Do you think we 
are adequately funded for this year? Are you worried about 
having to come back for more? What do you see for WIC?
    Secretary Vilsack. Senator, we have made our best estimates 
in terms of what we have proposed, and I believe we also have 
some contingency language in the WIC program. We believe 9.8 
million participants is a very good, healthy estimate of what 
the program will be, and I believe we have provided resources 
and funding for that level. This is, obviously, a very 
important program and one that we are fully supportive of and 
one that is consistent with the President's desire to assist in 
ending childhood hunger. So we are committed to it, as we are 
with the SNAP program and as we are with the Child Nutrition 
Reauthorization efforts that will be undertaken this year.
    Senator Kohl. Very good.

                   RENEWABLE ENERGY PROGRAM DIRECTION

    Would you amplify a little bit your vision of USDA's role 
in terms of the administration's renewable energy program in 
years to come?
    Secretary Vilsack. I would be happy to, and it really 
dovetails a little bit with what Senator Brownback was talking 
about earlier in terms of rural development and regional 
development.
    The administration, first and foremost, is committed to an 
expansion of the biofuels industry. The President established a 
working group recently directing myself, Secretary Chu and 
Administrator Jackson to figure out strategies for expanded 
marketing of biofuels. We are in the process of having staff 
meet to try to figure out ways in which that can be done.
    As I said earlier, first and foremost, we have to maintain 
the infrastructure that we have. That is a challenge with the 
current credit circumstances of some of those entities.
    Second, I think we have to continue to--and we will 
continue--invest in research that allows us to be more 
efficient with ethanol and soy diesel and biodiesel and 
biofuels that we are currently producing both in terms of the 
energy that is used and in terms of the natural resources that 
are required, specifically water. There is a lot of 
interesting, exciting research and activity being done to 
reduce the amount of energy and to reduce the natural resources 
in producing those fuels.
    The third thing is to continue to promote--and we will, as 
I indicated earlier--with the energy title of the farm bill, 
all aspects of the energy title of the farm bill identifying 
second- and third-generation feedstocks. There are interesting 
efforts and demonstration projects underway using corn stover, 
the corn cob, the husks of corn. There are interesting 
opportunities potentially with grasses.
    There clearly is an effort in woody biomass. We are trying 
to link that effort up with opportunities with the Department 
of the Interior and Agriculture as we try to maintain our 
forests in an appropriate way and reduce the hazardous fuel 
that currently exists in our forests, to reduce the intensity 
of fires. All of that can create an opportunity for us, and 
there are some resources, you well know, to create 
demonstration projects in that area. We will aggressively 
pursue that.
    We are working hard, once the rules are out, to put 
resources to work creating new biorefineries. We have already 
at least announced one grant, a joint grant between ourselves 
and the Department of Energy, to accelerate research, but we 
are also providing resources to build new biorefineries. We are 
trying to identify biorefineries that want to convert their 
production process. We are able, because of the money that you 
all put in the farm bill, to be able to assist them in making 
that conversion.
    We are looking for farmers who are obviously interested in 
helping us produce the feedstocks of the future and provide 
resources and assistance for them to do so.
    We are also working with communities trying to identify 
communities that will want to convert to using woody biomass to 
produce some of their power.
    That is part of the strategy that wraps around the whole 
notion of renewable fuel and energy which we think is a growth 
opportunity for rural America. Whether it is wind or solar, 
hydro, geothermal, we think that there are enormous 
opportunities in rural communities if we are strategic and if 
we are smart about the transmission challenges that renewable 
energy presents.
    We are currently thinking about and working on how you 
would distribute biofuels, whether it is through the current 
system or through a pipeline system. I know that there are some 
Members of Congress who are interested in looking at the 
possibility of a pipeline that would make it easier to 
transport biofuels that are produced from, say, the Midwest to 
other parts of the country or from other parts of the country 
to the Midwest.
    We are working on strategies to make sure that once we 
produce the biofuel, that it can be adequately marketed. So 
many stations today do not have adequate pumping or tank 
infrastructure. So there are opportunities, I think, for us to 
respond. We are looking at ways in which we can use our rural 
development resources to enhance gas stations, convenience 
stores to be better equipped to handle ethanol.
    We are also continuing to, obviously, articulate the desire 
and hope that we look at the blend rate that is currently at 
E10. We are hopeful that it will be expanded from E10 to 
somewhere between E10 and E15. That, obviously, will expand 
opportunity and send a clear, strong message particularly to 
the market and to lenders that we are in this for the long 
haul.
    So it is a wide variety of those things, and we are, 
obviously, expecting our car industry to respond by producing 
cars that are more amenable to flexible fuels.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Kohl. Very good.
    Well, we thank you for being with us, Secretary Vilsack. I 
am most encouraged with you as a person in terms of your 
knowledge, your enterprise, your energy, your ambition, and I 
am convinced you are and will be a great Secretary of 
Agriculture. Thank you for being with us today.
    We will hold the record open for a week for any additional 
questions.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                Questions Submitted by Senator Herb Kohl
                               broadband
    Question. Mr. Secretary, for some years this Committee has 
supported extending high speed broadband service to the most remote, 
unserved areas of rural America. Substantial funds have been made 
available in annual appropriations bills, and $2.5 billion was provided 
to USDA for this purpose in the Recovery Act.
    Please describe the progress that has been made in expanding 
broadband access to unserved rural areas.
    How is USDA working with the Commerce Department to utilize funds 
provided in the Recovery Act?
    When do you expect to start spending Recovery Act funds?
    In addition to the Recovery Act funds and substantial carryover 
from fiscal year 2008, you are requesting a large increase in the 2010 
appropriation. Please explain why you think this increase is needed.
    Answer. The Rural Utilities Service has made substantial progress 
in providing assistance to unserved and underserved rural areas. Since 
1995, we have required all new telecommunications capacity that we 
finance to be broadband capable. We have had great success with our 
Community Connect and Distance Learning and Telemedicine programs, 
providing more than $425 million in funding for these programs. Our 
broadband loan program, created by the 2002 Farm bill, has provided 
over $1.1 billion in loans to more than 90 broadband projects in rural 
communities spanning 42 States.
    The Recovery Act marks a major new chapter in this effort. Since 
its enactment, we have worked side by side with our partners at 
Commerce, the FCC and the White House to fulfill the President's vision 
for promoting broadband access across the Nation. This was an 
unprecedented collaborative process between these two Cabinet level 
agencies.
    Since the Recovery Act was enacted in February, USDA and Commerce 
held six joint public meetings and published and Request for 
Information in the Federal Register to solicit input from the public. 
We determined early on that the two Departments need to join forces and 
make the process as seamless as possible. One application, one Notice 
of Funding Availability (NOFA), and one web portal (broadbandusa.gov) 
were developed.
    Our first joint NOFA is expected to be published in the Federal 
Register in July. This NOFA will be making $4 billion available for 
broadband infrastructure loans, grants, and loan grant combinations 
targeted to underserved and underserved areas.
    Immediately thereafter, USDA and Commerce will hold 10 joint 
Outreach and Training Workshops in 10 States on how to apply for the 
program.
    At the end of the application window, USDA and Commerce is 
expecting to receive applications seeking funding from the $4 billion 
made available under this first NOFA. We expect to begin making awards 
in November.
    With regard to the fiscal year 2010 budget, USDA is seeking the 
same deliverable broadband program level as fiscal year 2009. The 
increase in the appropriation request stems from an increase in the 
budget authority cost.
                              civil rights
    Question. We are pleased, Mr. Vilsack, that you are aggressively 
addressing long-standing civil rights issues at the Department. Because 
the Pigford case remains in litigation, we understand you cannot freely 
discuss it. However, please tell us what you can about progress toward 
resolving those claims. Has the Administration submitted to Congress a 
legislative proposal requesting the $1.25 billion to fund settlements? 
If not, when do you expect that proposal to be submitted?
    Answer. USDA has been working with the Department of Justice, which 
has the lead in negotiating the settlement for the Government. Once 
more details are known, legislation will be submitted to carry out the 
settlement. I have asked that additional information be provided for 
the record.
    [The information follows:]
    On August 28, 1997, a group of African American farmers filed a 
class-action lawsuit against USDA in Federal district court, alleging 
discrimination in USDA farm loan and farm programs (originally Pigford 
et al., v. Ann Veneman, now Pigford et al., v. Tom Vilsack). The court 
certified the class, and entered a Consent Decree on April 14, 1999.
    The certified class was described as all African American farmers 
who: (1) farmed, or attempted to farm, between January 1, 1981, and 
December 31, 1996; (2) applied to USDA during that time period for 
participation in a Federal farm credit or benefit program and who 
believed that they were discriminated against on the basis of race in 
USDA's response to that application; and (3) filed a discrimination 
complaint on or before July 1, 1997, regarding USDA's treatment of such 
farm credit or benefit application. USDA has been implementing the 
Consent Decree since 1999, and the last of the claims were recently 
routed for processing.
    In June of 2008, Congress enacted legislation, Section 14012 of the 
Food, Conservation and Energy Act of 2008 (Act), which affords 
individuals who did not file timely claims under the Consent Decree, 
judicial recourse in the U.S. District Court for the District of 
Columbia, for any Pigford claimant who has not previously obtained a 
determination on the merits of a Pigford claim.
    Consequently, as of September 18, 2009, 17 civil action complaints 
have been filed in the U.S. District Court for the District of 
Columbia, by 29,938 plaintiffs. The U.S. District Court Judge entered 
an order suspending the requirements about USDA providing loan data, 
while the Court considers the class certification issue. The parties 
have been negotiating a resolution of the cases since last year. 
President Obama proposed in his fiscal year 2010 budget $1.15 billion 
for the sole purpose of settling the cases.
           national institute of food and agriculture (nifa)
    Question. What is the status of hiring a NIFA director? The budget 
request includes an increase of $23 million to help rural producers and 
citizens learn to use new technologies. Can you expand on what this 
will do? How many people will receive assistance with this?
    Answer. Dr. Roger N. Beachy, the founding president of the Donald 
Danforth Plant Science Center in St. Louis, MO, has been appointed the 
first director of the National Institute of Food and Agriculture (NIFA) 
by President Barack Obama. Beachy will join the agency on October 5, 
2009.
    NIFA is requesting $23,000,000 to improve rural quality of life to 
support a competitive Smith-Lever 3(d) program focused on developing 
technology based system competencies for agricultural producers and 
food processors, and rural citizens. Mounting this program through 
Smith-Lever 3(d) will take advantage of the powerful existing 
infrastructure of both 1862 and 1890 land-grant institutions. This 
program will enhance the adoption and diffusion of broadband, as well 
as other information access technologies, and other new technologies 
(sensor systems, monitoring and tracking systems, nanotechnology, and 
decision systems). These information and other technologies can support 
rural entrepreneurship, sustain jobs in rural and isolated areas, and 
address a wide range of agricultural and food production and processing 
issues.
    A cornerstone of this program would be the establishment of an 
Extension Rural Technology Corps which would build on the national 
infrastructure of Cooperative Extension which serves every location in 
the country through county and regional offices supported by a Federal/
State/local partnership, and through the nationwide Extension system. 
The Corps could work in collaboration to educate rural citizens to 
fully utilize broadband and other information technology access to 
support entrepreneurship, remote jobs, decision assistance, and 
community linkages. The Corps would complement the expansion of 
broadband to rural areas and support rapid, creative, and effective use 
of the technology.
    Second, the program would expedite the adoption and diffusion of 
new technologies to address rural and agricultural issues, to support 
the vitality of rural areas. For example, sensing, monitoring and 
tracking weather borne crop diseases can both improve production 
efficiency and reduce environmental impacts by minimizing expensive 
pesticide purchases and application. New technologies, properly applied 
and interpreted can help rural communities cost effectively monitor 
environmental conditions, such as water quality. In addition, new 
technologies across a broad spectrum, including energy systems, provide 
opportunities for rural entrepreneurship.
    The Extension system serves citizens in every county in the United 
States. This effort, however, would focus on the needs of citizens in 
rural and isolated areas, helping at least 500,000 households and 
businesses improve utilization of new information technologies.
        mc govern-dole international food for education program
    Question. Mr. Secretary, the McGovern-Dole program is an important 
tool for fighting world hunger. For many children in poor countries, 
the McGovern-Dole meal they get at school is the only one they'll 
receive that day. This program has received around $100 million 
annually in discretionary funds. I am pleased to see a significant 
increase in your budget request. Can you discuss the impact such a 
large increase will have on this program?
    Answer. The 2010 budget request doubles the level of discretionary 
funding for the McGovern-Dole program. The increase will allow USDA to 
augment significantly the number of beneficiaries served as well as 
increase the benefits for those already participating in the program. 
The World Food Program estimates there are 75 million children who do 
not attend school and, for those who do attend, 60 million are hungry. 
The increase will help USDA to reduce these numbers, while at the same 
time support activities that encourage school enrollment and 
attendance, improve health and nutrition, and enhance future economic 
development of the country.
    Question. How many additional children will be served?
    Answer. It is estimated that the number of beneficiaries will 
increase from approximately 3 million in fiscal year 2009 to 4.5 
million in fiscal year 2010.
    Question. Do you envision the program entering new countries with 
this increase? If so, which ones?
    Answer. It is possible that USDA could enter new countries in 
fiscal year 2010 with this increase. However, it is difficult to say 
how many and which countries. That will depend upon the proposals that 
USDA receives in terms of country selection and the level of funding 
requested and approved for the proposed country programs.
                         nifa education request
    Question. The budget includes an increase of $41 million for Higher 
Education Programs, including teacher incentives, curriculum 
development, and other activities. Will USDA be working with the 
Department of Education in this endeavor? Are there overlapping 
activities within USDA and the Department of Education here? This 
request has a significant outcomes associated with it, with a wide 
variety of activities to be undertaken with this money. If you really 
want to meet these outcomes, is this request enough?
    Answer. Yes, opportunities exist for USDA and the Department of 
Education to coordinate resources on this initiative and we will pursue 
those opportunities. Specifically, staff within the Department of 
Education's Fund for the Improvement of Postsecondary Education (FIPSE) 
competitive grants program have the expertise to assist USDA. FIPSE 
grants, like several of USDA's Higher Education grants identified for 
this funding increase, support innovative teaching improvement projects 
that promote revitalizing rural American communities. These grant 
programs already effectively fund academic advancements in education, 
and support new ideas and practices to improve how students learn. 
However, at current funding levels, these grant programs primarily fund 
projects at individual academic institutions. Significant outcomes are 
expected with this additional funding increase. We envision additional 
funding will enable establishment of new, regional Centers of 
Excellence where partnerships between educators and employers establish 
best practices in curriculum content and delivery through a local 
academic collaborative. These regional collaborative models will reduce 
duplication of effort while increasing instructional efficiency.
                                 dairy
    Question. Mr. Secretary and Mr. Glauber, the dairy sector is facing 
enormous challenges and this concerns me a great deal. Economic turmoil 
has diminished demand and prices paid to farmers have plummeted. We 
worked to strengthen the MILC safety net in the Farm bill, and you've 
taken steps by purchasing surpluses and utilizing the Dairy Export 
Incentives Program. What trends do you see ahead for the dairy sector?
    Answer. Prices and farm income are expected to recover to more 
sustainable levels as demand increases with economic recovery over the 
next 2 years. The size of the dairy herd is projected to return to the 
long-term trend of decline that was interrupted from 2005 through 2008 
by rapid worldwide economic growth that brought increased dairy product 
demand.
    Question. When might we begin to see positive outcomes from the 
steps that have already been taken?
    Answer. Milk prices have begun to increase. [Clerk's note: The 
following response is based on information available after the date of 
the hearing.] The all-milk price hit the lowest level in 6 years during 
June and July 2009. Product shipments through the Dairy Export 
Incentive Program and actions taken through the Dairy Product Price 
Support Program brought price increases in August with the all-milk 
price increasing $0.50 per hundredweight. This increase will be 
reflected in the Milk Income Loss Contract Program checks that 
producers receive during September for their August milk production. 
Further increases in the milk price are projected through next year.
         resource conservation and development councils (rc&ds)
    Question. Mr. Secretary, for the past several years, the budget 
request for RC&Ds has been zero. This subcommittee continues to fund 
this program each year. Can you explain what the practical effect would 
be of not funding RC&Ds?
    Answer. As nonprofit organizations, RC&D councils will still exist 
in the short term. However, while some councils may have the financial 
and staff capacity to continue operating, we expect that most councils 
would cease to function effectively without the support of professional 
NRCS coordinators. As a result, the strategic planning and delivery of 
many conservation, renewable energy, and economic development projects 
in local communities would halt.
    Question. There are approximately 451 staff years associated with 
RC&Ds. What will happen to these staff should this subcommittee not 
provide funding? Will anyone lose their job?
    Answer. RC&D staffing adjustments are being considered as part of 
NRCS' human capital analysis and plan. Since NRCS is facing significant 
retirements in the future, all appropriate staffing incentives and 
adjustments are being considered. However, specific plans have not been 
finalized. Implementation of any plan for fiscal year 2010 would not be 
initiated until Congressional action on the President's Budget is known 
and necessary decisions have been made. NRCS intends to retain as many 
RC&D staff as the overall NRCS budget will support. Skills learned as a 
RC&D coordinator serve employees well in many other NRCS positions. The 
ability to foster partnerships, collaborate, and plan projects is 
essential to all NRCS field and State level technical positions. These 
employees can be placed in other NRCS field and State office positions 
such as district conservationist and other natural resource positions.
    Question. Would the current functions of RC&Ds be absorbed within 
NRCS? If so, how?
    Answer. As nonprofit organizations, RC&D Councils will still exist. 
The current functions of the Federal RC&D Program would not be provided 
to assist the Councils. Those functions would not be absorbed within 
NRCS. While NRCS would continue to deliver conservation projects on 
individual agricultural operations through Conservation Technical 
Assistance and the Farm bill conservation programs, NRCS would not 
absorb the valuable strategic natural resource conservation and 
economic development planning and project delivery function of the RC&D 
Program. Likewise, NRCS's remaining conservation planning and delivery 
programs would not support the leveraging of significant State, local, 
and private funding as provided by the RC&D Program. In fiscal year 
2008 alone, the RC&D councils leveraged a total of $189 million from 
non-Federal sources to support 4,500 projects around the country.
                                  wic
    Question. I am pleased to see in your budget a more robust request 
for WIC. As you know, this subcommittee has had to provide significant 
increases for WIC, often times at the expense of other important 
programs. Do you expect to release any contingency funds from fiscal 
year 2009? Taking into consideration the 2009 stimulus and the fiscal 
year 2010 request, what will the total amount available for WIC 
contingency be in fiscal year 2010? Do you anticipate having to use any 
of that contingency to maintain participation in fiscal year 2010? 
Taking into account the current state of the economy, do you see food 
prices and participation increasing over the next few months?
    [Clerks Note: The following response is based on information 
available after the date of the hearing.]
    Answer. The total available in the WIC contingency reserve in 
fiscal year 2009 is $525 million, including $400 million provided in 
the Recovery Act. Of the total available, $38 million will be used in 
fiscal year 2009, leaving $487 million to be carried over into fiscal 
year 2010. Together with the $225 million in the budget request, the 
total contingency reserve available for fiscal year 2010 is $712 
million. Based on current estimates for program participation and food 
costs, the funding levels proposed by the President's 2010 budget 
appear sufficient to ensure that all eligible individuals seeking 
benefits can receive them in fiscal year 2010 without using any of the 
$486.8 million in available contingency funds.
    WIC food package cost estimates are based on monthly food inflation 
forecasts provided to FNS by the Economic Research Service (ERS). Food 
prices over the next few months may begin to increase slightly. FNS 
estimates that the WIC food package cost will increase 3.1 percent 
during fiscal year 2010 from $42.82 to $44.18.
    FNS has typically based its participation projections on trends 
over the past 7 years. However, given the current state of the economy, 
FNS believes that participation is likely to grow at a stronger rate 
through fiscal year 2010, closer to the rate realized in fiscal year 
2008 than to the 7-year average. FNS projects that average monthly 
participation will be 5.6 percent higher in fiscal year 2010 than in 
fiscal year 2009 from 9.1 million to 9.6 million participants.
                            renewable energy
    Question. Mr. Secretary, we are aware that expansion of renewable 
energy production and energy efficiency improvements are high 
priorities of you and this Administration. Those priorities are well 
represented in the increases you are requesting in this budget.
    Over the last several years USDA has provided substantial support 
for the expansion of corn-based ethanol facilities. With the current 
recession and reduced oil prices, what are the short-term prospects for 
these facilities?
    Answer. As the economy begins to stabilize and emerge from its deep 
recession, our hope is that demand for renewable fuels will continue to 
grow along with other sectors of the economy. Our reports show that 
those corn-based facilities that weathered the financial crisis are 
beginning to show profitability.
    Question. Do you think additional support will be needed from the 
Department to sustain these projects?
    Answer. USDA is undertaking an unprecedented effort to provide 
relief to businesses in struggling agricultural industries through the 
American Recovery and Reinvestment Act funding received under the 
Business and Industry Loan Guarantee Program. This program has been put 
to work to partner with lenders in helping to assist processors and 
other businesses connected with the agricultural sector meet their 
current financial needs for capital.
    Question. Is the demand for the Biorefinery Assistance Program and 
the Rural Energy for America Program as strong as you had anticipated?
    Answer. The future of the biofuels industry partially lies in the 
commercialization of second and third generation feedstocks. The 
Section 9003 Biorefinery Assistance Program is a critically important 
investment in that evolution.
    Numerous potential applicants for the Biorefinery Assistance 
Program have expressed their inability to obtain a lending partner in 
order to apply for a loan guarantee to assist with the construction of 
a viable commercial biorefinery under the Section 9003 Program. Based 
on discussions with the lending community and the current economic 
climate, they are reluctant to consider this loan guarantee program 
without the government taking more of the risk than currently is being 
taken under the program. We will not know for certain the true level of 
demand for the Section 9003 Program until regulations are promulgated 
and a new solicitation of applications is conducted. That is expected 
to occur toward the end of fiscal year 2010.
    The 2008 Farm bill authorized the Rural Energy for America Program 
in Section 9007 which expands and renames the program formerly called 
the Section 9006: Renewable Energy Systems and Energy Efficiency 
Improvements Program. Since the enactment of the first-ever Energy 
Title in a Farm bill in 2002, this program has provided grants and loan 
guarantees to rural residents, agricultural producers, and rural 
businesses for more than 1,800 energy efficiency and renewable energy 
projects ranging from biofuels to wind, solar, geothermal, methane gas 
recovery, and other biomass.
    Question. The President's budget requests substantial increases of 
discretionary funding over and above the mandatory funds in the Farm 
bill for these programs. Are these increases still needed?
    Answer. As noted in the answer to the prior question, we will not 
know for certain the true level of demand for the Section 9003 Program 
until the end of fiscal year 2010 when we begin to accept applications 
under new regulations and a new notice of solicitation.
    Preliminary results show that the Rural Energy for America Program 
received 1,887 applications requesting in excess of $120 million. The 
demand for this program far exceeded the funding for fiscal year 2009. 
We anticipate the demand for this program to continue to grow 
significantly in fiscal year 2010.
                        micro-enterprise program
    Question. Mr. Secretary, this Committee is very interested in 
implementation of the new micro-enterprise program authorized in the 
2008 Farm bill. This program will provide loans and technical 
assistance to support job creation and income generation through 
entrepreneurial development in rural areas. The Farm bill makes 
available mandatory funding for this program from 2009 through 2012.
    Please describe the current status of this new program, and your 
vision of its potential to increase economic wellbeing in rural areas.
    Answer. We expect the proposed rule to be transmitted to the Office 
of Management and Budget by September 30, 2009, for review and the 
agency is seeking an expedited review. We anticipate publishing a final 
rule by the end of June 2010, and will then be able to articulate our 
vision of the program's potential to increase economic wellbeing in 
rural areas.
    Question. This budget request includes an increase of $22 million 
over the $4 million of mandatory money provided by the Farm bill. Is 
this large increase merited at this early stage of development of the 
program?
    Answer. The Agency seeks to utilize the funding to help jump start 
rural economies through self employment. We believe there will be 
considerable demand for the increase in funding. The program includes a 
lending component as well as a training and technical assistance 
component which will contribute to the long term success of the 
affected businesses.
                         animal identification
    Question. I understand that in the rural community forums there was 
a lot of talk about the National Animal ID Program. What did you learn 
from those listening sessions? Do you believe this should be a 
mandatory or voluntary program? If it's made mandatory, what would be 
the cost to producers?
    Answer. USDA hosted public listening sessions so that I could hear 
from producers and stakeholders throughout the country--not only their 
concerns but also potential or feasible solutions to those concerns. 
The transcripts of the listening sessions are available on APHIS' 
webpage: http://animalid.aphis.usda.gov/nais/feedback.shtml. USDA also 
invited the public to submit written comments via the website, which we 
received thousands of before the comment period closed on August 3, 
2009. While the analysis continues, several clear themes have emerged 
from the call for feedback.
    One such theme is confidentiality of the business information. Some 
believe that business information must remain confidential to allow for 
fair competition in the marketplace. Another theme is liability, and 
the potential for lawsuits, should something enter the food supply and 
cause harm. We also heard concerns about cost. Some believe the costs 
of identifying and tracing animals are prohibitive. Finally, privacy 
was another significant theme. Some see animal identification as an 
unwelcome intrusion by the Federal Government. USDA is continuing to 
review the transcripts from each session as well as the written 
comments that were submitted by the public.
    Given the public's concerns, USDA must find a way to achieve the 
original and true purpose of the National Animal Identification 
System--animal traceability. The goal is to enhance traceability 
efforts in ways that respond to these concerns, recognizing and seeking 
to overcome the shortcomings of our efforts to implement NAIS in the 
last 5 years. The feedback we received from the public, along with the 
lessons learned over the past several years, will assist in making 
informed decisions about the future direction of animal identification 
and traceability in the United States.
    USDA has not specifically estimated the costs to producers of a 
mandatory system, as the previous Administration had not pursued such a 
system and the Administration is still determining a comprehensive 
approach to traceability.
          watershed flood prevention operations program status
    Question. Mr. Secretary, this subcommittee provided $290 million 
for the Watershed Flood Prevention Operations Program through the 
American Recovery and Reinvestment Act.
    Can you please provide an update on the status of these funds?
    Answer. Of the $290 million appropriated, NRCS has allocated over 
$256 million--$133 million for 80 approved Watershed and Flood 
Prevention Projects, $118 million for 270 approved Flood Plain 
Easements and $5 million for agency-wide support. As of September 18, 
2009, over $103 million has been obligated.
    [The information follows:]
------------------------------------------------------------------------
                                               Total           Total
                  State                     allocations     obligations
------------------------------------------------------------------------
     Watershed and Flood Prevention
               OperationsAlabama.................................        $430,000         $18,411
Arkansas................................         134,000          69,666
California..............................      19,275,000       2,293,104
Colorado................................       3,841,900       1,350,835
Idaho...................................         430,000           9,717
Indiana.................................       3,300,000          28,038
Iowa....................................       2,231,750         732,079
Kansas..................................       1,661,000          50,873
Kentucky................................       4,817,880         217,840
Louisiana...............................       4,470,000       1,044,304
Minnesota...............................         544,000         436,552
Mississippi.............................       7,630,000       2,268,643
Missouri................................       4,900,000         945,818
Montana.................................         822,700         271,458
Nebraska................................       4,209,000       1,524,840
New Mexico..............................       1,440,000          25,555
New York................................       1,000,000         147,438
North Carolina..........................       5,280,858         134,749
Oklahoma................................       3,619,000       1,826,996
Pacific Islands.........................       4,150,000          80,369
Pennsylvania............................      11,900,000      10,379,210
South Carolina..........................       1,040,000          19,912
Tennessee...............................      12,400,000       1,111,862
Texas...................................      21,786,111       8,105,239
Virginia................................         973,000         284,144
Washington..............................         625,000         533,940
West Virginia...........................      10,085,000         150,958
Agency wide.............................       3,684,200       1,117,776
                                         -------------------------------
      Total.............................     136,680,399      35,180,326
                                         ===============================
          Flood Plain EasementsAlabama.................................       2,788,488       1,640,774
Alaska..................................         740,112         151,033
Arkansas................................       1,890,000       1,356,112
California..............................       5,366,400       4,335,977
Colorado................................         111,293          10,834
Connecticut.............................          31,000          31,000
Georgia.................................       3,100,218          31,880
Idaho...................................          19,800          19,739
Illinois................................       3,325,800       2,692,893
Indiana.................................       7,898,693       6,671,586
Iowa....................................      20,855,846      12,586,216
Kansas..................................       2,007,432       1,680,570
Kentucky................................       3,245,582       2,548,135
Louisiana...............................       2,221,769         982,070
Maine...................................          88,294          85,046
Maryland................................          19,963          19,862
Michigan................................         497,100         435,407
Minnesota...............................       1,524,776       1,028,453
Mississippi.............................       2,125,116       1,620,622
Missouri................................       4,171,582       1,189,791
Montana.................................          10,468          10,468
Nebraska................................         350,820         289,646
New Hampshire...........................         407,822         140,025
New Jersey..............................         745,164         578,882
New York................................         782,466          56,078
North Carolina..........................         443,400         322,562
North Dakota............................      10,210,554       3,804,286
Ohio....................................       9,624,170         452,705
Oklahoma................................       2,911,620          35,146
Oregon..................................       2,275,770       1,182,059
Pennsylvania............................         243,383         103,657
Rhode Island............................         757,200          44,182
South Carolina..........................          87,700          87,643
South Dakota............................       1,843,327       1,557,318
Tennessee...............................       1,589,154         182,227
Texas...................................           5,516           5,516
Virginia................................          35,754          36,344
Washington..............................         934,332         461,820
West Virginia...........................         749,426         448,497
Wisconsin...............................      22,057,287      18,619,779
Agency wide.............................       1,583,726         550,048
                                         -------------------------------
      Total.............................     119,678,323      68,086,889
------------------------------------------------------------------------

                        food safety assessments
    Question. The budget proposes an increase of $4 million for 
additional food safety assessments. How is a ``food safety assessment'' 
different from the regular inspections done by FSIS on a daily basis? 
How many food safety assessments does USDA currently perform, and how 
many additional assessments will be completed with this money? How will 
you determine which establishments will receive these additional 
assessments?
    Answer. A Food Safety Assessment (FSA) is a comprehensive look at 
the design and implementation of an establishment's food safety system. 
FSAs cover the HACCP plan and supporting documentation, sanitation 
standard operating procedures (SSOPs), prerequisite programs, 
microbiological testing procedures, sanitation performance standards 
(SPS), establishment documentation, and other information that relates 
to the establishment's products and processes. These assessments are in 
addition to the regular inspection verification activities performed by 
inspection program personnel daily at operating establishments. FSAs 
are performed by specially trained Enforcement Investigation and 
Analysis Officers (EIAOs). According to the USDA Office of Inspector 
General's 2007 audit report, FSAs yield the Department's best evidence 
about the design and implementation of an establishment's food safety 
system.
    There are two types of FSAs, routine and for cause. The Department 
has committed to complete at least one routine FSA in each of the 5,400 
establishments subject to the HACCP regulation every 4 years. In 
addition, the Department conducts for cause FSAs in establishments that 
have a higher probability of causing human illness. These are 
determined by assessing whether the establishments have produced 
product that tested positive for pathogens known to cause human 
illness, are found not to be in compliance with specific Federal 
regulations, or are performing worse than their peers with respect to 
FSIS verification activities. FSIS initiates approximately 300-400 for 
cause FSAs every year to address enforcement activities resulting from 
findings of E. coli O157:H7, Salmonella, Listeria monocytogenes (Lm) 
sampling and product recalls.
    The complexity of an establishment's food safety system and the 
need for urgent reporting may result in more than one EIAO being 
involved in an individual food safety assessment. In the future, once 
the Public Health Information System is fully implemented, 
establishments meeting the criteria for a cause FSA will be more 
quickly identified through an automated process.
    In fiscal year 2008, the most recent year for which complete data 
is available, approximately 1,352 FSAs were conducted, both routine and 
for cause. The FSAs, primarily those conducted for cause resulted in 28 
suspensions of operations and 135 notices of intended enforcement 
action. With the Department committed to conducting a routine FSA in 
each establishment every 4 years, the annual number of total number of 
FSAs, including routine and for cause, will increase to approximately 
2,000. The $4 million budget increase includes hiring 20 additional 
EIAO full time staff and the laboratory costs associated with these 
additional FSAs.
                       food safety infrastructure
    Question. Mr. Secretary, in your statement, you mention the 
proposed FSIS increase of $23 million to improve food safety ``Public 
Health Infrastructure'', noting that it will strengthen FSIS' ability 
to target inspections and investigate outbreaks. Those goals are 
impressive, but what exactly will this funding be used for?
    Answer. The Public Health Information System (PHIS) will protect 
public health through food safety and food defense inspection of the 
production and distribution of domestic and imported meat, poultry and 
processed egg products; ongoing and real time assessment, analysis and 
surveillance of public health data; and implementation of incident 
command procedures to address outbreaks of foodborne illness or 
contamination of food products.
    Specifically, the $23 million increase to the public health 
infrastructure is divided into two categories as described below.
    First, $13.5 million will be used for the scheduling of food safety 
and food defense inspection verification and sampling in 5,400 Federal 
domestic establishments, 134 ports of entry and 1,900 State-inspected 
facilities; nationwide reporting of inspection verification and 
sampling results; integration of inspection and sampling data as well 
as other public health data into a data warehouse for real time 
assessment and analysis; and operation of an emergency response systems 
(particularly, the FSIS Incident Management System, Consumer Complaint 
Monitoring System and Recall Management System) on a 24/7 operational 
basis with full failsafe/redundancy capability at the USDA Data 
Centers.
    Second, the remaining $9.5 million will provide for systems, 
technical and telecommunication implementation and support for 9,500 
FSIS and 1,400 State employees and enactment of Cyber Security controls 
to meet mandated authentication procedures and security policies, 
encrypt data and systems, perform vulnerability assessments and 
remediation to block and prevent evolving national and international 
threats and intrusions, and maintain system certification and 
accreditation necessary for the enablement and function of public 
health inspection and emergency response systems.
                                research
    Question. Mr. Secretary, although you have stated several times 
that a top goal of the Administration is to pursue research regarding 
renewable fuels, the overall research accounts actually receive a net 
decrease in this budget. Although there are requested increases in the 
research accounts regarding renewable fuels, are you concerned that 
overall this is coming at a cost to more traditional agricultural 
research, important for increasing yields and expanding agricultural 
production?
    Answer. The Administration is committed to developing homegrown 
energy to end our dependence on foreign oil and revitalizing rural 
America. Therefore the President's 2010 Budget continues to 
aggressively provide the resources needed to help bring greater energy 
independence to America and includes $88.63 million for bioenergy/
renewable energy research and development. This is an increase of $9.68 
million over the Department's 2009 budget and also eliminates $8.09 
million in bioenergy earmarks.
    Much of the research related to bioenergy, such as functional 
genomics, resource management, productivity, and sustainability issues 
also address problems faced by traditional agriculture and will 
directly and indirectly promote the goals of increasing yields and 
expanding agricultural production.
                           animal antibiotics
    Question. Some experts estimate that as much as 70 percent of all 
antibiotics sold in this country are used in food animals for purposes 
other than treating diseases and that this contributes to the rise in 
antibiotic-resistant bacteria.
    What research has USDA undertaken or funded to evaluate this 
threat? What work is being done to support development of alternatives 
for producers in the event that sub-therapeutic use of antibiotics is 
restricted in animal agriculture?
    Answer. Collaboration in animal health and food safety epidemiology 
(CAHFSE) is a joint effort among three agencies of the U.S. Department 
of Agriculture: the Animal and Plant Health Inspection Service (APHIS), 
the Agricultural Research Service (ARS), and the Food Safety and 
Inspection Service (FSIS). The mission of this important surveillance 
effort is (1) to enhance overall understanding of bacteria that pose a 
food-safety risk by monitoring these bacteria on-farm and in-plant over 
time, and (2) to provide a means to routinely monitor critical diseases 
in food-animal production. A particular emphasis of CAHFSE is to 
address issues related to bacteria that are resistant to antibiotics.
    In March 2009, ARS contributed to the development of the Public 
Health Action Plan to Combat Antimicrobial Resistance, developed 
jointly by the Food and Drug Administration (FDA), Centers for Disease 
Control and Prevention (CDC), and National Institutes of Health. ARS, 
in collaboration with the FDA Center for Veterinary Medicine and the 
(CDC), is an integral member of the National Antimicrobial Resistance 
Monitoring System (NARMS). This system was implemented in 1996 with a 
goal of monitoring trends in antimicrobial resistance in humans, 
animals, and retail meats. ARS is responsible for the animal sampling 
arm of NARMS and collects samples from slaughter plants, diagnostic 
laboratories, and healthy animals. As part of this effort, ARS is also 
conducting research to develop more sensitive detection methods to 
identify resistance-associated genes. NARMS has provided preliminary 
data on antimicrobial use, although this information is not yet linked 
to data on resistance. ARS has also conducted some pilot studies to 
monitor resistance in potentially emerging pathogens, such as 
methicilin-resistant staphylococcus aureus (MRSA), enterococci, and C. 
difficile. I will provide additional information for the record.
    [The information follows:]
    ARS is evaluating processing technologies that minimize foodborne 
pathogen contamination and determining what effect contamination levels 
have on the development of antimicrobial resistant pathogens. ARS also 
models the gene flow of certain antibiotic resistance factors and is 
developing strategies to extend the useful life of antibiotics in both 
animal and human medicine.
    ARS is currently using metagenomic (and also cultural) approaches 
to evaluate the effects of feeding subtherapeutic (growth promoting) 
and therapeutic antibiotics on swine intestinal microbiota. The goal of 
this effort is to identify changes in microbial composition associated 
with performance enhancement, and to define how growth promotants work 
to support the identification of alternatives with similar growth-
promoting effects. Specifically, researchers are looking for changes in 
the gene content of swine exposed to one or more antibiotics. Also 
underway are plans to conduct field trials to test whether or not 
growth promoting antibiotics (such as carbadox) still work in swine and 
to investigate the utility of metagenomics for detecting changes in 
intestinal microbiota caused by marketed probiotics.
    ARS develops and evaluates non-traditional products or alternatives 
to antibiotics (e.g., probiotics, other natural products) and assesses 
what effect they may have in decreasing resistance. ARS is evaluating 
the role of antibiotic resistance in creating enhanced virulence or 
pathogenicity in bacteria (Salmonella in cattle). Researchers are also 
developing microarrays for the detection of antimicrobial resistance 
genes in bacteria and as a method to track the different genes 
responsible for virulence in bacteria.
                      dairy price support program
    Question. Economic turmoil and plummeting prices have hit the dairy 
sector very hard. This administration has taken several welcome steps 
in an effort to mitigate the impact, but the strain on American dairy 
farmers is enormous. One further administrative step which I'd ask you 
to review involves the Dairy Product Price Support Program (DPPSP).
    In the past, USDA has purchased pasteurized processed cheese 
product, and paid a premium for it because it comes in consumer-ready 
packages. Cheese manufacturers in my area of the country typically sold 
pasteurized processed cheese as the first line of defense against 
rapidly falling milk prices. Unfortunately, that option is no longer 
available.
    What flexibility does the Department have to adjust the directive 
issued by the previous administration which eliminated pasteurized 
processed cheese purchases under the dairy support program?
    Answer. The Department has no flexibility to adjust the directive 
because the elimination of pasteurized process cheese was based on 
changes to the milk price support program in the Food, Conservation, 
and Energy Act of 2008 (2008 Farm bill). The Secretary is now directed 
to specifically purchase cheddar cheese under this program, rather than 
previous legislation directing the Secretary to purchase cheese.
                     animal improvement laboratory
    Question. The Animal Improvement Program Laboratory (AIPL) in 
Beltsville, MD, conducts research to discover, test, and implement 
improved genetic evaluation techniques for economically important 
traits in dairy cattle. Due in part to their work, the United States is 
a world leader in dairy genetics and last year exported more than $105 
million in bovine genetic material. Please describe current Federal 
support for bovine genetic and genomic work at AIPL and elaborate on 
steps being taken to ensure that the United States maintains its 
leadership role in dairy genetics.
    Answer. Genetic evaluation techniques for economically important 
traits have undergone a revolution in the past 2 years and the Animal 
Improvement Program Laboratory (AIPL) has led the way with increasing 
involvement of the Bovine Functional Genomics Laboratory (BFGL), a 
sister Agricultural Research Service (ARS) laboratory in Beltsville, 
MD. I have asked ARS to provide a progress report for the record.
    [The information follows:]
    USDA-ARS and its collaborators have developed a process to 
incorporate genomic information into the traditional genetic merit 
information based upon trait measurement (i.e. lbs. of milk, fertility, 
health) which dramatically improves the genetic merit evaluation. This 
current genetic evaluation scheme depends critically on incorporation 
of genomic data to predict genetic merit in dairy bulls. The 
effectiveness of these new techniques, and thus the rate of adoption of 
this technology in the U.S. dairy industry, has been astounding. In 
January of this year, less than 1 year from the delivery of the first 
preliminary research results using this technology, USDA-ARS scientists 
have incorporated this completely new information derived from DNA 
testing into the official national dairy cattle genetic evaluation. 
This technology transfer success was the result of a highly 
collaborative effort led by USDA-ARS scientists with collaboration 
among academic groups, artificial insemination organizations, and breed 
associations. Financial support was provided through competitive 
grants, collaborative agreements, and USDA base funds. To date, over 
35,000 animals have been genotyped, and that number continues to grow 
rapidly. Collection and use of performance data, improved record 
keeping and enhanced capability to associate performance with genomic 
markers continue to be cornerstones of the USDA-ARS efforts.
    The aggressive adoption of this technology in the U.S. dairy 
industry has outpaced implementation around the world, and as a result 
the ability to predict genetic merit in the U.S. dairy industry is more 
accurate than in any other country. A corresponding increase in the 
genetic level of U.S. dairy germplasm is a direct result of this 
technology adoption. The cost of progeny testing to determine a bull's 
value could be as high as $50,000 per bull, whereas the genomic 
evaluation gives comparable accuracy at a cost of approximately $300 
per bull. Using this DNA information, we are now able to generate 
genetic predictions for males much earlier in life with high accuracy 
and a dramatically lower cost. This technology is expected to increase 
the rate of genetic improvement by at least 50 percent. Some estimates 
suggest a doubling of the genetic gain to be more realistic. Because of 
this dramatic increase and the implementation lead gained by this rapid 
deployment in the United States, export opportunities for U.S. dairy 
germplasm are expected to increase substantially over time.
    Work to expand this technology is continuing in AIPL and BFGL. 
Scientists there are leading efforts to develop even more sophisticated 
DNA tools that will enable this technology to be implemented in beef 
cattle populations. In addition, these tools are being developed to 
help serve the needs of the developing world by incorporating 
information specific to cattle in tropical and sub-Saharan 
environments.
    To maintain its lead in dairy genetics and extend these tremendous 
results into other cattle populations, close collaboration with 
academic groups, artificial insemination organizations, and breed 
associations will continue. Innovation continues to be spurred by the 
exciting discoveries of implementing genome enhanced genetic 
improvement. Growth in the areas of bioinformatics, quantitative 
genetics and computational biology are needed to maintain and extend 
this lead.
    ARS funding support through AIPL is estimated at $2,893,200 and 
support through BFGL is estimated at $2,294,100.
                                 ______
                                 
               Questions Submitted by Senator Tom Harkin
                           advanced biofuels
    Question. As you know, Secretary Vilsack, the 2008 Farm bill placed 
a heavy emphasis on providing support for advanced biofuels, including 
support for biomass feedstock development, support for harvesting 
transport and storage, and support for both pilot plant and commercial 
scale biorefineries for advanced biofuels. However, since the Farm bill 
was passed, credit markets have tightened significantly, so that even 
with assistance provided by the Farm bill programs, I am hearing that 
advanced biorefinery developers are having major difficulties is 
securing financing for start-up plants. This, in turn, is leading to 
the real possibility that the biofuels industry may not be ready to 
meet the requirements of our national renewable fuels standards (RFS) 
for advanced biofuels.
    Do you have a recommendation for how USDA might assist with this 
problem?
    Answer. Numerous potential applicants for the Biorefinery 
Assistance Program have expressed their inability to obtain a lending 
partner in order to apply for a loan guarantee to assist with the 
construction of a viable commercial biorefinery under the Section 9003 
Program. Based on discussions with the lending community and the 
current economic climate, they are reluctant to consider this loan 
guarantee program without the government taking more of the risk than 
currently is being taken under the program. We will not know for 
certain the true level of demand for the Section 9003 Program until 
regulations are promulgated and a new solicitation of applications is 
conducted. That is expected to occur toward the end of fiscal year 
2010.
    Question. Is more funding for the biorefinery support program 
advisable or essential for that?
    Answer. Mandatory funding received under the 2008 Farm bill is 
limited to loan guarantees. The 2010 Budget also requests funding to 
support loan guarantees.
       local foods--business and industry loan and grant program
    Question. The recently passed fiscal year 2009 Omnibus 
appropriations bill and American Recovery and Reinvestment Act provided 
significant funding for the Business and Industry loan program at USDA. 
The 2008 Farm bill modified the Business and Industry Program to allow 
local and regional food enterprises to be eligible for assistance under 
this program and requires that 5 percent of the annual funding under 
this program be reserved for these enterprises.
    Can you tell me what the department is doing in terms of outreach 
to encourage local and regional food enterprises to participate in this 
program?
    Answer. The department has a Know Your Farmer, Know Your Food 
Initiative and will be establishing a website where this program will 
be featured among all of the department's resources to assist this 
effort.
                acre program implementation and training
    Question. Secretary Vilsack, the 2008 Farm bill includes a new 
counter-cyclical option called the Average Crop Revenue Election (ACRE) 
that uses average State-level crop revenue to establish a threshold for 
coverage. Farmers will have to actively elect to participate in this 
new program and agree to forgo a portion of their direct payments and 
to accept lower loan rates. I appreciate that you extended the time for 
farm program signup to give producers additional time to weigh the 
benefits of the program options. I am concerned, however, that local 
county FSA personnel may not have adequate training to help producers 
consider their program options.
    What training has the Farm Service Agency provided on the ACRE 
program and what plans are in place for additional training over the 
next few months?
    Answer. The Farm Service Agency has distributed fact sheets and 
extensive background information to the field staff and has conducted 
training meetings and webinars along with other efforts to ensure staff 
is adequately trained. However, we agree with you that further efforts 
to improve our employees' and producers' understanding of ACRE would be 
beneficial. The agency has set up a special website for DCP/ACRE which 
includes extensive detailed information, and a new program payment 
calculator to help producers evaluate their options. Plans call for 
additional State and county data files to be made available to further 
assist our employees and producers. Further, we are considering 
launching additional efforts to educate producers as well.
    Question. Would you consider targeting training in those States 
where producers are expected to be more interested in the ACRE program?
    Answer. We will attempt to ensure that FSA staff in all States are 
adequately trained and equipped. However, States with higher numbers of 
eligible producers will likely receive priority for our special 
educational meetings.
    Question. Do you anticipate any computer-related problems as 
producers enroll in ACRE?
    Answer. While the FSA computer system remains a concern, we believe 
that the agency will be able to manage the signup process adequately 
with the current system.
                       usda and doe collaboration
    Question. The Department of Energy provides significant support for 
the development of biofuels, as well as USDA. Both agencies are 
supposed to work together in this arena. However, I believe that USDA 
is has a much better track record for supporting commercialization 
efforts, and that suggests that USDA and DOE should be collaborating on 
bioenergy program planning and execution.
    What is your perception regarding USDA and DOE collaboration in the 
area of bioenergy? Do you think it is adequate or optimal?
    Answer. USDA is satisfied with the level of collaboration with DOE 
in the area of Bioenergy, including the Biomass Research and 
Development Board. DOE presently provides USDA technical expertise in 
the review of Section 9003 Biorefinery Assistance and Section 9007 
Rural Energy for America Programs (REAP) applications.
    Question. Do you have suggestions for improvements?
    Answer. One way to augment both programs would be to increase 
partnerships, in the combined issue of grants and loan guarantees to 
second and third generation biorefineries. This would allow both 
departments to leverage commercialization efforts of second generation 
biofuels.
    Question. And do your recommendations have budget implications?
    Answer. In the May 5, 2009, President's Directive on Biofuels and 
Rural Economic Development, the President created a Biofuels 
Interagency Working Group co-chaired by Secretaries of Agriculture and 
Energy and Administrator of EPA to develop the Nation's first 
comprehensive biofuel market development program.
    The two Departments have identified the leadership to co-chair the 
Biomass Board that is authorized under Section 9008, Biomass Research 
and Development, of the Farm bill. This Board will not only coordinate 
bioenergy activities in the two Departments, but will coordinate 
Federal Government wide activities and collaborate with the newly 
created Biofuels Interagency Working Group mentioned above.
                             fsa computers
    Question. The President's budget includes $67.3 million to continue 
modernization and stabilization of the Farm Service Agency's aging 
computer system. In your testimony you state that, ``additional funding 
will be required in subsequent years to complete this process.''
    Can you discuss what the remaining needs will be to complete this 
process?
    Answer. The goal of modernization is to transform the Farm Service 
Agency's (FSA's) computer system to one that delivers information for 
the delivery of program benefits and information at an appropriate 
standard of quality and performance. When all the components of 
modernization have been fit together, FSA will have a streamlined 
information technology (IT) architecture built on business processes 
that are supported by newer, faster, more secure and more reliable web-
based technologies. Given sufficient funding this goal will be achieved 
in fiscal year 2013.
    We greatly appreciate the $50 million made available in the 
Recovery Act as a down-payment for modernization. The primary 
objectives required to achieve that goal include finishing up 
stabilization efforts and completing MIDAS so that all the Farm Program 
Delivery business processes and applications may be moved off of the 
legacy system.
    Additional information is provided for the record.
    [The information follows:]
    The original estimate of total costs planned for the stabilization 
and MIDAS portion of modernization has not changed from the numbers we 
shared with Congress last year. Stabilization is the restoration of 
critical elements of FSA's IT system after it began to crumble in late 
2006. MIDAS is the core of the modernization effort. It is designed to 
streamline FSA's farm program delivery business processes. The costs of 
these initiatives are the same as found in the ``Description of Annual 
and Lifecycle Costs'' table of the MIDAS Report transmitted on July 15, 
2008. This report was a response to a directive in House Report 110-258 
which accompanied H.R. 3161. These costs are $305 million for MIDAS and 
$149 million for stabilization, which sum to a cost of $454 million.
    Most of the expenses of stabilization have been met. The remaining 
$20.4 million needed will come from a portion of the $67.3 million 
request. At this point, the stabilization initiative will be complete. 
However, while stabilization will have mitigated many of the critical 
weaknesses in the legacy Farm Program Delivery system, the system will 
not be modernized.
    The MIDAS initiative has received $19 million of the $50 million in 
Recovery Act funds in fiscal year 2009, so about $286 million more will 
be required. If the $67.3 million request is funded, FSA will apply 
$46.9 million of it to MIDAS, reducing the remaining costs to about 
$239 million.
    Furthermore, we note that substantial investments will be required 
for additional modernization that is above and beyond the MIDAS effort. 
These additional investments would be directed toward the modernization 
of FSA's commodity operation processes, their legacy farm loan system, 
and several Department-wide ``Enterprise Systems'' FSA shares with 
other agencies. These investments will also include a portion of the 
``refreshment'' of hardware in the Common Computing Environment that 
supports the modernized web-based FSA system being developed under 
MIDAS. This refreshment involves the long needed replacement of older 
desktop PCs, telecommunications and computer network equipment at FSA's 
field offices.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                          asian citrus psyllid
    Question. For the past year, the State of California, the 
California County Agriculture Commissioners, and citrus industry--in 
collaboration with APHIS--have been working together to curb an 
infestation of the Asian Citrus Psyllid, taking a proactive approach to 
prevent the spread of Huanglongbing disease.
    Will you commit the Department to working with the industry and 
citrus States to develop a California-type approach nationally?
    Answer. USDA is committed to working with industry and citrus-
producing States to implement the most practical and effective approach 
to control the pest based on the best available science and farm 
practices. The initial infestations of the Asian citrus psyllid (ACP) 
in California were in areas of San Diego and Imperial Counties adjacent 
to infested areas in Mexico. These first infestations were relatively 
sparse and confined to small residential areas. This made it possible 
for the State to conduct an ACP suppression program, focusing on 
treatment of individual properties. More recent ACP infestations, in 
areas such as Los Angeles County, are much more extensive and are 
likely to pose a challenge in responding with the type of suppression 
program carried out in San Diego County. APHIS continues to work with 
the State, county, and the industry in California to contain and 
suppress the ACP populations in Los Angeles County in the most logical 
manner. In addition, APHIS continues to coordinate with the Government 
of Mexico to implement a similar program in the adjacent border region 
of Baja California to reduce the likelihood of ACP incursion into the 
United States from Mexico. At present we are pursuing a model similar 
to that used for Glassy Wing Sharp Shooter which has been successful in 
protecting the grape and wine industries of California from Pierce's 
disease.
    In other States where ACP and Huanglongbing disease (HLB) have 
become established, the strategy is designed to provide safeguarding 
measures as part of the regulatory framework to prevent further spread 
of ACP and HLB. Meanwhile, USDA is dedicated to working with the 
scientific community around the world in the search for long-term 
practical solutions for citrus greening in the United States.
    Question. What support does the Department need from the industry, 
citrus States, and Congress?
    Answer. The citrus industry recognizes that they have a significant 
role in conducting inspections of their groves for ACP and citrus 
greening, and quickly reporting suspected detections to appropriate 
State and Federal officials. In addition, education activities 
conducted by the industry have emphasized the importance of complying 
with State and Federal regulations designed to prevent the spread of 
ACP and citrus greening. States with citrus have been cooperative in 
conducting surveys for ACP and citrus greening, and in establishing 
parallel quarantines in support of Federal regulatory actions. Industry 
and State and Federal governments are making significant investments in 
research.
    Question. What steps is the USDA taking to stop the spread of the 
Psyllid across the border from Mexico? How is USDA working with the 
Mexican government to move the ACP infestation away from the border?
    Answer. USDA is working closely with Mexico, including providing 
technical support and funding to Mexico to conduct survey, regulatory, 
and suppression activities, in particular in areas adjacent to citrus 
growing areas in the United States. We believe that this has been 
effective in reducing the extent of the ACP infestations on the Mexican 
side of the border, and thus reduced the number of infestations in 
adjacent U.S. areas. In addition, APHIS has provided technical training 
and resources to Mexico, enabling that country to conduct testing for 
the presence of citrus greening. A high percentage of ACPs that are 
found are being tested for the disease. These efforts allowed Mexico to 
confirm its citrus greening infestation in Yucatan State and take 
action to prevent its spread. Pest Alerts have been provided to 
Department of Homeland Security, Customs and Border Patrol to heighten 
surveillance for ACP and HLB.
    Question. What resources are being committed by USDA to treat 
citrus greening (HLB)? What are the plans for developing resistant 
plants? What is the Department doing currently to research solutions 
and what are its plans for future research?
    Answer. There is currently no treatment for HLB. There is a 
concerted effort on the parts of industry, citrus States, and USDA 
(APHIS, the Agricultural Research Service, and the Cooperative State 
Research, Education, and Extension Service) to carry out activities 
that range from the development of strategies to suppress Asian citrus 
psyllid populations with the intended purpose of reducing disease 
pressure on the crop to the development of resistant varieties using 
traditional and biotechnology based approaches. Biological control is 
being explored in the United States and in Mexico.
    Question. Can you assure me that Plant Protection and Quarantine 
(PPQ) officers have adequately trained Customs and Border Patrol (CBP) 
inspectors to identify both adult and juvenile Asian citrus psyllids 
(ACP) on citrus trees as well as ornamental nursery plants such as 
Orange Jasmine that potentially host the pest?
    Answer. All plants intended for planting that enter the United 
States are required to go through one of APHIS' 17 plant inspection 
stations where they are inspected by APHIS inspectors. CBP inspectors 
do not inspect live plants. However, APHIS has provided pest alerts to 
CBP for dissemination to all ports containing photographs of both 
juvenile and adult ACPs for use in inspecting shipments of citrus. CBP 
is focusing on citrus shipments from Mexico, where ACP is known to 
exist. However, citrus from Mexico must go through a commercial 
packinghouse to be eligible for import to the United States, and any 
psyllids present are generally removed during the washing process that 
the fruit goes through in the packinghouse. ACP is also associated with 
curry leaves, which are prohibited but sometimes intercepted in 
passenger baggage from India and other Asian countries. APHIS and CBP 
are working to ensure that such products are not overlooked, and APHIS 
will be holding a workshop near the end of calendar year 2009 for CBP 
inspectors on inspection processes and techniques aimed at ACP.
                     california drought assistance
    Question. California is facing a multi-year drought. In the San 
Joaquin Valley, the most productive agricultural area in the Nation, 
over half a million acres of farmland have been fallowed. Unemployment 
in these communities is over 40 percent.
    I commend you and Secretary Salazar for establishing a joint 
Federal Action Team on Drought, and I look forward to working with this 
team to assist the San Joaquin Valley and other drought-stricken areas 
of the country.
    What is the Department doing to assist the farmers and farm workers 
of the San Joaquin Valley suffering due to the drought?
    Answer. USDA has a number of programs that can provide assistance 
during drought situations. These programs include the Federal crop 
insurance program, the non-insured crop disaster assistance program, 
and the permanent disaster programs which were authorized in the 2008 
Farm bill. These programs can provide compensation to producers whose 
farming operations are adversely impacted by drought. In addition, USDA 
programs have proven that with good planning, good management, and good 
information, farms and ranches can reduce the impacts of drought. For 
example, the USDA Joint Agricultural Weather Facility and National 
Water and Climate Center, along with the U.S. Departments of Commerce 
and Interior, and the National Drought Mitigation Center (NDMC) at 
University of Nebraska, Lincoln, help people prepare for and deal with 
drought. Additionally, we are well aware that drought impacts well 
beyond the boundaries of farms and ranches. Programs administered by 
our Rural Development agencies are available to assist communities 
whose drinking water supplies are impacted and can even provide 
assistance for drilling individual wells.
                           frozen food safety
    Question. A New York Times article that appeared on May 15, 
entitled ``For Frozen Entrees, `Heat and Eat' Isn't Enough,'' explains 
that frozen food, such as pot pies, require additional cooking and 
testing on the part of the consumer before they are considered safe to 
eat. Labels on these frozen entrees require that the food be cooked to 
a uniform temperature of 165 degrees as measured by a meat thermometer. 
However, the author of the New York Times article found that this 
temperature was unreachable without burning the crust of the pot pie.
    I am very concerned that producers of frozen entrees are placing 
the burden of food safety on consumers. Consumers of these products 
purchase them for convenience and with the belief that they are safe to 
eat.
    Does the USDA's Food Safety Inspection Service (FSIS) allow frozen 
entrees such as pot pies to contain harmful pathogens at the time of 
purchase by the consumer? What steps does the FSIS take to make sure 
that producers reduce or eliminate the presence of pathogens in frozen 
entrees? Does the FSIS currently conduct inspections of food labels for 
frozen entrees that contain raw or uncooked ingredients, to ensure that 
the labels clearly indicate that the foods may contain pathogens 
without proper preparation?
    Answer. Frozen entrees such as pot pies currently can be sold to 
consumers in either the ready-to-eat (RTE) or not-ready-to-eat (NRTE) 
form. RTE forms of these products must be free of detectable pathogens 
of public health concern at the time that the products are manufactured 
under Federal inspection. Such products may be heated by the consumer, 
prior to consumption, but the heating is only for palatability purposes 
because no pathogens are expected in the product. NRTE products are 
considered the same as a raw product (i.e., presence of microorganism, 
including pathogens, is minimized but non-detectable). Such product 
bears labeling identifying that the products are NRTE and require a 
full lethality treatment by the consumer in order to ensure safety.
    Due to illnesses associated with this type of NRTE product, the 
industry was informed that the Salmonella hazard needs to be better 
controlled and that labeling alone cannot be the control. Labeling of 
such product must be truthful and not misleading. Guidance has been 
issued to manufacturers of this type of product, reminding them that 
the consumer cooking instructions must be validated as accurate and 
practical for the intended use.
    Another type of NRTE product, i.e., NRTE stuffed poultry that 
appears RTE, has been more recently implicated in foodborne illnesses. 
Consequently, FSIS has been working with the industry on this matter 
and is committed to continuing this collaboration before implementing 
action to force more aggressive controls to ensure that detectable 
Salmonella is not present in the finished product. There is no specific 
timeline; however, the industry will have ample time between being 
provided the guidance on addressing and controlling Salmonella in the 
production of these products and regulatory action by the agency.
              agricultural inspectors at homeland security
    Question. Thousands of agricultural products enter California every 
day through the largest international airport on the West Coast, the 
largest seaport in the country, and the busiest international land port 
of entry in the world.
    As you know, I have been very concerned about the transfer of 
agricultural inspections to the Department of Homeland Security.
    APHIS controlled agriculture inspections prior to March 2003. But 
the responsibility was transferred to The Department of Homeland 
Security's Customs and Border Patrol (CBP) as part of the Homeland 
Security Act. Since then, reports indicate that the number and quality 
of inspections have dropped dramatically.
    Although DHS has made a concerted effort to improve the number and 
quality of inspections, I remain concerned that agricultural pest 
detection has taken a back seat to the more traditional homeland 
security activities of counter-gun, drug, and terrorism efforts.
    Are you satisfied with CBP inspections? Will you commit to working 
with Secretary Napolitano to improve the number and quality of these 
inspections for agricultural products entering our country?
    Answer. I am certainly committed to working with Secretary 
Napolitano to ensure the agricultural inspection program at ports of 
entry is working effectively to protect U.S. agriculture. I am pleased 
to report that staffing levels at CBP have never been higher than they 
are at this time, and that APHIS and CBP are working together through a 
variety of mechanisms to improve the Agricultural Quarantine Inspection 
(AQI) program where needed. While the program has overcome many of 
challenges it faced just after the 2003 creation of the Department of 
Homeland Security (such as the large number of vacancies in the 
inspection force), one area that APHIS and CBP have targeted for 
improvement is the inspection of international passenger baggage. 
Through the Joint CBP-APHIS Task Force, APHIS and CBP managers have 
developed an operational action plan focused on passenger baggage 
inspections.
    Additionally, APHIS is holding workshops for agricultural 
inspectors focused on inspection procedures targeting specific pests. 
Two have already been held (focused on gypsy moth and Khapra beetle), 
and a workshop focusing on the Asian citrus psyllid is planned for the 
end of calendar year 2009. APHIS and CBP have also formed a joint task 
force on exotic fruit flies in response to the large number of 
detections of a variety of fruit fly species (including several not 
detected in the United States prior to this summer) in California this 
year. The task force will look at pathways the pest may be using and 
develop inspection policies and techniques to address them. The two 
agencies are also working to increase the number of canine teams 
deployed at ports of entry, primarily focusing on recruiting inspectors 
for canine teams. I believe these and other cooperative efforts 
demonstrate the two agencies' commitment to working together to ensure 
an effective AQI program.
                             downer cattle
    Question. I remain concerned about inhumane practices in slaughter 
houses and the safety of our food supply. In the fiscal year 2009 
Omnibus Appropriations Act, Congress provided funding for 120 full-time 
staff dedicated solely to inspections and enforcement related to the 
Humane Methods of Slaughter Act.
    As of today, how many full-time inspectors does the Food Safety and 
Inspection Service have that are dedicated solely to enforcement of the 
Humane Methods of Slaughter Act? If you have not yet filled all 120 
spots, when will these spots be filled?
    Answer. The fiscal year 2009 Omnibus Appropriations Act maintained 
the number of full-time positions (FTPs) dedicated to inspections and 
enforcement related to the Humane Methods of Slaughter Act (HMSA) to no 
fewer than 120. Because HMSA tasks are not performed by a single person 
at an establishment, FSIS instead measures in full-time equivalents 
(FTEs), which refers to hours spent performing these tasks equivalent 
to 80 hours a pay period, projected out to a year. As of June 2, 2009, 
FSIS has measured 110 FTEs for fiscal year 2009, and estimates that 
there will be at least 140 FTEs by the end of this fiscal year.
                        country of origin labels
    Question. I am concerned about the increasing number of country of 
origin labels (COOL) that identify multiple countries of origin on meat 
products. I fear that by over-using labels that contain multiple 
countries of origin, some producers may be compromising the integrity 
of the COOL label.
    What oversight does USDA intend to conduct to assure the validity 
of these multiple country of origin labels and protect the value of the 
label for consumers?
    Answer. USDA conducts enforcement reviews at retail facilities and 
trace-back audits on individual items observed during the initial 
retail reviews to verify the accuracy of the COOL claim. USDA is now 
conducting the fourth year of enforcement reviews at retail facilities 
nationwide. The first 3 years of enforcement reviews were limited by 
statute to fish and shellfish. As of fiscal year 2009, all covered 
commodities must comply with the regulatory requirements for COOL.
    To ``jump-start'' COOL monitoring of all covered commodities during 
2009 and into 2010, USDA and cooperating State agencies will conduct 
initial enforcement reviews at nearly 12,000 retail facilities and 
perform follow-up reviews at 2,000 retail facilities where significant 
non-compliances are found. In addition, USDA will conduct trace-back 
audits on 400 individual items observed during the initial retail 
reviews. The trace-back audit will track the selected covered commodity 
from retail back to the initiator of the COOL claim to verify accuracy.
    Whenever non-compliances are found at the retail or supply chain 
level, USDA notifies the retailer or supplier in writing and ensures 
appropriate corrective measures are implemented. Complaints filed by 
consumers are also investigated and, if appropriate, action is taken to 
ensure the identified retailer complies with the COOL regulations.
    The results of previous year review and audit findings (fish and 
shellfish only) are as follows:
    Retail Reviews--Conducted by State Cooperators or USDA Reviewers
  --Fiscal year 2006--1,159 retail stores reviewed--59 percent in full 
        compliance;
  --Fiscal year 2007--1,657 retail stores reviewed--67.5 percent in 
        full compliance;
  --Fiscal year 2008--2,000 retail stores reviewed--73 percent in full 
        compliance.
    Supplier Audits--Conducted by USDA Auditors
  --Fiscal year 2007--47 items audited--82 percent in full compliance;
  --Fiscal year 2008--50 items audited--95 percent in full compliance.
    USDA conducted extensive outreach prior to and during the 
implementation of the COOL regulatory requirements to facilitate 
compliance by retailers and their suppliers. For example, during the 
past year, USDA officials have participated in 21 industry sponsored 
conference calls, 3 webinars and provided formal presentations at 33 
trade association meetings and conferences. Additionally, USDA has 
resources in place to respond to telephone, e-mail and regular mail 
inquiries from producers, retailers, suppliers, consumers, media and 
other interested parties concerning the correct labeling of COOL 
covered commodities.
                     all natural labels for poultry
    Question. Under current regulations, poultry bearing the USDA 
approved ``natural'' label can be pumped full of foreign substances, 
such as saline. These birds are weighed after being filled with salt 
water, and the consumer ends up paying for more chicken than they 
receive. This practice also raises health concerns as consumers end up 
eating a product that has a higher salt content than if the poultry had 
not been manipulated. Does USDA intend to revisit the ``natural'' label 
to rein in such practices? Do you believe that a chicken breast pumped 
full of saline is natural?
    Answer. As a required feature of labeling, the Department mandates 
that any addition of water and saline to poultry be included in the 
ingredient statement. Departmental regulations do not prohibit the 
addition of these components when truthfully labeled.
    Regarding ``natural'' labeling, the Department is charged with 
regulating ``natural'' claims in labeling of products under its 
regulatory purview. We are taking the necessary time to carefully 
consider issues related to the use of ``natural'' claims and to decide 
upon the most appropriate course of action. Even though it remains 
unclear as to whether or not it will be possible to reach consensus 
among stakeholders on what ``natural'' should mean, it is our goal to 
make every effort to at least minimize areas of differences by seeking 
a discrete set of alternatives. While we decide how to proceed, 
companies are still free to submit labels for consideration, and each 
label which be judged on a case-by-case basis. The Department plans to 
publish a Federal Register advanced notice of proposed rulemaking on 
the use of the voluntary claim ``natural'' in the fall of 2009.
                   milk income loss contract program
    Question. As you know, the dairy industry has been exceptionally 
hard hit in recent months, and I want to thank you for implementing 
both the Milk Income Loss Contract program (MILC) and the Dairy Export 
Incentive Program (DEIP) to help Dairymen in California and across the 
country. The opening of these programs has been the only bright spot in 
what has been a very tough time for the industry.
    However, I am concerned that the MILC program favors some regions 
of the country over others. In California we have larger farms than in 
other regions of the country, an average of roughly 1,000 cows per 
farm. These large dairies make our State the top milk producing State 
in the country.
    But only the first 2.985 million pounds of milk are eligible for 
assistance from the MILC program per year. For an average California 
Dairy farm, this means that only about 15 percent of their milk output 
is eligible for MILC assistance. This puts California dairymen at a 
comparative disadvantage with other smaller-farm dairy operations 
across the country.
    How do you plan to address this disparity?
    Answer. The Milk Income Loss Contract program limits on eligible 
production are specified by the 2008 Farm bill. Thus, the Department 
has no flexibility to address disparity in regional impacts created by 
the eligible production limits in the MILC. However, California dairy 
farmers, as relatively efficient producers, do clearly and 
substantially benefit from the Dairy Product Price Support program and 
other measures the Department has taken to support the industry. So 
while the Department has little or no flexibility to tailor the 
national dairy programs to favor one region over another, California 
producers are not disadvantaged aside from the MILC production payment 
caps which affect large producers in all regions of the country.
                      revenue caps vs. income caps
    Question. It is my understanding that the President intends to 
begin using revenue caps, instead of the traditional income caps, to 
determine eligibility for direct farm subsidy payments.
    I am concerned that using revenue caps will unfairly disadvantage 
farmers of high revenue, low income crops such as rice and cotton.
    Can USDA structure a revenue cap to ensure that farmers of high 
expense crops will be not be prohibited from receiving direct subsidy 
payments?
    Answer. The President's budget maintains the three-legged stool of 
farm payments, crop insurance, and disaster assistance. However, in 
keeping with the President's pledge to target farm payments to those 
who need them the most, the budget proposes a hard cap on all program 
payments of $250,000 and to reduce crop insurance subsidies to 
producers and companies in the delivery of crop insurance. While the 
budget includes a proposal to phase out direct payments to the largest 
producers, the Department is prepared to work with Congress and 
stakeholders as these proposals are considered.
                         market access program
    Question. In recent years, the Market Access Program has provided 
California farmers with a vital source of monetary and technical 
assistance as they look to sell their products in foreign countries. In 
the 2008 Farm bill, Congress authorized $200 million in mandatory 
spending for this program; however, the President proposes cutting this 
program by 20 percent in his budget. Given this program's proven track 
record of success and widespread industry support, why was it singled 
out to be cut?
    Answer. The President's budget included a series of proposed 
program terminations or funding reductions that would help reduce the 
size of the Federal deficit, one of which would have reduced funding 
for the Market Access Program. Those steps are necessary in order to 
restore fiscal discipline and lay the foundation for long-term growth 
and prosperity. They also would help to pay for other high priority 
initiatives included in the budget, such as healthcare reform, 
investments in education, and the development of alternative sources of 
energy.
    Although annual funding for the Market Access Program would be 
reduced, the program would still provide assistance for overseas market 
promotion of $160 million per year. In addition, other export promotion 
programs, such as the Foreign Market Development Program and the 
Technical Assistance for Specialty Crops Program, would continue at 
their currently authorized funding levels.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed
                       catfish inspection program
    Question. Mr. Secretary, the 2008 Farm bill transferred the 
responsibility for inspecting catfish from the Food and Drug 
Administration to USDA. In doing so, the legislation requires that 
imported catfish come from countries whose inspection standards are 
equivalent to U.S. standards. It is my understanding that although 
USDA's inspection requirements are still being developed, the 
department is nonetheless required by statute to ensure that a foreign 
government has equivalent standards on the date when the USDA 
inspection regulations are finalized if catfish imports are to continue 
from that country. As a result, there is concern among seafood 
importers, including one in my State, that there will not be time for 
foreign countries to achieve formalized USDA equivalence, since that 
process could take years.
    With that as background, do you believe that there is sufficient 
time to allow foreign governments to establish equivalent inspection 
regimes?
    Answer. I believe that the legislation should be administered in a 
fair and equitable fashion that will best achieve the public health 
protection purposes of the legislation. Regardless of how the 
department ultimately defines catfish under the 2008 Farm bill 
provision, we have made it clear from the start UDSA's willingness to 
meet with exporting countries to assist them in initiating the 
equivalence process. Further, USDA is establishing its catfish 
inspection program in a manner that is consistent with our World Trade 
Organization obligations. USDA will notify interested U.S. trading 
partners when the proposed regulation is published to ensure that they 
have the opportunity to provide comments, just as we have already 
provided notification of the changes in the law regarding catfish 
inspection. We will also provide our trading partners with regular 
updates on the progress of the rulemaking process, as well as all 
possible technical and scientific assistance in helping them attain 
compliance and equivalence.
    Question. Are any major catfish exporting countries seeking to 
establish equivalent standards for catfish? If so, will they be able to 
establish equivalence concurrent with USDA's new requirements?
    Answer. To date, no foreign country has requested equivalency 
standards for catfish.
    Question. Are you examining any temporary alternatives, such as 
direct inspection of foreign seafood operations, which might allow 
imports to continue while foreign governments try to achieve equivalent 
standards?
    Answer. USDA's goals in developing the catfish proposed rule is to 
develop a program that maintains, if not improves, the public health 
protections of consumers and that is fair and equitable. In the 
proposed rule, we will lay out our thinking in this regard and seek 
public comment.
    Question. Do you believe such measures would be sufficient to 
ensure the safety of the food supply?
    Answer. The core of USDA's mission is to protect the public health, 
and in no case would we take an action that would not be sufficient to 
ensure the safety of the food supply.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
                       cap-and-trade legislation
    Question. Mr. Secretary, I want to highlight that agriculture 
producers have little ability to negotiate prices for input costs 
required to produce the final product. If enacted, cap-and-trade 
legislation is likely to result in higher costs for fertilizer and 
other inputs. If input costs increase, how do you expect production 
agriculture to benefit?
    [Clerks Note: The following response is based on information 
available after the date of the hearing.]
    Answer. USDA's preliminary analysis of costs and benefits on the 
agriculture sector uses energy price and other information contained in 
EPA's recent analysis of H.R. 2454. In the short term, the economic 
benefits to agriculture from cap-and-trade legislation will likely 
outweigh the costs. In the long term, the economic benefits from 
offsets markets easily trump increased input costs from cap-and-trade 
legislation. Let me also note that we believe these figures are 
conservative because we are not able to model the types of 
technological change that are very likely to help farmers produce more 
crops and livestock with fewer inputs. Second, the analysis does not 
take into account the higher commodity prices that farmers will very 
likely receive as a result of enhanced renewable energy markets and 
retirement of environmentally sensitive lands domestically and abroad. 
Of course, any economic analysis such as ours has limitations. But, 
again, we believe our analysis is conservative, and it is quite 
possible farmers will actually do better if the cap-and-trade 
legislation is enacted.
    Additional information is provided for the record.
    [The information follows:]
    Looking first at the cost side, increases in fuel prices are 
expected to raise overall annual average farm expenses by about $700 
million between 2012 and 2018, or about 0.3 percent. Annual net farm 
income as a result of these higher energy prices is expected to fall by 
about 1 percent. These estimates assume that in the short term farmers 
are unable to make changes in input mix in response to higher fuel 
prices so they likely overestimate the costs to farmers. Fertilizer 
prices will likely show little effect until 2025 because of the H.R. 
2454 provision to help energy-intensive, trade exposed industries 
mitigate the burden that emissions caps would impose.
    The agriculture sector also will benefit directly from allowance 
revenues allocated to finance incentives for renewable energy and 
agricultural emissions reductions during the first 5 years of the H.R. 
2454 cap-and-trade program. Funds for agricultural emissions reductions 
are estimated to range from about $75 million to $100 million annually 
from 2012-2016.
    To evaluate the potential impact on the agricultural sector further 
out in time, we first examine a simple case that allows producers to 
change the crops they grow but not how they produce them. This approach 
is conservative given the observation that energy per unit of output 
has drastically declined over the last several decades. Nevertheless, 
the estimated impact of the cap-and-trade provision of H.R. 2454 
implies a decline of annual net farm income of $2.4 billion, or 3.5 
percent, in 2030 and $4.9 billion, or 7.2 percent, in 2048.
    These estimates are likely an upper bound on the costs, because 
they fail to account for farmer's proven ability to innovate in 
response to changes in market conditions. Our analysis is also 
conservative because it does not account for revenues to farmers from 
biomass production for bioenergy. A number of studies have examined the 
effects of higher energy costs with models that allow for expected 
changes in production management practices and switching to bioenergy 
crops. Based on the analysis of Schneider and McCarl, for example, 
allowing for changes in input mix and revenues from biomass 
production--but without accounting for income from offsets, it is 
estimated that annual net farm income would increase in 2030 by about 
$0.6 billion or less than 1 percent. By 2045, annual net farm income is 
estimated to increase by more than $2 billion or 2.9 percent.
    H.R. 2454's creation of an offset market will create opportunities 
for the agriculture sector to generate additional income. In 
particular, our analysis indicates that annual net returns to farmers 
range from about $1 billion per year in 2015-20 to almost $15-20 
billion in 2040-50, not accounting for the costs of implementing offset 
practices. EPA has conducted its own analysis of returns from offsets 
that takes into account the costs of implementing land management 
practices. EPA's analysis projects annual net returns to farmers of 
about $1-2 billion per year from 2012-18, rising to $20 billion per 
year in 2050. It is important to note that EPA's analysis includes 
revenue generated from forest management offsets while USDA's does not.
                    rhs recovery act implementation
    Question. I understand that Rural Housing Service has a backlog of 
over $2.4 billion in loan requests. Mississippi has a backlog of 
section 502 rural housing home ownership loans totaling $577 million 
and over 700 loan requests. This is the 8th highest in the Nation. The 
economic recovery act provided an additional $1 billion in loan 
authority for section 502. What is the status of implementation of 
recovery funds?
    Answer. As of May 30, 2009, the Rural Development Single Family 
Housing Direct Program obligated $137.1 million of Recovery Act funding 
for 1,073 loans; and, the Guaranteed Program obligated $4.314 billion 
of Recovery Act funding for 36,093 loans. Rural Development is in the 
process of developing and implementing an ``Outreach Initiative'' that 
will provide relief and assistance to field offices in processing 
single family housing loans. Authorities and funding provided by the 
Recovery Act will be utilized to hire temporary employees and deploy 
them in geographic regions based on the population living in poverty in 
the persistent poverty counties of those regions.
    Recovery Act provided an additional $1 billion in funding for the 
direct single family loan program. This funding has aided in reducing 
the backlog in applications that were maintained by the agency. 
However, in light of the first time home buyers tax credit Rural 
Development is currently experiencing a significant increase in demand 
for the single family direct loan program. The current back log totals 
$2.7 billion.
                       affordable rental housing
    Question. For the last several years, Congress has provided funding 
for revitalization of rural rental housing projects. At the same time, 
there is little in the way of funding for newly constructed rural 
rental housing. What is your view of the proper role for Rural Housing 
Service in meeting the need for affordable rental housing for families 
and seniors in rural America?
    Answer. Funding provided by Congress to support revitalization 
efforts has helped us to address the processing demands of a large and 
rapidly aging Multi-Family Housing (MFH) portfolio financed by the 
Rural Housing Service (RHS). We would like to continue and expand those 
efforts.
    However, there is a very real demand for new affordable rental 
housing in rural areas where housing needs are not being addressed by 
the market or other affordable housing funding programs. RHS can use 
the Section 515 direct lending program, coupled with rental assistance 
to assist tenants with the lowest incomes, the Section 538 guaranteed 
program, which has no tenant subsidy, to serve low and moderate income 
families, and our direct farm labor housing loan and grant program 
(Section 514/516) coupled with rental assistance, to serve farm workers 
that support our country's agricultural activities. These RHS MFH 
programs allow local communities to build affordable rental options 
into their housing infrastructure to keep and attract residents.
    It is important to note that most new construction activity 
generated by RHS MFH programs is supplemented by funding from 
affordable housing partners. In many cases, this job creating third 
party capital financing would not be attracted to rural areas without 
the RHS MFH program to serve as a catalyst. In addition, for any 
affordable housing rental program to succeed in reaching those people 
or communities most in need, project based rental assistance is often a 
critical determinant.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins
                             dairy farmers
    Question. Dairy farmers in the northeast are really struggling. I 
continue to hear from many of Maine's hard-working family farms who are 
barely surviving. Many of these families have been involved in the 
dairy industry for generations. The price farmers are receiving for 
their milk has plummeted as compared to just a year ago. The USDA has 
estimated that the average milk price will be $11.55 per hundredweight 
in 2009, as compared to the 2008 average price of $18.32 per 
hundredweight. The 2009 average price estimate of $11.55 would be the 
lowest average annual price received by dairy farmers since 1978.
    I understand that there are a variety of factors affecting the 
price of milk and that the USDA has recently made efforts to assist 
dairy farmers through existing support programs. I know that you 
authorized the transfer of dairy products, purchased under the Dairy 
Price Support program, to domestic feeding groups, and that you 
activated the Dairy Export Incentive Program. I also am aware that the 
USDA began making payments under the Milk Income Loss Contract program 
in May.
    While the steps you have taken thus far may be helpful in the short 
run, I am interested in what actions you are considering as a long-term 
solution. Under Section 1509 of the Farm bill, Congress authorized a 
blue ribbon commission to study Federal milk pricing system and 
recommend changes.
    Have you considered long-term solutions to assist the dairy 
industry?
    Answer. Yes, USDA is considering long-term solutions to the 
problems facing our dairy industry. [Clerk's note: The following 
response is based on information available after the date of the 
hearing.] On August 25, 2009, we announced the establishment of a Dairy 
Advisory Committee to analyze the issues facing the dairy sector. More 
specifically, the purpose of the Committee is to review the issues of 
farm milk price volatility and dairy farmer profitability and to 
provide suggestions and ideas to the Secretary on how USDA can best 
address these issues to meet the dairy industry's needs.
    Question. When will you create the blue ribbon commission to study 
Federal milk marketing orders?
    Answer. Establishment of the commission is subject to 
appropriations that have not been provided.
                           empowerment zones
    Question. In January 2002, USDA Rural Development designated a 
large portion of Aroostook County, Maine, as a Round III Empowerment 
Zone. This designation, based on Aroostook County's population out-
migration, has helped provide applicants with additional points on 
grant applications and funds for economic development projects.
    Economic development organizations and private sector companies in 
Aroostook have joined together to help stabilize, diversify, and grow 
the area's economy. This region's continued designation as an 
Empowerment Zone and the adequate funding of this program are critical 
for making capital investments, which are prerequisites for business 
attraction in distressed communities.
    During these challenging economic times, it is particularly 
important that the Federal Government continue its commitment to our 
most distressed communities.
    I was disappointed that the Administration's budget eliminates 
funding for Empowerment Zones. Can you explain why this effective 
program was cut in the budget?
    Answer. The Department of Agriculture supports rural economic 
development through community infrastructure, utility, and housing loan 
and grant programs. The small Empowerment Zone and Enterprise Community 
(EZ/EC) program duplicates those programs. Communities designated as 
Rural EZ/ECs are qualified for the regular rural development programs, 
such as the Business and Industry Guaranteed Loan Program, the Self 
Help Housing and Development Loans and the Rural Water and Waste 
Disposal Programs which, in many cases, have set asides in those 
programs. The Budget continues to provide funding to the EZ/EC 
communities through set asides from other Rural Development programs, 
totaling $27.6 million. These set asides have been included by the 
Congress in previous appropriations bills and are expected to continue. 
In addition, the authority for the EZ/EC program expires December 31, 
2009.
         resource conservation and development councils (rc&ds)
    Question. Can you explain why this effective program was cut in the 
budget?
    The USDA's Resource Conservation and Development (RC&D) program 
provides important resources for many rural communities in Maine and 
around the country, advancing valuable local resource conservation and 
community development projects. RC&D-sponsored activities have led to 
more sustainable communities, better informed land use decisions, and 
sound management practices of our natural resources.
    Maine's five RC&D councils have proven their effectiveness through 
a number of accomplishments. During fiscal year 2007, 56 new RC&D 
projects were approved and 40 projects were completed. In October 2008, 
the St. John Aroostook RC&D hosted a conference focusing on increasing 
energy diversity and independence and growing wind power generation in 
Maine. In addition, the Bangor RC&D has provided business development 
programs designed to help entrepreneurs create and grow a successful 
business.
    One of the main benefits of the RC&D program is the promotion of 
local economies through the leveraging of Federal dollars. According to 
the National Association of RC&D councils, the RC&D program is one of 
the Federal Government's success stories with its ability to return 
$7.50 for every dollar the Federal Government invests to support 
economic development and resource protection in rural areas.
    I was disappointed that Administration's budget eliminates funding 
for the RC&D program.
    Answer. First begun in 1962, the program was intended to build 
community leadership skills through the establishment of RC&D councils 
that would access Federal, State, and local programs for the 
community's benefit. After 47 years, the program has matured to the 
point that this goal has been accomplished. RC&D councils should have 
developed sufficiently strong State and local ties to secure funding 
for their continued operation without Federal assistance.
                         maine flood assistance
    Question. Last spring, as a result of heavy rains and record 
melting snow in northern Maine, the St. John and Fish Rivers 
overflowed, causing severe flooding in Aroostook County, resulting in 
major evacuations, displacement, and damaged housing for many 
residents. In May 2008, President Bush declared this region a Federal 
disaster after this historic flooding.
    I am particularly concerned about funding needed to rebuild an 
apartment complex for low-income elderly and disabled residents of Fort 
Kent. Funding estimates indicate that rebuilding this critical facility 
will cost between $2-$3 million.
    I worked to include report language in the fiscal year 2009 
Omnibus, which urged USDA to assist with efforts to rebuild multi-
family housing in Fort Kent, Maine, that was destroyed by this severe 
flooding.
    What efforts has USDA taken to assist the community in its efforts 
to rebuild the USDA multi-family housing that was destroyed by the 
flood?
    Answer. We are pleased to say that funding had been approved for 
these critical rehabilitation and replacement efforts during June of 
this year. Currently, all parties are involved with development and 
construction planning.

                          SUBCOMMITTEE RECESS

    Senator Kohl. The subcommittee will stand in recess.
    Secretary Vilsack. Mr. Chairman, thank you for your 
courtesies, and Senator Brownback, be reassured we will find 
out about that Tufts program because the Deputy Secretary comes 
from Tufts. I am hopeful she knows all about that, and if she 
does not, she is going to find out about it.
    Senator Brownback. She better.
    Secretary Vilsack. Thank you.
    [Whereupon, at 2:55 p.m., Thursday, June 4, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


   AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2010

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [The following testimonies were received by the 
Subcommittee on Agriculture, Rural Development, Food and Drug 
Administration, and Related Agencies for inclusion in the 
record. The submitted materials relate to the fiscal year 2010 
budget request for programs within the subcommittee's 
jurisdiction.]

               Prepared Statement of the Ad Hoc Coalition

    Mr. Chairman, Members of the Subcommittee, this statement is 
respectfully submitted on behalf of the ad hoc coalition composed of 
the organizations listed below. The coalition supports sustained 
funding for our Nation's food aid programs, including Titles I and II 
of Public Law 480, and therefore strongly opposes all proposals to 
divert funding away from these important programs.
                         food aid's unique role
    The donation of American commodities as food aid has been the 
cornerstone of United States and global foreign assistance programs 
since their inception. However, food aid has evolved in important ways 
over the years. Food aid began as an outgrowth of American farm policy 
that generated sizeable surpluses and American foreign policy 
characterized by a Cold War competition for the hearts and minds of 
impoverished populations across the globe. Since then, American farm 
policy has evolved away from surpluses, and therefore food can no 
longer be mischaracterized as ``dumping'' of excess commodities. 
Indeed, the United States now purchases commodities for donation on the 
open market. In today's economic climate, the need to provide societal 
stability, avoid failed States, prevent terrorist breeding grounds, and 
bolster America's image abroad has never been more important.
    In recent years, debate in the foreign assistance community has at 
times questioned the role of food aid. Led by European Union trade 
negotiators who have complained about American food aid as a 
smokescreen to shield their own protectionist agriculture policies, 
some have bemoaned the potential distorting effects that food donations 
might have on local agriculture where U.S. food is disbursed. Other 
opponents of food aid have suggested that perhaps we would be better 
off if we did not donate commodities, but instead relied solely on 
agricultural development and local purchases. Like others in the aid 
community, we look forward to the day when food aid is no longer 
needed, but we are nowhere near that goal today. Our in-kind food aid 
programs are needed now more than at any time in their history.
    Donated food aid is the most reliable means of introducing food to 
needy communities in order to combat hunger and save lives. This is not 
to say that other, creative means available under the Foreign 
Assistance Act or elsewhere have no role. To the contrary, these are an 
important part of the aid ``tool kit'', which can and should be 
employed to further developmental goals, including food self-
sufficiency among food aid recipients and to address unforeseeable 
breaks in the food aid pipeline. But those that paint food aid as 
unnecessary and even harmful exhibit shortsightedness that does a great 
disservice to those we all strive to help.
    The need for food aid today is stronger than ever. Hunger is a 
powerful destabilizing force, and America faces a convergence of 
terrorist and other security threats from failed and unstable states 
that feed on ill will toward our Nation. The U.N. WFP tells us that in 
recent years the food insecure have been hit by a ``perfect stone of 
increases in food prices coupled with export restrictions imposed by 
traditional regional and local food exporters. Here at home, the 
economy has lost 5.1 million jobs since December 2007. U.S. food aid 
programs not only further our humanitarian and food security goals by 
allowing Americans to contribute to the needy in a tangible way, but 
the programs also provide stable jobs for Americans. These programs 
help us get more from our aid dollars both here and abroad.
                     the sharp decline in food aid
    Despite the broad, bipartisan support that food aid has long 
enjoyed, shipments declined by 71 percent, from 9.1 million tons in 
1999 to a low of 2.7 million tons in 2007. These shipment levels are 
less than one-third of what they were a decade ago even though the most 
fragile communities now find themselves in the grip of an unprecedented 
food crisis. Therefore, we respectfully request that this steady 
erosion of food aid be reversed, and that funding be at least 
maintained at the $2.5 billion level appropriated in fiscal year 2008 
to ensure the continued effectiveness and stability of these important 
and historically successful programs.
  food aid versus cash donations for ``local and regional purchases''
    Food for Peace, which provides farm products grown in the United 
States to millions overseas in bags marked ``From the American 
People,'' is a clear and tangible sign of America's concern and 
generosity to its recipients. This same ``in-kind'' composition 
generates important economic benefits to our Nation--vital jobs in many 
industries, farm income, markets for agriculture processors, and 
revenue for American transportation providers and ports. It also 
generates Federal, State, and local tax revenues, as well as secondary 
economic effects, such as farm equipment purchases and farm family 
spending in our broader economy. For these reasons, a strong domestic 
constituency for food aid, in good economic times and bad, has 
sustained America's food aid programs through decades of competing 
funding priorities. As Secretary of Agriculture Vilsack said during the 
2009 International Food Aid Conference, ``[O]ur capacity to meet this 
extraordinary need [of global hunger] must start with a commitment to 
build a strong economy here in the United States. Without that strong 
economy, we cannot make a strong commitment to International Food 
Aid.''
    Furthermore, for decades American agriculture interests have 
provided a dependable source of high-quality nutritious food that is 
not always reliably available to local or regional markets. Given the 
ongoing food crisis for many nations, in terms of price, availability, 
and quality, and considering the recent actions by some food-exporting 
nations to halt food exports when domestic shortages occur, the amount 
and dependability of U.S.-produced food aid in Public Law 480 is 
crucial to our humanitarian assistance effort.
    Using American taxpayer dollars to purchase foreign agricultural 
commodities would forego the unique benefits of U.S. food aid, such as 
predictable food aid supply and good American jobs, when our country 
and food-deficit areas need them most. Nevertheless, additional 
resources have already been directed to so-called ``local and regional 
purchases'': USAID was recently provided new funding of $125 million 
under the Foreign Assistance Act through the International Disaster and 
Famine Assistance Account and Congress also established a $60 million 
CCC-funded USDA pilot program in the 2008 Farm Bill to examine the 
potential dangers and benefits of this approach before considering 
further expansion of its use in conjunction with a strong in-kind food 
aid program centered around American commodities.
                restoration of title i/food for progress
    Recent focus has been upon Title II emergency food aid, but the 
Title I concessional sales food aid program is also an important tool 
in the aid ``toolbox''. In order to ensure that countries with the most 
dire need have sufficient donated food aid, the coalition recommends 
that USDA offer the Title I concessional sales program to countries 
that can afford it. Title I allows us to leverage our aid dollars, 
helping more people in need with our limited budget resources.
    To the extent that the Title I funding truly cannot be used for 
concessional sales, it may be converted to donations on full grant 
terms through the Food for Progress (``FFP'') program. There is strong 
demand for Title I funding channeled through FFP: For fiscal year 2007, 
100 proposals were submitted by PVOs and 16 by governments, but only 11 
new proposals were approved.
                    conclusions and recommendations
    Mr. Chairman, the coalition is committed to maintaining the funding 
for America's food aid programs to meet humanitarian needs, enhance the 
potential for economic growth in recipient countries, and stimulate the 
economy here at home. Our recommendation is to increase, over time, 
annual food assistance with a blend of programs supported by direct 
appropriations and CCC program authorities. Specifically, the coalition 
respectfully recommends the following:
  --Full funding of Title II at the $2.5 billion authorized by law, 
        which is consistent with the fiscal year 2008 appropriation 
        level.
  --Title I/Food for Progress program levels should be restored to 
        responsible levels so that the unique efficiencies of the 
        program are not lost and more people can be fed.
  --In committee report language, the Committee should reiterate its 
        fiscal year 2003 directive to the administration to make 
        greater use of existing CCC authorities to expand food aid to 
        regions in critical need.
    Public Law 480 Food for Peace is the world's most successful 
foreign assistance program, and has saved countless lives. Its 
straightforward delivery of American food to the hungry fills a clear 
and immediate need overseas, and its unique architecture has made it a 
successful program here at home that has endured for over fifty years. 
While we support creative efforts to address the root causes of hunger, 
we cannot emphasize enough that now, more than ever, the world needs 
Public Law 480 food aid.
    Thank you, Mr. Chairman.

America Cargo Transport Corp.
American Maritime Congress
American Maritime Officers
American Maritime Officers'
Service American Peanut Council
American Soybean Association
Global Food and Nutrition Inc.
International Organization of Masters, Mates & Pilots
Liberty Maritime Corporation
Maersk Line, Ltd.
Marine Engineers' Beneficial Association
Maritime Institute for Research and Industrial Development
National Association of Wheat Growers
National Corn Growers Association
National Council of Farmer Cooperatives
National Oilseed Processors Association
National Potato Council
Seafarers International Union
Sealift, Inc.
Tosi Maritime Consultants, LLC
Transportation Institute
United Maritime Group, LLC
U.S. Dry Bean Council
U.S. Dry Pea & Lentil Council
U.S. Wheat Associates, Inc.
USA Rice Federation
                                 ______
                                 

       Prepared Statement of the American Farm Bureau Federation

    The American Farm Bureau Federation (AFBF) has identified five 
general areas for increased emphasis and funding for United States 
Department of Agriculture (USDA) programs in the fiscal year 2010 
agriculture spending bill. They are:
  --Programs that strengthen rural communities;
  --Programs that improve USDA efficiency;
  --Programs that enhance and improve food safety and protection;
  --Programs that expand export markets for agriculture; and
  --Programs that insure the availability of crop protection tools for 
        food production.
    Within these categories, we would like to call your attention to 
specific programs deserving of your support.
Programs that Strengthen Rural Communities
    The lack of high-speed, modern telecommunications systems in rural 
America hinders its residents' access to educational, medical and 
business opportunities, and therefore the economic growth of rural 
America. We support $1.3 billion for loans and grants administered by 
the Rural Utilities Service to increase rural broadband capacity and 
telecommunications services and to fund the Distance Learning and 
Telemedicine Program.
    Rural entrepreneurs often lack access to the capital and technical 
assistance necessary to start new businesses. These new ventures are 
needed for rural communities to sustain themselves and contribute to 
our national economy. AFBF supports funding for USDA Rural Development 
(RD) programs that foster new business development in rural 
communities. These programs include Value-Added Agricultural Production 
Grants, Business and Industry Direct and Guaranteed Loans, and the 
Rural Microentrepreneur Assistance Program.
    Many rural communities lack access to the tax base necessary to 
provide modern community facilities like fire stations. We support 
funding for RD's Community Facility Direct and Guaranteed Loans, which 
finance the construction, enlargement or improvement of essential 
community facilities in rural areas and towns with populations of less 
than 20,000.
    Renewable energy production holds great promise as a means to help 
America's farmers and rural communities contribute to our national 
economy and enhance our national security. We support increasing 
funding for the Renewable Energy and Energy Efficiency Program (REEP) 
by $250 million. REEP offers grants, guaranteed loans and combination 
grant/guaranteed loans to help agricultural producers and rural small 
businesses purchase and install renewable energy systems and make 
energy efficiency improvements in rural areas.
    The Revolving Fund (RFP) Grant Program helps communities acquire 
safe drinking water and sanitary, environmentally sound waste disposal 
facilities. With dependable water facilities, rural communities can 
attract families and businesses that will invest in the community and 
improve the quality of life for all residents. We support funding for 
this important program.
    AFBF supports funding for and opposes any effort to eliminate the 
Resource Conservation and Development program. This vital program 
supports economic development and resource protection. This program, in 
cooperation with rural development councils, helps local volunteers 
create new businesses, form cooperatives, develop marketing and agri-
tourism activities, improve water quality and flood control, improve 
leadership and other business skills and implement renewable energy 
projects.
    We support full funding for Agriculture in the Classroom, a 
national grassroots program coordinated by the USDA. This worthy 
program helps students gain a greater awareness of the role of 
agriculture in the economy and society, so that they may become 
citizens who support wise agricultural policies.
Programs that Improve USDA Efficiency
    Farm Bureau strongly supports providing an additional $250 million 
to USDA to improve computer technology in the Farm Service Agency 
(FSA). FSA currently operates on the oldest technology system within 
USDA and one of the oldest systems in the entire Federal Government. 
These outdated systems create enormous inefficiencies throughout the 
department, and it is unclear how long these antiquated systems can 
continue to support increasingly complex farm programs. Systems across 
agencies under USDA jurisdiction cannot communicate with each other, 
which could lead to improper payments and often requires duplicative 
paperwork and additional labor hours. Upgrading FSA computer technology 
now will lead to greater efficiencies down the road and could prevent a 
future system failure.
Programs that Enhance and Improve Food Safety and Protection
    Americans spend more than $1 trillion annually on food--nearly half 
of it in restaurants, schools and other places outside the home. 
Consumers have a reasonable expectation that the food products they buy 
are safe. The continued safety of food is crucial to consumers, as well 
as production agriculture and the food industry. AFBF believes that 
sufficient, reliable Federal funding for the government's food and feed 
safety and protection functions is vital to this effort.
    Therefore, we recommend that funding be increased for food 
protection at the Food and Drug Administration (FDA) and at the Food 
Safety and Inspection Service (FSIS) and directed to:
  --Increased education and training of inspectors;
  --Additional science-based inspection, targeted according to risk;
  --Research and development of scientifically based rapid testing 
        procedures and tools;
  --Accurate and timely responses to outbreaks that identify 
        contaminated products, remove them from the market and minimize 
        disruption to producers; and
  --Indemnification for producers who suffer marketing losses due to 
        inaccurate government-advised recalls or warnings.
    We also support authorized funding of $2.5 million for the Food 
Animal Residue Avoidance Databank (FARAD). FARAD aids veterinarians in 
establishing science-based recommendations for drug withdrawal 
intervals, critical for both food safety and animal health. No other 
government program provides or duplicates the food safety information 
FARAD provides to the public. Without the critical FARAD program, 
producers may be forced to euthanize animals or dispose of meat, milk 
and eggs due to the lack of withdrawal information.
Programs that Expand Export Markets for Agriculture
    AFBF supports funding at authorized levels for:
  --Public Law 480 programs which serve as the primary means by which 
        the United States provides needed foreign food assistance 
        through the purchase of U.S. commodities. In addition to 
        providing short-term humanitarian assistance, the program helps 
        to develop long-term commercial export markets.
  --The International Food for Education Program which is an effective 
        platform for delivering severely needed food aid and 
        educational assistance.
    The Market Access Program, the Foreign Market Development Program, 
the Emerging Markets Program and the Technical Assistance for Specialty 
Crops program are effective export development and expansion programs. 
These programs have resulted in record increases in demand for U.S. 
agriculture and food products abroad and should be fully funded.
    As trade increases between countries, so too does the threat of new 
invasive and noxious pests that can destroy America's agricultural and 
natural resources. Therefore, we support full funding for the following 
Animal Plant Health Inspection Service (APHIS) programs:
  --The APHIS Plant Protection and Quarantine personnel and facilities, 
        especially the plant inspection stations, are necessary to 
        protect U.S. agriculture from costly pest problems that enter 
        the United States from foreign lands.
  --APHIS trade issues resolution and management activities are 
        essential for an effective response when other countries raise 
        pest and disease concerns (i.e., sanitary and phytosanitary 
        measures) to prohibit the entry of American products. APHIS 
        must be active at U.S. ports and in overseas locations to 
        monitor pest and disease conditions, negotiate trading 
        protocols and to intervene when foreign officials wrongfully 
        prevent the entry of American imports.
  --APHIS Biotechnology Regulatory Services (BRS) play an important 
        role in overseeing the permit, notification and deregulation 
        process for products of biotechnology. BRS personnel and 
        activities are essential to ensure public confidence and 
        international acceptance of biotechnology products.
    Full funding for the Foreign Agricultural Service (FAS) is urgently 
needed to maintain services in an agency that has been significantly 
depleted in recent years. We urge continued support for the Office of 
the Secretary for cross-cutting trade negotiations and biotechnology 
resources.
    The U.S. Codex Office is essential to developing harmonized 
international standards for food and food products. Codex standards 
provide uniformity in food rules and regulations by allowing countries 
to adopt similar levels of safety protection for consumers while 
concurrently facilitating transparency in food trade.
Programs that Insure the Availability of Information on Crop Protection 
        Tools Used for Food Production
    Farmers need access to reliable and affordable crop protection 
chemicals. Farm Bureau supports $8.4 million be provided to the 
National Agricultural Statistical Service (NASS), specifically for the 
continuation of agricultural chemical-use surveys for fruits, 
vegetables, floriculture and nursery crops. NASS surveys provide 
current and relevant data about the use of agricultural chemicals 
involved in the production of food, fiber and various horticultural 
products. The information collected helps USDA to conduct reliable 
analysis of product use and EPA to characterize the potential 
theoretical risks associated with agricultural chemical products. Only 
with reliable data can USDA and EPA accurately access the economic 
benefits of agricultural chemicals and make responsible decisions about 
product registration.
                                 ______
                                 

  Prepared Statement of the American Honey Producers Association, Inc.

    Chairman Kohl and Members of the Subcommittee, my name is Kenneth 
Haff, and I currently serve as President of the American Honey 
Producers Association (``AHPA''). I am pleased today to submit the 
following statement on behalf of the AHPA, a national organization of 
commercial beekeepers actively engaged in honey production and crop 
pollination throughout the country. The purpose of this statement is to 
bring to your attention the continued threats faced by American 
beekeepers and the billions of dollars in U.S. agriculture that rely 
upon honeybee pollination services. With those threats in mind, we 
respectfully request an appropriation of at least $20 million to combat 
CCD and to conduct other essential honeybee research through the ARS 
and other agencies at the Department of Agriculture, as provided for in 
the 2008 Farm Bill.
    As I speak to you today, U.S. beekeepers are facing the most 
extraordinary of challenges. Colony Collapse Disorder (``CCD'') has 
continued to ravage bee colonies across the United States, moving from 
one hive to another in unpredictable patterns. The result has been the 
death of up to 90 percent of the bee colonies in affected apiaries. In 
early 2007, the National Research Council at the National Academy of 
Sciences characterized the beekeeping industry as being in ``crisis 
mode''--a point echoed and re-emphasized in last year's USDA action 
plan regarding honeybee threats. Hundreds of news articles and many in-
depth media reports have continued to chronicle the looming disaster 
facing American beekeepers and the producers of over 90 fruit, 
vegetable and fiber crops that rely on honeybee pollination. However, 
despite extensive and coordinated work by experts from government, 
academia and the private sector, the definitive causes of and solutions 
for CCD have yet to be identified.
    The emergence of CCD shines a bright light on the inadequacies of 
current honeybee research, particularly on the lack of capacity to 
address new challenges and to take long-term steps to assure honeybee 
health. In saying this, we do not mean to diminish the vital, ongoing 
work of ARS and other honeybee scientists. They do their job and they 
do it very well. In recent years, however, honeybee research has become 
largely confined to four ARS laboratories that provide the first line 
of defense against exotic parasitic mites, Africanized bees, viruses, 
brood diseases, pests, pathogens and other conditions. Universities and 
the private sector have substantially scaled back their efforts due to 
a lack of available funds. Moreover, ARS laboratories lack sufficient 
resources even for current honeybee research priorities. For example, 
we understand that ARS currently lacks funds even to test high priority 
CCD samples that ARS scientists have already collected.
    In past fiscal years, this Subcommittee has supported the 
beekeeping industry through funding for agricultural research 
activities. As you know, in the fiscal year 2003 cycle, the 
Subcommittee rejected a proposal that would have resulted in the 
elimination of three ARS laboratories that are indispensable to the 
survival of our industry. Again, in the fiscal year 2009 omnibus 
appropriations bill, Congress preserved funding for the Weslaco, Texas 
ARS research facility despite a recommendation in President Bush's 
fiscal year 2009 budget proposal to close that facility. Those were 
wise decisions. Without these labs, the American honeybee may not have 
survived the various above-mentioned threats, and the infrastructure 
would not exist today upon which an aggressive research campaign may 
continue to be built.
    For fiscal year 2009, Congress appropriated an additional $800,000 
in research funding specifically designated to combat CCD. We 
appreciate and support the increased funding for CCD research, and we 
sincerely thank this Subcommittee for its diligent attention to the 
crises before us. However, we believe strongly that an increase in 
$800,000 does not come close to meeting the growing demands imposed by 
CCD and other threats to honeybee health. Instead, to meet the needs of 
the American beekeeper and to stave off a pending agricultural crisis 
for growers and consumers, we respectfully urge the Subcommittee to 
appropriate $20 million in new research funds dedicated toward CCD and 
other honeybee health research projects. As you know, the 2008 Farm 
Bill included an authorization of $100 million over five years for such 
initiatives. A $20 million appropriation in fiscal year 20010 would 
reflect that authorization, and would provide government, academic and 
private sector researchers with the vital resources needed to combat 
CCD and other emerging threats and assure long-term honeybee health. 
Such funding would be a prudent investment in the U.S. farm 
infrastructure, which, along with U.S. consumers, derives tens of 
billions of dollars of benefit directly from honeybee pollination. 
Finally, in addition to the new and significant additional funding 
proposed for CCD research needs, we specifically suggest increased 
funding in the amount of at least $250,000 for promising honeybee 
genome research at the ARS laboratory in Baton Rouge. Genome research 
is likely to be central to resolving mysterious threats such as CCD and 
to ensuring bee health and productivity for generations to come.
            the importance of honeybees to u.s. agriculture
    Honeybees are an irreplaceable part of the U.S. agricultural 
infrastructure. Honeybee pollination is critical in the production of 
more than 90 food, fiber, and seed crops and directly results in more 
than $15 billion in U.S. farm output. The role of pollination is also 
vital to the health of all Americans given the dietary importance of 
fruit, vegetables and nuts, most of which are dependent on pollination. 
Honeybees are necessary for the production of such diverse crops as 
almonds, apples, oranges, melons, blueberries, broccoli, tangerines, 
cranberries, strawberries, vegetables, alfalfa, soybeans, sunflower, 
and cotton, among others. In fact, honeybees pollinate about one-third 
of the human diet.
    The importance of this pollination to contemporary agriculture 
cannot be understated. In fact, the value of such pollination is vastly 
greater than the total value of honey and wax produced by honeybees. 
More than 140 billion honeybees, representing 2 million colonies, are 
transported by U.S. beekeepers across the country every year to 
pollinate crops.
    The importance of honeybees--and the U.S. honey industry which 
supplies the honeybees for pollination--is illustrated by the 
pollination of California's almond crop. California grows 100 percent 
of the Nation's almond crop and supplies 80 percent of the world's 
almonds. Honeybees are transported from all over the Nation to 
pollinate California almonds, which are the largest single crop 
requiring honeybee pollination. More than one million honeybee hives 
are needed to pollinate the 600,000 acres of almond groves that line 
California's Central Valley. Thus, nearly half of the managed honey-
producing colonies in the United States are involved in pollinating 
California almonds in February and March.
    Many other U.S. agriculture producers require extensive honeybee 
pollination for their crops, including blueberry, avocado, and cotton 
growers. Cattle and farm-raised catfish industries also benefit from 
honeybee pollination, as pollination is important for growing alfalfa, 
which is fodder for cattle and farm-raised fish. As OnEarth magazine 
has noted, the fate of California's almond crop rests ``on the slender 
back of the embattled honeybee.''
                       threats to u.s. honeybees
    Since 1984, the survival of the honeybee has been threatened by 
continuing infestations of mites, pests and other conditions for which 
appropriate controls must continually be developed by scientists at the 
four ARS laboratories and other highly qualified research institutions. 
These longstanding and worsening infestations have caused great strain 
on the American honeybee to the point where some U.S. honey producers 
have felt the need--for the first time in over 80 years--to import bees 
from New Zealand and Australia for pollination. Ironically, scientists 
and industry leaders have since concluded that there is likely a 
correlation between the introduction of foreign bees and the emergence 
of CCD, the newest and greatest challenge to the survival of American 
honeybees.
    However, the specific cause of CCD and treatments for it remain 
elusive to both beekeepers and scientists. The research is complex, as 
there are a wide range of factors that--either alone or in 
combination--may be causes of this serious condition. Areas for 
research include the stress from the movement of bees to different 
parts of the country for extensive commercial pollination, the 
additional stress of pollinating crops, such as almonds, that provide 
little honey to the bees, and the impact of certain crop pesticides and 
genetic plants with altered pollination characteristics. Continuing 
infestations of the highly destructive Varroa mite, combined with other 
pests and mites, are also thought to compromise the immune systems of 
bees and may leave them more vulnerable to CCD. At the same time, 
researchers will need to focus on the many reported instances in which 
otherwise healthy, pest-free, stationary bee colonies are also 
suffering collapse or problems with reproduction.
    While researchers continue in their exhaustive effort to isolate 
the specific causes of CCD, the AHPA strongly urges the Congress to 
work with the Department of Agriculture to ensure that exotic bees and 
the threats they pose are restricted from importation into the United 
States. Under current law, the Department of Agriculture has the duty 
to refuse a shipment's entry into the United States where the export 
certificate identifies a bee disease or parasite of concern to the 
United States or an undesirable species or subspecies of honeybee, 
including the Oriental honeybee or ``Apis cerana'' (7 CFR  322.6(a)(2) 
(2004)). In the case of Australian honeybees, officials in that country 
have detected the presence of the Apis cerana honeybee throughout their 
country, a species known to harbor parasitic mites and possibly viruses 
that do not currently exist in the United States. At the time of 
discovery, officials tracked a large number of Apis cerana bees, 
indicating that the species had been in Australia for some time without 
detection. While Australian officials claim to have quarantined these 
bees and destroyed hives known to contain them, we have heard reports 
that new discoveries have taken place since such claims by Australian 
officials, indicating an insufficient capacity by Australian officials 
to accurately assess risks. AHPA believes that this development allows 
no other conclusion but for the Department to suspend entry of 
Australian honeybees.
                   ongoing and new critical research
    AHPA, other industry officials, and leading scientists believe that 
an important contributing factor in the current CCD crisis is the 
longstanding, substantial under funding of U.S. bee research. In recent 
years, the Federal Government has spent very modest amounts at each ARS 
Honeybee Research Laboratory--for a sector that directly contributes 
$15 billion per year to the U.S. farm economy. Worse still, funding 
amounts have not been increased to account for growing bee health 
concerns. USDA honeybee researchers remain under funded. As noted 
above, current funding shortages have caused important CCD-related bee 
samples to go untested. Additionally, despite their ability to provide 
significant and innovative new research on emerging bee threats, 
researchers in the academic and private sectors also lack the necessary 
financial resources for these vital tasks. With the emergence of CCD, 
there is a serious gap between the threats faced by U.S. honeybees and 
the capacity of our researchers to respond. Closing this gap will 
require significant new resources. It is estimated that each new 
scientist, technician and the support materials that they need will 
cost an additional $500,000 per year.
    To address these challenges, the AHPA respectfully requests an 
appropriation of at least $20 million to combat CCD and conduct other 
essential honeybee research. These funds should be allocated in 
accordance with authorizations provided in the 2008 Farm Bill. 
Specifically, the funds should be divided among the following 
Department of Agriculture agencies and programs: (1) the four ARS Bee 
Research Laboratories for new personnel, facility improvement, and 
additional research; (2) the Animal and Plant Health Inspection Service 
to conduct a nation-wide honeybee pest and pathogen surveillance 
program; (3) the ARS Area Wide CCD Research Program divided evenly 
between the Beltsville, MD and the Tucson, Arizona research 
laboratories to identify causes and solutions for CCD in affected 
States; (4) the Cooperative State Research, Education, and Extension 
Service at the Department of Agriculture to fund extension and research 
grants to investigate the following: honey bee biology, immunology, and 
ecology; honey bee genomics; native bee crop pollination and habitat 
conservation; native bee taxonomy and ecology; pollination biology; 
sub-lethal effects of insecticides, herbicides, and fungicides on honey 
bees, native pollinators, and other beneficial insects; the effects of 
genetically-modified crops, including the interaction of genetically-
modified crops with honey bees and other native pollinators; honey, 
bumble, and other native bee parasites and pathogens effects on other 
native pollinators; and (5) the additional ARS research facilities in 
New York, Florida, California, Utah, and Texas for research on honey 
and native bee physiology, insect pathology, insect chemical ecology, 
and honey and native bee toxicology.
    Since the beekeeping industry is too small to support the cost of 
needed research, publicly-funded honeybee research by the four ARS bee 
laboratories is absolutely key to the survival of the U.S. honey and 
pollination industry. For example, the pinhead-sized Varroa mite is 
systematically destroying bee colonies and prior to CCD was considered 
the most serious threat to honeybees. Tracheal mites are another 
contributing factor to the loss of honeybees. Tracheal mites infest the 
breathing tubes of adult honeybees and also feed on the bees' blood. 
The mites essentially clog the bees' breathing tubes, blocking the flow 
of oxygen and eventually killing the infested bees.
    The industry is also plagued by a honeybee bacterial disease that 
has become resistant to antibiotics designed to control it, and a 
honeybee fungal disease for which there is no known treatment. These 
pests and diseases, especially Varroa mites and the bacterium causing 
American foulbrood, are now resistant to chemical controls in many 
regions of the country. Further, we have seen that these pests are 
building resistance to newly-developed chemicals more quickly than in 
the past, thereby limiting the longevity of chemical controls.
    As previously mentioned, the cause or causes of CCD are unknown. 
Thus, pest, viral and bacterial disease research takes on added 
significance. First, pest, viral and bacterial disease research may 
itself provide insight into the discovery of CCD's root causes. Second, 
whether pests and bacterial diseases are directly a factor in CCD or 
not, they nonetheless continue to threaten bee population health and 
vitality. Given CCD's particularly devastating impact on bee 
populations, even greater emphasis must be placed on mitigating known 
threats in order to achieve the overall goal of ensuring adequate honey 
production and pollination capacity.
    In addition to pest and bacterial disease research, the sequencing 
of the honeybee genome in 2006 at Baylor University has opened the door 
to creating highly effective solutions to bee health and population 
problems via marker-assisted breeding. Marker-assisted breeding would 
permit the rapid screening of potential breeders for specific DNA 
sequences that underlie specific desirable honeybee traits. The 
sequenced honeybee genome is the necessary key that will allow 
scientists to discover the important DNA sequences. Additional funding 
for the ARS research laboratory at Baton Rouge will assure that this 
critically important work goes forward.
    Because of the sequenced honeybee genome, it is now possible to 
apply molecular biological studies to the development of marker-
assisted breeding of honeybees. Marker-facilitated selection offers the 
first real opportunity to transform the beekeeping industry from one 
that has been dependent upon a growing number of expensive pesticides 
and antibiotics into an industry that is free of chemical inputs and 
that is economically viable in today's competitive global marketplace. 
Additionally, this new sequencing capacity may prove central to 
identifying both the causes of and solutions to CCD. New pathogens have 
recently been identified in the United States that are thought to be 
associated with CCD. Genetic research can be utilized to determine 
whether a comparative susceptibility to such pathogens exists among 
various bee populations, and if so, can serve to facilitate breeding 
with enhanced resistance.
    The four ARS Honeybee Research Laboratories work together to 
provide research solutions to problems facing businesses dependent on 
the health and vitality of honeybees. The key findings of these 
laboratories are used by honey producers to protect their producing 
colonies and by farmers and agribusinesses to ensure the efficient 
pollination of crops. Each of the four ARS Honeybee Research 
Laboratories (which are different in function from the ARS Wild Bee 
Research Laboratory at Logan, Utah) focuses on different problems 
facing the U.S. honey industry and undertakes research that is vital to 
sustaining honey production and assuring essential pollination services 
in this country. Furthermore, each of the four ARS Honeybee Research 
Laboratories has unique strengths and each is situated and equipped to 
support independent research programs which would be difficult, and in 
many cases impossible, to conduct elsewhere. Given the multi-factor 
research capacity needed to address the scourge of CCD, it is important 
that each research laboratory is permitted to continue and expand upon 
its unique strengths.
    And while to date the four ARS Research Laboratories have been the 
backbone of American Honeybee research, we do not believe that those 
four facilities alone--even when fully funded--will have the capacity 
to meet today's research needs. This is why last year, after analyzing 
the new and serious threats to U.S. honeybees, Congress, 
representatives of the farm sector and leading researchers developed 
the research priorities that were incorporated into both the House and 
Senate versions of the Farm Bill and in separate House and Senate 
pollination legislation. In addition to increased resources for ARS 
research, these experts pressed for new funding, through CSREES, for 
government, academic and private sector research. They also urged new 
bee surveillance programs through the Animal and Plant Health 
Inspection Service to address the alarming lack of accurate information 
about the condition of U.S. bee colonies.
    One particularly effective way of adding needed capacity and 
innovative expertise in the effort to ensure honeybee health would be 
to reinvigorate private sector and university bee research initiatives. 
For many years, these sectors played a vital role in honeybee research, 
and many leading universities have significant bee research 
capabilities. In recent years, non-federal agency research has 
substantially declined due to a lack of support for such initiatives. 
Funding the 2008 Farm Bill authorization of $10.26 million for the 
Department of Agriculture's Cooperative State Research, Education, and 
Extension Services (CSREES) would go a long way toward achieving this 
goal.
    CSREES is tasked with advancing knowledge for agriculture by 
supporting research, education, and extension programs. Funds may be 
channeled through the Department to researchers at land-grant 
institutions, other institutions of higher learning, Federal agencies, 
or the private sector. The requested funding for CSREES would provide 
important flexibility in allocating badly needed Federal dollars among 
government, private sector and university researchers. The recipients 
would provide more widespread research on honeybee biology, immunology, 
ecology, and genomics, pollination biology, and investigations into the 
effects on honeybees of potentially harmful chemicals, pests, other 
outside influences, and genetically modified crops. The result of such 
funds would be to ensure flexible financing with a comprehensive plan 
for battling CCD, pests, and other ongoing and future honeybee threats.
    Additionally, the same coalition of experts identified a need for a 
honeybee pest and pathogen surveillance program. Although significant 
data exists on American honey production, comparably less and lower 
quality data exists on beekeepers and bees. Providing $2.31 million 
under the 2008 Farm Bill authorizations to the Animal and Plant Health 
Inspection Service at the Department of Agriculture would allow the 
Department to utilize such data to better respond to pest and disease 
outbreaks, and to compile data that may better enable prediction of new 
threats. Given the roughly $15 billion added to the U.S. farm economy 
each year by honeybees, this is certainly a worthwhile investment in 
the honeybee and pollinator industry.
                   industry workforce vulnerabilities
    Beekeeping is a highly skilled trade that requires extensive 
training before workers are able to handle, monitor, and treat bees. 
For nearly ten years, American beekeepers have relied heavily on 
Nicaraguan workers hired through the H-2A visa program to staff complex 
honey production and pollination operations.
    Commercial beekeeping has become increasingly challenging in recent 
years with the emergence of new diseases and pests that threaten bee 
health, including American foul brood, tracheal and varroa mites, 
chalkbrood, and most recently, Colony Collapse Disorder (CCD). 
Nicaraguan H-2A beneficiaries are trained to identify these threats and 
to treat the bees skillfully and appropriately. Additionally, 
commercial beekeepers place hives on farms and ranches in hundreds of 
locations throughout multiple towns and counties, often in hard-to-find 
back road areas. Training new workers to find these hives and to comply 
with the requirements of landowners can alone take months. Finally, 
Nicaraguan workers are trained on a wide variety of equipment necessary 
to the industry, including honey extractors, forklifts, and large 
trucks used to haul equipment and bees to and from warehouses and 
apiaries.
    Unfortunately, on December 18, 2008, the Department of Homeland 
Security published a final rule that changed existing law so that H-2A 
visa ``petitions may only be approved for nationals of countries that 
the Secretary of Homeland Security has designated as participating 
countries.'' The list, published without advance warning names 28 
``participating countries'', including Belize, Costa Rica, El Salvador, 
Guatemala, and Honduras. Absent from the list is Nicaragua. And 
although the rule provides the Secretary of Homeland Security with 
discretionary authority to approve nationals from non-participating 
countries if it is ``in the U.S. interest'', this discretion has yet to 
be exercised with respect to beekeeper petitions. Without sufficient 
guidance on the ``U.S. Interest'' test, the effect will be to ensure 
that no Nicaraguan worker petitions are approved in 2009, forcing some 
beekeepers to close down operations.
    The AHPA does not wish to question broader national security or 
immigration policy rationales for restricting the participating country 
list. However, in this instance, Nicaraguan workers have provided an 
invaluable service to America's honey production and pollination 
industries for nearly ten years. In all cases, the workers have 
returned to their home country at the end of the pollination season and 
the beekeepers who employ them have taken great strides to ensure that 
they comply with immigration and labor laws in petitioning the 
government for H-2A visas. Refusing approval this year will seriously 
limit America's pollination capacity, directly threatening $15 billion 
in U.S. agricultural interests.
                               conclusion
    In conclusion, we wish to thank you again for your past support of 
honeybee research and for your understanding of the critical importance 
of these ARS laboratories. By way of summary, in fiscal year 2010, the 
American Honey Producers Association strongly encourages at least $20 
million in new funding for CCD and other honeybee research spread among 
the four ARS Honeybee Research Laboratories, other ARS research 
facilities across the country, the Cooperative State Research, 
Education, and Extension Service at the Department of Agriculture, and 
the Animal and Plant Health Inspection Service. AHPA also opposes 
importation of Australian honeybees and unnecessary denial of H-2A 
workers from Nicaragua. Only through critical research can we have a 
viable U.S. beekeeping industry and continue to provide stable and 
affordable supplies of bee-pollinated crops, which make up fully one-
third of the U.S. diet. I would be pleased to provide answers to any 
questions that you or your colleagues may have.
                                 ______
                                 

 Prepared Statement of the American Indian Higher Education Consortium

    Mr. Chairman and Members of the Subcommittee, on behalf of the 
American Indian Higher Education Consortium (AIHEC) and the 32 Tribal 
Colleges and Universities (TCUs) that compose the list of 1994 Land 
Grant Institutions, thank you for this opportunity to share our funding 
requests for fiscal year 2010.
    This statement is presented in three parts: (a) a summary of our 
fiscal year 2010 funding recommendations, (b) a brief background on 
Tribal Colleges and Universities, and (c) an outline of the 1994 Tribal 
College Land Grant Institutions' plan for using our land grant programs 
to fulfill the agricultural potential of American Indian communities, 
and to ensure that American Indians have the skills and support needed 
to maximize the economic potential of their resources.
                          summary of requests
    We respectfully request the following funding levels for fiscal 
year 2010 for our land grant programs established within the USDA 
Cooperative State Research, Education, and Extension Service (CSREES) 
and the Rural Development mission area. In CSREES, we specifically 
request: $5.0 million for the 1994 Institutions' competitive extension 
grants program; $3.0 million for the 1994 Institutions' competitive 
research grants program; $3.342 million for the higher education equity 
grants; $12 million payment into the Native American endowment fund; 
and in the Rural Development--Rural Community Advancement Program 
(RCAP), that $5.0 million be provided for each of the next 5 fiscal 
years for the TCU Essential Community Facilities Grants Program. The 
grants help to address the critical facilities and infrastructure needs 
at the colleges to increase our capacity to participate fully as land 
grant partners.
             background on tribal colleges and universities
    The first Morrill Act was enacted in 1862 specifically to bring 
education to the people and to serve their fundamental needs. Today, 
147 years after enactment of the first land grant legislation, the 1994 
Land Grant Institutions, as much as any other higher education 
institutions, exemplify the original intent of the land grant 
legislation, as they are truly community-based institutions.
    The Tribal College Movement was launched in the past 40 years with 
the establishment of Navajo Community College, now Dine College, 
serving the Navajo Nation. Rapid growth of the TCU Movement soon 
followed, primarily in the Northern Plains region. In 1972, six 
tribally controlled colleges established the American Indian Higher 
Education Consortium to provide a support network for member 
institutions. Today, AIHEC represents 37 Tribal Colleges and 
Universities--32 of which compose the current list of 1994 Land Grant 
Institutions located in 12 States. Our institutions were created 
specifically to serve the higher education needs of American Indian 
students in Indian Country. They serve many thousands of Indian full- 
and part-time students and community members from over 250 federally 
recognized tribes.
    The 1994 Land Grant Institutions are accredited by independent, 
regional accreditation agencies and like all institutions of higher 
education, must undergo stringent performance reviews to retain their 
accreditation status. TCUs serve as community centers by providing 
libraries, tribal archives, career centers, economic development and 
business centers, public meeting places, and child and elder care 
centers. Despite their many obligations, functions, and notable 
achievements, TCUs remain the most poorly funded institutions of higher 
education in this country. The vast majority of the 1994 Land Grant 
Institutions is located on Federal trust territory. Therefore, states 
have no obligation, and in most cases, provide no funding to TCUs. In 
fact, most States do not even provide funds to our institutions for the 
non-Indian state residents attending our colleges, leaving the TCUs to 
assume the per student operational costs for non-Indian students 
enrolled in our institutions, accounting for approximately 20 percent 
of our student population. This is a significant financial commitment 
on the part of TCUs, as they are small, developing institutions and 
cannot, unlike their state land grant partners, benefit from economies 
of scale--where the cost per student to operate an institution is 
reduced by the comparatively large size of the student body.
    As a result of 200 years of Federal Indian policy--including 
policies of termination, assimilation and relocation--many reservation 
residents live in conditions of poverty comparable to those found in 
Third World nations. Through the efforts of Tribal Colleges and 
Universities, American Indian communities are availing themselves of 
resources needed to foster responsible, productive, and self-reliant 
citizens. It is essential that we continue to invest in the human 
resources that will help open new avenues to economic development, 
specifically through enhancing the 1994 Institutions' land grant 
programs, and securing adequate access to information technology.
1994 land grant programs--ambitious efforts to reach economic potential
    In the past, due to lack of expertise and training, millions of 
acres on our reservations lie fallow, under-used, or have been 
developed through methods that have caused irreparable damage. The 
Equity in Educational Land Grant Status Act of 1994 is addressing this 
situation and is our hope for future advancement.
    Our current land grant programs remain small, yet very important to 
us. It is essential that American Indians explore and adopt new and 
evolving technologies for managing our lands. With increased capacity 
and program funding, we will become even more significant contributors 
to the agricultural base of the nation and the world.
    Competitive Extension Grants Programs.--That The 1994 Institutions' 
extension programs strengthen communities through outreach programs 
designed to bolster economic development; community resources; family 
and youth development; natural resources development; agriculture; as 
well as health and nutrition education and awareness.
    In fiscal year 2009, $3,321,000 was appropriated for the 1994 
Institutions' competitive extension grants. The 1994 Institutions' 
ability to maintain existing programs and to respond to emerging issues 
such as food safety and homeland security, especially on border 
reservations, is severely limited without adequate funding. Increased 
funding is needed to support these vital programs designed to address 
the inadequate extension services that have been provided to Indian 
reservations by their respective state programs. It is important to 
note that the 1994 extension program does not duplicate the Federally 
Recognized Tribes Extension Program, formerly the Indian Reservation 
Extension Agent program. 1994 Tribal College Land Grant programs are 
very modestly funded. The 1994 Tribal College Land Grant Institutions 
have applied their ingenuity for making the most of every dollar they 
have at their disposal by leveraging funds to maximize their programs 
whenever possible. Some examples of 1994 extension programs include: 
Lac Courte Oreilles Ojibwa Community College in Wisconsin is 
strengthening the household economies of local reservation communities 
by offering financial education curriculum in managing budgets, saving 
for the future, and understanding the credit basics. Sitting Bull 
College, which serves reservation communities in both North and South 
Dakota, offers an equine extension program to help youth learn about 
the historical role of horses in American Indian Tribal life, while 
teaching them important leadership skills necessary to succeed in 
today's world. These are just two examples of the innovative programs 
being conducted at 1994 Institutions. To continue and expand these 
successful programs, we request that the subcommittee support this 
competitive program by appropriating $5.0 million to sustain the growth 
and further success of these essential community-based extension 
programs.
    1994 Competitive Research Program.--As the 1994 Tribal College Land 
Grant Institutions enter into partnerships with 1862/1890 land grant 
institutions through collaborative research projects, impressive 
efforts to address economic development through natural resource 
management have emerged. The 1994 Research Program illustrates an ideal 
combination of Federal resources and tribal college-state institutional 
expertise, with the overall impact being far greater than the sum of 
its parts. We recognize the severe budget constraints under which 
Congress is currently functioning. However, the $1,610,000 appropriated 
in fiscal year 2009 is grossly inadequate to develop capacity and 
conduct necessary research at our institutions. The 1994 Research 
Program is vital to ensuring that TCUs may finally be recognized as 
full partners in the Nation's land grant system. Many of our 
institutions are currently conducting applied research, yet finding the 
resources to conduct this research to meet their communities' needs is 
a continual challenge. This research authority opens the door to new 
funding opportunities to maintain and expand the research projects 
begun at the 1994 Institutions, but only if adequate funds are secured 
and sustained. A total research budget of $1,610,000, for which all 32 
of the 1994 Institutions compete for research dollars, is clearly 
insufficient. Priority issue areas currently being studied at the 1994 
Institutions include: sustainable agriculture and forestry; 
biotechnology and bioprocessing; agribusiness management and marketing; 
plant propagation, including native plant preservation for medicinal 
and economic purposes; animal breeding; aquaculture; human nutrition 
(including health, obesity, and diabetes); and family, community, and 
rural development. The College of Menominee Nation in Wisconsin is 
collecting and analyzing data concerning forest health and 
sustainability that will help its tribal forest managers meet the 
growing demand for forest products while protecting the woodlands 
environment for future generations. Turtle Mountain Community College 
in North Dakota is studying the spread of West Nile virus, which causes 
serious diseases in animals and people. Results of the study will 
assist tribal efforts in the surveillance, prevention, and control of 
the mosquito-borne virus. These are just two examples of 1994 Research 
projects. We strongly urge the subcommittee to fund this program at a 
minimum of $3.0 million to enable our institutions to develop and 
strengthen their research capacity.
    1994 Institutions' Educational Equity Grant Program.--This program 
is designed to assist 1994 Tribal College Land Grant Institutions with 
academic programs. Through the modest appropriations first made 
available in fiscal year 2001, the TCU Land Grant Institutions have 
begun to support courses and to conduct planning activities 
specifically targeting the unique educational needs of their respective 
communities.
    The 1994 Institutions have developed and implemented courses and 
programs in natural resource management; environmental sciences; 
horticulture; forestry; and food science and nutrition. This last 
category is helping to address the epidemic rates of diabetes and 
cardiovascular disease that plague American Indian reservations. We 
request that the subcommittee appropriate a minimum of $3,342,000 to 
allow the 1994 Tribal College Land Grant Institutions to build upon 
their course offerings and successful activities that have been 
launched.
    Native American Endowment Fund.--Endowment installments that are 
paid into the 1994 Tribal College Land Grant Institutions' account 
remain with the U.S. Treasury. Only the annual interest yield, less the 
USDA's administrative fee, is distributed to the institutions. The 
latest gross annual interest yield for the 1994 Institutions Endowment 
was $3,929,412 and after the USDA takes its standard four-percent 
administrative fee, $3,772,236 should be available for distribution to 
the eligible 1994 Tribal College Land Grant Institutions by statutory 
formula. While the Department has not yet shared the breakdown of funds 
to be distributed to each of the 1994 Institutions for this year, last 
year the USDA administrative fee was larger than the amount paid to all 
but nine of the 1994 Tribal College Land Grant Institutions or in other 
words the USDA claims a fee that is higher than 70 percent of the 1994 
Institutions' payments. Once the distribution amounts are determined 
for this year's disbursement, we fully expect similar results.
    Just as other land grant institutions historically received large 
grants of land or endowments in lieu of land, this endowment assists 
1994 Tribal College Land Grant Institutions in establishing and 
strengthening their academic programs in such areas as curriculum 
development, faculty preparation, instruction delivery, and to help 
address critical facilities and infrastructure issues. Many of the 
colleges have used the endowment in conjunction with the Education 
Equity Grant funds to develop and implement their academic programs. As 
earlier stated, TCUs often serve as primary community centers and 
although conditions at some have improved substantially, many of the 
colleges still operate under less than satisfactory conditions. In 
fact, most of the TCUs continue to cite improved facilities as one of 
their highest priorities. Several of the colleges have indicated the 
need for immediate new construction and substantial renovations to 
replace buildings that have long exceeded their effective life spans 
and to upgrade existing facilities to address accessibility and safety 
concerns.
    Endowment payments increase the size of the corpus held by the U.S. 
Treasury and thereby increase the annual interest yield disbursed to 
the 1994 Tribal College Land Grant Institutions. These additional funds 
would continue to support faculty and staff positions and program needs 
within 1994 agriculture and natural resources departments, as well as 
to help address the critical and very expensive facilities needs at 
these institutions. Currently, the amount that each college receives 
from this endowment is not adequate to address both curriculum 
development and instruction delivery, and completely insufficient to 
address the necessary facilities and infrastructure projects at these 
institutions. In order for the 1994 Tribal College Land Grant 
Institutions to become full partners in this Nation's great land grant 
system, we need and, through numerous treaty obligations, are due the 
facilities and infrastructure necessary to fully engage in education 
and research programs vital to the future health and well being of our 
reservation communities. We respectfully request the subcommittee fund 
the fiscal year 2010 endowment payment at $12.0 million--returning the 
payment amount to the pre across-the-board rescission level imposed 
each year on nondefense appropriated funding. We also request that the 
subcommittee review the USDA's administrative fee and consider reducing 
it for the Native American Endowment so that more of these already 
limited funds can be utilized by the 1994 Tribal College Land Grant 
Institutions to conduct vital community based programs.
    Tribal College Essential Community Facilities Program (Rural 
Development).--In fiscal year 2009, $3,972,000 of the Rural Development 
Advancement Program (RCAP) funds appropriated for loans and grants to 
benefit federally recognized American Indian tribes was targeted for 
essential community facility grants at Tribal College Land Grant 
Institutions. This level of funding is a decrease of about half of a 
million dollars from fiscal year 2007, when the program was 
appropriated $4.5 million--reduced to $4,419,000 by the across the 
board cut. We urge the subcommittee to designate $5.0 million each year 
of the next five fiscal years to afford the 1994 Institutions the means 
to aggressively address critical facilities needs, thereby allowing 
them to better serve their students and respective communities.
                               conclusion
    The 1994 Land Grant Institutions have proven to be efficient and 
effective vehicles for bringing educational opportunities to American 
Indians and the promise of self-sufficiency to some of this Nation's 
poorest and most underserved regions. The modest federal investment in 
the 1994 Tribal College Land Grant Institutions has already paid great 
dividends in terms of increased employment, access to higher education, 
and economic development. Continuation of this investment makes sound 
moral and fiscal sense. American Indian reservation communities are 
second to none in their potential for benefiting from effective land 
grant programs and, as earlier stated, no institutions better exemplify 
the original intent of the land grant concept than the 1994 Land Grant 
Institutions.
    We appreciate your support of the 1994 Tribal College Land Grant 
Institutions and recognition of their role in the Nation's land grant 
system. We ask you to renew your commitment to help move our students 
and communities toward self-sufficiency. We look forward to continuing 
our partnership with you, the U.S. Department of Agriculture, and the 
other members of the Nation's great land grant system--a partnership 
with the potential to bring equitable educational, agricultural, and 
economic opportunities to Indian Country.
    Thank you for this opportunity to present our funding proposals to 
the subcommittee. We respectfully request your continued support and 
full consideration of our fiscal year 2010 appropriations 
recommendations.
                                 ______
                                 

      Prepared Statement of the American Public Power Association

    The American Public Power Association (APPA) is the national 
service organization representing the interests of over 2,000 municipal 
and other state and locally owned utilities throughout the United 
States (all but Hawaii). Collectively, public power utilities deliver 
electricity to one of every seven electricity consumers (approximately 
45 million people), serving some of the nation's largest cities. 
However, the vast majority of APPA's members serve communities with 
populations of 10,000 people or less.
    We appreciate the opportunity to submit this statement outlining 
our fiscal year 2010 funding priorities within the jurisdiction of the 
Agriculture, Rural Development, Food and Drug Administration and 
Related Agencies Subcommittee.
Department of Agriculture: Rural Utility Service Rural Broadband Grants 
        and Loans
    APPA was pleased with the funding level of $2.5 billion in the 
American Recovery and Reinvestment Act for ``grants, loans and loan 
guarantees, for broadband infrastructure in any area of the United 
States.'' APPA urges the Subcommittee to fully fund the Rural Utilities 
Service's (RUS) rural grant and loan programs at or above the stimulus 
levels.
    APPA believes it is important to provide incentives for the 
deployment of broadband to rural communities, many of which lack 
broadband service. Increasingly, access to advanced communications 
services is considered vital to a community's economic and educational 
development. In addition, the availability of broadband service enables 
rural communities to provide advanced health care through telemedicine 
and to promote regional competitiveness and other benefits that 
contribute to a high quality of life. Approximately one-fourth of 
APPA's members are currently providing broadband service in their 
communities. Several APPA members are planning to apply for RUS 
broadband loans to help them finance their broadband projects.
Department of Agriculture: Title IX Programs
    APPA supports full funding of programs authorized in Title IX of 
the 2008 Farm Bill for energy efficiency, renewable energy and 
biofuels. APPA requests the full fiscal year 2010 funding level of $60 
million for the Rural Energy for America Program (REAP), $5 million for 
the Rural Energy Self-Sufficiency program, and $5 million for the 
Community Wood Energy Program.
                                 ______
                                 

      Prepared Statement of the American Society for Microbiology

    The American Society for Microbiology (ASM) is pleased to submit 
the following testimony on the fiscal year 2010 appropriation for the 
Food and Drug Administration (FDA) research and regulatory programs. 
The ASM is the largest single life science organization in the world 
with about 42,000 members. The ASM mission is to enhance the science of 
microbiology, to gain a better understanding of life processes, and to 
promote the application of this knowledge for improved health and 
environmental well-being. The ASM recommends an appropriation of $2.25 
billion for the FDA in fiscal year 2010, a $386 million increase over 
the fiscal year 2009 budget.
    The FDA is responsible for the evaluation of domestic and foreign 
foods and consumer products to protect the public health and safety. 
Funding levels for sometime have significantly fallen below amounts 
needed to enable the FDA to fulfill its growing oversight for nearly 
one-quarter of the U.S. Gross National Product. The ASM appreciates the 
estimated $1 billion for food safety anticipated in the President's 
proposed fiscal year 2010 budget. However, serious budget shortfalls in 
the past have diluted FDA's ability to respond to escalating, often 
unmet demands on its personnel and resources not only in food safety, 
but also across the agency. Each year, the Nation spends nearly $1.5 
trillion on FDA regulated goods. It is essential that FDA have state-
of-the-art scientific capabilities and a fully staffed contingent of 
scientists if the United States is to maintain its economic 
competitiveness. FDA's mission is not only to ensure product safety but 
to also stimulate and facilitate innovation.
    Since January, the FDA has approved new drugs for diabetes and 
malaria, a rapid diagnostic test to detect the avian influenza H5N1 
virus in minutes rather than hours, and the first approved drug made 
with materials from genetically engineered animals. Threats to public 
health persist, including sporadic food borne illnesses linked to 
everyday foods like tomatoes, peanuts, and recently, alfalfa sprouts. 
FDA's regulatory responsibilities cover the bulk of U.S. domestic and 
imported foods, plus medical devices, drugs, food additives, blood and 
vaccine products, and cosmetics. Since 2001, its mission has also 
expanded to counterterrorism and homeland security. Several external 
reviews of FDA performance have confirmed in recent years that 
inadequate funding for the agency has undermined efforts to protect 
public health in the United States.
      a safe and secure u.s. food supply depends on fda excellence
    Regulating food in the United States is an enormous task. Food 
expenditures exceed $1.1 trillion annually. In the past 5 years, the 
volume of imported products has doubled, with 60 percent categorized as 
food or food-related products, and is predicted to triple by 2015. Yet 
the FDA examined less than 1 percent of the 7.6 million fresh produce 
lines imported from fiscal years 2002 to 2007. This year, the Nation 
will import agricultural products worth an estimated $81 billion, 
continuing the steady trend of rising U.S. consumption of imported 
food. The number of identified food borne disease outbreaks has tripled 
since the early 1990s. Each year, about 76 million people contract a 
food borne illness in the United States, about 325,000 require 
hospitalization, and about 5,000 die. The U.S. Department of 
Agriculture (USDA) estimates medical costs and lost wages associated 
with just five of the major food borne illnesses reach $6.9 billion 
annually, and total costs are likely much higher. The Centers for 
Disease Control and Prevention (CDC) has enumerated more than 250 
different food borne diseases and more causative agents continue to be 
found. FDA actions thus far this year have included the current recall 
of Salmonella-contaminated pistachio products; a consumer warning about 
certain cheeses that could contain Listeria monocytogenes, bacteria 
that can cause serious and sometimes fatal infections; and advisories 
to food preparers about possible norovirus in some domestic oysters.
    As food moves from farm to table it encounters innumerable points 
for possible contamination, either accidental or deliberate. To 
mitigate failures in our highly complex food supply, the FDA's ongoing 
Protecting America's Food Supply initiative integrates food safety and 
food defense. In November 2007, the FDA launched its Food Protection 
Plan with a three-pronged strategy of expanded prevention, improved 
intervention, and more rapid response to events like disease outbreaks. 
The FDA also participates in the multiagency Action Plan for Import 
Safety, publishing in March its final rule on required prior notice of 
foreign food shipments arriving at U.S. ports. Unfortunately, these and 
other FDA food safety programs have been consistently underfunded to 
the detriment of public health.
    The following are examples of FDA's enormous responsibilities:
  --The FDA regulates about 80 percent of the U.S. food supply, 
        responsible for $417 billion worth of domestic food and $49 
        billion in imported food annually.
  --In the United States, the agency oversees more than 136,000 
        registered domestic food facilities (over 44,000 food 
        manufacturers and processors, plus roughly 113,000 warehouses 
        that include storage tanks and grain elevators).
  --FDA personnel collaborate with staff at other Federal agencies and 
        State and local authorities to regulate more than 2 million 
        farms, 935,000 restaurants and institutional food facilities, 
        and 114,000 supermarkets, grocery stores, and other food 
        outlets.
  --Over 300 U.S. ports receive products from more than 150 countries/
        territories. In the last decade, the number of food entry lines 
        has tripled, shipped from approximately 200,000 FDA registered 
        foreign facilities that manufacture, process, pack, or store 
        food consumed in the United States.
    In 2008, the CDC concluded that the incidence of the most common 
food borne illnesses had changed very little in the previous 3 years, a 
grim plateau in preventing diseases caused by Salmonella, Escherichia 
coli and other food borne pathogens. The disturbing report joined other 
official reports, expert committee reviews, and publicized disease 
investigations that abundantly demonstrate the importance of improving 
food safety in the United States. In November 2007, FDA's own Science 
Advisory Board published a highly critical report concerning the state 
of science at FDA and the ability to undertake its massive mission. 
Last September, the Government Accounting Office (GAO) published its 
negative review of the FDA's oversight of domestic and imported fresh 
produce, citing funding shortages and too few FDA inspectors as 
contributing factors.
    Nationwide outbreaks of food-related illness grab headlines, exact 
high costs for the food industry, and force health officials to 
scramble to conduct the scientific detective work and implement 
preventive strategies to contain the problem. These outbreaks absorb 
significant FDA resources and personnel, like the far-reaching fallout 
from Salmonella-contaminated peanut products that is still rippling 
through the U.S. food industry. Health officials have reported more 
than 600 cases of disease tied to consumption of the suspect products, 
leading to the voluntary recall of more than 2,100 products in 17 
categories by more than 200 companies, and the list continues to grow. 
In January, the FDA expanded the recall list to include pet food 
products that contain peanut paste made by the company, which has 
declared bankruptcy. The large number of products and brands, magnified 
by the large quantities of some products, makes this one of the most 
complex food recalls in U.S. history.
    fda oversight of drugs, vaccines, and diagnostics protects u.s. 
                               consumers
    Just as FDA's responsibilities in food safety have increased 
enormously over the past decade, so has its responsibility in other 
areas, especially drug safety, including adverse events as well as 
contamination both from microbial and chemical sources. We share the 
concerns detailed in the 2006 Report on Drug Safety and the Science 
Board Report.
    The steady release of new therapeutic drugs, vaccines, and 
diagnostic tests by the U.S. private sector helps protect the Nation 
from infectious and other types of diseases. Several divisions within 
the FDA focus on evaluating both new and on-the-market products, 
assuring product safety and efficacy on behalf of health care 
providers, their patients, and the general public. Limited FDA budgets 
in recent years have not fully met the massive volume of 
responsibilities involved in this wide-ranging oversight, which 
includes detailed science-based lab analyses of new and established 
products, data assessment of incident reports, guidance statements and 
product alerts to the public and to health care providers, recall of 
unsafe products, and more.
    Recent shortages of vaccines commonly used against rabies and 
Haemophilus influenza type b (Hib) have underscored the importance of 
FDA-approved vaccines regulated by the agency's Center for Biologics 
Evaluation and Research (CBER). Before development of Hib conjugate 
vaccines, about 20,000 U.S. children had Hib infections each year, 
including 12,000 cases of bacterial meningitis of which about 5 percent 
died. Since the Nation's Hib immunization program began in the early 
1990s, incidence has decreased 99 percent. In developing countries, Hib 
remains a major cause of respiratory infections in infants and 
children. Unfortunately, a voluntary recall of Hib vaccine by a U.S. 
manufacturer in December 2007 resulted in shortages that have since 
been implicated in small Hib outbreaks in Minnesota and Pennsylvania. 
In June 2008, a French supplier of rabies vaccine temporarily halted 
production to upgrade its facilities, prompting U.S. officials to issue 
alerts regarding priority use of limited vaccine supplies. To maintain 
adequate immunization coverage, the FDA not only monitors already 
approved vaccines, but also evaluates the latest vaccine technologies. 
This March, the agency approved a vaccine to prevent Japanese 
encephalitis (JE) that was developed using cell culture technology, 
making it the only JE vaccine available in the United States. Found 
mainly in Asia, the viral disease affects about 30,000 to 50,000 people 
each year, resulting in 10,000 to 15,000 deaths. It is rarely seen in 
the United States, but there have been cases among those traveling to 
Asia.
    FDA scientists who evaluate new products must be able to assess 
leading-edge product development methodologies. For example, CBER 
researchers just completed a ``proof-of-concept'' study of a test using 
nanotechnology to detect quickly the smallest amount of anthrax toxin. 
Based on research at the Center for Devices and Radiological Health 
(CDRH), the FDA approved in March the first DNA test that identifies 
the two types of human papillomavirus (HPV) responsible for the 
majority of cervical cancers among U.S. women. HPV is the most common 
sexually transmitted infection in the United States, causing more than 
6 million new cases each year. The Center for Drug Evaluation and 
Research (CDER) assures that all prescription and over-the-counter 
drugs are safe and effective, overseeing a regulatory portfolio of many 
thousands of products. In 2007 alone, CDER approved nearly 80 drugs and 
biologics, a laborious process that demands singular scientific 
capabilities.
    The FDA also plays a key role in addressing the issue of 
antimicrobial resistance through its initiatives on monitoring and 
surveillance of antimicrobial resistance, facilitating the appropriate 
use of products and tests for infectious diseases, educating the public 
and health professionals about safe and effective use of 
antimicrobials, and assuring accurate product labeling.
         science at fda needs more resources, trained personnel
    The ASM is very concerned about the perceived weaknesses in FDA 
science and the possible negative impacts on the Nation's health. The 
2007 Science Board report conducted a thorough external review of 
science and technology across the agency. It identified several problem 
areas within the agency where FDA science was not keeping pace with the 
private sector, for example, the expertise necessary to evaluate 
products related to nanotechnology, robotics, systems biology, and 
especially genomics. The report also indicted inadequate computing 
capabilities used for surveillance and incident reporting, and a 
dwindling workforce of those trained in science-based investigation and 
research. In the 2008 GAO report on FDA's oversight of fresh produce, 
the agency acknowledged that it lacks resources for funding crucial 
extramural or internal research to understand produce contamination by 
pathogens such as E. coli O157:H7 or Salmonella. The FDA remains the 
Nation's foremost regulatory agency, but optimal oversight of 
increasingly complex products and systems requires fully equipped FDA 
laboratories with leading-edge capabilities. This is of particular 
concern with regard to tissue based products and screening for 
adventitious infectious agents.
    Research programs within the FDA focus on supporting the agency's 
regulatory role with the necessary science and technology tools. 
Understanding the latest advances in multiple scientific disciplines is 
essential for FDA regulators, evidenced by the agency's conclusion last 
year that meat and milk from clones of cattle, swine and goats are safe 
to eat, based on years of FDA study and analysis. The Center for Food 
Safety and Applied Nutrition (CFSAN) conducts food, cosmetic, and color 
additive safety research to protect the public from illnesses, 
contaminants, or other threats from consumer goods. Its scientists 
study the emergence or re-emergence of food borne microbial pathogens 
and evaluate or develop new lab methods needed to investigate 
outbreaks. The Office of Regulatory Affairs (ORA) also funds research 
activities to inform policy and regulation, plus contributing to the 
Nation's food defense efforts. ORA-supported research includes 
validation of detection methods for potential bioterrorism agents like 
Clostridium botulinum neurotoxin. The FDA has identified critical areas 
of needed research that include rapid test kit development, 
confirmatory methods, virology, biotechnology, in-vitro testing, and 
laboratory enhancement. To remedy these technological gaps, increased 
funding for FDA research is needed. As detailed in the 2007 Science 
Board Report, the continued underfunding of the Critical Path 
Initiative to bring FDA science into the 21st Century is a particular 
problem.
    Last year, additional funding in the fiscal year 2009 budget did 
add more than 1,300 new skilled employees. The second hiring phase, 
with a target of 1,400 additional staff, is underway, including 
chemists, microbiologists, and medical officers. However, critical 
personnel needs still remain, especially in the filed of genomics, 
information technology, and risk communication. The agency also 
leverages resources through partnering with other stakeholders, for 
example, the National Center for Food Safety and Technology, a research 
consortium whose members investigate new molecular tools to study 
antimicrobial resistance among pathogens and other emerging food safety 
issues. In September, the FDA awarded $5.2 million in grants to various 
State and local agencies to enhance food and feed safety including the 
first Rapid Response Team cooperative agreements with six U.S. States 
to create RRT teams able to respond to all food hazard incidents in the 
farm-to-table continuum. Also included were grants to upgrade chemistry 
labs to better analyze food samples collected by the FDA or other 
agencies, part of the ongoing effort to boost the surge capacity of 
State health department laboratories. However, this level of research 
funding is woefully inadequate given the cost of this type of research 
and the unfunded research priorities across the agency.
          asm recommends a substantial increase in fda funding
    The ASM urges Congress to support the irreplaceable role of the 
Food and Drug Administration in protecting public health and safety. 
Repeated cautionary reports have warned of besieged and deteriorating 
FDA capabilities in the face of soaring imports, new product lines, and 
issues about drug safety. The ASM recommends $2.25 billion for the FDA 
appropriation in fiscal year 2010.
                                 ______
                                 

      Prepared Statement of the American Society for Microbiology

    The American Society for Microbiology (ASM) is pleased to submit 
the following testimony on the fiscal year 2010 appropriation for the 
U.S. Department of Agriculture (USDA) research and education programs. 
The ASM is the largest single life science organization in the world 
with more than 40,000 members. The ASM mission is to enhance the 
science of microbiology, to gain a better understanding of life 
processes, and to promote the application of this knowledge for 
improved health and environmental well-being.
    The science based missions of the USDA, fueled by its research and 
education programs, are essential to human, environmental and animal 
health. The ASM strongly urges Congress to appropriate at least $1.24 
billion for the Agriculture Research Service in fiscal year 2010, $1.24 
billion for the Cooperative State Research, Education and Extension 
Service, and to provide $300 million for the Agriculture and Food 
Research Initiative (AFRI). Agriculture research plays an important 
role in the improvement of food safety, the environment, and animal and 
plant health but also contributes to the economic well-being of the 
nation. In a September 2007 report entitled: ``Economic Returns to 
Public Agriculture Research,'' the USDA Economic Research Service (ERS) 
found that the average rate of return from public investment in 
agriculture research is an impressive 45 percent on the dollar. In 
reviewing more than thirty-five economic studies on the social rate of 
return, the ERS also found that such a high rate of return is shared by 
all levels of the agricultural continuum, from the producer to the 
consumer.
                 the agriculture research service (ars)
    The core research arm of the USDA, the ARS is divided into four 
National Programs that focus on critically important areas of 
agricultural research:
  --Nutrition, Food Safety/Quality
  --Animal Production and Protection
  --Natural Resources and Sustainable Agricultural Systems
  --Crop Production and Protection
    Agricultural research is critically important to human and animal 
health. The ARS has funded a number of cooperative research projects 
related to zoonotic viruses including a study evaluating influenza 
vaccines in pigs and the establishment of a pig model from the 1930 
H1N1 swine influenza. The ARS works to understand the biology of animal 
pathogens including the H1N1 swine virus to combat such outbreaks at 
the animal level and reduce the risk to humans. The USDA's Animal and 
Plant Health Inspection Service (APHIS) also works extensively with 
zoonotic virus monitoring which contributes to the knowledge base of 
the ARS.
    The ASM urges Congress to fund the ARS with $1.24 billion in fiscal 
year 2010, a 4 percent increase from the fiscal year 2008 level.
Food Safety
    The ASM supports the Administration's pledge to increase funding 
for food safety. The first step to ensuring a safe and plentiful 
national food source is to maintain a successful research platform.
    Despite advances, food safety remains a serious and complex issue. 
Recent outbreaks of Salmonella Saintpaul demonstrate how quickly and 
severely pathogens can spread through the population. Understanding the 
cause of foodborne illness is an important step towards a better 
understanding of the ways to treat and prevent future outbreaks. 
According to the CDC, in the United States there are an estimated 76 
million cases of foodborne illness each year, resulting in 325,000 
hospitalizations and 5,000 deaths. Agricultural research is an 
irreplaceable tool in the fight against foodborne illness as 
researchers supported by the USDA work to understand and prevent the 
transference of some types of bacteria from the food supply.
    Recently, the CDC's Morbidity and Mortality Weekly Report stated 
that: ``None of the Healthy People 2010 targets for reduction of 
foodborne pathogens were reached in 2008. The lack of recent progress 
points to gaps in the current food safety system and the need to 
continue to develop and evaluate food safety practices as food moves 
from the farm to the table.'' Increased funding for the ARS is critical 
to the prevention, treatment and understanding of foodborne illness, 
both current and future outbreaks.
Antimicrobial Resistance
    The prevalence of antimicrobial resistance remains a threat to 
human and animal health as foodborne and other bacterial pathogens are 
increasingly changing and evolving to adapt to new antimicrobial 
agents. The USDA has supported a number of important research projects 
that bring together basic and applied research to combat this very real 
threat. Adequate funding for the USDA is vital to ensure such research 
continues as the occurrence of antimicrobial resistance increases.
Climate Change
    The ARS supports projects that work to ensure the effects of global 
change on agriculture are understood and ways to mitigate risks are 
developed. The impact of global climate change and global warming 
trends on agricultural yields could be severe. Without adequate funding 
for the ARS, the impact of climate change on food production and plant 
health could be neglected, with disastrous results. Current research 
projects related to climate change include:
  --Crop and Weed Responses to Increasing Atmospheric Carbon Dioxide
  --Evaluating Effects of Nitrogen Deposition and Ambient Ozone on an 
        Invasive Plant in the National Capitol Region
  --Soil Carbon in Urban Environments
    The ARS's Global Change National Program conducted a 5 year cycle 
of study from 2002--2007 to explore the effects of Global Change in 
depth. The programs' accomplishment report, conducted by non-ARS 
scientists, released in 2008 stated: ``The ARS is poised as a leader in 
the field of global change research to help understand the impacts of 
global change on agriculture, enable agriculture to adapt to global 
change and reduce the impact of agriculture on factors affecting global 
change.'' The report also emphasized the need for continued and future 
research to combat the evolving and complex problems that arise with 
climate change. Continued and sustainable funding for the ARS will help 
to ensure that other such crucial research can be completed to further 
the understanding of climate change.
Cooperative State Research, Education and Extension Service (CSREES)
    Soon to become the National Institute of Food and Agriculture 
(NIFA), CSREES works with land-grant universities, public and private 
organizations and supports research that increases understanding and 
knowledge of the unique link between the environment, agriculture and 
human health. Supporting research at the local and state level allows 
the CSREES to fund programs that impact not only scientific research, 
but local economies as well. The ASM urges Congress to appropriate at 
least $1.24 billion for the CSREES in fiscal year 2010, a 4 percent 
increase from the fiscal year 2008 level.
    CSREES supports a number of important areas of interest categorized 
as National Emphasis Areas:
  --Agricultural Systems
  --Animals
  --Biotechnology & Genomics
  --Economics & Community Development
  --Education
  --Families, Youth & Communities
  --Food, Nutrition & Health
  --International
  --Natural Resources & Environment
  --Pest Management
  --Plants
  --Technology & Engineering
Climate Change
    The effects of climate change are almost guaranteed to impact all 
life forms, and the research funded by the CSREES works to ensure that 
the best science is presented to offset such impacts. Supporting 
universities as well as public and private organizations lends 
opportunity for the best science and research to become a part of the 
larger solution.
    The buildup of CO<INF>2</INF> in the atmosphere has caused 
considerable concern as the negative effects of climate change are 
studied and understood. The Consortium for Agricultural Soils 
Mitigation of Greenhouse Gases, funded by the CSREES, is working to 
develop the technologies and strategies to successfully implement soil 
carbon sequestration and greenhouse gas reduction programs. Such 
initiatives are at the forefront of the race to find ways to combat the 
negative effects of global climate change. The CSREES support of such 
successful programs sends the message that climate change is an issue 
that needs collaboration from all science concentrations, especially 
from agricultural research.
Biofuels
    Proven to be the most resourceful and sustainable alternative to 
fossil fuels, biofuels bring the promise of a cleaner and more 
efficient source of energy. Much like fossil fuels however, biofuels 
create a substantial amount of waste called Glycerin that is difficult 
to break down. The creation of waste has slowed the implementation of 
biofuels as a mainstream, alternative to traditional fossil fuels. A 
project funded by the CSREES however, has developed a fermentation 
technology that combines E. coli with glycerin to create a high value 
chemical reducing the existence of waste, as the chemical created can 
be used as a commodity on the domestic market. Such projects, as 
supported by the CSREES, are providing real-life solutions to problems 
once considered too daunting to tackle.
The Agriculture and Food Research Initiative (AFRI)
    AFRI was established in the Food, Conservation, and Energy Act of 
2008 as a competitive grants program aimed to support research, 
education and the extension of our nation's food and agricultural 
systems. Formerly operating as the National Research Initiative program 
(NRI), AFRI is the foundation of competitive grants within the USDA, 
supporting a focus on six core areas within the food and agricultural 
sciences:
  --Plant Heath and Production
  --Animal Health
  --Food Safety, Nutrition and Health
  --Renewable Energy, Natural Resources and Environment
  --Agriculture Systems and technology
  --Agriculture Economics and Rural Communities
    AFRI moves the work of scientists past research and into 
development, implementation, education, and extension. Investments by 
the NRI in this type of research have resulted in a number of advances 
in critical issue areas such as, food safety, food security, 
sustainable fuel production and ecosystem health services. The 
importance of these programs on the overall health of the Nation cannot 
be underestimated. AFRI supports essential research with far reaching 
impacts into human, environmental and plant health, the basis of life.
    Currently authorized at $700 million per year, the ASM strongly 
urges Congress to fund AFRI with at least $300 million for fiscal year 
2010.
Education and Workforce
    Investing in research at the USDA ensures that coming generations 
of researchers, educators and students have the opportunity to stay 
within the agricultural sciences and keep the Nation competitive on a 
global scale. Reduced or stagnant funding sends the detrimental message 
to the Nation's students and research scientists that agricultural and 
biological research is not a worthwhile field to pursue. This risks a 
very real and problematic ``brain drain'' compromising the status of 
the United States as a world leader in cutting edge scientific 
research. Ensuring funding for competitive grants programs and basic 
research will help to send the positive message that investing in 
agricultural and biological sciences is worthwhile.
Conclusion
    The ASM urges Congress to increase research and education funding 
in the USDA budget, and provide at least $1.24 billion for the ARS, 
$1.24 billion for the Cooperative State Research, Education and 
Extension Service, and $300 million for AFRI in fiscal year 2010. 
Research in the agricultural and biological sciences is imperative to 
combat current and future threats to human, environmental, plant and 
animal health. The research supported by the USDA should be a priority 
that deserves steady, predictable and sustainable funding by the 
Federal Government. The future of our agricultural systems, a basis for 
human health, relies on it.
    The ASM appreciates the opportunity to provide written testimony 
and would be pleased to assist the Subcommittee as it considers the 
fiscal year 2010 appropriation for the USDA.
                                 ______
                                 

     Prepared Statement of the American Society for Nutrition (ASN)

    The American Society for Nutrition (ASN) appreciates this 
opportunity to submit testimony regarding fiscal year 2010 
appropriations for the U.S. Department of Agriculture (USDA) and 
specifically, its research programs. ASN is the professional scientific 
society dedicated to bringing together the world's top researchers, 
clinical nutritionists and industry to advance our knowledge and 
application of nutrition to promote human and animal health. Our focus 
ranges from the most critical details of research to very broad 
societal applications. ASN respectfully requests $1.377 billion for 
ARS, with $120 million of the total allocated to the Human Nutrition 
Research program. We request $300 million for the Agriculture and Food 
Research Initiative in fiscal year 2010.
    Basic and applied research on nutrition, food production, nutrient 
composition, food processing and nutrition monitoring is critical to 
American health and the U.S. economy. Awareness of the growing epidemic 
of obesity and the contribution of chronic illness to burgeoning health 
care costs has highlighted the need for improved information on dietary 
intake and improved strategies for dietary change. Demand for a safer 
and more nutritious food supply continues to increase. Preventable 
chronic diseases related to diet and physical activity cost the economy 
over $117 billion annually, and this cost is predicted to rise to $1.7 
trillion in the next 10 years. Nevertheless, funding for food and 
nutrition research at USDA has not increased in real dollars since 
1983! This decline in our national investment in agricultural research 
seriously threatens our ability to sustain the vitality of food, 
nutrition and agricultural research programs and in turn, threatens the 
future of our economy and the health of our Nation.
    USDA historically has been identified as the lead nutrition agency 
and the most important Federal agency influencing U.S. dietary 
patterns. Through the nutrition and food assistance programs, which 
form roughly 60 percent of its budget, USDA has a direct influence on 
the dietary intake (and ultimately the health) of millions of 
Americans. It is important to better understand the impact of these 
programs on the food choices, dietary intake, and nutritional status of 
those vulnerable populations which they serve. Research is the key to 
achieving this understanding, and it is the foundation upon which U.S. 
nutrition policy is built.
    USDA is in full or in part responsible for the development and 
translation of Federal dietary guidance, implementation of nutrition 
and food assistance programs and nutrition education; and, national 
nutrition monitoring. The USDA Human Nutrition Research programs ensure 
nutrition policies are evidence-based, ensure we have accurate and 
valid research methods and databases, and promote new understanding of 
nutritional needs for optimal health.
ARS Human Nutrition Research Program
    USDA has built a program of human nutrition research, housed in six 
centers (HNRCs) \1\ geographically disperse across the Nation and 
affiliated with the ARS, which links producer and consumer interests 
and forms the core of our knowledge about food and nutrition. These 
unique centers are working closely with a wide variety of stakeholders 
to determine just how specific foods, food components, and physical 
activity can act together during specific life-stages (e.g. prior to 
conception, in childhood, in older adult years) to promote health and 
prevent disease. The HNRCs are a critical link between basic food 
production and processing and health, including food safety issues. The 
center structure adds value by fully integrating a multitude of 
nutritional science disciplines that cross both traditional university 
department boundaries and the functional compartmentalization of 
conventional funding mechanisms.
---------------------------------------------------------------------------
    \1\ Of the six HNRCs, three are fully administered by ARS and are 
located in Davis, CA, Beltsville, MD, and Grand Forks, ND. The other 
three are administered through cooperative agreements with Baylor 
University Medical Center in Houston, TX; Tufts University in Boston, 
MA; and, the University of Arkansas in Little Rock.
---------------------------------------------------------------------------
    An important basic premise of research in the HNRCs is that many 
chronic diseases, such as diabetes and obesity, can be prevented by 
lifestyle issues, the most important of which are: consuming 
appropriate amounts of a well-balanced, healthful diet; and regularly 
engaging in adequate levels of physical activity. Using state-of-the-
art facilities and a concentration of critical scientific teams, the 
HNRCs are conducting the highest quality translational research. Also 
of importance are the long-term experiments involving the derivation of 
dietary reference intake values and nutrient requirements of 
individuals. Often compared to the intramural program at the National 
Institutes for Health, these centers tackle projects that are unlikely 
to be funded through other means, such as through competitive grants or 
by industry.
    The flat-funding of ARS in fiscal year 2009, coupled with flat-
funding of the Human Nutrition Research program for over 6 years, 
seriously jeopardizes the future of the centers, their important 
research projects, and the critical infrastructure provided by the USDA 
from which the HNRCs and scientists benefit. An estimated $10 million 
in additional funds is needed across the six HNRCs to ensure they can 
continue current research projects and to restore purchasing power lost 
to inflation over years of flat budgets.
    Another example of the unique nutrition research at ARS is the 
nutrition monitoring program, ``What We Eat in America'' (WWEIA). This 
program allows us to know not only what foods Americans are eating, but 
also how their diets directly affect their health. Information from the 
survey guides policies on food safety, food labeling, food assistance, 
military rations, pesticide exposure and dietary guidance. In addition 
to having an impact on billions of dollars in Federal expenditures, the 
survey data leverages billions of private sector dollars allocated to 
nutrition labeling, food product development and production. Despite 
this, WWEIA has been flat-funded at $11.5 million for over 13 years. 
The USDA budget for WWEIA must be increased two-fold to $23 million. 
Otherwise, we risk losing this national treasure if we do not restore 
lost funding and strengthen it for the future.
Agriculture and Food Research Initiative Competitive Grants Program
    The Food, Conservation, and Energy Act of 2008 established the 
Agriculture and Food Research Initiative (AFRI), a new competitive 
grants program authorized at $700 million annually, for research, 
extension, and education in support of our nation's food and 
agricultural systems within the soon-to-be-established National 
Institute of Food and Agriculture at USDA. This unique program, the 
successor to USDA's National Research Initiative (NRI) and the 
Initiative for Future Agriculture and Food Systems (IFAFS), takes 
research and innovation beyond the development phase, into 
implementation through contemporary education and extension programs.
    AFRI now includes programs aimed to improve the Nation's nutrition 
and health which were previously funded by other mechanisms. The 
nutrition- and health-related research focuses on two objectives: (1) 
improving human health by better understanding an individual's nutrient 
requirements and the nutritional value of foods; and (2) promoting 
research on healthier food choices and lifestyles. For example, USDA-
funded projects funded by the Human Nutrition and Obesity program have 
led to a better understanding of the behavioral and environmental 
factors that influence obesity, and to the development and evaluation 
of effective interventions. Specifically, USDA competitive grants have 
funded nutrition education interventions focusing on the reduction of 
childhood obesity in low-income families.
    While ASN believes the program should be funded at its full 
authorization level of $700 million, we understand that in the current 
fiscal climate, that is unlikely. However, with the Nation and world 
facing unprecedented health, food security and nutrition challenges, 
now is the time to renew investment in our Nation's agricultural 
research enterprise. A strong commitment to AFRI of $300 million in 
fiscal year 2010 (exclusive of any funding identified for the former 
Section 406 programs), with a goal of $500 million in total funding by 
fiscal year 2015, will provide America's agriculture, food and 
nutrition scientists, land managers and farmers with the tools 
necessary to solve problems and keep the country competitive, while 
also protecting the natural resource base and environment, enhancing 
human nutrition and fostering vibrant rural communities.
    The AFRI and the Human Nutrition Research Program under ARS are 
symbiotic programs that provide the infrastructure and generation of 
new knowledge that allow for rapid progress towards meeting national 
dietary needs. These programs allow USDA to make the connection between 
what we grow and what we eat. And through strategic nutrition 
monitoring, we learn more about how dietary intake affects our health.
    ASN thanks your Committee for its support of the ARS and the AFRI 
Competitive Grants Program. If we can provide any additional 
information, please contact Mary Lee Watts, ASN Director of Science and 
Public Affairs, at (301) 634-7112 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f5988294818186b59b8081879c819c9a9bdb9a8792db">[email&#160;protected]</a>
                                 ______
                                 

     Prepared Statement of the American Society of Plant Biologists

    On behalf of the American Society of Plant Biologists (ASPB) we 
submit this statement for the official record in support of increased 
funding for the U.S. Department of Agriculture's (USDA) National 
Institute of Food and Agriculture, specifically funding the Agriculture 
and Food Research Initiative at $300 million. This testimony highlights 
the importance of biology, particularly plant biology, as the Nation 
seeks to address vital issues including a sustainable food supply, 
climate change and energy security. We would like to thank the 
Subcommittee for its consideration of this testimony.
    The American Society of Plant Biologists is an organization of more 
than 5,000 professional plant biologists, educators, graduate students, 
and postdoctoral scientists. A strong voice for the global plant 
science community, our mission--which is achieved through engagement in 
the research, education, and public policy realms--is to promote the 
growth and development of plant biology and plant biologists and to 
foster and communicate research in plant biology. The Society publishes 
the highly cited and respected journals Plant Physiology and The Plant 
Cell, and it has produced and supported a range of materials intended 
to demonstrate fundamental biological principles that can be easily and 
inexpensively taught in school and university classrooms by using 
plants.
  food, fuel, climate change, and health: plant biology research and 
                            america's future
    Plants are vital to our very existence. They harvest sunlight, 
converting it to chemical energy for food and feed; they take up carbon 
dioxide and produce oxygen; and they are almost always the primary 
producers in the Earth's ecosystems. Indeed, basic plant biology 
research is making many fundamental contributions in the areas of fuel 
security and environmental stewardship; the continued and sustainable 
development of better foods, fabrics, and building materials; and in 
the understanding of basic biological principles that underpin 
improvements in the health and nutrition of all Americans. To go 
further, plant biology research can help the Nation both predict and 
prepare for the impacts of climate change on American agriculture, and 
it can make major contributions to our Nation's efforts to combat 
global warming.
    In particular, plant biology is at the center of numerous 
scientific breakthroughs in the increasingly interdisciplinary world of 
alternative energy research. For example, interfaces among plant 
biology, engineering, chemistry, and physics represent critical 
frontiers in both basic biofuels research and bioenergy production. 
Similarly, with the increase in plant genome sequencing and functional 
genomics, the interface of plant biology and computer science is 
essential to our understanding of complex biological systems ranging 
from single cells to entire ecosystems.
    Plant biology also has much to offer to our basic understanding of 
biology. Many common biological problems can best be addressed using 
plants. For example, plants cells are totipotent and, unlike animal 
cells, can be regenerated to whole plants. Many genetic studies are 
best done in plants due to the ability to analyze large numbers of 
individuals. Fundamental biological discoveries (e.g., the discovery of 
gene silencing) derive from initial studies in plants.
    Despite the fact that plant biology research--the kind of research 
funded by USDA--underpins so many vital practical considerations for 
our country, the amount invested in understanding the basic function 
and mechanisms of plants is relatively small when compared with the 
impact it has on multibillion dollar sectors of the economy like 
energy, agriculture, health and nutrition.
                            recommendations
    ASPB, as a spokesperson for the plant science community, is in an 
excellent position to articulate the Nation's plant science priorities 
as they relate to agriculture. Our recommendations, in no particular 
order, are as follows:
  --With the new Farm Bill and a new research structure, it is ASPB's 
        hope that USDA will have an elevated role to play as part of 
        the expanding Federal research landscape. USDA already funds 
        research that is intended to provide a foundation for creating 
        sustainable food and new energy supplies; however, much higher 
        investment in competitive funding is needed if the Nation is to 
        continue to make ground-breaking discoveries. ASPB strongly 
        encourages the appropriation of at least $300 million in fiscal 
        year 2010 for the Agriculture and Food Research Initiative 
        (AFRI). ASPB encourages the full funding of $700 million to 
        AFRI within 5 years. AFRI, authorized at $700 million, will 
        play a vital role in maintaining America's food and energy 
        security through funding innovative research.
  --Climate change is real and will have significant impacts on 
        agriculture and our way of life for the foreseeable future. 
        There are significant questions that must be answered as to how 
        climate change will impact food production and the environment. 
        There are also clear opportunities to use biological systems to 
        ameliorate and respond to climate change, such as through 
        carbon sequestration or modification of plants to resist 
        environmental stress. Therefore, ASPB calls for additional 
        funding focused on studies of the effect of climate change on 
        agricultural cropping systems, basic studies of its effects on 
        plant growth and development, and targeted research focused on 
        modification of plants to resist climate change and for use in 
        carbon sequestration.
  --Current estimates predict a significant shortfall in the needed 
        scientific and engineering workforce as the demographics of the 
        U.S. workforce changes. For example, there is a clear need for 
        additional scientists in the area of energy research and, also, 
        plant breeding. USDA has not traditionally been a major funding 
        agency for education and training, other than that which occurs 
        through the funding of individual investigator and center 
        grants. Given the expected need for additional scientists and 
        engineers who are well-grounded in agriculture research and 
        development activities, ASPB calls for funding of specific 
        programs (e.g., training grants) that are targeted to provide 
        this needed workforce over the next 10 years and to adequately 
        prepare these individuals for careers in the agricultural 
        research of the future.
  --Considerable research interest is now being paid to the use of 
        plant biomass for energy production. Progress in this area has 
        been strongly affected by the ``fuel vs. food'' debate, which 
        arose from the current emphasis on the use of corn for ethanol 
        production. A response to this debate has been to switch the 
        focus to plant species that can be grown exclusively for 
        biomass (e.g., switchgrass, miscanthus, etc). However, if these 
        crops are to be used to their full potential, considerable 
        effort must be expended to improve our understanding of their 
        basic biology and development, as well as their agronomic 
        performance. These novel crops have not benefitted from many 
        years of improvements in crop management and breeding that have 
        been bestowed upon our current major crops (e.g., soybean, 
        corn)--improvements that, among other things, have vastly 
        increased yield and agronomic efficiency. Although efforts to 
        improve targeted bioenergy crops are just beginning, very 
        aggressive goals have been established for the use of these 
        crops to meet the Nation's fuel needs. Therefore, ASPB calls 
        for additional funding that would be targeted to efforts to 
        increase the utility and agronomic performance of bioenergy 
        crops.
  --Although USDA has done some quality work with private foundations 
        and other federal agencies such as the Department of Energy, 
        more can be done. Earlier this year the National Science 
        Foundation announced a partnership with the Bill and Melinda 
        Gates Foundation on ``Basic Research to Enable Agricultural 
        Development (BREAD),'' which will support basic research 
        relevant to problems of agriculture in developing countries.
    Because USDA should be at the forefront of agricultural discovery, 
ASPB would like to see USDA create similar programs and be a part of 
similar endeavors with either private foundations or other research 
agencies in the future.
    Thank you for your consideration of our testimony on behalf of the 
American Society of Plant Biologists. Please do not hesitate to contact 
the American Society of Plant Biologists if we can be of any assistance 
in the future. For more information about the American Society of Plant 
Biologists, please see www.aspb.org.
                                 ______
                                 

 Prepared Statement of the American Society of Agronomy, Crop Science 
        Society of America, and Soil Science Society of America

    The American Society of Agronomy (ASA), Crop Science Society of 
America (CSSA), and Soil Science Society of America (SSSA) are pleased 
to submit the following funding recommendations for fiscal year 2010. 
ASA, CSSA, and SSSA understand the challenges the Subcommittee on 
Agriculture, Rural Development, Food and Drug Administration, and 
Related Agencies faces with the tight budget for fiscal year 2010. We 
also recognize that the Agriculture Appropriations bill has many 
valuable and necessary components. We applaud the subcommittee's 
efforts to fund mission-oriented, critical research through the USDA-
Cooperative State, Research, Education and Extension Service, its 
intramural research portfolio funded through the Agricultural Research 
Service as well as the conservation programs supported through the 
Natural Resources Conservation Service.
    ASA, CSSA, and SSSA are particularly grateful to the subcommittee 
for funding the Agriculture and Food Research Initiative (AFRI), the 
new competitive grants program for research, extension, and education 
within USDA's Cooperative State Research, Education, and Extension 
Service at $201.5 million in the fiscal year 2009 Omnibus 
Appropriations bill. In fiscal year 2010, at a time when our Nation 
needs to respond rapidly to challenges which threaten our ability to 
safely produce and distribute food, feed, fuel, and fiber, we believe 
it is essential to continue to build our competitive research programs. 
For this reason, we recommend funding AFRI at $300 million in the 
fiscal year 2010 agriculture appropriations bill. We believe that 
funding AFRI at this level would be a strong step in support of these 
important systems, enabling effective development and distribution of 
information which will achieve the goals of agricultural production 
(thereby maximizing the benefits of agroecosystem processes) and 
environmental stewardship.
    For the Agricultural Research Service (ARS), ASA, CSSA, and SSSA 
thank Congress for providing the agency with the much-needed investment 
of $176 million for buildings and facilities in the 2009 economic 
stimulus bill (Public Law 111-5). For fiscal year 2010, we recommend a 
funding level of $1,268 million or a 7 percent increase over the fiscal 
year 2009 enacted funding level. The ARS ensures that our Nation has a 
safe, reliable, and adequate supply of high quality food, feed, fiber 
and fuel.
    For the Cooperative State Research, Education and Extension Service 
(CSREES), ASA, CSSA, and SSSA recommend a funding level of $1,444 
million for fiscal year 2010, roughly an 18 percent increase over 
fiscal year 2009. Within CSREES we recommend an fiscal year 2010 
funding level of $300 million for AFRI.
    For fiscal year 2010, ASA, CSSA, and SSSA support a 7 percent or 
$75.5 million increase over fiscal year 2009 enacted funding level of 
$1,036 million for the Natural Resources Conservation Service (NRCS), 
which would bring total funding for NRCS to $1,108 million.
    With more than 25,000 members and certified professionals, ASA, 
CSSA, and SSSA are the largest life science professional societies in 
the United States dedicated to the agronomic, crop and soil sciences. 
ASA, CSSA, and SSSA play a major role in promoting progress in these 
sciences through the publication of quality journals and books, 
convening meetings and workshops, developing educational, training, and 
public information programs, providing scientific advice to inform 
public policy, and promoting ethical conduct among practitioners of 
agronomy and crop and soil sciences. ASA and SSSA certified 
professionals--Certified Crop Advisers (CCA), Agronomists (CPAg) and 
Soil Scientists (CPSS)--are specialists who work in the field with 
farmers, providing technical advice about the agronomic practices--
types and rates of fertilizer application, plant hybrid and variety 
selection, soil conservation, nutrient management, and integrated pest 
management--most appropriate to optimize crop yield and minimize 
environmental impact.
Agricultural Research Service (ARS)
    ASA, CSSA, and SSSA applaud the Agricultural Research Service's 
(ARS) ability to respond quickly to rapidly changing national needs. 
ARS's 2,100 scientists located at 100 research locations accomplish 
scientific discoveries that help solve problems in crop and livestock 
production and protection and human nutrition, and ensure a sustainable 
interaction of agriculture and the environment. ARS National Programs 
focus on the importance, impact, and quality of ARS research in (1) 
Nutrition, Food Safety/Quality, (2) Animal Production and Protection, 
(3) Natural Resources and Sustainable Agricultural Systems, and (4) 
Crop Production and Protection. Increasingly, ARS through Cooperative 
Research and Development Agreements (CRADA) between Federal 
laboratories and businesses forms partnerships that help move new 
technologies to the marketplace. These partnerships are especially 
important to leverage during a time when our Nation's economy remains 
vulnerable and Federal funding is constrained. Such cooperative 
research and development helps foster American businesses and enhances 
the position of the United States as a global leader in food, feed, 
fiber, and fuel production.
    ASA, CSSA, and SSSA find that research and technology transfer 
resulting from ARS programs ensures high-quality, safe food and other 
agricultural products; assesses the nutritional needs of Americans; 
helps to sustain a competitive agricultural economy; enhances the 
natural resource base and the environment; and provides economic 
opportunities for rural citizens, communities, and society as a whole. 
Again, ASA, CSSA, and SSSA recommend an ARS funding level of $1,268 
million for fiscal year 2010, a 7 percent increase above the fiscal 
year 2009 enacted.
Cooperative State Research, Education, and Extension Service (CSREES)
    ASA, CSSA, and SSSA find that the need has never been greater to 
enhance investment in Hatch and McIntire-Stennis formula funding. 
Therefore, ASA, CSSA, and SSSA recommend that both Hatch and McIntire-
Stennis receive a 10 percent increase over the fiscal year 2009 enacted 
level of funding, bringing the combined funding level to $258 million 
for fiscal year 2010. If we are to maintain the research capacity at 
our Nation's Land Grant Universities and Colleges of Agriculture 
necessary to keep American agriculture and forestry competitive, while 
recognizing the potential of our managed systems to provide beneficial 
ecosystem services, we need concerted investment in capacity building 
at our institutions.
    Agriculture and Food Research Initiative (AFRI).--ASA, CSSA, and 
SSSA strongly endorse a 49 percent increase in funding for the 
Agriculture and Food Research Initiative. The AFRI, established in the 
Food, Conservation, and Energy Act of 2008 (FCEA), is the successor to 
USDA's National Research Initiative (NRI) and the Initiative for Future 
Agriculture and Food Systems (IFAFS). ASA, CSSA, and SSSA find that 
funding AFRI at $300 million in the fiscal year 2010 agriculture 
appropriations bill (exclusive of any funding identified for Section 
406 programs) will show a strong commitment to America's farmers and 
rural entrepreneurs.
    Bioenergy Feedstock Research.--ASA, CSSA, and SSSA support funding 
of the Agricultural Bioenergy Feedstock and Energy Efficiency Research 
and Extension Initiative (Section 7207) of the Food, Conservation and 
Energy Act of 2008 (FCEA) at $25 million for fiscal year 2010. Section 
7207 is a new program which closes the critical research gap between 
fundamental biological discovery and the reliable expression of new 
traits in the field. The research and extension projects under Section 
7207 are critical to the future of the United States, and will improve 
agricultural biomass production using field observations. This is a 
nearly priceless step in translation of basic research. Furthermore, we 
applaud Congress for including $118 million in mandatory funding during 
the life of the FCEA for the Biomass Research and Development 
Initiative (BRDI). We are excited about the mandatory funding of the 
USDA portion of BRDI at $28 million for fiscal year 2010 and suggest 
that an additional $10 million in discretionary funding (it is 
authorized at $35 million) be placed towards this critical program for 
fiscal year 2010.
    Sustainable Agriculture Research and Education Programs.--ASA, 
CSSA, and SSSA find the SARE Professional Development Program to be an 
effective program and support funding for the program at $4.92 million 
for fiscal year 2010. Additionally, we urge the Subcommittee to 
consider an increase in SARE core funding to bring total funding to 
$15.7 million for fiscal year 2010.
    Higher Education.--ASA, CSSA, and SSSA urge the Subcommittee to 
fund the Institution Challenge Grants at $6.22 million for fiscal year 
2010. We strongly support a fiscal year 2010 level of $4.24 million in 
funding for the Graduate Fellowships Grants; these grants enable us to 
train the next generation of scientific innovators.
    Cooperative Extension Service.--Extension forms a critical part of 
research, education and extension program integration, a feature unique 
to CSREES. Unfortunately, recently the Smith Lever 3(b) and 3(c) 
account has been flat-funded (in constant dollars this account has seen 
a gradual erosion in funding). ASA, CSSA, and SSSA support $309 million 
in appropriations for fiscal year 2010, a $20 million increase over 
fiscal year 2009 enacted, for the continuing education and outreach 
activities supported by Smith-Lever 3(b) & (c) formula funds.
    New Technologies for Ag Extension (NTAE).--eXtension is a national 
web-based information and education delivery system that provides 
direct public access to science-based educational resources. ASA, CSSA, 
and SSSA find that internet-facilitated outreach through extension and 
other New Technologies for Ag Extension (NTAE) programs provide 
invaluable consolidation and streamlining of information. These 
communication technologies help to highlight appropriate management, 
expediting the voluntary adoption of the best practices. ASA, CSSA, and 
SSSA recommend a 10 percent increase in appropriation for fiscal year 
2010 for this program, bringing funding to $1.65 million.
    Integrated Research, Education, and Extension Competitive Grants 
Program.--Section 406 was initially authorized in the Agricultural 
Research, Extension and Education Reform Act of 1998. Since its 
inception this program has proven to be an indispensible part of water 
and pest management and numerous other issues. ASA, CSSA, and SSSA 
support a funding increase of 7 percent for programs under Section 406, 
which would bring total funding to $44.92 million. Furthermore, we 
strongly suggest that the International Science and Education (ISE) 
Grants Program also receive a 7 percent increase, bringing ISE funding 
to $3.21 million for fiscal year 2010, and increasing the funding of 
total integrated activities to $60 million for fiscal year 2010.
    Organic Farming Transition Program.--ASA, CSSA, and SSSA urge the 
Subcommittee to fund the Organic Farming Transition Program at $1.97 
million in fiscal year 2010, an increase over fiscal year 2009 of 7 
percent.
Natural Resources Conservation Service
    For fiscal year 2010, ASA, CSSA, and SSSA support a 7 percent 
increase over the fiscal year 2009 enacted funding level of $1,036 
million for the Natural Resources Conservation Service. This would 
bring total NRCS funding to $1,108 million.
    Conservation Security Program.--The Conservation Security Program 
provides financial and technical assistance to producers who advance 
the conservation and improvement of soil, water, air, energy, plant and 
animal life, and other conservation purposes on Tribal and private 
working lands. ASA, CSSA, and SSSA applaud Congress for passing the 
FCEA which keeps this important working lands conservation program as 
an uncapped mandatory program. Further, ASA, CSSA, and SSSA encourage 
the Subcommittee not to cap appropriations for this program.
    Environmental Quality Incentives Program.--The Environmental 
Quality Incentives Program provides technical assistance to eligible 
farmers and ranchers to address soil, water, air, and related natural 
resource concerns on their lands in an environmentally beneficial and 
cost-effective manner. ASA, CSSA, and SSSA support funding of this 
essential program at $1,337 million for fiscal year 2010.
In Summary
    A balance of funding mechanisms for research, including intramural, 
competitive and formula funding, is essential to maintain the capacity 
of the United States to conduct both basic and applied agricultural 
research to improve crop and livestock quality, and deliver safe and 
nutritious food products, while protecting and enhancing the Nation's 
environment and natural resource base. In order to address these 
challenges and maintain our position in an increasingly competitive 
world, we must continue to support research, education and extension 
programs funded through the Agricultural Research Service and 
Cooperative State Research, Education, and Extension Service, and 
conservation programs supported by the Natural Resources Conservation 
Service. Congress must enhance funding for these programs to ensure 
that Americans have access to a safe and nutritious food supply and to 
provide for the next generation of research scientists, extension 
agents and educators. According to the USDA Economic Research Service 
(Agricultural Economic Report Number 735), publicly funded agricultural 
research has earned an annual rate of return of 35 percent. This rate 
of return suggests that additional allocation of funds to support 
research in the food and agricultural sciences would be highly 
beneficial to the U.S. economy. Finally, we must ensure support for 
CSREES-funded extension programs to guarantee that these important new 
tools and technologies reach and are utilized by producers and other 
stakeholders.
    As you lead the Congress in deliberation on funding levels for 
agricultural research, extension, education and conservation programs, 
please consider American Society of Agronomy, Crop Science Society of 
America, and Soil Science Society of America as supportive resources. 
We hope you will call on our membership and scientific expertise 
whenever the need arises. Thank you for your thoughtful consideration 
of our requests. For additional information or to learn more about the 
American Society of Agronomy, Crop Science Society of America and Soil 
Science Society of America (ASA-CSSA-SSSA), please visit 
www.agronomy.org, www.crops.org or www.soils.org or contact ASA-CSSA-
SSSA Director of Science Policy Karl Glasener (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="305b575c5143555e5542705157425f5e5f5d491e5f4257">[email&#160;protected]</a>, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="244f43484557414a41566447564b54570a4b5643">[email&#160;protected]</a>, or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ff9498939e8c9a919a8dbf8c9096938cd1908d98">[email&#160;protected]</a>) or 202-408-5382.
                                 ______
                                 

           Prepared Statement of the Animal Welfare Institute

USDA/APHIS/Animal Care (AC)/Animal Welfare Act (AWA) Enforcement
            AWI Request: $22,275,270 (near-level funding)
    Over the past decade, the subcommittee has responded to the urgent 
need for increased funding for Animal Care to improve its inspections 
of nearly 16,000 sites, including animal dealers, commercial breeders, 
laboratories, zoos, circuses, and airlines, to ensure compliance with 
Animal Welfare Act standards. AC now has 111 inspectors (with 5 
vacancies in the process of being filled), versus 64 inspectors at the 
end of the 1990s. During fiscal year 2008, they conducted 15,600 
inspections, including required annual visits to all research 
facilities that alone house over 1 million animals covered by the act. 
Moreover, AC inspectors engaged in extended, time-consuming follow-up 
with licensees/registrants regarded as problems because of the nature 
and frequency of their violations.
    It is important to sustain the progress that has been made. This 
budget request of $22,275,270 provides a minimal increase over fiscal 
year 2009 to cover pay costs as well as the added responsibilities 
associated both with the growing number of licensed/registered 
facilities, and with enforcing the new Congressional ban on imports 
from foreign puppy mills.
APHIS/Emergency Management Systems/Disaster Planning for Animals
            AWI Request: $1,001,000 (level funding)
    In addition to their AWA inspections, Animal Care personnel help 
plan and coordinate disaster response efforts for companion and service 
animals. In 2008, they assisted with pet evacuation and recovery during 
Hurricanes Gustav and Ike and the California wildfires. These efforts 
are required by law--laws enacted in recognition of the implications 
for disaster response, as learned during Hurricane Katrina, when people 
refuse to evacuate because no plans have been made for their companion 
animals. This is an important effort, and the additional funding is 
needed so that it does not come at the expense of AC's other programs.
Agricultural Research Service/National Agricultural Library (NAL)/
        Animal Welfare Information Center (AWIC)
            AWI Request: $1, 978,400
    We very much appreciate the Subcommittee's strong support for the 
Animal Welfare Information Center, including placing it within the 
NAL's budget as a line item. AWIC's services are integral to the 
Nation's biomedical research enterprise, as well as to other regulated 
entities, because they facilitate compliance with Federal animal 
welfare regulations and policies governing animal-related research. The 
AWIC helps to improve the conduct of research, including the care 
provided to the animals who are used, thereby ensuring a reduction in 
variables that can skew the research. Better science is the end result.
    Congress established AWIC under the Improved Standards for 
Laboratory Animals Act (the 1985 amendment to the Animal Welfare Act) 
to serve as a clearinghouse, training center, and educational resource 
for institutions using animals in research, testing, and teaching. The 
Center is the single most important resource for helping personnel at 
more than 1,200 United States research facilities meet their 
responsibilities under the AWA. Supported by a modest funding level, 
its services are available to everyone at these institutions, including 
animal technicians, research investigators, attending veterinarians, 
IACUC representatives, and the Institutional Official, as well as to 
other industries and regulated entities, USDA inspectors, and the 
general public.
    AWIC provides data on the following: alleviating or reducing pain 
and distress in experimental animals (including anesthetic and 
analgesic procedures); reducing the number of animals used for research 
where possible; identifying alternatives to the use of animals for 
specific research projects; and preventing the unintended duplication 
of animal experiments. The Center collects, updates, and disseminates 
material on humane animal housing and husbandry, the responsibilities 
of Institutional Animal Care and Use Committees (IACUCs), animal 
behavior, improved methodologies, psychological well-being of primates, 
and exercise for dogs. Through the resources it provides to the 
research community and other animal industries, such as zoos, AWIC 
contributes significantly to science-based decision-making in animal 
care.
    AWIC's website (http://awic.nal.usda.gov/) is one of the most 
accessed sites at the NAL, with an average of over 340,000 page-views 
per month in fiscal year 2008, a 12 percent increase over fiscal year 
2007. It provides valuable information on issues of importance not only 
to the science community but also to the agriculture and public health 
communities, including BSE and avian influenza, two of the top areas of 
inquiry for visitors to its website. In fiscal year 2008, in addition 
to hundreds of millions of kbytes of information downloaded from the 
website, more than 82,000 hard copies (paper and CD) were distributed, 
an increase of 17 percent over fiscal year 2007. This includes the 
distribution of the AWIC Bulletin to over 7,000 requestors. AWIC staff 
provided over 2,000 personal reference services; conducted 7 sessions 
of its workshop ``Meeting the Information Requirements of the Animal 
Welfare Act'' at universities, pharmaceutical/research firms, and NAL 
itself; and conducted 22 exhibitions and/or presentations at various 
professional and scientific meetings, as well as for several visiting 
delegations at NAL.
    AWIC expertise is also needed to address continuing deficiencies in 
IACUC oversight within research institutions. First identified some 
years ago in an OIG audit, USDA found IACUC-related violations 45 times 
in fiscal year 2007, and the primate abuse documented at the New Iberia 
Research Facility in 2008 provides fresh evidence of these problems. 
AWIC needs the funds to conduct more of its workshops, and to achieve a 
long-sought objective of holding a symposium on AWA requirements for 
IACUC nonaffiliated members (i.e., members from the community charged 
with representing the communities' concerns for the animals).
    Likewise, increased funding is necessitated by the expansion of 
AWIC's mandate to serve the broader industry regulated under the AWA: 
animal dealers, carriers and handlers, zoos and other exhibitors. 
Animal Care's veterinary medical officers and animal care inspectors 
are able to utilize the full range of AWIC's services to better fulfill 
their responsibilities. The AWIC works closely with Animal Care and 
with Emergency Veterinary Services on emerging crises such as the 
highly pathogenic avian influenza, and it also quickly responded to the 
current health emergency by adding a variety of information resources 
on the H1N1 virus to its website, its blog, and through Twitter.
    Among other endeavors, the $1.978 million would be used as follows: 
The addition of two much-needed specialists to expand the content of 
the Center's database and make it more user-friendly and searchable; 
development of web-based training modules to provide online delivery of 
training opportunities; workshops, in conjunction with Animal Care, to 
assist licensees and registrants frequently cited for AWA violations; 
acquisition of, including electronic access to, data, including certain 
veterinary publications (the receipt of which was discontinued due to 
budget shortfalls); restoration of a grants program that could be used 
to update essential publications and manuals and translate them into 
Spanish for the growing number of Spanish-speaking animal care 
personnel in labs and zoos; and the overhead that must be provided to 
the Agricultural Research Service and the National Agricultural 
Library. (It should be noted that, after salaries and benefits, the 
largest single expense AWIC has is its overhead costs to ARS and NAL, 
which comprise over 13 percent of this funding request. This large 
expense substantially reduces the funds available for AWIC to conduct 
programs and provide services.)
    AWIC's indispensability not only in assisting with compliance with 
the AWA but also in providing up-to-date information on a range of 
issues, from BSE to primate enrichment to the H1N1 virus, that are 
critical to the scientific and agricultural communities and the general 
public, justifies this modest proposed increase in its budget to enable 
it to meet growing demand for its expertise on multiple fronts.
Food Safety and Inspection Service (FSIS)/Humane Methods of Slaughter 
        Act (HMSA) Enforcement
            AWI Request: Sufficient Funds to Ensure Strengthened 
                    Enforcement of HMSA
    We greatly appreciate Congress' past efforts to address USDA's 
egregious failure to enforce the Humane Methods of Slaughter Act. 
Despite these efforts, USDA has made no improvement in this area. This 
failure jeopardizes both animal welfare and consumer welfare.
    Since 2001, Congress has provided millions in additional funds for 
humane slaughter enforcement, in part to be used to hire new in-plant 
employees to work full-time on HMSA enforcement only. However, to date, 
none have been hired solely to handle this responsibility.
    An AWI report found that enforcement of humane slaughter law is a 
low priority within USDA. (Crimes without Consequences: The Enforcement 
of Humane Slaughter Laws in the United States. www.awionline.org/farm/
pdf/SlaughterReport.pdf) Not much has changed since 2004, when the 
Government Accountability Office issued a report citing widespread 
animal welfare issues under USDA's watch. It appears that the agency 
ignored the report.
    Between 2002 and 2005, only 42 enforcement actions beyond 
deficiency reports for noncompliance with humane slaughter laws were 
taken in the United States. But whistleblower accounts and undercover 
videotape documentation from inside slaughterhouses reviewed in the 
report suggest that the current low level of humane enforcement is not 
due to a lack of violations. Instead, crimes are either not observed or 
recognized by inspection personnel, not reported through the proper 
channels, or the appropriate remedial measures are not taken.
    In 2008, undercover video obtained by an investigator from an 
animal protection group revealed abhorrent acts of cruelty to livestock 
at the Westland/Hallmark Meat Packing Company in Chino, Calif., raising 
both ethical and food safety issues.
    In the wake of this case, suggestions have been made regarding the 
installation of video cameras as a deterrent. AWI urges Congress to 
reject any attempt by the department to use cameras in lieu of 
inspectors.
    Inspectors must be able to observe animals from the time the truck 
arrives and animals are unloaded and moved, through the stunning and 
slaughter process, until the last animal on the vehicle is killed. 
Under the law, when an inspector sees an apparent violation, he/she is 
authorized to stop the line on the spot.
    AWI is concerned with USDA's lack of commitment to enforcement. 
Congress must provide enough funding to allow FSIS to assign as many 
inspectors as needed to fully enforce the HMSA at all slaughter plants, 
but then it must exercise its oversight power to make sure that those 
inspectors are in fact tasked only with HMSA enforcement, are 
adequately trained, and that they understand their mission: To enforce 
the law and to ensure the humane and safe treatment of animals killed 
for human consumption, as mandated by the HMSA.
Office of Inspector General (OIG)/Animal Fighting Enforcement
            AWI Request: $87,910,150 (near-level funding)
    In 2007, violations of the AWA's animal fighting provisions, as 
well as the possession of related implements, became felonies. AWI 
supports funding OIG sufficiently to allow it to pursue animal fighting 
cases vigorously. Animal fighting is often associated with other 
violent crimes, thus posing a threat to the welfare of both animals and 
our communities. This level of funding is also needed to enable OIG to 
carry out audits and investigations to improve compliance with the 
Animal Welfare Act, the Humane Methods of Slaughter Act, the Horse 
Protection Act, and the downed animal rules.
APHIS/Animal Care/Horse Protection Act (HPA) Enforcement
            AWI Request: $1 million
    The goal of the Horse Protection Act, passed in 1970, is to end the 
cruel practice of soring, by which unscrupulous owners and/or trainers 
primarily of Tennessee Walking Horses intentionally inflict pain on the 
legs and hooves of horses, through the application of chemical and 
mechanical irritants, to produce an exaggerated gait. In 2008, the 
American Association of Equine Practitioners condemned soring as ``one 
of the most significant welfare issues faced by the equine industry.'' 
Three Girl Scouts bravely documented the brutality of this crime in 
their video ``See it through my eyes.'' (Available at www.youtube.com/
watch?v=kqFeYu1CrjU)
    Throughout its history, however, the law has been openly flouted 
and inadequate funding has hampered enforcement. Through a separate, 
joint statement with the Humane Society of the United States and 
others, we support a request for $1 million for HPA enforcement. This 
sum would allow government oversight at many more horse shows and 
greater investment in technologies (gas chromatography/mass 
spectrometry and thermography) that improve detection of sored horses. 
It should be noted that in fiscal year 2007, the use of GC/MS, which 
detects foreign substances used to sore horses, resulted in positive 
findings in 50 percent of the animals tested.
APHIS/Investigative and Enforcement Services (IES)
            AWI Request: $14,036,350 (near-level funding)
    The Investigative and Enforcement Services division of APHIS is 
essential to meaningful enforcement of the AWA and HPA. Among other 
things, it investigates alleged violations of the AWA and undertakes 
appropriate enforcement action. It handles more animal welfare cases as 
new facilities become licensed and registered and Animal Care conducts 
more inspections. Moreover, IES has seen an increase in its workload 
involving HPA-related activities.
                                 ______
                                 

           Prepared Statement of the Animal Welfare Institute

    Re: Request of $1,978,400 for the Animal Welfare Information Center
    Dear Chairman Kohl and Ranking Member Cochran: Thank you for your 
interest in and efforts on behalf of the Animal Welfare Information 
Center (AWIC) at the National Agricultural Library (NAL). Previous 
efforts to eliminate AWIC have failed as a result of Congress' 
appreciation of the agency's value to the research community and it 
support for its programs.
    The AWIC was established in 1986 in response to a mandate in the 
Improved Standards for Laboratory Animals amendment to the Animal 
Welfare Act (AWA). The Center serves as a clearinghouse, training 
center, and education resource for those involved in the use of animals 
for research, testing, and teaching (as well as other entities covered 
by the AWA), and the need and demand for its services continue to 
outstrip its resources. AWIC provides training and compiles, 
distributes, and posts on its website information resources from the 
scientific literature to assist researchers who use animals. The 
subjects covered include husbandry, handling, and care of animals; 
personnel training; animal behavior; alternatives; improved 
methodologies; environmental enrichment of non-human primates; and pain 
control via anesthesia and analgesia. It also serves as a resource for 
the wider scientific and agricultural communities by providing access 
to material on zoonotic diseases such as avian influenza, transmissible 
spongiform encephalopathies, tuberculosis, and now the H1N1 virus. Its 
activities contribute significantly to science-based decision-making in 
animal care.
    In fiscal year 2008, staff conducted seven sessions of AWIC's 
workshop, ``Meeting the Information Requirements of the Animal Welfare 
Act'' (evaluations of which are overwhelmingly positive, with 
participants indicating a high degree of new information acquisition), 
and presented 22 exhibitions and presentations. The AWIC website 
(http://awic.nal.usda.gov/) is one of the most accessed sites at NAL, 
with an average of over 340,000 page-views each month in fiscal year 
2008, a 12 percent increase over fiscal year 2007. Many improvements to 
the website have been made in the past year, and more information on 
more subjects through more outlets is available.
    Today we write in support of an appropriation of $1,978,400, which 
is urgently needed to fund, in addition to salaries and other expenses, 
AWIC's services and its ongoing efforts to improve their delivery:
  --$50,000--Develop web-based training modules, including interactive 
        modules, in order to provide online delivery of training 
        opportunities.
  --$36,000--Present workshops in cooperation with Animal Care to 
        assist licensees/registrants frequently cited for AWA 
        violations.
  --$20,500--Internet services
  --$13,900--AWIC staff training
  --$200,000--Resume acquisition of veterinary publications that NAL 
        discontinued 5 years ago, and increase the pace of indexing all 
        such publications.
  --$270,000--Overhead to ARS and NAL
  --$50,000--Meet Congressional mandate to digitize more materials; in 
        particular, scanning AWA-related documents going back to 1966
  --$50,000--Restore a grants program that could be used to update 
        Essentials for Animals in Research, as well as certain animal 
        care manuals, and then translate them into Spanish; develop 
        training DVDs, etc. In the past, this program yielded useful 
        products, including the original Essentials for Animal 
        Research: A Primer for Research Personnel (which was also 
        translated into Spanish and is still among the top ten 
        downloaded documents); a video on normal animal behaviors; and 
        a training video on using animals in research. It also provided 
        support for the first World Congress on Animal Use in the Life 
        Sciences, and for the proceedings of conferences for the 
        Scientists Center for Animal Welfare.
  --$10,000--Convene a stakeholders meeting to assess AWIC's services 
        and recommend steps for the future.
  --$5,000--Translate the AWA and its regulations, and other documents, 
        into Spanish.
    The growing numbers of Spanish-speaking animal-care personnel in 
U.S. research facilities and zoos, as well as increasing interest on 
the part of scientific communities in Central and South America, have 
made the availability of Spanish-language materials a priority.
    We hope that the new Administration recognizes how vitally 
important the AWIC's services are to the nation's biomedical research 
enterprise, and how essential it is to have a budget sufficient to 
support these services and technological improvements in their 
delivery. AWIC facilitates compliance with specific requirements of 
federal animal welfare regulations and policies governing animal-
related research. In addition, it provides extensive research services 
for us, thereby greatly benefiting our work on animal research issues. 
We appreciate and look forward to a continued working relationship with 
the Animal Welfare Information Center and hope you will support our 
modest request for appropriations.
                                 ______
                                 

 Prepared Statement of the Colorado River Basin Salinity Control Forum

    The Congress concluded that the Colorado River Basin Salinity 
Control Program (Program) should be implemented in the most cost-
effective way. The Program is funded by EQIP, the U.S. Bureau of 
Reclamation's (BOR) Basinwide Program, and a cost share for both of 
these programs provided by the Basin States. Realizing that 
agricultural on-farm strategies were some of the most cost-effective 
strategies, the Congress authorized a program for the United States 
Department of Agriculture (USDA) through amendment of the Colorado 
River Basin Salinity Control Act (Act) in 1984. With the enactment of 
the Federal Agriculture Improvement and Reform Act of 1996 (FAIRA), the 
Congress directed that the Program should continue to be implemented as 
one of the components of the Environmental Quality Incentives Program 
(EQIP). Since the enactment of the Farm Security and Rural Investment 
Act (FSRIA) in 2002, there have been, for the first time in a number of 
years, opportunities to adequately fund the Program within the EQIP. In 
2008, Congress passed the Food, Conservation, and Energy Act (FCEA). 
The FCEA addresses the cost sharing required from the Basin Funds. In 
so doing, the FCEA named the cost sharing requirement as the Basin 
States Program (BSP). The BSP will provide 30 percent of the total 
amount that will be spent each year by the combined EQIP and BSP 
effort.
    The Program, as set forth in the act, is to benefit Lower Basin 
water users hundreds of miles downstream from salt sources in the Upper 
Basin as the salinity of Colorado River water increases as the water 
flows downstream. There are very significant economic damages caused by 
high salt levels in this water source. Agriculturalists in the Upper 
Basin where the salt must be controlled, however, don't first look to 
downstream water quality standards but look for local benefits. These 
local benefits are in the form of enhanced beneficial use and improved 
crop yields. They submit cost-effective proposals to the State 
Conservationists in Utah, Wyoming and Colorado and offer to cost share 
in the acquisition of new irrigation equipment. It is the act that 
provides that the seven Colorado River Basin States will also cost 
share with the Federal funds for this effort. This has brought together 
a remarkable partnership.
    After longstanding urgings from the States and directives from the 
Congress, the USDA has concluded that this program is different than 
small watershed enhancement efforts common to the EQIP. In the case of 
the Colorado River salinity control effort, the watershed to be 
considered stretches more than 1,200 miles from the river's headwater 
in the Rocky Mountains to the river's terminus in the Gulf of 
California in Mexico and receives water from numerous tributaries. The 
USDA has determined that this effort should receive a special funding 
designation and has appointed a coordinator for this multi-state 
effort.
    In recent fiscal years, the Natural Resources Conservation Service 
(NRCS) has directed that about $19 million of EQIP funds be used for 
the Program. The Colorado River Basin Salinity Control Forum (Forum) 
appreciates the efforts of the NRCS leadership and the support of this 
subcommittee. The plan for water quality control of the Colorado River 
was prepared by the Forum, adopted by the States, and approved by the 
United States Environmental Protection Agency (EPA). The Colorado River 
Basin Salinity Control Advisory Council has taken the position that the 
funding for the salinity control program should not be below $20 
million per year. Over the last 3 fiscal years, for the first time, 
funding almost reached the needed level. State and local cost-sharing 
is triggered by the Federal appropriation. In fiscal year 2009, it is 
anticipated that the States will cost share with about $8 million and 
local agriculture producers will add more than $7 million. Hence, it is 
anticipated that in fiscal year 2009 the State and local contributions 
will be about 45 percent of the total program cost.
    Over the past few years, the NRCS has designated that about 2.5 
percent of the EQIP funds be allocated to the Colorado River salinity 
control program. The Forum believes this is the appropriate future 
level of funding as long as the total EQIP funding nationwide is more 
than $1 billion. Funding above this level assists in offsetting pre-
fiscal year 2003 funding below this level. The Basin States have cost 
sharing dollars available to participate in funding on-farm salinity 
control efforts. The agricultural producers in the Upper Basin are 
waiting for their applications to be considered so that they might 
improve their irrigation equipment and also cost share in the Program.
Overview
    The Program was authorized by the Congress in 1974. The Title I 
portion of the act responded to commitments that the United States 
made, through a Minute of the International Boundary and Water 
Commission, to Mexico specific to the quality of water being delivered 
to Mexico below Imperial Dam. Title II of the act established a program 
to respond to salinity control needs of Colorado River water users in 
the United States and to comply with the mandates of the then newly-
enacted Clean Water Act. This testimony is in support of funding for 
the Title II program.
    After a decade of investigative and implementation efforts, the 
Basin States concluded that the act needed to be amended. The Congress 
agreed and made a major revision to the act in 1984. That revision, 
while keeping the Department of the Interior as lead coordinator for 
Colorado River Basin salinity control efforts, also gave new salinity 
control responsibilities to the USDA. The Congress has charged the 
Administration with implementing the most cost-effective program 
practicable (measured in dollars per ton of salt controlled). It has 
been determined that the agricultural efforts are some of the most 
cost-effective opportunities.
    Since Congressional mandates of more than three decades ago, much 
has been learned about the impact of salts in the Colorado River 
system. The BOR has conducted studies on the economic impact of these 
salts. The BOR recognizes that the damages to United States' water 
users alone are hundreds of millions of dollars per year.
    The Forum is composed of gubernatorial appointees from Arizona, 
California, Colorado, Nevada, New Mexico, Utah and Wyoming. The Forum 
has become the seven-State coordinating body for interfacing with 
Federal agencies and the Congress in support of the implementation of 
the Salinity Control Program. In close cooperation with the EPA and 
pursuant to requirements of the Clean Water Act, every 3 years the 
Forum prepares a formal report evaluating the salinity of the Colorado 
River, its anticipated future salinity, and the program elements 
necessary to keep the salinity concentrations (measured in Total 
Dissolved Solids--TDS) at or below the levels measured in the river 
system in 1972 at Imperial Dam, and below Parker and Hoover Dams.
    In setting water quality standards for the Colorado River system, 
the salinity concentrations at these three locations in 1972 have been 
identified as the numeric criteria. The plan necessary for controlling 
salinity and reducing downstream damages has been captioned the ``Plan 
of Implementation.'' The 2008 Review of water quality standards 
includes an updated Plan of Implementation. In order to eliminate the 
shortfall in salinity control resulting from inadequate Federal funding 
for a number of years from the USDA, the Forum has determined that 
implementation of the Program needs to be accelerated. The level of 
appropriation requested in this testimony is in keeping with the agreed 
upon plan. If adequate funds are not appropriated, significant damages 
from the higher salt concentrations in the water will be more 
widespread in the United States and Mexico.
    Concentrations of salts in the river cause well over $300 million 
in quantified damages and significantly more in unquantified damages in 
the United States and result in poorer quality water being delivered by 
the United States to Mexico. Damages occur from:
  --a reduction in the yield of salt sensitive crops and increased 
        water use for leaching in the agricultural sector,
  --a reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector,
  --an increase in the use of water for cooling, and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector,
  --an increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector,
  --a decrease in the life of treatment facilities and pipelines in the 
        utility sector,
  --difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins, and
  --increased use of imported water for leaching and cost of 
        desalination and brine disposal for recycled water.
State Cost Sharing and Technical Assistance
    The authorized cost sharing by the Basin States, as provided by 
FAIRA, was at first difficult to implement as attorneys for the USDA 
concluded that the Basin States were authorized to cost share in the 
effort, but the Congress had not given the USDA authority to receive 
the Basin States' funds. After almost a year of exploring every 
possible solution as to how the cost sharing was to occur, the States, 
in agreement with Reclamation, State officials in Utah, Colorado and 
Wyoming and with NRCS State Conservationists in Utah, Colorado and 
Wyoming, agreed upon a program parallel to the salinity control 
activities provided by the EQIP wherein the States' cost sharing funds 
are being contributed and used. We now have several years of experience 
with that program and with the passage of FCEA we now have a clear 
authority for this program that is now known as the BSP.
    The act designates that the Secretary of the Interior provide the 
coordination for the Federal agencies involved in the salinity control 
program. That responsibility has been delegated to the BOR. The BOR 
administers the Basin States cost sharing funds that have been used in 
the Parallel Program. The BOR requested that there be enacted clearer 
authority for the use of these funds.
    With respect to the use of Basin States' cost sharing funds in the 
past, the Basin States felt that it was most essential that a portion 
of the Program be associated with technical assistance (TA) and 
education activities in the field. Without this necessary support, 
there is no advanced planning, proposals are not well prepared, 
assertions in the proposals cannot be verified, implementation of 
contracts cannot be observed, and valuable partnering and education 
efforts cannot occur. Recognizing these values, the BSP designates 40 
percent of the funds available on these needed TA activities made 
possible by contracts with the NRCS.
                                 ______
                                 

      Prepared Statement of the Colorado River Board of California

    This testimony is in support of funding for the U.S. Department of 
Agriculture (USDA) with respect to its on-farm Colorado River Basin 
Salinity Control Program for fiscal year 2010. This program has been 
carried out through the Colorado River Basin Salinity Control Act 
(Public Law 93-320), since it was enacted by Congress in 1974. With the 
enactment of the Federal Agricultural Improvement and Reform Act 
(FAIRA) in 1996 (Public Law 104-127), specific funding for salinity 
control projects in the Colorado River Basin were eliminated from the 
Federal budget and aggregated into the Department of Agriculture's 
Environmental Quality Incentives Program (EQIP) as one of its program 
components. With that action, Congress concluded that the salinity 
control program could be more effectively implemented as one of the 
components of the EQIP.
    The Program, as set forth in the act, benefits both the Upper Basin 
water users through more efficient water management and the Lower Basin 
water users, hundreds of miles downstream from salt sources in the 
Upper Basin, through reduced salinity concentration of Colorado River 
water. California's Colorado River water users are presently suffering 
economic damages in the hundreds of million of dollars per year due to 
the River's salinity.
    The Colorado River Board of California (Colorado River Board) is 
the State agency charged with protecting California's interests and 
rights in the water and power resources of the Colorado River system. 
In this capacity, California along with the other six Colorado River 
Basin states through the Colorado River Basin Salinity Control Forum 
(Forum), the interstate organization responsible for coordinating the 
Basin States' salinity control efforts, established numeric criteria in 
June 1975 for salinity concentrations in the River. These criteria were 
established to lessen the future damages in the Lower Basin States of 
Arizona, California, and Nevada, as well as assist the United States in 
delivering water of adequate quality to Mexico in accordance with 
Minute 242 of the International Boundary and Water Commission.
    The goal of the Colorado River Basin Salinity Control Program is to 
offset the effects of water resources development in the Colorado River 
Basin after 1972 as each state develops its Colorado River Compact 
apportionments. In close cooperation with the U.S. Environmental 
Protection Agency (EPA) and pursuant to requirements of the Clean Water 
Act (Public Law 92-500), every 3 years the Forum prepares a formal 
report analyzing the salinity of the Colorado River, anticipated future 
salinity, and the program elements necessary to keep the salinity 
concentrations (measured in Total Dissolved Solids--TDS) at or below 
the levels measured in the Colorado River system in 1972 at Imperial 
Dam, and below Parker and Hoover Dams. The latest report was prepared 
in 2008 titled: 2008 Review, Water Quality Standards for Salinity, 
Colorado River System (2008 Review). The plan necessary for controlling 
salinity and reducing downstream damages has been captioned the ``Plan 
of Implementation.'' The 2008 Review includes an updated Plan of 
Implementation.
    Concentrations of salts in the River annually cause about $376 
million in quantified damage in the United States (there are 
significant un-quantified damages as well). For example, damages occur 
from:
  --A reduction in the yield of salt sensitive crops and increased 
        water use for leaching in the agricultural sector;
  --A reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --An increase in the use of water for cooling, and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --An increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --A decrease in the life of treatment facilities and pipelines in the 
        utility sector;
  --Difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins, and fewer opportunities for recycling due to 
        groundwater quality deterioration; and
  --Increased use of imported water for leaching and the cost of 
        desalination and brine disposal for recycled water.
    For every 30 milligram per liter increase in salinity 
concentrations, there are $75 million in additional damages in the 
United States. Although the Program, thus far, has been able to 
implement salinity control measures that comply with the approved plan, 
recent drought years have caused salinity levels to rise in the River. 
Predictions are that this will be the trend for the next several years. 
This places an added urgency for acceleration of the implementation of 
the Program.
    Enactment of the Farm Security and Rural Investment Act of 2002 
provided an opportunity to adequately fund the Salinity Program within 
EQIP. The Colorado River Basin Salinity Control Advisory Council has 
taken the position that the USDA portion of the effort be funded at 2.5 
percent of the EQIP funding but at least $20 million annually. Over the 
past few years, the Natural Resources Conservation Service (NRCS) has 
designated 2.5 percent of EQIP funds be allocated to the Colorado River 
Salinity Control program. The Forum suggests that this is an 
appropriate level of funding as long as it does not drop below $20 
million. The Colorado River Board supports the recommendation of the 
Forum and urges this Subcommittee to support funding for the Colorado 
River Basin Salinity Control Program for 2010 at this level.
    These Federal dollars will be augmented by the State cost sharing 
of 30 percent with an additional 25 percent provided by the 
agricultural producers with whom USDA contracts for implementation of 
salinity control measures. Over the past years, the Colorado River 
Basin Salinity Control program has proven to be a very cost effective 
approach to help mitigate the impacts of increased salinity in the 
Colorado River. Continued Federal funding of this important Basin-wide 
program is essential.
    In addition, the Colorado River Board recognizes that the Federal 
Government has made significant commitments to the Republic of Mexico 
and to the seven Colorado River Basin States with regard to the 
delivery of quality water to Mexico. In order for those commitments to 
continue to be honored, it is essential that in fiscal year 2010, and 
in future fiscal years, that Congress continues to provide funds to 
USDA to allow it to provide needed technical support to agricultural 
producers for addressing salinity control in the Basin.
    The Colorado River is, and will continue to be, a major and vital 
water resource to the 18 million residents of southern California as 
well as throughout the Colorado River Basin. As stated earlier, 
preservation and improvement of the Colorado River water quality 
through an effective salinity control program will avoid the additional 
economic damages to users of Colorado River water in California, 
Arizona, and Nevada.
                                 ______
                                 

   Prepared Statement of the Environmental Service Research Institute

a proposal for national economic recovery--an investment in geospatial 
         information infrastructure building a national gis \1\
Summary
    We respectfully request the Subcommittee's support for a multi-
year, government-wide effort to build a national Geospatial Information 
System (GIS), led by the Secretary of Interior through his role as 
chairman of the Federal Geographic Data Committee under OMB circular A-
16, and the United States Geological Survey. The total cost of the 
program, as detailed below, is expected to be approximately $1.2 
billion spread over 3 years. For fiscal 2010, we urge the Subcommittee 
to provide $40.1 million for the portions of this project within your 
jurisdiction.
---------------------------------------------------------------------------
    \1\ A vision for a National Geographic Information System, by Jack 
Dangermond and Anne Hale Miglarese.
---------------------------------------------------------------------------
Proposal
    The Stimulus Plan recently approved by Congress and the incoming 
Obama Administration is an enormous undertaking to revive the American 
economy. Potentially, it will involve thousands of infrastructure and 
other projects intended to create jobs and restart economic growth 
while producing things of lasting value to American taxpayers. The 
challenge to properly manage and execute this effort will be daunting, 
requiring unprecedented access to data and information at all levels of 
government and the private sector.
    This is the moment for America to build a national Geographic 
Information System (GIS), that is, a unified, up-to-date, publicly-
accessible national digital map, enriched with data from all available 
sources, and supported by GIS technology. This system can be built 
quickly, immediately creating high tech jobs, and will serve as a 
public resource for project planners to support transportation 
infrastructure, alternative energy research, and project siting. It 
will also provide a foundation for monitoring the U.S. economic 
recovery across our communities, allowing activities to get underway as 
soon as possible and leaving a legacy for the future.
    The benefits of a national GIS are universal. The Western 
Governor's Association declared GIS a key component of our national 
critical infrastructure. The National Geospatial Advisory Committee 
(NGAC) adopted a set of transition recommendations that represent a 
broad consensus among the key public and private stakeholders in the 
geospatial technology field and form a principal basis for this 
proposal.
Why a National GIS Should be Completed
    Agencies have been laying the foundation for national GIS for 
years. It falls within umbrella names like Imagery for the Nation, The 
National Map, the National Spatial Data Infrastructure, and the 
pioneering work of by the U.S. Geological Survey, the Department of 
Commerce Census Bureau and the National Oceanic and Atmospheric 
Administration and the Departments of Homeland Security, Agriculture, 
and Interior, among others. It is supported by technical studies from 
the National Geospatial Advisory Committee (NGAC), the National 
Research Council, the Federal Geographic Data Committee (FGDC), and the 
National States Geographic Information Council (NSGIC). Now is the time 
to pull them together.
    GIS technology is uniquely capable of providing unity both to the 
complex new Stimulus Plan as well as other ongoing initiatives. GIS can 
integrate data from agencies across all levels of government, providing 
decision makers a powerful tool to marshal knowledge on items as 
diverse as personnel, finance, economics, infrastructure, and 
resources, all organized within maps or images showing geographic 
basics such as topography, roads, parcels, buildings, utility networks, 
landmarks, soil types, and political and physical land divisions. It 
brings together all key national datasets to support action--which is 
why it is considered a must for emergency response organizations across 
the country. A national GIS will place at our fingertips a 
comprehensive description of our nation's assets, resources and 
operations, all linked geographically. Once completed, it will be a 
priceless national resource and an indispensable tool for planners and 
business alike.
    A national GIS can be built immediately, engaging hundreds of 
private firms. It will speed the start of job-rich infrastructure 
projects. Its biggest impact will be on projects critical to energy 
development, homeland security, defense, climate change, health care 
delivery, telecommunications, transportation, and the environment. 
Without national GIS as a management tool, efforts will be haphazard 
and project planners will be hamstrung. A National GIS must be a 
cornerstone program funded by the Stimulus Plan, a fulcrum to wring the 
greatest result for each dollar spent.
Technical fundamentals of a National GIS
    A GIS system integrates information from many sources and authors 
using standardized protocols so that information can be harmonized and 
incorporated into a consistent framework to support multiple missions 
at all levels of government and private business. It can be built and 
maintained largely using on-going business processes such as The 
National Map initiative of Interior Department's Geological Survey 
(USGS), and it can rely heavily on existing software, hardware, and 
networks, integrated by a lead organization setting standards and 
protocols. Existing modern GIS server technology, together with open 
standards and Services Oriented Architecture (SOA), can provide 
enabling components for a national GIS immediately. This architecture 
maximizes collaboration among government and private entities. 
Guarantees of privacy, confidentiality, protection of proprietary 
financial data, and similar concerns can be built in at the foundation 
and at every level. This national system will result in the following:
  --A series of standard geographic datasets (framework layers 
        described below);
  --A series of workflows that transactionally maintain (update) these 
        datasets;
  --A system for data management responsibility (FGDC governance);
  --A suite of tailored applications;
  --A designated Federal entity to oversee the effort;
  --The necessary technology to support a National GIS system.
Leadership and cost for a National GIS
    Both the National Geospatial Advisory Committee (NGAC) and the 
Department of Interior have developed detailed recommendations on how 
to build a National GIS. A key first step is to implement fully the 
Imagery for the Nation initiative, an intergovernmental plan to create 
a full Federal-level GIS based on nationwide aerial imaging and 
mapping, participation by agencies across the Federal landscape, and 
technological consistency.
    Next, a comprehensive national updating of mapping and 
topographical information is essential to create a complete current 
portrait of America--what is referred to as The National Map. This 
step, along with outreach to incorporate key additional databases 
maintained by State and local governments and the private sector, and 
elements such as Parcels, Transportation, Hydro, Elevation, Critical 
Habitat and Boundaries, will be needed to make the system most 
effective for project decision-makers and infrastructure planners. We 
anticipate the total cost to be approximately $1.2 billion, spread over 
3 years. We can provide detailed cost breakdowns upon request.
    In order to create a national GIS it is necessary to update and 
integrate the many currently-existing individual agency map layers into 
a consistent, integrated whole. USGS would lead this effort and combine 
information into a consistent geospatial foundation. This component 
will, over the next 3 years, require an additional $200 million spread 
over a variety of Federal Departments and Agencies.
    Interagency plans, contracts, and management systems are already in 
place today to implement this initiative. Overall management could be 
provided by the Secretary of the Interior, who chairs the Federal 
Geographic Data Committee, with significant involvement from USDA, DOC 
and DHS/FEMA. In addition, program funding can be leveraged through 
cooperative efforts with partners in State and local government and the 
private sector. The National Geospatial Advisory Committee can provide 
ongoing strategic and recommendations program design and 
implementation.
A National GIS: Key Framework Data and System Technology
    We propose focusing on the development of five key digital layers 
or initiatives as initial steps toward a National GIS: Imagery, Parcel 
Data, Elevation, and Wildlife Habitat, and Recovery.gov.
  --Imagery.--Imagery for the Nation (IFTN) is an intergovernmental 
        initiative to address the Nation's basic business needs for 
        aerial images. Imagery is used for countless applications in 
        all levels of government and the private sector, embraced by 
        the public through online tools such as Google Earth and 
        Microsoft Virtual Earth. Partnerships between levels of 
        government to acquire imagery data have lowered costs, reduced 
        duplication, and allowed greater data standardization. IFTN 
        will maximize the impact of taxpayer investments through a 
        coordinated national acquisition program. The IFTN initiative 
        was originated by the National States Geographic Information 
        Council, been endorsed by the FGDC and the NGAC, and involves a 
        heavy investment from the U.S. Department of Agriculture. The 
        approximate 3-year total cost for this activity is $140 
        million, equally split between the Departments of the Interior 
        and Agriculture. For fiscal year 2010, we urge the subcommittee 
        to provide $23.4 million for Agriculture's component.
  --A GIS-based Recovery.Gov.--President Obama has insisted that 
        Stimulus spending be subject to maximum transparency and 
        accountability, enabling citizens to understand how their funds 
        are being spent and how their communities will be affected. 
        Recovery.gov, the web-based tool being launched by OMB for this 
        purpose, must provide complete, understandable, authoritative 
        and actionable information and analysis to elected and 
        appointed officials, and to ordinary citizens. We propose that 
        Recovery.gov be equipped with interactive maps and geospatial 
        analytic tools that will substantially improve understanding 
        and effectiveness of Recovery Act execution. An interactive map 
        provides an intuitive foundation to understand, integrate, and 
        interrogate this disparate and overwhelming amount of 
        information, and to support better and timelier analysis and 
        decisions. The application of GIS technology would allow public 
        users to access and view Recovery Act spending patterns against 
        established goals and underlying local and national conditions. 
        In this way, it will allow the public to evaluate whether the 
        government is making the right choices on where money is spent, 
        and whether spending is yielding the right results. The 
        approximate 3-year total cost for this activity is $250 million 
        across the Departments of the Interior ($100 million), 
        Agriculture ($50 million), Commerce ($50 million), and Homeland 
        Security ($50 million). For fiscal year 2010, we urge the 
        subcommittee to provide $16.7 million for Agriculture's 
        component.
  --Parcel Data.--Based on the National Academies of Science, National 
        Research Council (NRC) recent report ``National Land Parcel 
        Data: A Vision for the Future,'' the land parcel data layer 
        (also known as cadastral data) is used by governments to make 
        decisions on land development, business activities, regulatory 
        compliance, emergency response, and law enforcement. The NRC 
        report concludes that nationally-integrated land parcel data is 
        necessary, feasible, and affordable. Development of a national 
        land parcel system would also provide an invaluable analytical 
        tool to help manage the mortgage crisis. The NGAC endorsed the 
        recommendations in the NRC report in October. The approximate 
        3-year total cost for this activity is $200 million for the 
        Department of the Interior.
  --Elevation.--Today, high density digital elevation models are 
        produced by a technology called LiDAR and IfSAR, an aerial 
        mapping technology that provides highly accurate mapping of 
        ground elevations. FEMA currently uses LiDAR data for flood 
        mapping whenever such data are available. LiDAR data are also 
        being utilized extensively in natural resource management, and 
        new uses are being demonstrated for emergency response and 
        homeland security purposes. An investment in a national 
        Elevation initiative would produce consistent elevation dataset 
        encompassing the entire country. The approximate 3-year total 
        cost for this activity is $300 million, equally split between 
        the Department of the Interior and the National Oceanic and 
        Atmospheric Administration.
  --Wildlife Corridor/Crucial Habitat.--The pressure for rapid economic 
        development and increased energy production threatens our 
        natural resources. The Western Governors' Association has 
        recommended a Wildlife Corridor and Crucial Habitat Decision 
        Support System. This system will support informed decisions on 
        community growth, alternative energy expansion, biodiversity 
        preservation, and resolving water resource issues. This effort 
        will produce a consistent nationwide wildlife map and GIS 
        management system. The approximate 3-year total cost for this 
        activity is $110 million for the Department of the Interior.
Conclusion
    The key step is to get it done now. America's financial crisis 
today, the worst since the end of World War II, will force difficult 
actions and decisions. Large expenditures of taxpayer money must be 
designed to yield products of long-term benefit to the country. America 
has an information economy, and a robust geospatial infrastructure 
(system of digital maps and tools) is just as vital to its continued 
development as was the physical infrastructure to the industrial 
economy. A National GIS, properly designed and effectively implemented, 
providing public access and using best technologies, will speed 
economic recovery by producing jobs and putting shovels in the ground 
more quickly. It will also leave the country with a public utility, a 
modern geospatial information system, that itself can become a 
foundation for new generations of industries and technologies in the 
future.
                                 ______
                                 

             Prepared Statement of Florida State University

    Florida State University is requesting $5,000,000 in fiscal year 
2010 for the Risk Reduction for Agricultural Crops Program from the 
Cooperative State Research Education and Extension Service/Research and 
Education Activities/Federal Admin. Account.
    Mr. Chairman, I would like to thank you and the Members of the 
Subcommittee for this opportunity to present testimony before this 
Committee. I would like to take a moment to briefly acquaint you with 
Florida State University.
    Located in Tallahassee, Florida's capitol, FSU is a comprehensive 
Research university with a rapidly growing research base. The 
University serves as a center for advanced graduate and professional 
studies, exemplary research, and top-quality undergraduate programs. 
Faculty members at FSU maintain a strong commitment to quality in 
teaching, to performance of research and creative activities, and have 
a strong commitment to public service. Among the current or former 
faculty are numerous recipients of national and international honors 
including Nobel laureates, Pulitzer Prize winners, and several members 
of the National Academy of Sciences. Our scientists and engineers do 
excellent research, have strong interdisciplinary interests, and often 
work closely with industrial partners in the commercialization of the 
results of their research. Florida State University had over $200 
million this past year in sponsored research awards.
    Florida State University attracts students from every State in the 
Nation and more than 100 foreign countries. The University is committed 
to high admission standards that ensure quality in its student body, 
which currently includes National Merit and National Achievement 
Scholars, Rhodes and Goldwater Scholars, as well as students with 
superior creative talent. Since 2005, FSU students have won more than 
30 nationally competitive scholarships and fellowships including 3 
Rhodes Scholarships, 2 Truman Scholarships, Goldwater, and 18 Fulbright 
Fellowships.
    At Florida State University, we are very proud of our successes as 
well as our emerging reputation as one of the Nation's top public 
research universities.
    Mr. Chairman, let me summarize our primary interest today. The 
current drought in the southeastern USA, the worst in recent history, 
has had significant impacts on the water resources. It has reemphasized 
the vulnerability of the citizens to climate variability and climate 
extremes. The Federal Government can reduce these risks by using modern 
technologies such as climate models, which can predict future climate, 
and decision support tools to help mitigate some of these uncertainties 
and provide adaptation strategies for the agricultural and 
environmental sectors. The Southeast Climate Consortium (SECC), which 
includes Florida State University, the University of Florida, the 
University of Miami, the University of Georgia, Auburn University, the 
University of Alabama at Huntsville, North Carolina State University 
and Clemson University, has been at the forefront of research and 
extension for the application of climate predictions to risk reduction 
for agriculture and natural resources. With support from USDA and NOAA, 
the SECC has developed new methods to predict the consequences of 
climate variability for agricultural crops, forests, and water 
resources in the southeastern USA. In recent real-life tests, these 
methods have been applied to the problems that farmers raising 
specialty crops face arising from variable rainfall, temperature, and 
wild fires. This program has strong support of extension in all States. 
The new tasks that can be accomplished with the funds requested are to 
develop improved methods to forecast droughts and other extreme climate 
events. These forecasts will be incorporated into decision support 
systems to help agricultural, forest, and natural resource managers to 
reduce risks of losses and environmental damage. The SECC will develop 
new partnerships and methods for incorporating climate forecasts into 
agricultural and water policy decisions and will continue the 
development of a decision support system to provide seasonal and multi-
year projections to water resources managers, especially for 
agricultural water use. Lastly, the SECC will initiate research to 
determine risks and appropriate agricultural responses to longer term 
trends in climate. We are requesting $5,000,000 for this project.
    Mr. Chairman, this project will have a great impact on our country 
and I appreciate your consideration.
                                 ______
                                 

  Prepared Statement of Friends of Agricultural Research--Beltsville, 
                                  Inc.

    Mr. Chairman, and Members of the Subcommittee, thank you for this 
opportunity to present our statement regarding funding for the 
Department of Agriculture's Agricultural Research Service (ARS), and 
especially for the Agency's flagship research facility, the Henry A. 
Wallace Beltsville Agricultural Research Center (BARC), in Maryland. 
Our organization--Friends of Agricultural Research--Beltsville--
promotes the Center's current and long-term agricultural research, 
outreach, and educational missions.
    Before going to the heart of our testimony, please allow us to note 
for the record that during fiscal year 2010 the Beltsville Agricultural 
Research Center will mark a great historical milestone, a milestone to 
celebrate the many great and small accomplishments that BARC research 
has contributed to the Nation's agricultural bounty and to the overall 
march of scientific progress. A full century will have passed since 
1910, the year research in Beltsville began with the assembly of a 
dairy cattle herd for research purposes. The ensuing BARC story is by 
all rights a national story--a story of world-class accomplishment. 
BARC Director Joseph Spence and his staff are planning a series of 
worthy events to commemorate the centennial year.
    The Friends of Agricultural Research-Beltsville (FAR-B) is honored 
to be both a participant in the centennial planning process and a 
contributor to coming events. We would be pleased, Mr. Chairman, to 
answer any questions, to collect any information or citations the 
Subcommittee might wish regarding the centennial or our testimony.
    We now turn to the specifics of our testimony for fiscal year 2010:
Under-Funded Salary Growth.--$1,700,000
    First, we appreciate the restoration of items that were recommended 
for termination in the president's proposed budget for fiscal year 
2009. We would hope that the fiscal year 2010 budget does not identify 
additional program terminations at BARC, and we would hope that there 
will be much needed funding increases. In the fiscal year 2009 budget, 
there was only about half of the needed funding for salary increases 
that went into effect at the beginning of the year. An unfortunate 
result of recent annual increases in Federal salaries--without 
offsetting funding increases--is a negative growth in funding available 
for discretionary spending on research. This situation has continued 
for several years now, and it has had a significant negative impact on 
ARS research.
    FAR-B strongly recommends funding adjustments to offset the almost 
yearly decline of net research funding resulting from under-funded 
salary increases.
Research Initiatives
    While it is unclear at this time if the fiscal year 2010 budget 
includes funding for additional research at BARC, it is important to 
point out that BARC conducts many areas of research and that the 
research is of the highest national priority. BARC research presents 
many compelling opportunities to reward agriculture, the environment, 
and the consumer.
    Food Safety--$500,000.--The Beltsville Area recently established 
the largest single food safety unit in ARS. This research unit will 
focus on a number of issues, including safety of fruits and vegetables 
and food safety issues related to organic agriculture. The ability 
exists at BARC to raise crops and animals under farm conditions, and 
then to process, store, and package the resulting products. A unique 
feature of the food safety research program at BARC is the ability to 
propose and test interventions that greatly reduce pathogen exposure in 
foods, and ultimately in people.
    Genomic Prediction--$1,500,000.--The promise of understanding the 
genome of plants and animals is being fully exploited at Beltsville. In 
groundbreaking research conducted here, scientists have been able to 
quickly and accurately identify dairy bulls that will produce daughters 
capable of producing the most milk. Now a simple test at birth can 
predict at twice the accuracy and at a cost of about $250 the potential 
of a bull to sire high producing cows. Traditionally, bull prediction 
methods have required farmers to obtain production records of 50 to 100 
daughters per bull to determine his genetic merit, at a cost up to 
$50,000 per bull. The potential for developing and expanding this 
breakout technology is huge and at great savings to dairy farmers and 
consumers alike.
    Climate Change--$1,500,000.--BARC has truly unique growth chambers 
that can measure and observe plant growth at every stage from root to 
stem, and under every conceivable atmospheric condition. BARC is using 
these chambers to measure the effects of increasing atmospheric 
CO<INF>2</INF> and changes in environmental temperatures. Studies are 
underway not only on agronomically important crops, but also on 
invasive weeds. Research shows that environmental changes may enhance 
the rapid growth of invasive plants, thus threatening to exacerbate 
already costly problems for American agriculture.
    Obesity Prevention--$500,000.--Obesity negatively impacts the 
health and productivity of the American public. Moreover, obesity comes 
with greatly increased risk of chronic diseases that dramatically add 
to the economic costs of health care. The Beltsville Human Nutrition 
Research Center (BHNRC) is researching barriers and facilitators to 
help the American public follow Federal dietary guidelines. A major 
research emphasis is to prevent obesity through a better understanding 
of why people make the food choices they do. This research also will 
help USDA design and implement more effective food assistance programs.
    Waste Utilization--$1,000,000.--Because it is a working farm and 
has research scientists who have expertise in animal science, 
conversion technologies, and environmental science, BARC is an ideal 
place to study the utilization of farm-generated waste products. Farm-
generated waste products can be environmentally harmful, have little or 
no value to the farmer, and disposal can be costly. Work at Beltsville 
has led to the effective development of technologies and products that 
take waste by-products and convert them to valuable new products. 
Examples include biofuels and plastics made without petroleum.
    Trade Enhancement and Global Competitiveness--$2,000,000.--BARC 
maintains and expands the Federal Government's unique collections of 
materials and organisms that are of utmost importance in identifying 
pests and for ensuring that unwanted pests are prevented from entering 
the United States and producing destruction of animals and plants of 
economic importance. These unique and irreplaceable collections include 
the Germplasm Resource Information Network, and invaluable reference 
collections of insects, nematodes, parasites, and fungi. These world-
class collections attract leading experts from around the world who 
study and use them for their own purposes. The collections are 
absolutely critical to identifying and preventing exotic pest problems 
from entering the United States through imports or by international 
travelers as well as demonstrating that our exports are safe. The 
continued availability of research in this general area of systematics 
is essential for trade, for homeland security, and for the protection 
of American agriculture.
    Chesapeake Bay Improvement--$500,000.--BARC scientists are working 
with farmers on Maryland's Eastern Shore to learn how to improve on-
farm conservation practices that will improve water quality in the 
Chesapeake Bay. The research goals--targeting the entire range of 
Eastern Shore farming practices--include reducing fertilizer and 
pesticide usage. A central goal is to create agronomic and animal waste 
management practices that will reduce fertilizer usage and control 
pollution runoff. Biocontrol studies are searching out ways to minimize 
the need for pesticides. Scientists also are using advanced remote 
sensing and hydrological technologies to protect the health of the 
Chesapeake watershed.
    FAR-B strongly recommends continued funding for these high-value, 
critically needed research initiatives.
Facilities.--$30 Million
    Ongoing facility needs at BARC are a reflection of the age of many 
of the buildings and infrastructure at BARC. As the program and the 
number of employees has decreased over time due to lack of funding, the 
burden of maintaining a large research facility has taken its toll in 
terms of routine and ongoing maintenance. It is essential that 
additional funding be provided for general facility maintenance and 
that plans for facility consolidation move forward.
    With talk of greatly increased expenditures of the Federal 
Government for facilities projects that are ``shovel-ready'', it is our 
hope that the Beltsville Area will be the recipient of a significant 
amount of those funds. Several projects at BARC are fully designed and 
ready for construction to begin almost immediately. These include the 
final phase of construction of the Beltsville Human Nutrition Research 
Center (BHNRC), in which existing building 307 will be gutted and 
rebuilt. This will allow BARC to relocate the entire BHNRC-now spread 
out at three separate locations--to one location and also free up space 
for other needed research activities. The completion of this important 
building renovation is urgently needed at BARC because many of the 
proposed space consolidations, which will greatly reduce the operating 
costs at the Center, are dependent on this project.
    Other projects that are fully designed and ready to go include 
three projects at the U.S. National Arboretum (USNA). The relocation of 
the USNA entrances from R Street and New York Avenue to Bladensburg 
Road is a major project that needs to move forward and will greatly 
improve public access while relieving traffic congestion on New York 
Avenue. Finally, the trash abatement project for the cleanup of Hickey 
Run needs to move forward. Rain runoff produces a great volume of trash 
as the result of inadequate storm water control by the District of 
Columbia. This trash accumulates on the property of the USNA. This 
project is urgently needed to prevent trash from washing onto the 
arboretum grounds, which now occurs with almost any significant 
rainfall. This project is also critically importance environmentally 
and for helping clean up the Anacostia River. The project has been 
completely designed and, while funds have been appropriated to the D.C. 
government and to ARS for this project, funding is not adequate to 
start construction on this project.
    FAR-B strongly recommends funding to complete these long delayed, 
urgently needed facility improvements.
    Mr. Chairman, that concludes our statement. We again thank you for 
the opportunity to present our testimony and for your interest and 
support.
                                 ______
                                 

        Prepared Statement of the Izaak Walton League of America

    The Izaak Walton League of America appreciates the opportunity to 
submit testimony concerning appropriations for fiscal year 2010 for 
various agencies and programs under the jurisdiction of the 
Subcommittee. The League is a national, nonprofit organization founded 
in 1922. We have more than 36,000 members and nearly 300 chapters and 
state divisions nationwide. Our members are committed to advancing 
common sense policies that safeguard wildlife and habitat, support 
community-based conservation, and address pressing environmental 
issues. The League has been a partner with farmers and a participant in 
forming agriculture policy since the 1930s. The following pertains to 
conservation programs administered by the U.S. Department of 
Agriculture.
    The Food, Conservation, and Energy Act (FCEA) of 2008 was enacted 
with a prominent commitment to increased mandatory conservation 
spending. We urge the Subcommittee to maintain the mandatory spending 
levels for conservation programs as provided in the act. The fiscal 
year 2010 budget is important to carrying out the changes in the 2008 
bill and implementing new initiatives. These conservation programs are 
critical to working with farmers, ranchers and forest landowners to 
undertake or improve conservation practices. These programs benefit 
producers through improved soil quality and productivity of their land, 
and the broader community through cleaner air and water and healthy 
habitat.
    Previous Farm Bills have included increased conservation 
authorizations that the League supported and fought hard to achieve. 
That pattern was certainly repeated with the new law, which contains a 
$25 billion investment in conservation programs overall. Although the 
authorization is important, the country will only realize the true 
benefit of conservation policies if appropriations match the authorized 
levels. As documented in our research on prior Farm Bill funding: \1\
---------------------------------------------------------------------------
    \1\ Redlin, Gupta, and Wiegand. 2007. The 2007 Farm Bill: 
Stewardship, Prosperity, and Fairness. Izaak Walton League of America. 
http://www.iwla.org/publications/agriculture/Farm_Bill_2007_WEB.pdf.

    ``Congress has also cut the funding committed to conservation 
programs in the previous [2002] Farm Bill. More than $5 billion 
promised to conservation has been withheld. This despite the fact that 
as many as three-fourths of the eligible farmers and ranchers seeking 
conservation programs are turned away due to lack of funds. No similar 
---------------------------------------------------------------------------
caps have been applied to the unlimited crop payment programs.''

    We are disappointed that the President's budget continues the 
unfortunate pattern of cutting conservation programs below mandatory 
levels established in the Farm Bill. The League is especially concerned 
about proposed cuts to the Wetland Reserve Program and Wildlife Habitat 
Incentives Program. Demand for participation in both far outstrips 
available funding, and this proposal will only exacerbate that problem 
as well as undermine conservation on-the-ground. It is critical that 
authorized levels for vital programs are met and maintained in fiscal 
year 2010 and all subsequent budget cycles for the life of the 
legislation. Specifically, the League believes achieving the following 
mandatory levels is essential:
  --Meeting the Wetland Reserve Program's full 3.041 million acre, $1.2 
        billion allocation over the life of FCEA will require $473 
        million in fiscal year 2010 according to the Congressional 
        Budget Office (CBO) March 2009 baseline. The President has 
        proposed only $391 million and reduced the program acreage by 
        139,000 acres.
  --Adding 1.22 million acres to the Grassland Reserve Program by 2012, 
        scored at $300 million for the life of FCEA, with a CBO 
        baseline of $78 million for fiscal year 2010. The 
        Administration believes $54 million will fully fund the Farm 
        Bill authorization for fiscal year 2010.
  --Maintaining the 32 million acre enrollment in the Conservation 
        Reserve Program, scored at $9.8 billion over the life of FCEA, 
        and $1.944 billion for fiscal year 2010. The Administration's 
        budget proposes full funding for CRP.
  --Achieving $85 million annually for the Wildlife Habitat Incentives 
        Program. The budget proposed by the President cuts the program 
        by more than half in fiscal year 2010 to $42 million.
    Additionally, the League worked to expand the Conservation 
Stewardship Program. Accompanying the positive revisions to better 
focus the program on higher environmental standards was an increase in 
authorized funding to support enrollment of approximately 13 million 
acres per year. The March 2009 CBO baseline places fiscal year 2010 
mandatory funding at $752 million. The Office of Management and Budget 
(OMB) has scored funding full authorization at $681 million. With the 
numerous environmental challenges facing U.S. agriculture, including 
climate change, soil quality deficiencies, declining pollinator health, 
and huge water quality and quantity issues, we strongly urge the 
Subcommittee to provide the full baseline amount in its bill.
    Furthermore, effective implementation of Farm Bill conservation 
programs depends upon adequate technical resources to work with 
landowners in addressing their unique environmental concerns. Although 
conservation programs are available, under-investment in technical 
assistance limits agency support to assist farmers and ranchers in 
selecting and optimizing appropriate programs for their operations. 
Resource concerns and conservation practices vary throughout the 
country, and the technical assistance provided to program participants 
is necessary to address specific environmental concerns. The technical 
expertise of the Natural Resource Conservation Service and partners 
that assist in the delivery of programs and technical assistance 
directly to landowners is necessary for the adoption and maintenance of 
conservation practices. We request that the subcommittee support the 
mandatory levels of conservation program funding as provided in FCEA to 
enable robust technical resources to implement those programs 
successfully.
    Finally, the Sustainable Agriculture Research and Education (SARE) 
program is a very successful competitive grant program that funds 
farmer-driven research, education, and extension initiatives. SARE 
projects, and its unique regional approach, have a long record of 
building economic prosperity, innovation and opportunity in rural 
America--all integrally aligned with natural resource conservation.
    Demand for SARE is growing, however, most years it has been able to 
fund less than 10 percent of the proposals submitted. Forty million 
dollars are authorized for SARE's research and education program and 
$20 million for its extension education and professional development 
program. However, appropriations for both programs have never topped 
$19 million. The League requests a minimum fiscal year 2010 
appropriation for SARE of $30 million, with $25 million allocated to 
research and education and $5 million to extension and professional 
development.
    We appreciate the opportunity to testify in strong support of 
fully-funding agricultural conservation programs.
                                 ______
                                 

        Prepared Statement of Goodwill Industries International

    Dear Chair and Ranking Member: On Behalf of Goodwill Industries 
International (Goodwill) and its 160 local Goodwill agencies in the 
United States, I wanted to thank you for your inclusion of funding in 
the American Recovery and Reinvestment Act targeted to low income 
workers and people with disabilities struggling in the midst of the 
recession.
    I am writing today to urge you to provide adequate funding in 
fiscal year 2010 for a critical program that supports local Goodwill 
agencies' efforts to help your constituents through the dignity of 
work. Especially during such trying economic times, Goodwill 
understands the difficult challenge that appropriators face as they 
struggle to stretch limited resources to support an ever-increasing 
list of national priorities. We stand committed to working with you 
toward implementing solutions that will restore economic stability by 
empowering disadvantaged populations
    While our agencies utilize a variety of Federal funding streams, 
AgrAbility is one of our highest priority programs.
    Goodwill has a long history in meeting the employment and training 
needs of people with disabilities who live and work in rural 
communities, including agriculture workers who have suffered disabling 
injuries. Agriculture consistently ranks as one of the nation's most 
dangerous occupations. Each year, 90,000 agricultural workers sustain 
disabling injuries in work-related accidents.
    AgrAbility is a small $5 million program that consists of one 
National AgrAbility Project and more than 20 State/Regional AgrAbility 
Projects. These projects must involve a collaborative partnership 
between a land-grant university and one or more nonprofit 
organizations.
    State AgrAbility projects provide free on-farm consultations during 
which they assess abilities and needs, make recommendations for farm 
site or task modifications and assistive technology, then develop an 
action plan that allows program participants to continue to lead 
successful careers in production agriculture and farming or in another 
chosen field. In addition, the National AgrAbility Project (lead by 
Purdue University in partnership with Goodwill Industries 
International) provides technical assistance and professional training 
for State AgrAbility Projects, produces resource materials, and 
disseminates information related to the project. This project is the 
cornerstone of Goodwill's efforts with rural communities.
    GOODWILL urges Congress to provide adequate funding for full 
implementation of AgrAbility Programs in all 50 States thereby ensuring 
that assistance is available in all 50 States to farmers, ranchers, 
other agricultural workers, and family members impacted by disability.
    Thanks for considering this request. Should you have questions, 
please feel free to contact Seth Turner, Director of Government Affairs 
and Public Policy, at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fd8e988995d389888f93988fbd9a9292998a949191d3928f9a">[email&#160;protected]</a> or (240) 333-5508.
                                 ______
                                 

          Prepared Statement of the Minor Crop Farmer Alliance

    The Minor Crop Farmer Alliance is an alliance of national and 
regional organizations and individuals representing growers, shippers, 
packers, handlers, and processors of various agricultural commodities, 
including food, fiber, nursery, and horticultural products, and 
organizations involved with public health pesticides. Our members are 
extremely interested in the development of pest management tools and 
techniques that are environmentally sound. While our commodities are 
often called ``minor crops,'' they are vitally important components in 
the diets (fruits and vegetables) of all Americans and they contribute 
to safe and aesthetic surroundings for our homes, schools and places of 
business (turf, ornamental and nursery crops). Specialty crop 
agriculture in the United States is valued at more than $55 billion 
annually and accounts for more than 20 percent of the value of 
agricultural products grown in this country.
    We request that $8.4 million be provided to the National 
Agricultural Statistical Service (NASS) in fiscal year 2010 
specifically for the continuation of agricultural chemical use surveys 
for fruits, vegetables, floriculture and nursery crops.
    The U.S. Department of Agriculture's (USDA) National Agricultural 
Statistics Service (NASS) discontinued its Chemical Use Surveys for 
these commodities and has stated that it needs $8.4 million in funding 
to continue the survey program.
    The chemical usage surveys are the only source of publicly 
available data on agricultural pesticide and fertilizer use. The 
surveys are used by the USDA Office of Pest Management Policy and the 
U.S. Environmental Protection Agency (EPA) to conduct risk assessments 
and make pesticide policy decisions. Farmers, commodity organizations 
and the public utilize the data to monitor pesticide and fertilizer use 
and it is essential data for use in public policy discussions and 
participation in rulemaking.
    Proprietary data are available to verify NASS data in EPA risk 
assessments, but it cannot be used as the sole source of data because 
EPA cannot share the data with the public without violating the terms 
of its proprietary purchasing agreement. This proprietary data is not 
always gathered using appropriate sampling schemes, leaving gaps in the 
information even for specialty crops that are widely grown.
    EPA relies on the NASS surveys to conduct pesticide risk 
assessments. Without the NASS survey data, EPA plans to default to 100 
percent crop treated in future risk assessments. This could result in 
the cancellation of important crop protection tools for farmers. EPA 
has contacted USDA to communicate its strong support for the survey 
program.
    The Congress included language in the fiscal year 2009 Omnibus Bill 
that provided $2,450,000 to carry out the ``Fruit Chemical Use Data 
Study.'' While we welcome these additional funds for NASS, we hope that 
in fiscal year 2010 the Congress will provide the full amount needed to 
continue all of these critical surveys for fruits, vegetables, nursery 
and floricultural crops.
    Your consideration of this request is appreciated.

American Farm Bureau Federation
American Nursery & Landscape Association
California Specialty Crops Council
California Almond Board
California Avocado Commission
California Citrus Quality Council
California Fig Advisory Board
California Grape & Tree Fruit League
California Processed Onion and Garlic Research Committee
California Dried Plum Board
California Strawberry Commission
California Tree Fruit Agreement
Cherry Marketing Institute, Inc.
Cranberry Institute
Del Monte Foods
Florida Citrus Mutual
Florida Fruit & Vegetable Association
Florida Tomato Exchange
Food Products Association
Idaho Potato Commission
Michigan State Horticultural Society
Michigan Vegetable Council Inc.
National Council of Farmer Cooperatives
National Onion Association
National Potato Council
North Central Washington Fieldman's Association
Northwest Horticultural Council
Produce Marketing Association
Society of American Florists
United Fresh Produce Association
USA Dry Pea and Lentil Council, Inc.
U.S. Apple Association
U.S. Hop Industry Plant Protection Committee
Washington Association of Wine and Grape Growers
Washington Hops Commission
Washington State Potato Commission
Western Growers Association
Western Pistachio Association
Wild Blueberry Commission of Maine
                                 ______
                                 

Prepared Statement of the National Coalition for Food and Agricultural 
                                Research

    Dear Chairman Kohl and Ranking Member Brownback: The National 
Coalition for Food and Agricultural Research (National C-FAR) urges the 
Subcommittee and Committee to increase Federal investment in food and 
agricultural research, extension and education (RE&E) as a critical 
component of Federal appropriations for fiscal year 2010, including at 
least $300 million for the new Agriculture and Food Research Initiative 
(AFRI).
    President Obama has acknowledged the need for a major investment in 
research, saying at the annual meeting of the National Academy of 
Sciences that the United States will ``devote more than 3 percent of 
our GDP to research and development.'' We support President Obama's 
goal, and advise you that food and agriculture research must be a part 
of his vision.
    The potential payoff is enormous for both Americans' health and the 
nation's economy. Federal investments in food and agricultural RE&E 
have brought profitability to production agriculture, found solutions 
for difficult conservation and environmental challenges, addressed the 
many issues of food safety, and provided the baseline for our whole 
knowledge of human nutrition.
    Now, RE&E must seek solutions for feeding growing populations, 
dealing with climate change, developing sustainable fuel production, 
maintaining ecosystem health, and assuring all people food security and 
proper nutrition. Now is the time to grow investment in our nation's 
agricultural research enterprise and build on the successes of the past 
by increasing funding for a variety of food and agricultural research, 
extension and education efforts, and in particular the new National 
Institute of Food and Agriculture (NIFA) and AFRI.
    National C-FAR urges the Subcommittee to increase funding for AFRI 
to at least $300 million in fiscal year 2010 with a goal of funding 
AFRI at the fully authorized level as soon as practicable, and by 
fiscal year 2013 at the latest. AFRI, the successor to USDA's National 
Research Initiative (NRI) and the Initiative for Future Agriculture and 
Food Systems (IFAFS), is an integrated approach that takes research and 
innovation beyond the development phase, into implementation through 
contemporary education and extension programs. National C-FAR opposes 
taking funds from other RE&E programs in USDA to fund AFRI.
    NIFA, AFRI and other recent reforms offer a new opportunity to 
transform USDA's RE&E mission. AFRI will support research on key 
problems of national and regional importance in biological, 
environmental, physical, and social sciences relevant to agriculture, 
food, and the environment on a peer-reviewed, competitive basis. 
Additionally, AFRI should enable USDA to continue leveraging a portion 
of its RE&E funds fostering the development of partnerships with other 
Federal agencies that advance agricultural science.
    National C-FAR also supports the administration's fiscal year 2010 
requests for other parts of USDA's RE&E mission, including: the 
remainder of the Cooperative State, Research, Education and Extension 
Service (CSREES) beyond AFRI, the Agricultural Research Service (ARS), 
Economic Research Service (ERS) and Forest Service (FS).
    The Research Title of the Farm Bill represents the nation's 
signature Federal investment in the future of the food and agricultural 
sector. Other Farm Bill titles depend heavily upon the Research Title 
for tools to help achieve their stated objectives. Public investment in 
food and agricultural research, extension and education today and in 
the future must simultaneously satisfy needs for food quality and 
quantity, resource preservation, producer profitability and social 
acceptability.
    Tools provided through RE&E are needed to help achieve safer, more 
nutritious, convenient and affordable foods delivered to sustain a well 
nourished, healthy population; more efficient and environmentally 
friendly food, fiber and forest production; improved water quality, 
land conservation, wildlife and other environmental conditions; less 
dependence on non-renewable sources of energy; expanded global markets 
and improved balance of trade; and more jobs and sustainable rural 
economic development. Societal demands and expectations placed upon the 
food and agricultural system are ever-changing and growing.
    Multiple examples, such as those highlighted below, serve to 
illustrate current and future needs that arguably merit enhanced public 
investment in research, extension and education so that the food and 
agricultural system can respond to these challenges on a sustainable 
basis:
  --Strengthened bio-security is a pressing national priority. There is 
        a compelling need for improved biosecurity and bio-safety tools 
        and policies to protect against bio-terrorism and dreaded 
        problems such as foot-and-mouth and ``mad cow'' diseases and 
        other exotic plant and animal pests, and protection of range 
        lands from invasive species.
  --Food-linked health costs are high. Some $100 billion of annual U.S. 
        health costs are linked to poor diets, obesity, food borne 
        pathogens and allergens. Opportunities exist to create 
        healthier diets through improvements in the food supply and in 
        consumer knowledge and implementation of dietary guidance.
  --Research, extension and education are key to providing to solutions 
        to environment and conservation challenges related to global 
        warming, limited water resources, enhanced wildlife habitat, 
        and competing demands for land and other agricultural 
        resources. Rural water conservation and development of drought-
        resistant crops have evolved from a good idea to a necessity.
  --It is a highly competitive world for food and agriculture and rural 
        America. There was considerable debate during the last Farm 
        Bill reauthorization about how expanded food and agricultural 
        research, extension and education could enhance farm income and 
        rural revitalization by improving competitiveness and value-
        added opportunities.
  --Energy costs are escalating, dependence on petroleum imports is 
        growing and concerns about greenhouse gases are rising. 
        Research, extension and education can enhance agriculture's 
        ability to provide renewable sources of energy and cleaner 
        burning fuels, sequester carbon, and provide other 
        environmental benefits to help address these challenges, and 
        indeed generate value-added income for producers and stimulate 
        rural economic development.
  --Population and income growth are expanding the world demand for 
        food and natural fiber and improved diets. World food demand is 
        projected to double in 25 years. Most of this growth will occur 
        in the developing nations where yields are low, land is scarce, 
        and diets are inadequate. Without a vigorous response, demand 
        will only be met at a great global ecological cost.
  --Regardless of one's views about biotechnology and genetic 
        resources, an effective publicly funded research role is needed 
        for oversight and to ensure public benefits.
    Publicly financed RE&E is a necessary complement to private sector 
research, focusing in areas where the private sector does not have an 
incentive to invest, when (1) the pay-off is over a long term; (2) the 
potential market is more speculative; (3) the effort is during the pre-
technology stage; and (4) where the benefits are widely diffused. 
Public research, extension and education help provide oversight and 
measure long-term progress. Public research, extension and education 
also act as a means to detect and resolve problems in an early stage, 
thus saving American taxpayer dollars in remedial and corrective 
actions.
    The USDA, ERS September 2007 Economic Brief titled, ``Economic 
Returns of Public Agricultural Research,'' shows the average social 
rate of return to public investment in agricultural research is nearly 
50 percent. However, Federal funding for food and agricultural 
research, extension and education has been essentially flat for over 20 
years, while support for other Federal research has increased 
substantially. Public funding of agricultural research in the rest of 
the world during the same time period has outpaced investment in the 
United States, leading to competitive concerns. There also are vast 
areas where the public will trust only U.S. Federal investments in 
research--a case in point is human nutrition research.
    By any measure, Federal funding for food and agricultural research, 
extension and education--which has declined about one-fourth since 
fiscal year 2003--has failed to keep pace with identified priority 
needs. Allowing this decline to continue is likely to irrevocably harm 
our responses to human needs and competitive forces. It is imperative 
to lay the groundwork now to respond to the many challenges and 
promising opportunities ahead through Federal policies and programs 
needed to promote the long-term health and vitality of food and 
agriculture for the benefit of both consumers and producers. Stronger 
public investment in food and agricultural RE&E is essential in 
producing research outcomes needed to help deliver beneficial and 
timely solutions on a sustainable basis.
    National C-FAR serves as a forum and a unified voice in support of 
sustaining and increasing public investment at the national level in 
food and agricultural research, extension and education. National C-FAR 
is a nonprofit, nonpartisan, consensus-based and customer-led coalition 
established in 2001 that brings food, agriculture, nutrition, 
conservation and natural resource organizations together with the food 
and agriculture research and extension community.
    We agree with President Obama that, ``Science is more essential for 
our prosperity, our security, our health, our environment, and our 
quality of life than it has ever been.''
                                 ______
                                 

  Prepared Statement of National Coalition for Food and Agricultural 
                                Research

    Dear Chairman Kohl and Ranking Member Brownback: The undersigned 
organizations and individuals urge the Subcommittee and Committee to 
increase funding for the new Agriculture and Food Research Initiative 
(AFRI) to at least $300 million in fiscal year 2010 (exclusive of any 
funding identified for the former Section 406 programs) as a first step 
toward funding AFRI at the fully authorized level of $700 million 
annually. AFRI, the successor to USDA's National Research Initiative 
(NRI) and the Initiative for Future Agriculture and Food Systems 
(IFAFS), is an integrated approach that takes research and innovation 
beyond the development phase, into implementation through contemporary 
education and extension programs.
    The Food, Conservation, and Energy Act of 2008 established the 
Agriculture and Food Research Initiative (AFRI), a new competitive 
grants program authorized at $700 million annually, for research, 
extension, and education in support of our Nation's food and 
agricultural systems within USDA's National Institute of Food and 
Agriculture.
    We support full funding of AFRI at the authorized level of $700 
million annually, and urge the Subcommittee to fully fund AFRI as soon 
as practicable, by fiscal year 2013 at the latest. This is consistent 
with President Obama's commitment to return our Nation to sound 
science. With the Nation and world seeking solutions for climate 
change, sustainable fuel production, ecosystem health, food security 
and nutrition challenges, now is the time to grow investment in our 
Nation's food and agricultural research.
    Thank you for your leadership action in investing in America's food 
and agriculture system.

American Dietetic Association
American Feed Industry Association
American Malting Barley Association
American Phytopathological Society
American Society for Nutrition
American Soybean Association
American Veterinary Medical Association (AVMA)
Aquatic Plant Management Society (APMS)
Association of American Veterinary Medical Colleges
Biotechnology Industry Organization
Council for Agricultural Science and Technology
Donald Danforth Plant Science Center
Institute of Food Technologists
National Association of Wheat Growers
National Barley Growers Association
National Barley Improvement Committee
National Coalition for Food and Agricultural Research
National Farmers Union
National Oat Improvement Committee
National Sunflower Association
National Wheat Improvement Committee
North American Millers' Association
North Central Weed Science Society (NCWSS)
Northeastern Weed Science Society (NEWSS)
Southern Weed Science Society (SWSS)
Dr. Steven G. Pueppke, National Agricultural Biotechnology Council
The Council on Food, Agricultural and Resource Economics (C-FARE)
The Peanut Foundation
Professor Robert L. Thompson, Gardner Endowed Chair in Agricultural 
Policy Agricultural & Consumer Economics Dept., University of Illinois
U.S. Canola Association
USA Dry Pea & Lentil Council
Weed Science Society of America (WSSA)
Western Society of Weed Science (WSWS)
                                 ______
                                 

Prepared Statement of the National Commodity Supplemental Food Program 
                              Association

    Mr. Chairman and Subcommittee Members, thank you for this 
opportunity to present information regarding the USDA/FNS Commodity 
Supplemental Food Program (CSFP).
    The National Commodity Supplemental Food Program Association 
(NCSFPA) requests the Senate Agriculture Appropriations Subcommittee 
fund CSFP for fiscal year 2010 at $203 million and include language 
directing the Department to utilize all available resources to 
supplement the CSFP food package and meet the rising demand for 
nutritional assistance among our vulnerable senior population.
    This first effort at national food assistance began in 1969 with 
monthly packages designed to supplement protein, calcium, iron, 
vitamins A and C for low-income mothers and children (preceding WIC); 
nutrients shown to be lacking in the diets of low-income households. 
Low-income seniors added in 1983 now comprise 93 percent of all CSFP 
participants.
    CSFP is a unique program that brings together federal and state 
agencies, along with public and private entities, The USDA purchases 
specific nutrient-rich foods at wholesale prices. State agencies 
providing oversight, contract with community and faith based 
organizations to warehouse and distribute food, certify eligibility and 
educate participants. The local organizations build broad collaboration 
among non-profits, health units, and area agencies on aging for simple, 
fast access to the supplemental foods (canned fruits and vegetables, 
juices, meats, fish, peanut butter, cereals, grain products, cheese and 
dairy products from American farmers) and nutrition education to 
improve their health and quality of life. This partnership reaches even 
homebound seniors in both rural and urban settings with vital nutrition 
and remains an important ``market'' for commodities supported under 
various farm programs.
    In fiscal year 2008, the CSFP provided services through 150 non-
profit community and faith-based organizations at 1,800 sites located 
in 32 States, the District of Columbia, and two Indian Tribal 
Organizations (Red Lake, Minnesota and Oglala Sioux, South Dakota). On 
behalf of those organizations NCSFPA would like to express our 
gratitude for the increased fiscal year 2009 funding. However, we are 
disappointed that the increase in funding did not result in more 
seniors receiving food.
    CSFP's 40 years of service is a testimony to the power of community 
partnerships of faith-based organizations, farmers, private industry 
and government agencies. The CSFP offers a unique combination of 
advantages unparalleled by any other food assistance program:
  --The CSFP specifically targets our Nation's most nutritionally 
        vulnerable populations: young children and low-income seniors--
        many of whom will not qualify for other nutrition assistance 
        programs.
  --The CSFP provides a monthly selection of food packages tailored to 
        specific nutritional needs. Eligible participants are 
        guaranteed [by law] a certain level of nutritional assistance, 
        nutrition education, and food preparation guidance each month.
  --The CSFP purchases foods at wholesale prices, directly supporting 
        American farmers. The average food package cost is estimated at 
        $23.01 and the retail value is $50.00-$60.00.
  --The CSFP involves the entire community. Thousands of volunteers and 
        private companies donate money, equipment, and most importantly 
        time and effort to deliver food to needy and homebound seniors. 
        These volunteers not only bring food but companionship and 
        other assistance to seniors who might have limited support 
        systems. (See Attachment 1)
    In a recent CSFP survey, more than half of seniors living alone 
reported an income of less than $750 per month. One-half of respondents 
from two-person households reported an income under $1,000 per month. 
25 percent were enrolled in the Supplemental Nutrition Assistance 
Program (SNAP) and 50 percent said they ran out of food during the 
month. 70 percent of senior respondents said they choose between 
medicine and food.
    The Senate Agriculture Appropriations Subcommittee has consistently 
supported CSFP, acknowledging it as a cost-effective way of providing 
nutritious supplemental foods. Last year this subcommittee and all of 
Congress provided funding for CSFP in direct opposition to its proposed 
elimination. Your support is again needed to provide adequate resources 
for the 473,473 mothers, children and seniors current participants; 
37,500 low-income participants waiting in six new States, and 110,374 
seniors waiting in current states for this vital nutrition program.
    CSFP and other nutrition programs such as SNAP, are only 
supplemental programs by design. Together they cover a shortfall that 
many seniors face each month. These programs must have support to meet 
the increasing need as part of the ``safety net''.
    ``The Managers fully support continued operation of this program 
and recognize the need for a substantial expansion of CSFP. the 
Managers encourage the Secretary to approve all remaining states for 
expansion and to expand caseload in all participating states.'' Joint 
Statement of Managers, H.R. 2419, the Food, Conservation and Energy Act 
of 2008.
    ``CSFP has charms worth considering in designing human service 
programs the program's trademarks were its simplicity and accessibility 
. . . CSFP in particular represents a guaranteed source of high quality 
food, delivered in a balanced package.'' The Role of CSFP in 
Nutritional Assistance to Mothers, Infants, Children and Seniors. The 
Urban Institute, August 2008.
    The National Commodity Supplemental Food Program Association 
requests the following:
    To continue serving the 473,473 needy seniors (93 percent of 
participants), women, infants and children (7 percent of participants) 
currently enrolled in CSFP--$164 Million.
    To meet USDA's commodity procurement expenses--$0.8 Million.
    To respond to the needs of 37,500 eligible seniors in the 6 States 
with USDA approved plans: Arkansas (5,000), Delaware (2,500), Oklahoma 
(5,000), New Jersey (5,000), Utah (3,000) and Georgia (10,000)--$9.3 
Million.
    To meet the increased demand/need of an additional 110,374 at risk 
seniors in 32 States per requests turned into USDA by current CSF 
programs nationwide--$28.6 Million.
    Appropriation needed to maximize this program's effectiveness in 
serving 621,347 seniors, women, infants and young children challenged 
by hunger and malnutrition in our Nation--$203 Million.
    A 1997 report by the National Policy and Resource Center on 
Nutrition and Aging at Florida International University, Miami--Elder 
Insecurities: Poverty, Hunger, and Malnutrition indicated that 
malnourished elderly patients experience 2 to 20 times more medical 
complications, have up to 100 percent longer hospital stays, and incur 
hospital costs $2,000 to $10,000 higher per stay. Proper nutrition 
promotes health, treats chronic disease, decreases hospital length of 
stay and saves health care dollars. America is aging. CSFP must be an 
integral part of Senior Nutrition Policy and plans to support the 
productivity, health, independence and quality of life for America's 
seniors, many of whom now need to continue working at least part-time 
beyond retirement age to afford basics.
    The National CSFP Association recommends the following:
  --Support and expand the program in those states that have a need and 
        interest in the CSFP, including the 6 States that already have 
        USDA-approved plans to operate CSFP (Arkansas, Delaware, New 
        Jersey, Oklahoma, Utah and Georgia) and states demonstrating a 
        willingness to expand current CSFP services to meet rising 
        demand.
  -- Provide language encouraging the U.S. Department of Agriculture to 
        utilize all available resources to meet the rising demand for 
        this nutritional support.
  --The CSFP is committed grassroots operators and dedicated volunteers 
        with a mission to provide quality nutrition assistance 
        economically, efficiently, and responsibly always keeping the 
        needs and dignity of our participants first. We commend the 
        Food Distribution Division of Food and Nutrition Service of the 
        Department of Agriculture for their continued innovations to 
        strengthen the quality of the food package and streamline 
        administration.

                                                          FISCAL YEAR 2008 NATIONAL CSFP ASSOCIATION ADMINISTRATIVE EXPENSE/VALUE SURVEY
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                      Goods &                                                       Extra Goods
                                                                       USDA       Not Reimbursed       CSFP          Services        Volunteer     Annual Total    Percent Paid     donated to
                            Programs                                Reimbursed     by USDA Cash    Expenditures     donated to      Labor Hours    Program Value      by USDA          CSFP
                                                                       Cash                            Cash        agency Value        Value                                       participants
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
New Hampshire...................................................        $461,361  ..............        $461,361  ..............         $61,121        $522,482              88         $16,097
New York........................................................       1,947,032      $2,500,000       4,447,032         $20,700           3,984       4,471,716              44           6,500
Vermont FB......................................................         233,132  ..............         233,132  ..............  ..............         233,132             100  ..............
Washington, DC..................................................         434,945       1,600,000       2,034,945         800,000         173,632       3,008,577              14  ..............
Pennsylvania....................................................         912,209          18,637         930,846          32,169          48,259       1,011,274              90         100,000
Kentucky........................................................         980,911          64,645       1,045,556  ..............          24,577       1,070,133              92         624,093
Mississippi.....................................................         437,969  ..............         437,969          30,520         199,906         668,395              66           7,104
North Carolina..................................................          75,126  ..............          75,126  ..............  ..............          75,126             100  ..............
South Carolina..................................................         232,192  ..............         232,192  ..............           1,342         233,534              99          22,500
Tennessee \1\...................................................         840,812  ..............         840,812  ..............  ..............         840,812             100  ..............
Illinois........................................................         869,405  ..............         869,405  ..............          25,643         895,048              97  ..............
Indiana.........................................................         269,732          25,000         294,732          25,000          68,502         388,234              69          32,189
Michigan........................................................       4,861,625         314,317       5,175,942         310,168       1,722,543       7,208,653              67       4,637,316
Minnesota.......................................................         881,829         319,848       1,201,677           2,213         449,733       1,653,623              53         864,844
Red Lake, MN \1\................................................           6,204  ..............           6,204  ..............  ..............           6,204             100  ..............
Ohio............................................................         978,890         198,896       1,177,786          65,770         328,264       1,571,820              62          85,774
Wisconsin.......................................................         316,547          50,000         366,547  ..............         275,406         641,953              49          54,610
Louisiana.......................................................       4,089,578  ..............       4,089,578         330,000       1,104,420       5,523,998              74  ..............
New Mexico......................................................       1,032,128         129,911       1,162,039         248,791         233,955       1,644,785              63         479,843
Texas...........................................................         997,895         157,200       1,155,095  ..............         297,774       1,452,869              69  ..............
Colorado........................................................       1,104,198          67,533       1,171,731          57,449         119,319       1,348,499              82       1,343,961
Iowa............................................................         216,086         353,367         569,453  ..............          13,463         582,916              37  ..............
Kansas..........................................................         328,548           7,200         335,748          10,000          83,642         429,390              77          89,519
Missouri........................................................         583,040  ..............         583,040  ..............          16,608         599,648              97  ..............
Montana \1\.....................................................         425,091  ..............         425,091  ..............  ..............         425,091             100  ..............
Nebraska........................................................         820,898          75,529         896,427          40,470         301,447       1,238,344              66          70,479
North Dakota \1\................................................         175,413  ..............         175,413  ..............  ..............         175,413             100  ..............
South Dakota....................................................         176,228           8,416         184,644  ..............          26,464         211,108              83  ..............
Ogala Sioux, SD \1\.............................................          40,360  ..............          40,360  ..............  ..............          40,360             100  ..............
Alaska..........................................................         134,803          63,000         197,803       1,015,000         104,235       1,317,038              10  ..............
Arizona.........................................................         940,739         252,000       1,192,739           2,000         184,312       1,379,051              68       2,000,000
California......................................................       3,373,339         580,027       3,953,366          35,400       1,248,232       5,236,998              64         379,140
Nevada..........................................................         371,461         174,278         545,739  ..............          24,960         570,699              65         179,400
Oregon..........................................................          84,166          96,573         180,739           4,436          44,317         229,492              37           5,200
Washington......................................................         228,871           7,500         236,371         208,000          90,076         534,447              43  ..............
                                                                 -------------------------------------------------------------------------------------------------------------------------------
      Grand Total...............................................      29,862,763       7,063,877      36,926,640       3,238,086       7,276,137      47,440,863              63      11,306,319
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ No information provided Feb. 24, 2009 Client Extras incl.: flu shots, fresh produce, clothing, books, toys, health screenings, personal care items, energy efficient items, dairy, baked
  goods, eye exams, etc.

                                 ______
                                 

  Prepared Statement of the National Cooperative Business Association

    The National Cooperative Business Association, which represents all 
types of cooperatives, appreciates the opportunity to submit testimony 
on the request for a funding level of $8.25 million for the Rural 
Cooperative Development Grant (RCDG) program in the Rural Development 
Agency of the U.S. Department of Agriculture. This request includes 
funds to work in areas of high national priority including helping to 
create worker owned enterprises, e.g., worker ownership succession of 
existing rural businesses; health care; renewable energy and energy 
efficiency; and affordable housing.
    Background.--The RCDG program is a competitive grants program, 
administered by USDA's Rural Development, Rural Business--Cooperative 
Services Program. RCDG provides matching grant funding to nonprofits or 
institutions of higher education that operate cooperative development 
centers primarily serving farmers and groups seeking to form 
cooperatively owned businesses in rural areas.
    Cooperative development centers use the grants to fund critical 
technical assistance for economic development, such as legal and 
accounting assistance, feasibility studies, business planning, board 
education, and other services that help ensure the success of these 
businesses. The centers have helped start or expand more than 400 
cooperative businesses that have created over 5,800 new rural jobs in 
virtually every sector of the economy. Investment in these cooperatives 
exceeds $900 million.
    President Obama recognized the critical nature of the RCDG program 
in his budget outline. He included rural cooperative development grants 
among the five Rural Development programs needed ``to spur the 
development of small business and value-added agriculture in rural 
America.''
    The program, begun in 1993, is authorized at $50 million, but has 
never been appropriated at more than $6.5 annually despite the demand 
and cost effectiveness of the program. USDA typically receives 40-50 
applications for funding annually, but historically has only been able 
to fund 20-25 centers. In fiscal year 2008, approximately $4.6 million 
was available for RCDG grants, with a maximum grant award of $200,000 
per center. Another $500,000 was appropriated in this section for 
research on the impact of cooperative businesses, and $1.2 million for 
grants to minority-owned cooperatives, for a total appropriation of 
approximately $6.4 million.
    This program leverages a small amount of funding into much larger 
amounts while it promotes ownership and entrepreneurship. While the 
program requires a 25 percent match, centers have been leveraging 
dollar for dollar this funding with non-federal funding sources. The 
RCDG program is the only dedicated source of federal funding supporting 
the cooperative development centers.
    The Need for Assistance From Centers.--The Centers play a critical 
role in identifying and assisting new businesses to gain access to 
public funding, especially USDA loan and grant programs. Congress 
recognized the need when it developed the program and stated that ``the 
Committee hopes to link cooperatives from different communities and 
different sectors of the economy to strengthen the cooperative movement 
as a whole.'' (emphasis added) Federal Agriculture Improvement and 
Reform Act of 1996, Conf.Rep., p. 432.
    One of the ways Congress tried ``to strengthen the cooperative 
movement as a whole'' with the program was to ``emphasiz[e] job 
creation in rural areas through the development of rural cooperatives, 
value added processing, and rural businesses.'' (Conf.Rep., p. 431).
    At a time when rural America is in desperate need of jobs, the 
centers are well-situated to assist in an efficient and effective 
disbursement of economic stimulus and other funds to rural areas in 
need. But in order to do this, Congress needs to increase the maximum 
grant for centers back closer to historic levels. Under current 
funding, the maximum grant request for RCDG has been reduced from 
$300,000 in fiscal year 2005 to $200,000 currently, resulting in a 
significant reduction in support for core center operations, compounded 
by the effect of inflation. To bring funding up to an adequate level, 
we urge this subcommittee to provide $8.25 million for the RCDG program 
in this year's appropriations bill.
    The Fiscal Year 2010 Request.--The request this year is for $8.25 
million, which includes the following:
  --$4.6 million for general rural cooperative development grants to 
        centers proposing to work in any area of rural cooperative 
        development;
  --$2.0 million to be awarded to those successful RCDG applicants who 
        have both a demonstrated track record and that propose to 
        conduct rural cooperative development in the following areas of 
        high national priority: creation of worker owned enterprises, 
        including worker or community ownership succession of existing 
        rural businesses; health care; renewable energy and energy 
        efficiency, and affordable housing. Such applicants may request 
        up to $75,000 in supplemental grant awards to fund work in 
        these areas of national priority. Funds not used for these 
        purposes may be used by USDA to fund additional RCDG grants.
  --$450,000 for research on the economic impact of all types of 
        cooperatives.
  --$1.2 million for grants to minority-owned cooperatives.
    This request would allow USDA to competitively award $200,000 each 
to approximately 23-25 centers. Of these awardees, centers with both a 
track record and a proposal to work in one or more of the specified 
areas of national priority would be able to request an additional 
$75,000, for a total award of $275,000. Funding for minority-owned 
cooperatives would be funded at the same level, and funding for 
research would be reduced by $50,000 from fiscal year 2008 levels.
    Addressing High Priority Rural Economic Needs.--This request 
addresses high priority needs by providing increased support for work 
in areas that are critical to retaining and creating employment, 
improving health care, creating affordable housing, and reducing 
dependence on fossil fuels. Successful cooperative solutions have been 
demonstrated in each of these critical areas in various places 
throughout the country. Technical assistance is required to replicate 
and broadly extend those successful models.
    Rural America is populated with a number of profitable companies 
where rural jobs are at risk of loss due to a failure of succession 
planning, where aging or retiring owners do not have heirs that are 
interested or capable of taking over the business. Transfer to employee 
or community ownership is a good option in these cases, as these jobs 
then are retained in communities instead of being outsourced to urban 
or foreign buyers. But there must be business assistance infrastructure 
available before the owner is ready to retire or the business closes. 
Cooperative development centers can provide this assistance.
    Health care delivery is a major issue affecting rural areas, where 
most of America's aging population resides. Demonstrated opportunities 
for cooperative development include worker-owned home health care 
cooperatives, purchasing or shared services cooperatives for rural 
hospitals, and others. Harvard's Kennedy School of Government 
highlighted worker-owned home health care businesses as an award 
winning solution to providing jobs and benefits to rural workers while 
increasing the quality of care that allow aging rural residents to stay 
in their homes.
    Creation of affordable rural housing is an on-going need, made even 
more urgent by the nation's housing and foreclosure crisis. Substantial 
cooperative successes have been achieved by the conversion of 
manufactured home parks on rented lots to resident-owned communities. 
These co-ops have stabilized the availability of housing, and created 
greater long-term security for residents.
    Successful cooperative development can also be seen in response to 
both the need for renewable energy production (such as through ethanol 
and biodiesel cooperatives), and through consumer-owned energy 
cooperatives aimed at energy conservation and efficiency.
    The 2008 farm bill made changes to the program including allowing 
the award of grants on a multi-year basis and a provision for USDA to 
conduct ongoing research on the economic impact of cooperatives. The 
changes are designed to make more effective and efficient use of the 
ongoing capacity and expertise developed by co-op development centers 
around the country.
    Ongoing Research on Cooperatives.--The request includes $450,000 
for a cooperative research agreement between USDA and a qualified 
academic institution to continue research on the national economic 
impact of cooperatives. The research money is needed to continue 
tracking information on the number, type and economic impact of 
cooperatives across America and to assess the effectiveness of the RCDG 
program.
    In April, the first results of the federally supported research on 
the economic impact of cooperatives were released, showing significant 
contribution of the co-op sector to the U.S. economy--73,000 firms own 
more than $3 trillion in assets, generate over $650 billion in revenues 
and pay more than $75 billion in wages for 2 million jobs.
    While these results are a start, the 2008 farm bill requires USDA 
to conduct ongoing research on the economic impact of all types of 
cooperatives. This research can be used to track performance of 
cooperatives, how much capital is recycled into local economies, the 
success of Federal funds targeted at cooperative development, and 
determining other economic as well as social benefits of cooperatives. 
The fiscal year 2010 RCDG appropriation should include funding for this 
critical research.
    Funding History.--The program has received funding since 1993. 
Previous funding levels (including RCDG grant funding, research 
funding, and grant funding to minority-owned co-ops): Fiscal year 2009 
$6.18 million; fiscal year 2008 $6.423 million; fiscal year 2007 $6.4 
million; \1\ fiscal year 2006 $6.4 million; fiscal year 2005 $6 
million; fiscal year 2004 $6.5 million; fiscal year 2003 $6.5 million; 
fiscal year 2002 $5.25 million; fiscal year 2001 $4.5 million; fiscal 
year 2000 $4 million; fiscal year 1999 $1.75 million; fiscal year 1998 
$1.7 million; fiscal year 1997 $1.7 million; fiscal year 1996 $1.33 
million; fiscal year 1995 $1 million; fiscal year 1994 $750,000; and 
fiscal year 1993 $700,000.
---------------------------------------------------------------------------
    \1\ $900,000 that was appropriated to program for fiscal year 2007 
in the Continuing Resolution was taken out of program to fund another 
program.
---------------------------------------------------------------------------
    Conclusion.--We appreciate this opportunity to provide information 
about the request for $8.25 million for the Rural Cooperative 
Development Grant Program. We urge the Subcommittee to support the 
request.
                                 ______
                                 

           Prepared Statement of the National Cotton Council

    The National Cotton Council welcomes the opportunity to provide the 
following recommendations and requests for fiscal year 2010 
appropriations funding for selected programs under the jurisdiction of 
the subcommittee which make important contributions to our industry's 
ability to compete and prosper in a world market.
    We are requesting $23.39 million for APHIS for the Joint Cotton 
Pests Account and sufficient funding to continue the Farm Service 
Agency's authority to make up to $100 million in loans to eligible 
Foundations to be used in conducting activities related to the boll 
weevil and pink bollworm eradication programs. The industry requests an 
additional $700,000 above current funding ($1.54 million) be made 
available to ARS to be used to add a research position at the ARS Gin 
Lab located at Lubbock, TX. Adequate cost-share funding and loan 
authority to facilitate the successful completion of the boll weevil 
and the pink bollworm eradication programs; continued development of 
new technology through research; sufficient financial resources, 
personnel and computer equipment for FSA and FAS to successfully carry-
out their respective missions; and, funding for demand building export 
programs including MAP, FMD and GSM export credit guarantees are all 
essential to the cotton industry. The National Cotton Council also 
strongly supports the provisions of the 2008 farm law.
    The National Cotton Council of America (NCC) is the central 
organization of the U.S. cotton industry representing growers, ginners, 
warehousemen, cottonseed interests, merchants, cooperatives and 
manufacturers whose primary business operations are located in 18 
cotton producing States. Cotton Council International (CCI) is the 
overseas promotion arm of the cotton industry. NCC represents producers 
who cultivate between 10 and 14 million acres of cotton. Annual cotton 
production averaging approximately 20 million 480-lb bales is valued at 
more than $5 billion at the farm gate. While a majority of the industry 
is concentrated in the 18 cotton-producing States, the down-stream 
manufacturers of cotton apparel and home-furnishings are located in 
virtually every State. The industry and its suppliers, together with 
the cotton product manufacturers, account for more than 230,000 jobs in 
the United States. In addition to the cotton fiber, cottonseed products 
are used for livestock feed, and cottonseed oil is used for food 
products ranging from margarine to salad dressing. Taken collectively, 
the annual economic activity generated by cotton and its products in 
the U.S. economy is estimated to be in excess of $120 billion.
                           funding priorities
    Joint Cotton Pests (APHIS).--The National Cotton Council requests 
$23.39 million for APHIS to provide a Federal Cost Share for Boll 
Weevil Eradication and Pink Bollworm Eradication programs which were 
combined in fiscal year 2008 into a joint cotton pest account. As these 
programs near completion, the cost share funding for APHIS is even more 
critical to insure the complete eradication of these cotton pests for 
the benefit of those in post eradication maintenance areas. Additional 
details for the Boll Weevil Eradication Program and the Pink Bollworm 
Eradication Program are provided below as separate programs.
    Boll Weevil Eradication (APHIS--Cotton Pests).--The National Cotton 
Council requests $15.1 million for APHIS to provide a Federal cost 
share of approximately 30 percent to active boll weevil eradication 
programs underway in Texas. Cotton in the active eradication zones of 
Texas will require program activity in 2010 to continue progress toward 
full eradication. A large portion of this area is in habitats favorable 
to the boll weevil, primarily in the Southeast third of the State. For 
example, in central and south Texas, the boll weevil is especially 
adapted to the milder winter temperatures, longer growing seasons, and 
more humid summertime conditions. The lack of ``killing frost'' permits 
escape cotton plants (plants growing in non-cotton field habitats like 
ditch, fence row, etc.) to thrive year long, thus providing a source 
for sustained life and reproduction of boll weevils. Extra efforts have 
been employed to locate and remove these escape plants. Additionally, 
several zones in Texas have encountered significant costs because of 
weevils migrating out of the zones with high weevil populations into 
adjacent zones with near eradication levels of weevils. Studies have 
indicated this movement has been enhanced by hurricane winds. Even with 
these significant challenges, progress toward full eradication 
continues to be made.
    The program continues to produce documented economic and 
environmental benefits. Cotton in the United States was produced in 
2007 with an average of only 2.78 sprays per acre for all insects. This 
compares to 15 to 20 applications per acre prior to adoption of Bt 
cotton for worm control and implementation of boll weevil eradication.
    Nationally, USDA estimates that 94 percent of the U.S. cotton 
acreage is now free of boll weevils. Additionally, Mexico continues 
eradication programs in cotton areas along the U.S./Mexico border.
    Adequate Federal cost-share funds are critical to timely 
completion, especially since eradication is within sight. APHIS should 
be directed to make every effort to minimize overhead and 
administrative expenses for boll weevil eradication to ensure maximum 
funding reaches field operations.
    The fiscal year 2010 boll weevil request is less than fiscal year 
2009 and continues the annual reduction in keeping with our commitment 
to reduce Federal cost-share funding as the program moves toward 
completion.
    Boll Weevil Eradication (FSA).--The National Cotton Council 
requests sufficient funding to allow FSA to make at least $100 million 
in loans to eligible Boll Weevil Eradication Foundations. The Council 
also strongly supports providing FSA with continued authority to make 
loans for activities associated with the pink bollworm eradication 
program as previously provided in the fiscal year 2005 appropriations 
legislation.
    Pink Bollworm Programs (APHIS--Cotton Pests).--The National Cotton 
Council requests $8.29 million for the APHIS pink bollworm program. 
This will provide $2.14 million for indirect and direct costs to APHIS 
and the residual $6.15 million ``Net to Field'' will be for program 
operations. The Pink Bollworm Eradication Program originally was 
planned for a three phase expansion over several years. Insufficient 
funding resulted in Phase III being divided into Phase III(a) and Phase 
III(b) to allow partial expansion in fiscal year 2007. However, data 
revealed mass late season migration spilled into areas in eradication 
from outside eradication. Fiscal year 2008 marked the first year to 
expand into the last remaining areas of infestation. The fiscal year 
2010 request is less than the fiscal year 2009 request as a result of a 
reduction in sterile moth releases needed in some areas.
    The Pink Bollworm Eradication Program is based predominately on the 
mass release of sterile insects generated by a rearing facility located 
in Phoenix, AZ. Although this technique is favored over conventional 
insecticide spray application, the rearing costs include items related 
to fuel to maintain facility temperature most favorable to the insect 
and to soybean meal, a major diet ingredient. Soybean meal has almost 
doubled in cost (2007 vs. 2008). Insect rearing costs alone account for 
over $4 million of the budget. The shipping and mass release of these 
sterile insects via airplane over areas of California, Arizona, New 
Mexico, and Texas has increased due to fuel price increases. Costs have 
also greatly increased for the plastic raw material used to manufacture 
the trays that contain the insects during rearing.
    The Bi-National Pink bollworm eradication program has been 
implemented in three phases, with the final expansion started in 2008, 
to eliminate pink bollworm as a cotton pest in Texas, New Mexico, 
Arizona, California and adjacent cotton areas in Northern Mexico. It 
was expected that fiscal year 2009 would be the peak request for the 
program. Subsequent years are expected to require less support due to 
successful eradication in the earliest phases of the program. It is 
anticipated that fiscal year 2010 needs will meet that expectation. 
Mexico remains a partner in the eradication effort and continues to 
expand eradication programs along the border in conjunction with the 
United States.
    The funds requested for fiscal year 2010 will enable the Phoenix 
Pink Bollworm Rearing Facility to rear and release up to 20 million 
sterile pink bollworm moths per day to supply program needs. The 
Phoenix Pink Bollworm Rearing Facility (PBRF) is a partnership between 
the California growers and APHIS. The cost share for pink bollworm is 
essential to provide APHIS expertise and operational coordination in 
mass rearing and daily area-wide aerial releases of millions of moths.
    Market Access Program (MAP).--The National Cotton Council strongly 
supports funding levels authorized in 2008 farm law. Cotton Council 
International (CCI) actively promotes exports of U.S. cotton and cotton 
products in Asia, Europe, Africa, and Central and South America. 
Activities carried out using MAP (and FMD) have been responsible for 
increased export sales of cotton fiber and value-added cotton products. 
The value of U.S. cotton fiber exports exceeds $4 billion, and exports 
of value-added cotton products contribute an additional $6 billion to 
the overall value of cotton exports. For every $1 in MAP and FMD funds, 
CCI has generated matching contributions of over $4.00.
    Foreign Agriculture Service (FAS).--The industry supports 
sufficient funding to ensure FAS is adequately staffed to carry out 
important market development and trade enhancing functions in 
headquarters and abroad.
    Foreign Market Development (FMD).--The FMD program is used to 
encourage and support U.S. commodity groups to undertake long-term 
market development and trade servicing. FMD is currently funded at 
$34.5 million and requires at least a dollar-for-dollar industry match. 
The industry requests that funding be continued at the same level as 
provided for fiscal year 2009.
    Farm Service Agency (FSA).--Provide adequate funding so the agency 
can continue to deliver essential farm and conservation programs and 
services.
    Agricultural Research Service (ARS).--The industry is concerned 
with current support provided to this agency. The agency has faced a 
flat budget for most of the recent past fiscal years since 2001 and 
when not flat, its budget has suffered cuts. We respectfully request 
that this agency be considered for increased overall funding to allow 
the valuable research conducted on behalf of all agriculture to 
continue at sustainable levels. We specifically urge the subcommittee 
to provide increased base funding for the following research facility:
    Lubbock, TX Cotton Production and Processing Research Unit (Ginning 
Lab) of the Cropping Systems Research Laboratory (ARS)--$2.27 
million.--The request for $2.27 million in annual operating budget 
represents an increase of $700,000 from the funding levels provided in 
fiscal year 2008 and fiscal year 2009. This cotton ginning research 
facility is specifically equipped for research into the stripper 
harvested cotton production systems on the Texas High Plains, the 
largest contiguous production region in the United States. This unit is 
the only research unit within the ARS system that has a cotton 
harvesting research component of any type and while, historically, the 
unit's focus has been on stripper harvesting, the region's producers 
have in recent years been able to utilize new cultivars of upland 
cottons, adapted for their region, with vastly improved qualities that 
are best preserved if harvested by a machine picker rather than by a 
machine stripper. Research into best possible harvest alternatives is 
vital for this region's production to take advantage of international 
market preferences for longer, stronger cotton fiber and provide for 
continued profit improvements for the growers of this region.
    Historically this unit has been staffed with four full time 
scientists (4-SY's). In recent years, however, the lab has been 
operating with only 3-SY's, with the harvest focused position vacant 
due to retirement. Currently, harvest research is being conducted by a 
talented post-doctoral fellow with supplemental funds provided by 
industry through a grant from Cotton Incorporated, which is necessary 
to cover his direct salary and support functions. While this is a much 
appreciated stop gap approach, it is imperative for the long term 
viability of the unit for a fourth full time scientist position to be 
restored with appropriate support. ARS administrators indicate that 
this requested funding level will support a fourth scientist, long 
term, as well as provide for the necessary indirect support necessary 
for a viable 4-SY unit.
    Also included in this request is funding of critical cotton ginning 
particulate matter emissions research impacting all production regions 
which is conducted at this location. The development of this first 
class particulate emissions laboratory has become a valuable resource 
for determining and characterizing particulate emissions for many 
agricultural operations in addition to cotton ginning. In addition, 
this laboratory cooperates in research to improve Grain Sorghum Cold 
Tolerance, thus improving production of this valuable feed grain on the 
High Plains. Grain Sorghum is an important ingredient in animal feeds 
and as a feedstock for ethanol production.
    All of these activities are in addition to the basic ginning 
research necessary for support of the Texas and Southwest Region's 
cotton production industry.
    Thank you for your consideration of the cotton industry's 
recommendations for funding for programs under the subcommittee's 
jurisdiction for fiscal year 2010.
                                 ______
                                 

    Prepared Statement of the National Environmental Service Center

    Thank you for the opportunity to offer testimony to the 
Subcommittee on Agriculture, Rural Development, Food and Drug 
Administration and Related Agencies. We request $1.5 million for the 
National Drinking Water Clearinghouse (NDWC), a program that provides 
water infrastructure services for small communities and rural areas 
nationwide.
Introduction
    My name is Gerald Iwan. I serve as executive director of the 
National Environmental Services Center (NESC), located at West Virginia 
University in Morgantown, West Virginia. Previously, I was for 20 years 
the drinking water administrator for the State of Connecticut 
Department of Public Health, during which time I oversaw the 
implementation of all regulatory aspects of the Safe Drinking Water Act 
(SDWA). In my present assignment with NESC, I manage a unique program 
with nationally recognized expertise in drinking water, wastewater, and 
small community infrastructure security and emergency preparedness. 
NESC provides specialized technical assistance and training services 
and is an in-depth repository of information to small and rural 
communities nationwide.
Water and Wastewater Infrastructure Challenges
    Approximately 42,000 small and rural communities across the country 
with populations of 3,300 or fewer people receive their drinking water 
from small, community-operated water systems (EPA, 2009). These systems 
are mandated to comply with the Safe Drinking Water Act in providing 
reliable and safe water services. The system operators typically have 
limited financial, human and equipment resources. These systems account 
for the majority of SDWA violations. The USDA's Water and Wastewater 
Grants and Loans program may be the only option small system operators 
have to obtain funding to address necessary system improvements. 
Organizations such as the NDWC can provide reliable technical 
assistance in advising the system operators and in helping them to 
overcome the many challenges they face in complying with local, State 
and Federal regulations.
    Recognizing these challenges, the USDA makes funds available 
through the ``Rural Water and Wastewater Technical Assistance and 
Training (RWTA) Programs'' under authorization provided in the 
Consolidated Farm and Rural Development Act (the Farm Bill). The 
National Drinking Water Clearinghouse is one RWTA program. We have been 
funded by USDA for 18 years to help communities and rural areas 
identify and evaluate solutions to water or wastewater problems, 
improve facility operation and maintenance, and prepare funding 
applications for water or wastewater treatment facility construction 
projects.
Deliverables Provided by the NDWC
    The NDWC serves local officials, utility managers, system operators 
and RWTA professionals in small and rural communities. Congressional 
support would enable us to provide the following deliverables to our 
stakeholders. Telephone callers would obtain toll-free drinking water 
technical assistance from our staff of certified operators, engineers, 
and scientists. Our quarterly publication ``On Tap,'' a magazine for 
small drinking water systems, provides information about water 
treatment, financing, and management options and would be distributed 
free of charge to 26,000 subscribers. A comprehensive Web site 
www.NESC.wvu.edu and databases with thousands of entries will be 
maintained to provide ``round the clock'' access to contemporary 
information for small water systems. Training sessions customized for 
small and rural areas, teleconferences, and more than 600 free and low-
cost educational products would be provided to give people the 
instruction and tools they need to address their most pressing drinking 
water issues. Our staff of experts will be available to visit small 
communities, if invited, to offer in-the-field assessments and advice 
to the host communities.
    We anticipate an even greater need for NDWC services in 2010 due to 
the current recession and the federal effort to stimulate the economy 
through infrastructure projects. Stimulus funding in the water sector 
has been so far predominately directed to construction, with little or 
no funding directed to support water and wastewater facility operation 
and maintenance, or for technical assistance programs such as provided 
by the NDWC. Small and ruralcommunities will need increased support 
from units such as ours to plan for and protect their current and 
future utility assets. The NDWC has accordingly expanded its scope of 
deliverables for fiscal year 2010 to provide additional services. It is 
imperative that the NDWC continues to receive funding from the 
Technical Assistance and Training Grants (TAT) account to assist small 
communities with their drinking water systems and associated concerns 
related to protecting drinking water supplies from contamination.
Request
    In order to provide services to meet this national need, we request 
a congressionally directed appropriation of $1.5 million to continue 
and increase the NDWC program services through the Technical Assistance 
and Training (TAT) Grants account. Thank you for considering our 
request.
                                 ______
                                 

          Prepared Statement of the National Organic Coalition

    My name is Steven Etka. I am submitting this testimony on behalf of 
the National Organic Coalition (NOC) to detail our requests for fiscal 
year 2010 funding for several USDA marketing, research, and 
conservation programs of importance to organic agriculture.
    The National Organic Coalition (NOC) is a national alliance of 
organizations working to provide a voice for farmers, ranchers, 
environmentalists, consumers, cooperative retailers and others involved 
in organic agriculture. The current members of NOC are the Beyond 
Pesticides, Center for Food Safety, Equal Exchange, Food and Water 
Watch, Maine Organic Farmers and Gardeners Association, Midwest Organic 
and Sustainable Education Service, National Cooperative Grocers 
Association, Northeast Organic Dairy Producers Alliance, Northeast 
Organic Farming Association-Interstate Policy Council, Rural 
Advancement Foundation International--USA, and the Union of Concerned 
Scientists.
    We urge the Subcommittee's strong consideration of the following 
funding requests for various USDA programs of importance to organic 
farmers, marketers and consumers:
USDA/Agricultural Marketing Service (AMS)
            National Organic Program--Request: $8 million
    In fiscal years 2006 and 2007, funding of $2.026 was appropriated 
for the National Organic Program within the AMS budget. For fiscal year 
2008, in keeping with the President's budget request for the program, 
$3.18 million was appropriated for the National Organic Program. The 
NOP appropriation grew again in fiscal year 2009 to a funding level of 
$3.867 million.
    Sales of organic food and beverages continue to grow at an average 
rate of 20 percent per year in this country. While funding levels for 
USDA's National Organic Program (NOP) have grown in recent years, the 
growth in resources for this regulatory agency has not kept pace with 
the market growth of the organic sector.
    For NOP to be a credible regulator and enforcer of the USDA organic 
label, resources must increase significantly, and long overdue policies 
must be established within NOP to ensure consistency in the standards, 
transparency in the standards setting process, and proper enforcement. 
If the funding for this program does not expand significantly to meet 
the growing needs, we fear that the important work of the NOP will 
suffer, the integrity of the organic standards will be jeopardized, and 
public confidence in the USDA organic label will be eroded.
    Specifically, the Members of the National Organic Coalition urge 
the Committee to funding the National Organic Program at $8 million for 
fiscal year 2010, as authorized by Section 10303 of the Food, 
Conservation, and Energy Act of 2008, and to include language directing 
NOP to undertake the following critical activities, as established by 
the Organic Foods Production Act (OFPA) of 1990.
  --Establish a Peer Review Panel, as called for in Section 2117 of the 
        Organic Foods Production Act (OFPA) of 1990, and Section 
        205.509 of USDA's own organic regulations; to provide oversight 
        of USDA's accreditation process for organic certifying agents.
  --Reinstate funding for independent, scientific reviews of substances 
        proposed for use in organic agriculture, as required by OFPA. 
        Historically, the National Organic Standards Board (NOSB) has 
        had the benefit of independent scientific reviews, called 
        Technical Advisory Panel (TAP) reviews, of any substance 
        proposed for use in organic agriculture, to make sure that its 
        use is compatible with the purposes of OFPA. However, in recent 
        years, USDA has denied funding for these independent TAP 
        reviews, leaving the NOSB with little information on which to 
        base these important decisions.
  --Make the NOP budget fully transparent and accountable to the 
        public, by publishing the details of the budget on the NOP 
        website.
  --Finalize the pending pasture rule for organic livestock, and 
        initiate rulemaking to address the issue of the origin of 
        livestock.
USDA
            Organic Data Initiatives
    Authorized by Section 7407 of the 2002 Farm Bill, the Organic 
Production and Marketing Data Initiative States that the ``Secretary 
shall ensure that segregated data on the production and marketing of 
organic agricultural products is included in the ongoing baseline of 
data collection regarding agricultural production and marketing.'' 
Section 10302 of the Farm, Conservation, and Energy Act of 2008 amends 
the provision further to provide mandatory funding, and to provide 
further authorization for $5 million annually in discretionary funds 
for this effort.
    As the organic industry matures and grows at a rapid rate, the lack 
of national data for the production, pricing, and marketing of organic 
products has been an impediment to further development of the industry 
and to the effective functioning of many organic programs within USDA. 
The organic data collection and analysis effort at USDA has made 
significant strides in recent years, but remains in its infancy. 
Because of the multi-agency nature of data collection within USDA, 
organic data collection and analysis must also be undertaken by several 
different agencies within the Department: We are requesting the full $5 
million to be appropriated for this initiative, to be divided between 
the three main data collection sub-agencies as follows:
    Economic Research Service (ERS).--Collection and Analysis of 
Organic Economic Data--Request: $1.5 million
    Agricultural Marketing Service (AMS).--Collection and Analysis of 
Organic Economic Data--Request: $3 million
    National Agricultural Statistic Service (NASS).--Organic Production 
Data--Request: $500,000
USDA/CSREES
            Organic Transitions Program--Request: $5 million
    The Organic Transition Program, authorized by Section 406 of the 
Agricultural Research, Education and Extension Reform Act (AREERA) for 
Integrated Research Programs, is a research grant program that helps 
farmers surmount some of the challenges of organic production and 
marketing. As the organic industry grows, the demand for research on 
topics related to organic agriculture is experiencing significant 
growth as well. The benefits of this research are far-reaching, with 
broad applications to all sectors of U.S. agriculture, even beyond the 
organic sector. Yet funding for organic research is minuscule in 
relation to the relative economic importance of organic agriculture and 
marketing in this nation. Starting in fiscal year 2009, the program has 
been administered in combination with the CSREES Water Quality 
integrated research program, to study the watershed impacts of organic 
systems.
    The Organic Transition Program was funded at $2.1 million in fiscal 
year 2003, $1.9 million in fiscal year 2004, $1.88 million for both 
fiscal year 2005 and 2006, $1.855 million for fiscal year 2007 and 
2008, and 1.842 million in fiscal year 2009. Given the rapid increase 
in demand for organic foods and other products, and the growing 
importance of organic agriculture, this important research program 
should be growing instead of contracting. Therefore, we are requesting 
that the program be funded at $5 million in fiscal year 2010.
USDA/CSREES/Agriculture and Food Research Initiative (AFRI)
            Request: Report language on Conventional/Classical Plant 
                    and Animal Breeding
    In recent decades, public resources for classical plant and animal 
breeding have dwindled, while resources have shifted toward genomics 
and biotechnology, with a focus on a limited set of major crops and 
breeds. This problem has been particularly acute for organic and 
sustainable farmers, who seek access to germplasm well suited to their 
unique cropping systems and their local environment.
    Ever year since fiscal year 2005, the Senate Agriculture 
Appropriations Subcommittee has included report language raising 
concerns about this problem, and urging CSREES to give greater 
consideration to research needs related to classical plant and animal 
breeding, when setting priorities within the National Research 
Initiative. Despite this report language, research proposals for 
classical plant and animal breeding that have sought NRI funding in the 
recent years have been consistently declined.
    In Section 7406 of the Food, Conservation, and Energy Act of 2008, 
the National Research Initiative was merged with the Initiative for 
Future Agriculture and Food Systems to become the Agriculture and Food 
Research Initiative (AFRI). Congress included language within the AFRI 
to make ``conventional'' plant and animal breeding a priority for AFRI 
research grants, consistent with the concerns expressed by 
Appropriations Committee in the three preceding appropriations cycles.
    When CSREES released its AFRI Program Announcement in December of 
2008, it invited research proposals on conventional/classical plant and 
animal breeding. However, when researchers submitted their initial 
letters of intent spelling out their research topics in the arena, they 
were nearly all rejected in the pre-proposal stage. Therefore, we are 
requesting that report language be added to the CSREES/AFRI section of 
the report, stating the following:

    ``While the Committee is pleased that the new AFRI program language 
is now encouraging classical or conventional plant and animal breeding 
initiatives, we are concerned by the lack of progress in funding of 
actual projects in this research arena. The Committee urges USDA to 
make further progress by creating a clear, separate and on-going 
category of research funding for conventional/classical plant and 
animal breeding within AFRI, with adequate funding allocations to meet 
this critical and growing need.''
USDA/CSREES
            Sustainable Agriculture Research and Education (SARE) 
                    Request: $25 Million (Research and Education 
                    Grants) and Education (SARE) and $5 Million 
                    (Professional Development Grants)
    The SARE program has been very successful in funding on-farm 
research on environmentally sound and profitable practices and systems, 
including organic production. The reliable information developed and 
distributed through SARE grants have been invaluable to organic 
farmers. For fiscal year 2010, we are requesting $25 million for 
research and education grants and $5 million for professional 
development grants.
USDA/Rural Business Cooperative Service
            Appropriate Technology Transfer for Rural Areas (ATTRA)--
                    Request: $3 million
    ATTRA, authorized by Section 6016 on the Food, Conservation, and 
Energy Act of 2008, is a national sustainable agriculture information 
service, which provides practical information and technical assistance 
to farmers, ranchers, Extension agents, educators and others interested 
and active in sustainable agriculture. ATTRA interacts with the public, 
not only through its call-in service and website, but also provides 
numerous excellent publications written to help address some of the 
most frequently asked questions of farmers and educators. Much of the 
real-world information provided by ATTRA is extremely helpful to both 
the conventional and organic communities, and is available nowhere 
else. As a result, the growth in demand for ATTRA services has 
increased significantly, both through the website-based information 
services and through the growing requests for workshops. We are 
requesting $3 million for ATTRA for fiscal year 2010.
USDA/ARS
            Organic Agricultural Systems Research--Request: Devote 
                    ``Fair Share'' of ARS Research Dollars, 
                    Commensurate With Organic's Retail Market Share 
                    (Approximately $33 Million), to Direct Organic 
                    Research.
    USDA research programs have not kept pace with the growth of 
organic agriculture in the marketplace. Although organic currently 
represents nearly 4 percent of total U.S. food retail market, the share 
of USDA research targeted to organic agriculture and marketing is 
significantly less. With regard to ARS specifically, efforts have been 
made to devote greater resources to organic research. The current total 
funding for direct organic projects within ARS is about $14 million, 
about 1.5 percent of the ARS budget. Despite this progress, much more 
needs to be done in this area. We are requesting that a ``fair share'' 
of ARS expenditures (approximately $33 million annually) be devoted to 
direct organic projects, using organic's retail market share as a basis 
of comparison to the conventional sector. This should include the 
establishment of a clearinghouse for disseminating organic research 
information through the National Agricultural Library, Alternative 
Farming Systems Information Center (NAL-AFSIC).
USDA/NRCS
            Conservation Stewardship Program--Request: No Funding 
                    Limitation
USDA/Rural Business Cooperative Service
            Value-Added Producer Grants--Request: $40 million
    The Conservation Security Program (authorized by Section 2001 of 
the 2002 farm bill) and the Value-Added Producer Grant (authorized by 
Section 6401 of the 2002 farm bill) have great potential to benefit 
organic and conventional producers in their efforts to conserve natural 
resources and to explore new, value-added enterprises as part of their 
operations. Unfortunately, while these programs were authorized to 
operate with mandatory funding, their usefulness has been limited by 
funding restrictions imposed through the annual appropriations process. 
We are urging that the Conservation Security Program be permitted to 
operate with unrestricted mandatory funding, and that the Value-Added 
Producer Grant Program receive an appropriation of $40 million for 
fiscal year 2009.
Food and Nutrition Service/WIC Program
            Report Language: Removing Barriers of Access to Organic 
                    Foods for WIC recipients
    Despite the scientifically documented nutritional and health 
benefits of organic food, particularly for pregnant mothers and small 
children, many States have greatly limited or prohibited access to 
organic foods as part of the WIC program. Some of the barriers are 
explicit, whereby WIC recipient are expressly prohibited in some States 
from using their WIC certificates or vouchers for organic versions of 
WIC foods. Others barriers are indirect, such as rules that make it 
difficult for retail stores that carry organic foods from participating 
in the program. Therefore, we are requesting that report language be 
included in the Food and Nutrition Service section of the fiscal year 
2010 Appropriations report, such as:

    ``The Committee is concerned about the number of States the have 
set up barriers within the WIC program to hinder or prohibit WIC 
recipients from purchasing organic food. The Committee strongly urges 
FNS to actively encourage States to remove barriers to the purchase of 
organic foods as part of the basic food instrument, and to understand 
the nutritional and health benefits of organic foods for the vulnerable 
populations served by this program.''
                                 ______
                                 

           Prepared Statement of the National Potato Council

    My name is Justin Dagen. I am a potato farmer from Karlstad, 
Minnesota and current Vice President, Legislative/Government Affairs 
for the National Potato Council (NPC). On behalf of the NPC, we thank 
you for your attention to the needs of our potato growers.
    The NPC is the only trade association representing commercial 
growers in 50 States. Our growers produce both seed potatoes and 
potatoes for consumption in a variety of forms. Annual production is 
estimated at 437,888,000 cwt. with a farm value of $3.2 billion. Total 
value is substantially increased through processing. The potato crop 
clearly has a positive impact on the U.S. economy.
    The National Potato Council (NPC) urges the Congress to continue to 
fund programs critical to potato growers and to oppose any attempts to 
eliminate and/or curtail various critical research and other projects. 
For example, interruptions in CSREES funded projects will result in 
significant disruption or cancellation of valuable breeding research 
and the loss of varieties resulting from years of previous research. 
Much of this potato research is conducted jointly using potato industry 
and university funding. Similarly, ARS potato research is critical to 
the potato industry.
    The NPC'S fiscal year 2010 Appropriations Priorities are as 
follows:
                            potato research
Cooperative State Research Education and Extension Service (CSREES)
    The NPC urges the Congress not to support any attempt to eliminate 
the CSREES Special Grant Program for potatoes. This program supports 
and fine-tunes important university research work that helps our 
growers remain competitive in today's domestic and world marketplace.
    The NPC supports an appropriation of $1,800,000 for the Special 
Potato Grant program for fiscal year 2010. The Congress appropriated 
$1,482,000 in fiscal year 2006 and recommended the same amount in 
fiscal year 2007. However, the program only received $1,112,000 in 
fiscal year 2008 which was further reduced by the across-the-board cut 
and $1,037,000 in fiscal year 2009. This has been a highly successful 
program, and the number of funding requests from various potato-
producing regions is increasing.
    The NPC also urges that the Congress include Committee report 
language as follows:

    ``Potato research.--The Committee expects the Department to ensure 
that funds provided to CSREES for potato research are utilized for 
varietal development testing. Further, these funds are to be awarded 
after review by the Potato Industry Working Group.''
                  agricultural research service (ars)
    The NPC urges that the Congress to continue the Congressional 
increases for research projects.
    The Congress provided funds for a number of important ARS projects 
and, due to previous direction by the Congress, the ARS continues to 
work with the NPC on how overall research funds can best be utilized 
for grower priorities.
    The NPC urges that $3 million per site be provided for the 
construction and/or the expansion of nematode research facilities at 
Cornell University in New York and in Idaho. The Potato Cyst Nematode 
Laboratory (PCNL) at Cornell University is structurally deficient and 
may lose its Federal license to operate as a quarantine facility. Its 
demise would put New York agriculture and the United States potato 
industries at risk. Equally important is the risk to the Western United 
States from the Idaho and Alberta outbreaks. A coordinated National 
Program is critical if export markets are to be maintained and this 
quarantined pest is to be contained. The Western facility could be 
constructed on University of Idaho land where an existing nematologist 
is present and a core ARS presence already exists. If PCN expands into 
other States, the entire U.S. potato industry will be affected, not 
only from direct damage by the pest (up to 80 percent yield loss), but 
more importantly, by embargoes disrupting interstate and international 
trade
                       foreign market development
Market Access Program (MAP)
    The NPC also urges that the Congress maintain the spending level 
for the Market Access Program (MAP) at its authorized level of $200 
million annually.
Foreign Agriculture Service (FAS)
    The NPC supports a minimum of $279 million for salaries and 
expenses of the USDA Foreign Agriculture Service (FAS). This level is 
the minimum necessary for the Agency given the multitude of trade 
negotiations and discussions currently underway. The Agency has had to 
absorb pay cost increases, as well as higher operating costs for its 
overseas offices, such as increased payments to the Department of State 
for services provided at overseas posts. However, this minimal budget 
request does not allow for expanded enforcement activities to assure 
that various trade agreements are being properly implemented. The 
Congress should consider increasing the budget request to allow for 
more FAS trade enforcement activities.
                           food aid programs
McGovern-Dole
    The NPC supports a level of at least $108 million for the McGovern-
Dole International Food Aid Program. The Program has included potato 
products.
                      pest and disease management
Animal and Plant Health Inspection Service (APHIS)
    Given the transfer of Agriculture Quarantine Inspection (AQI) 
personnel at U.S. ports to the Department of Homeland Security (DHS), 
it is important that certain USDA-APHIS programs be adequately funded 
to ensure progress on export petitions and protection of the U.S. 
potato growers from invasive, harmful pests and diseases. Even though 
DHS staffing has increased, agriculture priorities have not yet been 
adequately addressed.
    Golden Nematode Quarantine.--The NPC supports an appropriation of 
$1,266,000 for this quarantine which is what is believed to be 
necessary for USDA and the State of New York to assure official control 
of this pest. Failure to do so could adversely impact potato exports.
    Emerging Plant Pests.--The NPC supports at least $145 million with 
$9.5 million going to the potato cyst nematode regulatory, control and 
survey activity. The recent discovery of Golden Nematode in seed fields 
in Alberta, and possibly linked to production fields in the United 
States, has increased the scope and cost of the national survey being 
conducted by USDA. In addition, the costs of the eradication program 
have increased due to rising input costs and some expansion of target 
acres.
    Pest Detection.--The NPC supports $45 million. This is essential 
for the Plant Protection and Quarantine Service's (PPQ) efforts against 
potato pests and diseases, such as Ralstonia and the potato cyst 
nematode, and funds many cooperative pest and disease programs.
    Trade Issues Resolution Management.--The NPC supports $19 million 
but ONLY if any increase is specifically for plant protection and 
quarantine activities. These activities are of increased importance as 
new trade agreements are negotiated, the Agency must have the necessary 
staff and technology to work on plant related import/export issues and 
to resolve phytosanitary trade issues in a timely manner.
                        agricultural statistics
National Agricultural Statistics Service (NASS)
    The NPC supports an addition of $8.4 million and report language to 
assure that the potato objective yield and grade and size surveys and 
vegetable pesticide use surveys are continued. These surveys provide 
valuable data to the growers and the EPA for use in registration and 
reregistration decisions for key chemical tools. NASS has discontinued 
these chemical use surveys for fruits and vegetables.
                                 ______
                                 

    Prepared Statement of the National Fish and Wildlife Foundation

    Mr. Chairman and Members of the Subcommittee: Thank you for the 
opportunity to submit testimony regarding fiscal year 2010 funding for 
the National Fish and Wildlife Foundation (Foundation). We appreciate 
the Subcommittee's past support and respectfully request your approval 
of $5 million through the Natural Resources Conservation Service's 
(NRCS) Conservation Operations appropriation in fiscal year 2010. This 
funding request is authorized and would allow the Foundation to expand 
our historical partnership with NRCS.
    In 2009, the Foundation is celebrating its 25th Anniversary and a 
remarkable history of bringing private partners together to leverage 
Federal funds to conserve fish, wildlife, plants and their habitats.
    The Foundation is required by law to match each federally-
appropriated dollar with a minimum of one non-Federal dollar. We 
consistently exceed this requirement by leveraging Federal funds at a 
3:1 ratio while providing thought leadership and emphasizing 
accountability, measurable results, and sustainable conservation 
outcomes. Funds appropriated by this subcommittee are fully dedicated 
to project grants and do not cover any overhead expenses of the 
Foundation.
    As of fiscal year 2008, the Foundation has awarded over 10,000 
grants to more than 3,500 national and community-based organizations 
through successful partnerships with NRCS and other Federal agencies, 
including the USDA Forest Service, U.S. Fish and Wildlife Service and 
other Department of Interior agencies, Environmental Protection Agency, 
and National Oceanic and Atmospheric Administration. This effective 
model brings together multiple Federal agencies with State and local 
government and private organizations to implement conservation 
strategies on private lands that directly benefit diverse habitats and 
a wide range of fish and wildlife species.
    During fiscal year 2000-2006, the Foundation received an average 
appropriation of $3 million annually to further the mission of NRCS 
through a matching grant program focused on private lands conservation. 
Together, NRCS and the Foundation have supported nearly 500 grants to 
conservation districts, universities, Resource Conservation and 
Development Councils, and non-profit organizations who partner with 
farmers, ranchers, and foresters to support conservation efforts on 
private land. Through these efforts, the Foundation leveraged $21 
million in NRCS funds into more than $85 million to conserve fish and 
wildlife habitat, reduce agricultural runoff, and remove invasive 
species in 50 States, the Caribbean, and the Pacific Islands. We ask 
that the subcommittee restore the NRCS appropriation for the Foundation 
in fiscal year 2010.
    This subcommittee's support is critical to our success in 
attracting additional funding for agricultural conservation through 
corporate and foundation contributions, legal settlements, and direct 
gifts. As a neutral convener, the Foundation is in a unique position to 
work with the Federal agencies, State and local government, 
corporations, foundations, conservation organizations and others to 
build strategic partnerships to address the most significant threats to 
fish and wildlife populations and their habitats. Currently, the 
Foundation has active partnerships with more than 30 corporations and 
foundations and 17 Federal agencies. The Foundation is successfully 
building bridges between the government and private sector to benefit 
NRCS's mission. Examples of those benefiting agricultural conservation 
include:
  --ArcelorMittal, the world's largest steel company, established a 
        $2.5 million partnership with the Foundation in 2008 to restore 
        wildlife habitat in the Great Lakes.
  --The Kellogg Foundation contributed $750,000 of NRCS-matching funds 
        through to support innovative and sustainable conservation 
        activities on agricultural lands.
  --Strong partnerships with Anheuser-Busch, Southern Company, and the 
        McKnight Foundation, all of whom have a special interest in 
        conserving habitat on private agricultural lands. New 
        opportunities in 2009 for agriculture-focused partnerships 
        include Syngenta and Perdue.
          implementation of strategic conservation initiatives
    It is widely known that climate change will endanger some wildlife 
populations and ecosystems more than others. In fiscal year 2008, the 
Foundation initiated grant-making through new keystone initiatives, 
which focus on select species of birds, fish and sensitive habitats. 
With support from the subcommittee in fiscal year 2010, we will 
accelerate implementation of these strategic initiatives, many of which 
seek to address the affects of climate change through wildlife and 
natural resource adaptation. To ensure success in these investments, we 
are incorporating monitoring and evaluation into the entire lifecycle 
of our strategic initiatives in order to measure progress, promote 
adaptive management, demonstrate results, and continuously learn from 
our grant-making. With our partners, the Foundation has identified 
several species and ecosystems in need of immediate conservation 
action, a few of which are described below.
    Southeastern Grasslands.--Loss of native grasslands in the 
Southeast has dramatically reduced populations of grassland birds, such 
as the Northern Bobwhite and Loggerhead Shrike. Despite intensive 
efforts to improve habitat for these species, efforts have been 
disjointed and ineffective at recovering species. The Foundation will 
work with NRCS, other Federal agencies, and corporate partners to 
facilitate ongoing and new efforts toward effective and results-
oriented grassland bird conservation. Fiscal year 2010 funding would 
support grassland restoration and management on private agricultural 
lands in the Southeast and, in turn, positively benefit wildlife 
conservation and associated recreation, erosion control and water 
quality.
    Northeastern Early Successional Forests.--The state fish and 
wildlife agencies in the Northeast have identified habitats that depend 
on disturbance as a top priority for their investments. Fiscal year 
2010 funds will strengthen the Foundation's partnership with NRCS to 
work with the States, farmers, family foresters and other landowners to 
create incentives to manage working lands that can support healthy 
wetland and forest wildlife. This includes controlling invasive 
species, using grazing as a win-win management tool, and other 
proactive efforts to keep declining species off the endangered species 
list.
    The Green River Basin of Wyoming.--Sublette County and other areas 
in the southwest corner of the State--are a major area for U.S. natural 
gas production and provide some of the highest quality sagebrush, 
riparian habitats and forest for wildlife in the west. The area also 
supports one of the strongest sage grouse populations, as well as mule 
deer, pronghorn and elk populations. Energy development impacts on 
wildlife movement and habitat are being addressed by energy companies, 
BLM and other government agencies. Our goal is to work with public and 
private partners to accelerate these efforts through several key 
strategies which include modifying fences and other barriers that 
obstruct wildlife movement, reducing road mortality along important 
migratory pathways, and protecting key parcels of private ranchland 
from development and subdivision with conservation easements.
    Sierra Nevada Alpine Wetlands.--We recognize that climate change 
will greatly exacerbate two existing water supply problems which impact 
wildlife and the public--too little water and the seasonality of 
freshwater supplies. The Foundation is working proactively with 
Federal, State and local partners to expand voluntary water transaction 
programs for private landowners and launching new initiatives to 
increase natural water storage. These efforts will benefit a diversity 
of wildlife species while improving water flows year-round for human 
use. For example, Sierra Nevada alpine wetlands, or ``wet meadows'', 
are hotspots within the Sierra Nevada ecosystem for wildlife diversity. 
Federal agencies manage about 40 percent of the area of these mountain 
ranges, but wet meadow habitat along valley bottoms is primarily 
private land. The Foundation will invest in partnerships that provide 
incentives to private landowners to conserve springs and wet meadows 
and provide artificial water sources to protect stream habitats.
    Klamath Basin.--The Foundation will be focusing on spring systems 
in the Klamath either by acquisition, easement, or voluntarily 
modifying agricultural practices as it is the soundest strategy for 
recovery of both endangered Suckers and Coho salmon. This strategy will 
provide these species and other fishes the ability to withstand climate 
change (resilience) much longer into this century. Similarly, an 
investment strategy of protecting and restoring spring systems in the 
Shenandoah River Basin will allow for the return of Eastern Brook Trout 
and 18-24 additional native species. In the Upper Colorado River Basin, 
locating areas at the warmwater-coldwater interface which contain 
Colorado Cutthroat trout and native suckers and chubs is providing the 
framework to sustain these fishes into the next century, on both public 
and private lands.
    Restored funding through NRCS in fiscal year 2010 will also support 
the Foundation's ongoing conservation grant programs including the 
Great Lakes Watershed Restoration Fund, Long Island Sound Futures Fund, 
and Chesapeake Bay Stewardship Fund. These grant programs, which 
effectively leverage funds from multiple Federal agencies and corporate 
partners, continued positive results in 2009 with priority project 
requests far exceeding available funds.
          efficiency, performance measures and accountability
    As you know, the Foundation has taken important strides to 
strengthen our performance measures and accountability. For example, 
the Foundation is working with scientists and other experts to develop 
species-specific metrics for each of our keystone initiatives that we 
will use to measure our progress in achieving our conservation 
outcomes. Our grant review and contracting processes have been improved 
to ensure we maximize efficiency while maintaining strict financial and 
evaluation-based requirements. We have enhanced our website with 
interactive tools such as webinars and a grants library to enhance the 
transparency of our grant-making, and instituted a new paperless 
application and grant administration system. In 2009, we will continue 
our efforts improve communication between and among our stakeholders 
and streamlining of our grant-making process.
    The Foundation's grant-making involves a thorough internal and 
external review process. Peer reviews involve Federal and State 
agencies, affected industry, non-profit organizations, and academics. 
Grants are also reviewed by the Foundation's issue experts, as well as 
evaluation staff, before being recommended to the Board of Directors 
for approval. In addition, according to our Congressional Charter, the 
Foundation provides a 30-day notification to the Members of Congress 
for the congressional district and state in which a grant will be 
funded, prior to making a funding decision.
    Once again, Mr. Chairman, we greatly appreciate your continued 
support and hope the subcommittee will approve funding for the 
Foundation in fiscal year 2010.
                                 ______
                                 

   Prepared Statement of the New Mexico Interstate Stream Commission

Summary
    This statement is submitted in support of appropriations for the 
U.S. Department of Agriculture's Environmental Quality Incentives 
Program (EQIP) and the Colorado River Basin Salinity Control Program. 
Prior to the enactment of the Farm Security and Rural Investment Act 
(FSRIA) in 2002, the salinity control program had not been funded at 
the level necessary to control salinity with respect to water quality 
standards since the enactment of the Federal Agriculture Improvement 
and Reform Act (FAIRA) of 1996. Inadequate funding of the salinity 
control program also negatively impacts the quality of water delivered 
to Mexico pursuant to Minute 242 of the International Boundary and 
Water Commission. Adequate funding for EQIP, from which the U.S. 
Department of Agriculture (USDA) funds the salinity program, is needed 
to implement salinity control measures. I request that the Subcommittee 
designate 2.5 percent, but no less than $20 million, of the EQIP 
appropriation for the Colorado River Basin salinity control program. I 
request that adequate funds be appropriated for technical assistance 
and education activities directed to salinity control program 
participants.
Statement
    The seven Colorado River Basin States, in response to the salinity 
issues addressed by Clean Water Act of 1972, formed the Colorado River 
Basin Salinity Control Forum (Forum). Comprised of gubernatorial 
appointees from the seven Basin States, the Forum was created to 
provide for interstate cooperation in response to the Clean Water Act, 
and to provide the States with information to comply with Sections 
303(a) and (b) of the act. The Forum has become the primary means for 
the seven Basin States to coordinate with Federal agencies and Congress 
to support the implementation of the Salinity control program.
    Congress authorized the Colorado River Basin salinity control 
program in the Colorado River Basin Salinity Control Act of 1974. 
Congress amended the act in 1984 to give new responsibilities to the 
USDA. While retaining the Department of the Interior as the lead 
coordinator for the salinity control program, the amended act 
recognized the importance of the USDA operating under its authorities 
to meet the objectives of the salinity control program. Many of the 
most cost-effective projects undertaken by the salinity control program 
to date have occurred since implementation of the USDA's authorization 
for the program. Now, Congress is considering enactment of a new Farm 
Bill to further define how the Colorado River Basin States can cost-
share in a newly designated salinity control program known as the 
``Basin States Program.''
    Bureau of Reclamation studies show that quantified damages from the 
Colorado River to United States water users are about $350,000,000 per 
year. Unquantified damages are significantly greater. Damages are 
estimated at $75,000,000 per year for every additional increase of 30 
milligrams per liter in salinity of the Colorado River. It is essential 
to the cost-effectiveness of the salinity control program that USDA 
salinity control projects be funded for timely implementation to 
protect the quality of Colorado River Basin water delivered to the 
Lower Basin States and Mexico.
    Congress concluded, with the enactment FAIRA in 1996, that the 
salinity control program could be most effectively implemented as a 
component of EQIP. However, until 2004, the salinity control program 
since the enactment of FAIRA was not funded at an adequate level to 
protect the Basin State-adopted and Environmental Protection Agency 
approved water quality standards for salinity in the Colorado River. 
Appropriations for EQIP prior to 2004 were insufficient to adequately 
control salinity impacts from water delivered to the downstream States, 
and hampered the required quality of water delivered to Mexico pursuant 
to Minute No. 242 of the International Boundary and Water Commission, 
United States and Mexico.
    EQIP subsumed the salinity control program without giving adequate 
recognition to the responsibilities of the USDA to implement salinity 
control measures per Section 202(c) of the Colorado River Basin 
Salinity Control Act. The EQIP evaluation and project ranking criteria 
target small watershed improvements which do not recognize that water 
users hundreds of miles downstream are significant beneficiaries of the 
salinity control program. Proposals for EQIP funding are ranked in the 
States of Utah, Wyoming and Colorado under the direction of the 
respective State Conservationists without consideration of those 
downstream, particularly out-of-state, benefits.
    Following recommendations of the Basin States to address the 
funding problem, the USDA's Natural Resources Conservation Service 
(NRCS) designated the Colorado River Basin an ``area of special 
interest'' including earmarked funds for the salinity control program. 
The NRCS concluded that the salinity control program is different from 
the small watershed approach of EQIP. The watershed for the salinity 
control program stretches almost 1200 miles from the headwaters of the 
river through the salt-laden soils of the Upper Basin to the river's 
termination at the Gulf of California in Mexico. NRCS is to be 
commended for its efforts to comply with the USDA's responsibilities 
under the Colorado River Basin Salinity Control Act, as amended. 
Irrigated agriculture in the Upper Basin realizes significant local 
benefits of improved irrigation practices, and agricultural producers 
have succeeded in submitting cost-effective proposals to NRCS.
    Years of inadequate Federal funding for EQIP since the 1996 
enactment of FAIRA and prior to 2004 resulted in the Forum finding that 
the salinity control program needs acceleration to maintain the water 
quality criteria of the Colorado River Water Quality Standards for 
Salinity. Since the enactment of FSRIA in 2002, an opportunity to 
adequately fund the salinity control program now exists. The requested 
funding of 2.5 percent, but no less than $20 million, of the EQIP 
funding will continue to be needed each year for at least the next few 
fiscal years.
    State and local cost-sharing is triggered by and indexed to the 
Federal appropriation. Federal funding for the NRCS salinity control 
program of about $18 million for fiscal year 2009 has generated about 
$13.8 million in cost-sharing from the Colorado River Basin States and 
agricultural producers, or more than a 75 percent match of the Federal 
funds appropriated for the fiscal year.
    USDA salinity control projects have proven to be a most cost-
effective component of the salinity control program. USDA has indicated 
that a more adequately funded EQIP program would result in more funds 
being allocated to the salinity program. The Basin States have cost-
sharing dollars available to participate in on-farm salinity control 
efforts. The agricultural producers in the Upper Basin are willing to 
cost-share their portion and are awaiting funding for their 
applications to be considered.
    The Basin States expend 40 percent of the State funds allocated for 
the program for essential NRCS technical assistance and education 
activities. Previously, the Federal part of the salinity control 
program funded through EQIP failed to adequately fund NRCS for these 
activities, which has been shown to be a severe impediment to 
accomplishing successful implementation of the salinity control 
program. Recent acknowledgement by the administration that technical 
assistance and education activities must be better funded has 
encouraged the Basin States and local producers that cost-share with 
the EQIP funding for implementation of the essential salinity control 
work. I request that adequate funds be appropriated to NRCS technical 
assistance and education activities directed to the salinity control 
program participants (producers).
    I urge the Congress to appropriate at least $1 billion in fiscal 
year 2010 for EQIP. Also, I request that Congress designate 2.5 
percent, but no less than $20 million, of the EQIP appropriation for 
the Colorado River Basin salinity control program.
                                 ______
                                 

     Prepared Statement of the Organic Farming Research Foundation

    The Organic Farming Research Foundation's funding requests for the 
fiscal year 2010 Agriculture, Rural Development, Food and Drug 
Administration, and Related Agencies Appropriations Bill are to protect 
mandatory funding and to allocate $54.7 million in discretionary funds, 
divided among agencies and programs in the following manner:
  --USDA--Cooperative State Research, Extension, and Education Service
      --Organic Agriculture Research and Extension Initiative
        Fiscal year 2009 actual: $18 million
        USDA fiscal year 2010 request: protect mandatory funding
        OFRF fiscal year 2010 request: protect mandatory funding plus 
            $5 million discretionary
      --``Organic Transitions'' Integrated Research
        Fiscal year 2009 actual: $1.8 million
        USDA fiscal year 2010 request: $1.8 million
        OFRF fiscal year 2010 request: $5 million
  --USDA--Agricultural Research Service
      --Direct Organic Projects
        Fiscal year 2009 actual: $16.9 million
        USDA fiscal year 2010: N/A
        OFRF fiscal year 2010 request: $33 million
      --Includes ``Organic Research Clearinghouse,'' National 
            Agricultural Library: $250,000
  --USDA--Agricultural Marketing Service/Economic Research Service/
        National Agricultural Statistics Service
      --Organic Production and Market Data Initiatives
        Fiscal year 2009 actual: $500,000 appropriated and $5 million 
            one-time mandatory from 2008 Farm Bill
        USDA fiscal year 2010 request: $0
        OFRF fiscal year 2010 request: $5 million
  --USDA--Agricultural Marketing Service
      --National Organic Program
        Fiscal year 2009 actual: $3.8 million
        USDA fiscal year 2010 request: $6.7 million
        OFRF fiscal yea 2010 request: $6.7 million
    Details and further information on these programs is provided 
below.
    The Organic Farming Research Foundation (OFRF) appreciates the 
opportunity to present our funding requests for the fiscal year 2010 
Agriculture, Rural Development, FDA, and Related Agencies 
Appropriations Bill. OFRF is a grower-directed, non-profit foundation 
working to foster the improvement and widespread adoption of organic 
farming systems. Organic agriculture plays an important and growing 
role in U.S. agriculture. Relatively modest investments in organic 
research and education can significantly increase the economic benefits 
and environmental services provided by organic farming systems and the 
organic products sector. As a result, we urge the Subcommittee to 
provide additional resources for organic agriculture in fiscal year 
2010.
    The Organic Farming Research Foundation appropriations requests for 
fiscal year 2010 reflect a coordinated set of activities that will 
strategically build upon the growth of organic agriculture and leverage 
the sector's role in addressing the Nation's economic, climate, and 
energy challenges. Organic agriculture continues to be a growing sector 
in U.S. agriculture, despite the economic recession. The organic 
products sector provides jobs on- and off-farm, provides increased 
marketing opportunities for farmers and processors, and meets 
widespread consumer demand for more food grown in an environmentally-
sound manner. Emerging research is showing that organic agricultural 
systems provide a comprehensive strategy for mitigating the effects of 
climate change and facilitating the adaptation to climate change. 
Organic agriculture also reduces the use of non-renewable sources of 
energy such as fossil fuels. The multiple benefits of organic 
production systems make organic agriculture an effective vehicle for 
achieving national economic and environmental goals. This growth has 
been facilitated by the Subcommittee and was supported by the 2008 Farm 
Bill.
    OFRF's recommendations emphasize research, data collection, and 
information dissemination. In our view, these are the most limiting 
factors for the growth and improvement of organic agriculture. Within 
the USDA--REE Mission Area, the support of the Subcommittee and the 
Department has been usefully tracked by the ``fair-share'' 
comparison.\1\ Currently, organic product sales are approaching 4 
percent of the domestic retail market, yet USDA-REE expenditures 
directed explicitly to research and information programs for organic 
agriculture have only just reached 2 percent of the REE Mission Area 
funding.\2\ This discrepancy is detrimental to an industry that relies 
intensively on management and information for its success. By providing 
modest increases as outlined below, the Subcommittee can help meet the 
``fair-share'' benchmark for organic research and promote the multiple 
public benefits that organic farming can provide.
---------------------------------------------------------------------------
    \1\ The fair-share benchmark compares the U.S. retail market share 
of organic products to the percentage of USDA-REE spending on 
activities explicitly directed towards organic farming and food.
    \2\ OFRF estimates total fiscal year 2009 organic REE spending at 
$48 million, out of approximately $2.4 billion for the REE Mission 
Area. This includes: OREI ($18 million), ORG ($1.8 million), ARS 
direct-organic ($16.9 million), ODI ($5 million), other CSREES grants 
($6 million).
---------------------------------------------------------------------------
   usda--cooperative state research, extension, and education service
Organic Agriculture Research and Extension Initiative (OREI) \3\
            OFRF Fiscal Year 2010 Request: $25 million (protect 
                    mandatory funding plus $5 million discretionary)
    OREI is USDA's premier competitive research and education grant 
program specifically dedicated to the investigation of organic 
agriculture. Due to its success with very modest funding, the program 
received an increase in mandatory funding in the 2008 Farm Bill. 
Despite this increase, the program remains heavily oversubscribed. For 
the fiscal year 2009 allocation of $18 million, the program received 
applications totaling over $98 million. Increasing organic research 
capacities within the land grant university system and elsewhere are 
reflected in this trend.
---------------------------------------------------------------------------
    \3\ The Organic Agriculture Research and Extension Initiative 
(OREI) is authorized by Section 1672B of the Food, Agriculture, 
Conservation, and Trade Act of 1990 (7 U.S.C. 5925b) as amended by 
Section 7206 of the Food, Conservation, and Energy Act of 2008.
---------------------------------------------------------------------------
    The 2008 Farm Bill allocates mandatory funding of $20 million to 
OREI for fiscal year 2010. The legislation also recognizes the need for 
further increases to reach the full potential of this program and 
authorizes discretionary funding of up to $25 million annually. In 
addition to protecting the full mandatory allocation, OFRF recommends 
appropriating $5 million of the discretionary authority in fiscal year 
2010. This modest additional increase would continue making progress 
towards the fair-share benchmark of USDA research and education for 
organic agriculture and respond to the strong demand and increased 
capacity for the program's outcomes.
``Organic Transitions'' Integrated Research (ORG) \4\
            OFRF Fiscal Year 2010 Request: $5 million
    ORG is the older and smaller of two USDA competitive grant programs 
dedicated to organic research and education. From 2003 to 2008, it was 
administered together with OREI. Starting in fiscal year 2009, USDA-
CSREES is instead combining the program with the 406 Integrated Water 
Quality research program. The newly combined program will fund multi-
year projects that examine the effects of organic production systems on 
water quality. This approach provides a ``specialized'' complement to 
the general purposes of OREI, and OFRF supports this move by the 
agency. At current funding levels,\5\ this program can only fund a 
small number of serious investigations. Our request of $5 million for 
fiscal year 2010 seeks to enable a higher level of program performance 
and help reach the overall organic fair-share benchmark.
---------------------------------------------------------------------------
    \4\  ``Organic Transitions'' Integrated Research (ORG) is 
authorized by Section 406 of the Agricultural Research, Extension, and 
Education Reform Act of 1998 (AREERA) (7 U.S.C. 7626).
    \5\ $1,8 million for fiscal year 2009.
---------------------------------------------------------------------------
                  usda--agricultural research service
Direct Organic Projects
            OFRF Fiscal Year 2010 Request: $33 million (``fair share'' 
                    for ARS organic research)
    USDA--Agricultural Research Service has an organic research 
portfolio and a strategic plan for further organic research activities. 
The current funding for direct organic projects is $16.9 million, about 
1.5 percent of the total ARS budget.\6\ We are urging growth of the 
agency's direct organic activity to reach an ARS fair-share objective 
of $33 million. The increase should be pointed towards full 
implementation of the ARS Organic Research Action Plan.\7\
---------------------------------------------------------------------------
    \6\ Communications from ARS national program staff, April 29, 2009. 
A larger total is reported to Congress, combining ``direct organic'' 
projects with ``indirect organic'' projects, as determined by ARS 
staff.
    \7\ Organic Research Action Plan: http://www.ars.usda.gov/
SP2UserFiles/Program/216/OrganicResearchActPlan.pdf.
---------------------------------------------------------------------------
    We ask that $250,000 be directed at funding the National 
Agricultural Library's Alternative Farming Systems Information Center 
(NAL-AFSIC). As organic results proliferate, dissemination of 
information becomes a critical limiting factor for the overall goals of 
widespread adoption. The NAL-AFSIC program is well positioned to lead 
the dissemination function within USDA. OFRF estimates that maintenance 
and outreach for a national ``clearinghouse'' for organic agriculture, 
``enthusiastically'' supported by USDA's National Research Advisory 
Board,\8\ will require an ongoing annual budget allocation of $250,000.
---------------------------------------------------------------------------
    \8\ ``Report and Recommendations from a Focus Session on Organic 
Agriculture Conducted at the Advisory Board Meeting held in Washington, 
D.C. on October 29-31, 2007.'' Page 4. National Agricultural Research, 
Extension, Education, and Economics Advisory Board. Transmitted to the 
Secretary of Agriculture and the House and Senate Committees on 
Appropriations, and Agriculture, March 5, 2008.
---------------------------------------------------------------------------
usda--agricultural marketing service/economic research service/national 
                    agricultural statistics service
Organic Production and Market Data Initiatives (ODI) \9\
            OFRF Fiscal Year 2010 Request: $5 million ($3 million for 
                    AMS, $1.5 million for ERS, and $0.5 million for 
                    NASS)
    Data on prices, yields, and markets are vital to farmers for 
production planning, market development, risk management, and obtaining 
financial credit. The organic sector is still without vital 
comprehensive data on par with what USDA provides for conventional 
agriculture, putting organic farmers at a significant disadvantage. The 
absence of marketing and production data specific to organic 
agriculture inhibits organic producers and handlers, and limits the 
effectiveness of policies enacted to facilitate the public benefits of 
organic agriculture.
---------------------------------------------------------------------------
    \9\ The Organic Market and Production Data Initiatives is 
authorized by Section 7407 of the Farm Security and Rural Investment 
Act of 2002 as amended by Section 10302 of the Food, Conservation, and 
Energy Act of 2008.
---------------------------------------------------------------------------
    The Subcommittee has supported the initial 2002 authorization with 
$500,000 from 2004 through 2009. These appropriations enabled a minimal 
baseline effort for general measurements of the organic sector. The 
2008 Farm Bill provided $5 million in mandatory funds to jumpstart the 
combined data collection initiatives at AMS, ERS, and NASS. Those funds 
have already been spent on a variety of efforts at each of the 
agencies,\11\ including the development of a first-ever survey of 
organic agriculture by NASS to be released in early May 2009.
---------------------------------------------------------------------------
    \11\  For an update on the use of the funds, see ``U.S. Department 
of Agriculture Report to Congress: Status of Organic Production and 
Market Data Activities As Required by the 2008 Farm Bill.'' December 
2008.
---------------------------------------------------------------------------
    Activities of AMS, ERS, and NASS require continued full support to 
build upon the previous investments. AMS has planned further 
enhancement of organic reporting and the development of additional 
organic market information tools. NASS is releasing its first-ever 
organic agriculture production survey in May, and will need funds to 
continue its data collection efforts. ERS will use additional targeted 
funds to continue expanding the agency's overall program of research 
and analysis of organic agriculture, and will work jointly with NASS to 
analyze the data from the organic production survey.
    The 2008 Farm Bill provided additional authority up to $5 million 
annually for ODI. We are asking the Subcommittee to exercise its full 
authority and allocate $5 million for fiscal year 2010 to organic data 
collection, distributed among the three agencies leading this 
initiative. We anticipate that the President's budget will recommend a 
similar allocation and agency distribution.
            USDA--Agricultural Marketing Service
National Organic Program (NOP)
            OFRF Fiscal Year 2010 Request: $6.7 million
    NOP (including the National Organic Standards Board, organic 
standards setting, certifier accreditation and enforcement) received an 
increased authorization for appropriations in the 2008 Farm Bill. $8 
million is the authorization level for fiscal year 2010. NOP has a 
large and growing number of important backlogged tasks. We support the 
President's fiscal year 2010 request for $6.7 million.
    The Organic Farming Research Foundation thanks the Subcommittee for 
the opportunity to submit our requests. We ask the Subcommittee to 
provide funds to close the gap in research and education funding for 
organic agriculture, for the continued improvement and expansion of 
organic farming systems.
    Disclosure.--Organic Farming Research Foundation was a 
subcontractor for a grant awarded by the USDA-CSREES Integrated Organic 
Program. Grant# 2207-01384. ``Midwest Organic Research Symposium.''
                                 ______
                                 

     Prepared Statement of the Society for Women's Health Research

    On the behalf of the Society for Women's Health Research and the 
Women's Health Research Coalition, we are pleased to submit testimony 
in support of increased funding for the Food and Drug Administration 
(FDA), and more specifically for the Office of Women's Health (OWH), a 
critical focal point on women's health within the Agency.
    The Society for Women's Health Research is the Nation's only non-
profit organization whose mission is to improve the health of all women 
through advocacy, research, and education. Founded in 1990, the Society 
brought to national attention the need for the appropriate inclusion of 
women in major medical research studies and the need for more 
information about conditions affecting women exclusively, 
disproportionately, or differently than men. The Society advocates 
increased funding for research on women's health; encourages the study 
of sex differences that may affect the prevention, diagnosis and 
treatment of disease; promotes the inclusion of women in medical 
research studies; and informs women, providers, policy makers and media 
about contemporary women's health issues.
    In 1999, the Women's Health Research Coalition was established by 
the Society to give a voice to scientists and researchers from across 
the country that are concerned and committed to improving women's 
health research. The Coalition now has more than 650 members, including 
leaders within the scientific community and medical researchers from 
many of the country's leading universities and medical centers, as well 
as leading voluntary health associations, and pharmaceutical and 
biotechnology companies.
    The Society and the Coalition are committed to advancing the health 
status of women through the discovery of new and useful scientific 
knowledge. We strongly believe that appropriate funding of the FDA by 
Congress is critical for the Agency to function and to assure the 
American public of the safety of its food and drugs. However, as has 
been well documented, currently the FDA is endeavoring to catch up 
after years of flat funding to meet the needs of scientific growth, 
innovation and development, and adequate food and drug protection. 
Further, FDA is struggling to catch up to present-day needs in the area 
of information technology (IT).
    Last year the FDA was awarded a $325 million increase to assist in 
revamping the Agency, as well as a one time investment of $150 million 
in supplemental funding. This influx of funds was meant to address 
years of chronic under-funding; however, the Agency needs a continuous 
stream of funding to address the myriad of infrastructure, resources 
and IT issues resulting from the budget shortages it has faced in the 
past decade.
    The Society urges Congress to provide the FDA with an increase of 
$386 million, bringing the FDA's fiscal year 2010 budget to $2.425 
billion. This funding increase will allow the FDA to continue 
rebuilding its infrastructure and addressing the shortage of resources 
was well as install IT systems that match the needs of the industries 
it is regulating and expectations of the American public.
    Another important investment that must be taken into account at the 
FDA is the Office of Women's Health (OWH). OWH's women's health 
programs, often conducted with the Agency centers, are vital to 
maintaining focus on women's health within the FDA. They are critical 
to improved care and increased awareness of disease-specific impacts to 
women. For example, OWH ensures that sex and gender differences in the 
efficacy of drugs (such as metabolism rates), devices (sizes and 
functionality) and diagnostics are taken into consideration in reviews. 
To address OWH's growing list of priorities, the Society recommends 
that Congress support a $7 million budget for OWH for fiscal year 2010 
within the budget for the FDA. In addition, we further recommend that 
the current budget levels not only increase in the future, but should 
never be less than the $6 million that the office currently receives.
                   fda information technology systems
    The FDA is tasked with guarding the safety, efficacy, and security 
of human drugs, biological products, and medical devices. However, as 
was stated by the Science Board Report, requested by former 
Commissioner von Eschenbach, FDA's IT systems were inefficient and 
incapable of handling the current demands placed on the Agency, thus 
preventing the FDA from fulfilling its mission. Equipment is outdated, 
often unsupported by maintenance, and regularly breaks down. FDA's IT 
system, a system which needs to function 24/7, simply cannot keep up 
with current scientific data and market trends. This will only continue 
to worsen as servers' age beyond usefulness, and serviceability and 
email networks fail multiple times per day.
    Additionally, the new Obama Administration is seeking to pass an 
overhaul of the Nation's healthcare system. This reform is likely to 
include further advances to electronic health records and other IT 
innovations which will place an even greater burden on the FDA, among 
other agencies, to function within those advanced IT systems and 
networks.
    The antiquated nature of the IT systems also makes the agency 
unable to conduct safety analyses for product marketing applications, 
track the natural history and disease models for rare disorders, and 
access huge amounts of clinical data. The creation of a central 
database must happen to provide for a system query to a centralized 
repository for all relevant facts about a certain product including 
where, when and how the product was made. Such a uniform centralized 
database will be relevant for all information stored across agencies, 
so as to maximize functionality not only of FDA's data but of expected 
research and analysis needed by the American public.
    Currently, the FDA receives large volumes of information in 
applications from drug manufacturers for review and evaluation. FDA 
reviewers must manually comb through the submitted drug trial reports 
and digital data in as many as twelve formats to evaluate a new drug's 
safety and effectiveness. Frequently reviewers must handpick data 
manually from stacks of paper reports and craft their own data 
comparisons. This process is time consuming, makes the review process 
less efficient, and is error-prone and delays access to important 
information. Scientific and medical advances are occurring rapidly and 
the public needs and deserves access to the most recent and accurate 
information regarding their health. It is time Congress recognize that 
the Agency must utilize up-to-date information technology and that it 
sorely needs the resources to maintain them.
    The Society believes that the Agency and/or the FDA's Office of 
Women's Health should be able to track women or men and other 
subpopulations in all clinical trials before them and they are 
currently not able to do so. The FDA should be able to know how many 
women are in studies (both by recruitment and retention rates). This 
should be an immediate goal of any new IT system upgrade at the Agency 
in conjunction with the adoption of uniform data standards from which 
to pull the data and as part of the shift to an automated, electronic 
filing system.
    Estimations have shown that it would take $200 million ($40 
million/year) over the course of 5 years to begin the process of 
improving the IT system. Congress must address past shortfalls to FDA 
and provide it a $386 million increase to begin IT transformation and 
many other improvements.
                        office of women's health
    OWH at the FDA, established in 1994, plays a critical role in 
women's health, both within and outside the Agency, supporting sex- and 
gender-based research, areas in which the Society has long been a 
proponent. OWH provides scientific and policy expertise on sex and 
gender sensitive regulatory and oversight issues; endeavors to correct 
sex and gender disparities in the areas for which the FDA is 
responsible--drugs, devices, and biologics; and monitors women's health 
priorities, providing both leadership and an integrated approach across 
the FDA. Despite inadequate funding, OWH provides all women with 
invaluable tools for their health.
    Each year OWH, with little difficulty, exhausts its tiny budget. 
OWH's pamphlets are the most requested of any documents at the 
government printing facility in New Mexico. Last year more than 5.6 
million pamphlets are distributed to women across the Nation including 
target populations such as Hispanic communities, seniors and low-income 
citizens. Further, the Office attends over 125 meetings per year to 
exhibit, to present scientific posters and oral presentations, and to 
chair sessions. Despite its $1 million increase the office received 
last year, additional funding is needed so OWH may continue its present 
work on current projects, but expand and develop future projects.
    It is absolutely critical for Congress to take action now to help 
preserve the vital functions of OWH and to ensure that its small budget 
is dedicated to the resource needs of the office and to the projects 
and programs and research it funds.
    Since its beginning, OWH has funded high quality scientific 
research to serve as the foundation for Agency activities that improve 
women's health. To date, OWH has funded over 100 research projects with 
approximately $19.9 million intramural grants, supporting projects 
within the FDA that address knowledge gaps or set new directions for 
sex and gender research. Extramural contracts leverage a wealth of 
expertise and other resources outside the FDA to provide insight on 
regulatory questions pertinent to women's health. All contracts and 
grants are awarded through a competitive process. A large number of 
these studies are published and appear in peer reviewed journals.
    As part of its educational outreach efforts to consumers, OWH works 
closely with women's advocacy and health professional organizations to 
provide clarity on the results of the Women's Health Initiative. Due to 
OWH efforts, an informational fact sheet about menopause and hormones 
and a purse-sized questionnaire to review with the doctor were 
distributed to national and local print, radio, and Internet 
advertisements. OWH's website, to date, has received over 3 million 
hits to download campaign materials.
    Further, OWH's website serves as a vital tool for consumers and is 
constantly updated to include new and important health information. The 
website provides free, downloadable fact sheets on over 40 different 
illnesses, diseases, and health related issues. Recently OWH has 
completed medication charts on seven chronic diseases, which are unique 
within the Agency. These charts list all the medications that are 
prescribed and available for each disease. This information is ideal 
for women to use in talking to their doctors, pharmacists or nurses 
about their treatment options.
    OWH continues to improve the health of women through new research 
initiatives. Most recently, they have collaborated with Pharmacy 
Choice, Inc. to create a web portal solely dedicated to FDA consumer 
health education materials, providing access to fact sheets and 
medication guides.
OWH and Sex Differences Research
    Scientists have long known of the anatomical differences between 
men and women, but only within the past decade have they begun to 
uncover significant biological and physiological differences. Sex 
differences have been found everywhere from the composition of bone 
matter and the experience of pain, to the metabolism of certain drugs 
and the rate of neurotransmitter synthesis in the brain. Sex-based 
biology, the study of biological and physiological differences between 
men and women, has revolutionized the way that the scientific community 
views the sexes, with even more information is forthcoming as a result 
of the sequencing of the X chromosome. The evidence is overwhelming, 
and as researchers continue to find more and complex biological 
differences, they gain a greater understanding of the biological and 
physiological composition of both sexes.
    Much of what is known about sex differences is the result of 
observational studies, or is descriptive evidence from studies that 
were not designed to obtain a careful comparison between females and 
males. The Society has long recognized that the inclusion of women in 
study populations by itself was insufficient to address the inequities 
in our knowledge of human biology and medicine, and that only by the 
careful study of sex differences at all levels, from genes to behavior, 
would science achieve the goal of optimal health care for both men and 
women. Many sex differences are already present at birth, whereas 
others develop later in life. These differences play an important role 
in disease susceptibility, prevalence, time of onset and severity and 
are evident in cancer, obesity, heart disease, immune dysfunction, 
mental health disorders, and other illnesses. Physiological and 
hormonal fluctuations may also play a role in the rate of drug 
metabolism and effectiveness of response in females and males. This 
research is supported and encouraged by the Office of Women's Health 
within the Agency. OWH directly works with the various centers to 
advance the science in this area, collaborating on programs, projects, 
and research.
    Building upon sex differences research, the Society encourages the 
establishment of drug-labeling requirements that ensure labels include 
language about differences experienced by women and men. Furthermore, 
we advocate for research on the comparative effectiveness of drugs with 
specific emphasis on data analysis by sex. When available, this 
information should be on labels.
    Our country's drug development process has succeeded in delivering 
new and better medications to ensure the health of both women and men. 
However, the requirement that the data acquired during research of a 
new drug's safety and effectiveness be analyzed as a function of sex or 
that information about the ways drugs may differ in various populations 
(e.g., women requiring a lower dosage because of different rates of 
absorption or chemical breakdown) be included in prescription drug 
labels and other patient educational and instructional materials is 
generally not enforced.
    The Society believes the opportunity to present this information to 
consumers is now. Sex differences data discovered from clinical trials 
can be directly related to the medical community and to consumers 
through drug labeling and packaging inserts and other forms of alerts. 
As part of advancing the need to analyze and report sex differences, 
the Society encourages the FDA to continue adequately addressing the 
need for accurate drug labeling in order to identify important sex and 
gender differences, as well as to ensure that appropriate data analysis 
of post-market surveillance reporting for these differences is placed 
in the hands of physicians and ultimately the patient.
    In conclusion, Mr. Chairman, we thank you and this Committee for 
its strong record of support for the FDA and women's health and your 
commitment to OWH. We recommend that you increase the overall fiscal 
year 2010 budget for the FDA by $386 million, so that it may 
dramatically improve upon current operations while also rebuilding its 
IT infrastructure. Secondly, we urge you to allocate $7 million for the 
Office of Women's Health for fiscal year 2010, and to ensure that 
future budget appropriations for the OWH are never below current 
funding levels. We look forward to continuing to work with you to build 
a stronger and healthier future for all Americans.
                                 ______
                                 

     Prepared Statement of The Humane Society of the United States

    As the largest animal protection organization in the country, we 
appreciate the opportunity to provide testimony to your subcommittee on 
fiscal year 2010 items of great importance to The Humane Society of the 
United States (HSUS) and its 11 million supporters nationwide. In this 
testimony, we request the following amounts for the following USDA 
accounts:
  --FSIS/Humane Methods of Slaughter Act Enforcement--funding and 
        language to improve enforcement (defer to subcommittee 
        expertise for specific funding level)
  --FSIS/Horse Slaughter--language mirroring fiscal year 2009 omnibus 
        provision
  --APHIS/Horse Protection Act Enforcement--at least $1 million
  --APHIS/Animal Welfare Act Enforcement--$22,275,270
  --APHIS/Investigative and Enforcement Services--$14,036,350
  --OIG/including Animal Fighting Enforcement--$87,910,150
  --CSREES/Veterinary Student Loan Forgiveness--$5,000,000
  --APHIS/Emergency Management Systems/Disaster Planning for Animals--
        $1,001,000
  --NAL/Animal Welfare Information Center--$1,978,400
                   enforcement of animal welfare laws
    We thank you for your outstanding support during recent years for 
improved enforcement by USDA of key animal welfare laws and we urge you 
to sustain this effort in fiscal year 2010. Your leadership is making a 
great difference in helping to protect the welfare of millions of 
animals across the country. As you know, better enforcement will also 
benefit people by helping to prevent: (1) food safety risks to 
consumers from sick animals who can transmit illness, and injuries to 
slaughterhouse workers from suffering animals; (2) orchestrated 
dogfights and cockfights that often involve illegal gambling, drug 
trafficking, and human violence, and can contribute to the spread of 
costly illnesses such as bird flu; (3) the sale of unhealthy pets by 
commercial breeders, commonly referred to as ``puppy mills''; (4) 
laboratory conditions that may impair the scientific integrity of 
animal-based research; (5) risks of disease transmission from, and 
dangerous encounters with, wild animals in or during public exhibition; 
and (6) injuries and deaths of pets on commercial airline flights due 
to mishandling and exposure to adverse environmental conditions. In 
order to continue the important work made possible by the Committee's 
prior support, we request the following for fiscal year 2010:
  food safety and inspection service/humane methods of slaughter act 
                              enforcement
    We Request Funding and Language to Ensure Strengthened HMSA 
Enforcement.--We greatly appreciated the Committee's inclusion of 
language calling on USDA to immediately close the downed cattle 
loophole, language that was indeed effective, as President Obama 
announced USDA's new no-downed cattle rule just three days after he 
signed the omnibus into law. We also greatly appreciated the 
Committee's inclusion of a $2 million increase in fiscal year 2009 to 
begin to address severe shortfalls in the agency's oversight of humane 
handling rules for animals at slaughter facilities, oversight that is 
important not only for animal welfare but also for food safety. This 
problem came sharply into focus last year when egregious abuse of 
cattle was revealed from a 6-week hidden camera investigation of a 
plant--which happened to be the #2 beef supplier to the National School 
Lunch Program and had been honored by USDA as ``Supplier of the Year'' 
for the 2004-2005 academic year--leading to the nation's largest meat 
recall in history. In that case, the blatant and recurrent violations 
of food safety and humane rules were not reported by 5 USDA inspection 
personnel at the plant. Subsequent undercover investigations showed the 
mistreatment was not an isolated case, and a USDA Inspector General's 
audit identified several serious, continuing weaknesses in the 
inspection regime. We request funding and language to ensure that 
inspectors are continually observing live animals as they arrive and 
are offloaded and handled in pens, chutes, and stunning areas, and that 
USDA officials are taking strong action to avert violations of the 
Humane Methods of Slaughter Act and the ban on slaughter of cattle too 
sick or injured to stand and walk. We urge the Committee to make this a 
high priority in order to better protect consumers and animals.
    Specifically, we recommend a combination of measures to ensure 
meaningful compliance. More inspectors observing live animals are 
needed, and all inspectors should be trained and directed to monitor 
the treatment of live animals to ensure that they are handled humanely. 
Inspectors must understand that their oversight responsibilities begin 
at the moment animals arrive at slaughter premises, including when the 
animals are on trucks at slaughter facilities. An inspector should meet 
each truck when it arrives on the premises and should order the 
immediate humane euthanasia and condemnation of any cattle who are non-
ambulatory. Egregious conduct such as forcefully striking an animal 
with an object, dragging an animal, ramming or otherwise attempting to 
move an animal with heavy machinery, or using electric shock, water 
pressure, or other extreme methods should be explicitly prohibited and 
those policies established in a formal rule to take effect immediately. 
Inspections should be unannounced and not on a predictable schedule. 
Oversight could be enhanced with video surveillance, accessible for 
viewing by independent third parties, but this should complement, not 
be a substitute for, improved inspections. Inspectors must be 
encouraged to report violations, rather than being discouraged from and 
even reprimanded for doing so by their superiors. Egregious humane 
handling violations must be noted through Noncompliance Reports and not 
just through Memoranda of Interview, so that documentation of these 
serious violations will be accessible through the PBIS system to other 
inspectors, USDA's Office of Food Safety, Congress, and the public. 
Penalties should be more meaningful, particularly for repeat or 
egregious violations of humane handling standards. It would be helpful 
to rotate inspectors to ensure that they do not become too close with 
plant personnel, and undercover investigations by USDA personnel, under 
the OIG or otherwise, would bolster deterrence.
                            horse slaughter
    We Request Inclusion of Language Barring USDA From the Expenditure 
of Funds for Horse Slaughter Inspection.--Such language has been 
included in past years and has been vital to prevent renewed horse 
slaughter activity in this country.
                 aphis/horse protection act enforcement
    We Request at Least $1 Million for Strengthened Enforcement of the 
Horse Protection Act.--Congress enacted the Horse Protection Act (HPA) 
in 1970 to end the cruelty and abuse of ``soring''--a practice in which 
unscrupulous trainers use a variety of methods to inflict pain on 
sensitive areas of Tennessee Walking Horses' feet and legs in an effort 
to exaggerate their high-stepping gait and gain an unfair competitive 
advantage at industry horse shows. For example, caustic chemicals--such 
as mustard oil, diesel fuel, kerosene, and industrial cleaners--are 
painted on the lower front legs of a horse. Then, the horse's legs are 
wrapped in plastic wrap and tight bandages to ``cook'' the chemicals 
deep into the horse's flesh. Sored horses are often left standing in 
their stalls for days with their legs coated and wrapped. This makes 
the horse's legs extremely painful and sensitive, and can result in 
permanent damage or even death in some cases. It is not uncommon to see 
sored horses lying down in their stalls, moaning in pain. When ridden, 
the horse is fitted with chains that slide up and down the horse's sore 
legs, forcing him to produce an exaggerated, high-stepping gait in the 
show ring. In addition, other chemicals such as salicylic acid are used 
to slough off the scarred tissue and granulomas in an attempt to 
disguise the sored areas, a practice that is equally painful and cruel 
to these horses. When shown, some Tennessee Walking horses are fitted 
with heavy stacked shoes. Another particularly egregious form of 
soring--known as pressure shoeing--involves cutting a horse's hoof 
almost to the quick, paring it down to the sensitive live tissue and 
causing an extreme amount of pain every time the horse bears weight on 
the hoof. To further increase the pain in the horse's feet, foreign 
objects such as metal screws or acrylic are often inserted between the 
stacks and the horse's hoof.
    Though soring has been illegal for almost 40 years, this cruel 
practice continues unabated by the well-intentioned but seriously 
understaffed APHIS inspection program. The most effective way to meet 
the goal of the Horse Protection Act is to have Animal Care inspectors 
present at the shows. Exhibitors who sore their horses go to great 
lengths to avoid detection, including fleeing a show when USDA 
inspectors arrive. Unfortunately, given an enforcement budget that has 
remained static at around $500,000 since 1976, Animal Care is able to 
attend only about 6 percent of the more than 500 Tennessee Walking 
Horse shows held annually. Funding of at least $1 million in fiscal 
year 2010 will begin to address the need for additional inspectors, 
training, security (to address threats of violence against inspectors), 
and advanced detection equipment (thermography and gas chromatography/
mass spectrometry machines) to give agency officials the tools they 
need to meaningfully enforce this law as Congress intended.
                  aphis/animal welfare act enforcement
    We Request $22,275,270 (Near Level Funding) for AWA Enforcement 
Under the Animal and Plant Health Inspection Service (APHIS).--We 
commend the Committee for responding in recent years to the urgent need 
for increased funding for the Animal Care division to improve its 
inspections of almost 16,000 sites, including commercial breeding 
facilities, laboratories, zoos, circuses, and airlines, to ensure 
compliance with AWA standards. As part of the 2008 Farm Bill, Congress 
established a new responsibility for this division--to enforce a ban on 
imports from foreign puppy mills where puppies are mass produced under 
inhumane conditions and then forced to endure harsh long-distance 
transport, so that many arrive ill or dead or die soon after being sold 
to an American family. Animal Care currently has 111 inspectors (with 5 
vacancies in the process of being filled), compared to 64 inspectors at 
the end of the 1990s. An appropriation at the requested level would 
maintain fiscal year 2009 funding with a modest increase to cover pay 
costs and additional responsibilities associated with the new import 
ban and the increasing number of licensed/registered facilities.
              aphis/investigative and enforcement services
    We Request $14,036,350 (Near Level Funding) for APHIS Investigative 
and Enforcement Services (IES).--We appreciate the Committee's 
consistent support for this division, which handles many important 
responsibilities, including the investigation of alleged violations of 
Federal animal welfare laws and the initiation of appropriate 
enforcement actions. The volume of animal welfare cases is rising 
significantly as new facilities become licensed and registered. An 
appropriation at the requested level would maintain fiscal year 2009 
funding with a modest increase to cover pay costs.
        office of inspector general/animal fighting enforcement
    We Request $87,910,150 (Near Level Funding) for the Office of 
Inspector General (OIG) to Maintain Staff, Improve Effectiveness, and 
Allow Investigations in Various Areas, Including Enforcement of Animal 
Fighting Laws.--We appreciate the Committee's inclusion of funding and 
language in recent years for USDA's OIG to focus on animal fighting 
cases. Congress first prohibited most interstate and foreign commerce 
of animals for fighting in 1976, tightened loopholes in the law in 
2002, established felony penalties in 2007, and further strengthened 
the law as part of the 2008 Farm Bill, in the wake of the high-profile 
Michael Vick dogfighting case. We are pleased that USDA is taking 
seriously its responsibility to enforce this law, working with State 
and local agencies to complement their efforts and address these 
barbaric practices, in which animals are drugged to heighten their 
aggression and forced to keep fighting even after they've suffered 
grievous injuries. Dogs bred and trained to fight endanger public 
safety, and some dogfighters steal pets to use as bait for training 
their dogs. Cockfighting was linked to an outbreak of Exotic Newcastle 
Disease in 2002-2003 that cost taxpayers more than $200 million to 
contain. It's also been linked to the death of a number of people in 
Asia reportedly exposed through cockfighting activity to bird flu. 
Given the potential for further costly disease transmission, as well as 
the animal cruelty involved, we believe it is a sound investment for 
the Federal government to increase its efforts to combat illegal animal 
fighting activity. We also support the OIG's auditing and investigative 
work to improve compliance with the humane slaughter law and downed 
animal rules and the Horse Protection Act.
cooperative state research, education, and extension service/veterinary 
                        student loan forgiveness
    We Request $5,000,000 to Continue the Implementation of the 
National Veterinary Medical Service Act (Public Law 108-161), 
Specifically Authorized in 2003.--This program received $2,950,000 in 
fiscal year 2009, and was projected to need $5,000,000 in its third 
year under the CBO score accompanying authorization. We appreciate that 
Congress is working to address the critical shortage of veterinarians 
practicing in rural and inner-city areas, as well as in government 
positions at FSIS and APHIS. A 2009 Government Accountability Office 
report enumerating the challenges facing veterinary medicine identified 
that an inadequate number of veterinarians to meet national needs is 
among the foremost challenges. A 2006 study demonstrated the acute and 
worsening shortage of veterinarians working in rural farm animal 
practice, while domestic pets in both rural and urban areas are often 
left without necessary medical care. Having adequate veterinary care is 
a core animal welfare concern. To ensure adequate oversight of humane 
handling and food safety rules, FSIS must be able to fill vacancies in 
inspector positions. Veterinarians also support our nation's defense 
against bioterrorism (the Centers for Disease Control estimate that 75 
percent of potential bioterrorism agents are zoonotic--transmitted from 
animals to humans). They are also on the front lines addressing public 
health problems such as those associated with pet overpopulation, 
parasites, rabies, chronic wasting disease, and bovine spongiform 
encephalopathy (``mad cow'' disease). Veterinary school graduates face 
a crushing debt burden of $120,000 on average, with an average starting 
salary of $61,000. For those who choose employment in underserved rural 
or inner-city areas or public health practice, the National Veterinary 
Medical Service Act authorizes the Secretary of Agriculture to forgive 
student debt. It also authorizes financial assistance for those who 
provide services during Federal emergency situations such as disease 
outbreaks.
   aphis/emergency management systems /disaster planning for animals
    We Request $1,001,000 (Level Funding) for Animal Care Under APHIS' 
Emergency Management Systems Line Item.--Hurricanes Katrina and Rita 
demonstrated that many people refuse to evacuate if they are forced to 
leave their pets behind. The Animal Care division has been asked to 
develop infrastructure to help prepare for and respond to animal issues 
in a disaster and incorporate lessons learned from previous disasters. 
These funds will be used for staff time and resources to support State 
and local governments' and humane organizations' efforts to plan for 
protection of people with animals. The additional resources will enable 
the agency to participate, in partnership with FEMA, in the National 
Response Plan without jeopardizing other Animal Care programs.
                   animal welfare information center
    We Request $1,978,400 for AWIC.--These funds will enable AWIC to 
improve its services as a clearinghouse, training center, and 
educational resource to help institutions using animals in research, 
testing and teaching comply with the requirements of the Animal Welfare 
Act, including consideration of alternatives to minimize or eliminate 
the use of animals in specific research protocols.
    Again, we appreciate the opportunity to share our views and 
priorities for the Agriculture, Rural Development, FDA, and Related 
Agencies Appropriation Act of fiscal year 2010. We are grateful for the 
Committee's past support, and hope you will be able to accommodate 
these modest requests to address some very pressing problems affecting 
millions of animals in the United States. Thank you for your 
consideration.
                                 ______
                                 

                 Prepared Statement of WhiteWave Foods

    My name is Kelly Shea, and I thank you for the opportunity to 
testify on behalf of WhiteWave Foods regarding the growth of the 
organic industry and our support for the U.S. Department of Agriculture 
National Organic Program. Specifically, we support providing the 
Program with $8 million as authorized by Congress.
    Headquartered in Broomfield, Colorado, WhiteWave Foods, a growing 
subsidiary of Dean Foods, is the home of several pioneer organic 
brands, including Horizon Organic, The Organic Cow, and Silk Soymilk. 
As the organic industry evolves, we continue to lead with insight, 
integrity, and an unwavering commitment to organic principles. With 
this in mind, we are strongly supportive of efforts to ensure the 
continued growth of the organic sector by providing additional funding 
for the U.S. Department of Agriculture (USDA) National Organic Program.
    The National Organic Program (NOP) is rapidly outgrowing its 
present resource capacity. With retail sales at $24 billion and 
continuing to grow, certified operations in excess of 26,000, and 98 
accredited certifying agents operating globally, the current NOP budget 
continually struggles to keep up with growing demands.
    Consumer confidence is the key to growth in the organic market. 
Ensuring continued consumer confidence requires consistent and adequate 
enforcement of the organic rule to ensure the integrity of the USDA 
organic seal. Therefore, adequate funding is required to enable the NOP 
to hire additional staff and continue to do a credible job of re-
accreditation and investigating non-compliances. Additional resources 
are needed for both addressing gaps in the regulations and increasing 
compliance and enforcement activity. The long run objective is to 
maintain the integrity of the USDA organic seal for consumers who are 
willing to purchase organic products, produced according to a set of 
sustainable practices voluntarily subscribed to by producers and 
processors, based on legislation and regulations they initiated nearly 
two decades ago.
    The baseline for the NOP for the 2009 fiscal year is approximately 
$3 million. However, a portion of the budget is, and has been, a 
``pass-through'' for funding of the Federal-State Marketing Improvement 
Program (FSMIP). FSMIP provides matching funds to State Departments of 
Agriculture and other appropriate State agencies to assist in exploring 
new market opportunities for U.S. food and agricultural products, and 
to encourage research and innovation aimed at improving the efficiency 
and performance of the U.S. marketing system.
    To facilitate the continued expansion of the organic industry, we 
support fully funding the operations of the NOP at the $8 million level 
authorized by Congress.\1\ We are strongly supportive of an increase in 
funding that could be allocated towards strengthening the accreditation 
process (training, education, audit, review, and compliance) for 
domestic and foreign certifying agents who are certifying to the NOP; 
international standards recognition and conformity assessment; 
standards development (new standards needed and continuing to improve 
existing standards as the industry develops); and enforcement through 
audits, investigative compliance and review (the NOP receives over 100 
complaints per year).
---------------------------------------------------------------------------
    \1\ The Food, Conservation, and Energy Act of 2008 (Section 10303: 
National Organic Program).
---------------------------------------------------------------------------
    We appreciate your consideration of our requests; we believe that 
this increased funding will be critical to the continued growth of the 
organic sector. We thank you for the opportunity to testify today and 
look forward to working with you in the future.
                                 ______
                                 

               Prepared Statement of The Wildlife Society

    The Wildlife Society appreciates the opportunity to submit 
testimony concerning the fiscal year 2010 budgets for the Animal Plant 
Health Inspection Service (APHIS), Cooperative State Research, 
Education and Extension Services (CSREES), and Natural Resources 
Conservation Service (NRCS). The Wildlife Society represents over 8,000 
professional wildlife biologists and managers dedicated to sound 
wildlife stewardship through science and education. The Wildlife 
Society is committed to strengthening all Federal programs that benefit 
wildlife and their habitats on agricultural and other private land.
               animal and plant health inspection service
    Wildlife Services (WS), a unit of APHIS, is responsible for 
controlling wildlife damage to agriculture, aquaculture, forest, range, 
and other natural resources, wildlife-borne diseases, and wildlife at 
airports. Its activities are based on the principles of wildlife 
management and integrated damage management, and are carried out 
cooperatively with state fish and wildlife agencies. The President's 
budget would allocate $345 million to this program. The Wildlife 
Society recommends that Congress increase funding for this important 
program in fiscal year 2010, to at least the fiscal year 2009 level of 
$351 million.
      cooperative state research, education, and extension service
    The Renewable Resources Extension Act (RREA) provides an expanded, 
comprehensive extension program for forest and rangeland renewable 
resources. The RREA funds, which are apportioned to State Extension 
Services, effectively leverage cooperative partnerships at an average 
of four to one, with a focus on private landowners. The need for RREA 
educational programs is greater than ever today because of continuing 
fragmentation of ownership, urbanization, the diversity of landowners 
needing assistance, and increasing societal concerns about land use and 
the impact on natural resources including soil, water, air, wildlife 
and other environmental factors. The Wildlife Society recommends that 
the Renewable Resources Extension Act be funded at $30 million, as 
authorized in the 2008 Farm Bill.
    The McIntire-Stennis Cooperative Forestry Program is essential to 
the future of resource management on non-industrial private 
forestlands, as forest products are produced while conserving natural 
resources, including fish and wildlife. As demand for forest products 
grow, privately held forests will increasingly be needed to supplement 
supplies, but trees suitable for harvest take decades to produce. In 
the absence of long-term and on-going research, such as provided 
through McIntire-Stennis, the nation could be unable to meet future 
forest-product needs. We appreciate the over $27 million in funding 
allocated in the fiscal year 2009 omnibus and recommended in the fiscal 
year 2010 proposal, and encourage a further increase in fiscal year 
2010.
                 natural resources conservation service
    The Farm Bill conservation programs are more important than ever 
given huge backlogs of qualified applicants for these programs, 
increased pressure on farmland from the biofuels boom, sprawling 
development, and the ongoing declines in wildlife habitat and water 
quality. We are very concerned by the proposed decreases in the Farm 
Bill conservation programs in fiscal year 2010. The Wildlife Society 
recommends that the Farm Bill conservation programs be funded at the 
levels mandated in the 2008 Farm Bill. In particular, we encourage full 
funding of the Wildlife Habitat Incentive Program at $85 million. In 
addition, we note that 4 million acres of Conservation Reserve Program 
contracts are expiring. CRP should be funded at a level that allows for 
full enrollment of authorized CRP acres.
                          farm service agency
    The Voluntary Public Access and Habitat Incentive Program was 
authorized by the 2008 Farm Bill, to encourage farmers and ranchers to 
allow public access on their lands. We support funding at $16.67 
million per year for the period 2010-2012, as recommended by the 
President.
    Thank you for considering the views of wildlife professionals. We 
look forward to working with you and your staff to ensure adequate 
funding for wildlife conservation.
                                 ______
                                 

     Prepared Statement of The Humane Society of the United States

    On behalf of the undersigned animal welfare and horse industry 
organizations, with combined supporters exceeding 12 million, we submit 
the following testimony seeking an increase in funding for the USDA/
APHIS Horse Protection Program to at least $1 million for fiscal year 
2010. This funding is urgently needed to begin to fulfill the intent of 
the Horse Protection Act--to eliminate the cruel practice of soring--by 
allowing the USDA to strengthen its enforcement capabilities for this 
law.
    In 1970, Congress passed the Horse Protection Act to end soring, 
the intentional infliction of pain to the hooves and legs of a horse to 
produce an exaggerated gait, practiced primarily in the Tennessee 
Walking Horse show industry. The Act authorizes the USDA to inspect 
Tennessee Walking Horses and Racking Horses--in transport to and at 
shows, exhibits, auctions and sales--for signs of soring, and to pursue 
penalties against violators. Unfortunately, since its inception, 
enforcement of the act has been plagued by underfunding. As a result, 
the USDA has never been able to adequately enforce the act, allowing 
this extreme and deliberate cruelty to persist on a widespread basis.
    The most effective way to eliminate soring and meet the goals of 
the Horse Protection Act is to have USDA officials present at more 
shows. Current funding levels allow USDA officials to attend only about 
6 percent of more than 500 Tennessee Walking Horse shows held annually. 
As a result, the agency opted to institute an industry-run system of 
certified Horse Industry Organizations (HIO) inspection programs, which 
are charged with inspecting horses for signs of soring at the majority 
of shows. These groups license examiners known as Designated Qualified 
Persons (DQPs) to conduct inspections. To perform this function, they 
often hire industry insiders who have an obvious stake in preserving 
the status quo.
    Statistics clearly show that when USDA inspectors are in attendance 
to oversee shows, the numbers of noted violations are many times higher 
than at shows where industry inspectors alone are conducting the 
inspections. And when USDA inspectors do arrive at shows, many 
exhibitors load up and leave to avoid being caught with sored horses. 
Agency officials have stated that inspectors are wary of going outside 
of their designated inspection area to examine horses on trailers as 
they leave the show grounds or in the barn areas, for fear of 
harassment and physical violence from exhibitors. Recently, armed 
security has been utilized to allow such inspections, at additional 
expense to this program. The fact that exhibitors feel they can 
intimidate government officials without penalty is a testament to the 
inherent shortcomings of the current system. By all measures, the 
overall DQP program has been a failure--the only remedy is to abolish 
it or greatly reduce dependence on this conflicted industry-run program 
of self-regulation and give USDA the resources it needs to adequately 
enforce the act.
    Lack of a consistent presence by USDA officials at Tennessee 
Walking Horse shows, sales, exhibits and auctions has fostered a 
cavalier attitude among industry insiders, who have not stopped their 
abuse, but have only become more clandestine in their soring methods. 
The continued use of soring to gain an advantage in the show ring has 
tainted the Tennessee Walking Horse industry as a whole, and creates an 
unfair advantage for those who are willing to break the law in pursuit 
of victory.
    Besides the indefensible suffering of the animals themselves, the 
continued acceptance of sored horses in the show ring prevents those 
with sound horses from competing fairly for prizes, breeding fees and 
other financial incentives, while those horse owners whose horses are 
sored may unwittingly suffer property damage and be duped into 
believing that their now abused, damaged horses are naturally superior.
    Currently, the means of inspection involves a physical palpation by 
the inspector. New technologies, such as thermography and ``sniffer'' 
devices (gas chromatography/mass spectrometry machines), have been 
developed, which can help inspectors identify soring more effectively 
and objectively. However, USDA has been unable to purchase and put 
enough of this equipment in use in the field, allowing for industry 
insiders to continually evade detection. With increased funding, the 
USDA could purchase this equipment and train more inspectors to use it 
properly, greatly increasing its ability to enforce the Horse 
Protection Act (HPA).
    The egregious cruelty of soring is not only a concern for animal 
protection and horse industry organizations, but also for 
veterinarians. Last year, the American Association of Equine 
Practitioners (AAEP) issued a white paper condemning soring, calling it 
``one of the most significant welfare issues faced by the equine 
industry.'' It called for the abolition of the DQP Program, saying 
``the acknowledged conflicts of interest which involve many of them 
cannot be reasonably resolved, and these individuals should be excluded 
from the regulatory process.'' The AAEP further stated, ``The failure 
of the HPA to eliminate the practice of soring can be traced to the 
woefully inadequate annual budget of $500,000 allocated to the USDA to 
enforce these rules and regulations.''
    It is unacceptable that nearly 40 years after passage of the Horse 
Protection Act, the USDA still lacks the resources needed to end this 
extreme form of abuse. It is time for Congress to give our public 
servants charged with enforcing this Act the support and resources they 
want and need to fulfill their duty to protect these horses as 
effectively and safely as possible.
    We appreciate the opportunity to share our views about this serious 
problem, and thank you for your consideration of our request.


       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page

Acheson, Dr. David, Associate Commissioner for Foods, Food and 
  Drug Administration, Department of Health and Human Services...     1
Ad Hoc Coalition, Prepared Statement of the......................   113
American:
    Farm Bureau Federation, Prepared Statement of the............   115
    Honey Producers Association, Inc., Prepared Statement of the.   117
    Indian Higher Education Consortium, Prepared Statement of the   122
    Public Power Association, Prepared Statement of the..........   126
    Society for:
        Microbiology, Prepared Statements of the...............126, 130
        Nutrition (ASN), Prepared Statement of the...............   133
    Society of:
        Agronomy, Prepared Statement of the......................   136
        Plant Biologists, Prepared Statement of the..............   135
Animal Welfare Institute, Prepared Statements of the...........139, 142

Bennett, Senator Robert F., U.S. Senator From Utah, Statement of.     3
Bond, Senator Christopher S., U.S. Senator From Missouri, 
  Statement of...................................................    51
Brownback, Senator Sam, U.S. Senator From Kansas:
    Questions Submitted by.......................................    37
    Statements of................................................ 2, 48

Cochran, Norris, Deputy Assistant Secretary, Office of Budget, 
  Department of Health and Human Services........................     1
Cochran, Senator Thad, U.S. Senator From Mississippi:
    Prepared Statement of........................................    50
    Questions Submitted by.......................................   109
Collins, Senator Susan, U.S. Senator From Maine:
    Questions Submitted by.......................................   111
    Statement of.................................................    51
Colorado River Basin Salinity Control Forum, Prepared Statement 
  of the.........................................................   143
Colorado River Board of California, Prepared Statement of the....   146
Crop Science Society of America, Prepared Statement of the.......   136

Durbin, Senator Richard J., U.S. Senator From Illinois, Question 
  Submitted by...................................................    37

Environmental Service Research Institute, Prepared Statement of 
  the............................................................   147

Feinstein, Senator Dianne, U.S. Senator From California, 
  Questions Submitted by........................................33, 103
Florida State University, Prepared Statement of..................   150
Friends of Agricultural Research--Beltsville, Inc., Prepared 
  Statement of...................................................   151

Glauber, Dr. Joseph, Chief Economist, U.S. Department of 
  Agriculture....................................................    47
Goodwill Industries International, Prepared Statement of.........   155

Harkin, Senator Tom, U.S. Senator From Iowa:
    Prepared Statement of........................................    79
    Questions Submitted by.......................................   101
    Statement of.................................................    79

Izaak Walton League of America, Prepared Statement of the........   153

Johnson, Senator Tim, U.S. Senator From South Dakota:
    Prepared Statement of........................................    51
    Statement of.................................................    50

Kohl, Senator Herb, U.S. Senator From Wisconsin:
    Opening Statements of........................................ 1, 47
    Questions Submitted by.......................................26, 90

McGarey, Patrick, Director, Office of Budget Formulation and 
  Presentation, Food and Drug Administration, Department of 
  Health and Human Services......................................     1
Merrigan, Dr. Kathleen, Deputy Secretary, Office of the 
  Secretary, Department of Agriculture...........................    47
Minor Crop Farmer Alliance, Prepared Statement of the............   155

National:
    Coalition for Food and Agricultural Research, Prepared 
      Statements of the........................................156, 158
    Commodity Supplemental Food Program Association, Prepared 
      Statement of the...........................................   159
    Cooperative Business Association, Prepared Statement of the..   164
    Cotton Council, Prepared Statement of the....................   166
    Environmental Service Center, Prepared Statement of the......   168
    Fish and Wildlife Foundation, Prepared Statement of the......   175
    Organic Coalition, Prepared Statement of the.................   170
    Potato Council, Prepared Statement of the....................   173
New Mexico Interstate Stream Commission, Prepared Statement of 
  the............................................................   177

Organic Farming Research Foundation, Prepared Statement of the...   179

Reed, Senator Jack, U.S. Senator From Rhode Island, Questions 
  Submitted by...................................................   108
Sharfstein, Dr. Joshua M., Acting Commissioner, Food and Drug 
  Administration, Department of Health and Human Services........     1
    Prepared Statement of........................................     9
    Statement of.................................................     4
Society for Women's Health Research, Prepared Statement of the...   182
Soil Science Society of America, Prepared Statement of the.......   136
Steele, Dr. Scott, Budget Officer, U.S. Department of Agriculture    47
The Humane Society of the United States, Prepared Statements of185, 190
The Wildlife Society, Prepared Statement of......................   189

Vilsack, Thomas, Secretary, Office of the Secretary, Department 
  of Agriculture.................................................    47
    Statement of.................................................    52
    Prepared Statement of........................................    54

WhiteWave Foods, Prepared Statement of...........................   189


                             SUBJECT INDEX

                              ----------                              

                       DEPARTMENT OF AGRICULTURE

                        Office of the Secretary

                                                                   Page

Acre Program Implementation and Training.........................   101
Additional Committee Questions...................................    90
Advanced Biofuels................................................   101
Affordable Rental Housing........................................   110
Agricultural Inspectors at Homeland Security.....................   105
Agroforestry Research............................................    72
All Natural Labels for Poultry...................................   107
American Recovery and Reinvestment Act funds.....................    62
Animal:
    Antibiotics..................................................    98
    Identification...............................................    95
    Improvement Laboratory.......................................   100
Asian Citrus Psyllid.............................................   103
Broadband........................................................    90
California Drought Assistance....................................   104
Cap-and-Trade Legislation........................................   109
Catfish Inspection Program.......................................   108
Childhood Obesity................................................    71
Civil Rights.....................................................    90
Corn-soy Blend...................................................    87
Country of Origin Labeling..................................70, 76, 106
Dairy............................................................    92
    Farmers......................................................   111
    Price Support Program........................................    99
Direct Farm Payments Limitation Cap......................66, 68, 71, 74
Downer Cattle....................................................   106
Empowerment Zones................................................   111
FSA Computers....................................................   102
Food Safety:
    Assessments..................................................    97
    Infrastructure...............................................    98
Frozen Food Safety...............................................   105
Global Food Security.............................................    84
Humanitarian Food Aid Dollars....................................    64
Improving Financial Integrity....................................    54
Local Foods--Business and Industry Loan and Grant Program........   101
Low Milk Prices..................................................    84
Maine Flood Assistance...........................................   112
Market Access Program............................................   108
McGovern-Dole International Food for Education Program...........    92
Micro-enterprise Program.........................................    95
Milk Income Loss Contract Program................................   107
National:
    Animal Identification System.................................    69
    Bio and Agro-defense Facility................................    63
    Drought Mitigation Center....................................    74
    Institute of Food and Agriculture (NIFA).....................    91
        Education Request........................................    92
Philadelphia School Lunch Program................................    82
Poultry Imports From China.......................................    66
RHS Recovery Act Implementation..................................   110
Recovery Act.....................................................    54
    Broadband Program............................................73, 75
    Business and Industry Loans..................................    81
    Watershed Projects in Rhode Island...........................    77
Renewable Energy.................................................    94
    Program Direction............................................    88
Research.........................................................    98
    Funding at Land Grant Universities...........................    67
Resource Conservation and Development Councils (RC&Ds)..........93, 112
Revenue Caps vs. Income Caps.....................................   108
Rural Community Forums...........................................    85
Supplemental Revenue Assistance Program..........................    69
The New Homestead Act............................................    86
2008 Farm Bill Provisions........................................    68
USDA and DOE Collaboration.......................................   102
WIC..............................................................    93
    Funding......................................................    88
WRP 2008 Farm Bill Program.......................................    80
Watershed Flood Prevention Operations Program Status.............    96
Wildlife Habitat Incentives Program..............................    77

                DEPARTMENT OF HEALTH AND HUMAN SERVICES

                      Food and Drug Administration

Access Act.......................................................    16
Additional:
    Committee Questions..........................................    26
    Staff........................................................    25
        Requested in the Budget/Pay Costs........................    28
Adulterated Pomegranate Juice....................................    29
Animal Biotech Products..........................................     7
Antibiotic Resistance............................................    29
Antiviral Team...................................................     8
Blood Team.......................................................     8
Budget Request...................................................     5
Consumer Protective Team.........................................     8
Cosmetic Safety..................................................    33
Cost of:
    Drug Development.............................................    24
    Inspections..................................................    31
Critical Path....................................................21, 32
    Initiative/Modernize Drug Development........................    44
Demonstration Grants for Improving Pediatric Device Availability.    31
Details of the Fiscal Year 2010 Budget...........................    10
Diagnostic Team..................................................     8
Drug Importation.................................................    20
Expermental Drugs................................................    17
FDA:
    New Plan for Food Safety and States' Role....................    26
    Regulation of Tobacco........................................    29
    2009-H1N1 Flu Virus Response.................................    13
    2010 Budget Request..........................................     9
Fern Labs........................................................    32
Fiscal Year 2009 Supplemental Funding............................    43
Food Safety, White House Working Group...........................    40
Foreign Offices..................................................    43
GAO..............................................................    37
Generic Drugs....................................................    28
H1N1 Flu Virus...................................................     7
Hiring and IT....................................................    15
Human Resources/Hiring Issues....................................    42
Legislative Initiatives..........................................     7
Med Guides.......................................................    24
Methicillin-Resistance Staphylococcus Aereua--MRSA...............    30
National Antimicrobial:
    Monitoring System............................................    29
    Resistance Monitoring System.................................    41
NCTR.............................................................    18
New Authorities Requested in the Budget..........................    28
Office of Cosmetics and Colors...................................    30
Office of Generic Drugs..........................................    44
Performance Results..............................................    39
Personalized Medicine............................................    41
Policy Proposals: Drug Importation and Generic Biologics.........    38
Public Health Outcomes...........................................     4
Rapid Response...................................................    26
    Teams........................................................    27
Recent Funding Increases.........................................     9
Safe:
    Drug:
        Usage....................................................    23
        Use......................................................     6
    Foods........................................................     5
Safer Medical Products...........................................     6
Shortage Team....................................................     8
Strategic Framework..............................................    15
Supplemental Funds...............................................    15
Tobacco..........................................................    22
    Regulation...................................................    39
Tuberculosis: Drug Resistant TB and Diagnostic Tests for Children    37
Use of Antibiotics in Animals....................................    40
Vaccine Team.....................................................     8
Warning Letters..................................................    20

                                   - 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
